<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY,
              AND RELATED AGENCIES APPROPRIATIONS FOR 2001
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman
 JIM KOLBE, Arizona                  JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina   JULIAN C. DIXON, California
 RALPH REGULA, Ohio                  ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                    LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               
                    
NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Gail Del Balzo, Jennifer Miller, Mike Ringler, and Christine Ryan
                           Subcommittee Staff
                                ________
                                 PART 6
                          DEPARTMENT OF JUSTICE
                                                                   Page
 Attorney General.................................................    1
 Federal Bureau of Investigation..................................  131
 Drug Enforcement Programs........................................  203
 State and Local Law Enforcement..................................  349
 Immigration and Naturalization Service...........................  499
 Prisons and Related Issues.......................................  667

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 69-570                     WASHINGTON : 2000





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida                 
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                        Wednesday, March 8, 2000.  

                  UNITED STATES DEPARTMENT OF JUSTICE

                                WITNESS

JANET RENO, ATTORNEY GENERAL, DEPARTMENT OF JUSTICE

                       Statement of the Chairman

    Mr. Rogers. The committee will be in order.
    This morning we welcome Attorney General Janet Reno before 
the Committee on behalf of the Department of Justice's fiscal 
year 2001 budget request. The Department is seeking 
$20,307,000,000 from this Committee for the Department, which 
represents an increase of $1.725 billion or 9.3 percent over 
current year spending.
    While on the one hand the budget request builds upon the 
investments that we have made in the fight against crime, once 
again it eliminates $1.4 billion in existing programs to assist 
State and local law enforcement, which has the potential to 
decimate the significant Federal-State partnership in reducing 
crime to fund new unproven and undefined programs. In addition, 
a number of the new or expanded initiatives you propose assume 
the enactment of almost $600 million in new or expanded user 
fees, most of which Congress has rejected in the past. Clearly, 
your budget presents some very serious problems and challenges 
for this Committee.
    This Subcommittee and I personally continue to be strong 
supporters of the Department of Justice and its law enforcement 
agencies. We have provided increases totaling over $6 billion 
since 1995, almost 50 percent, to give Federal, State and local 
law enforcement agencies the tools they critically need to 
fight crime and at a time when we are also trying to balance 
the budget.
    I am pleased to see that some of this investment has paid 
off. Serious crime has fallen for the seventh year in a row. 
But our work is far from done. We must remain vigilant to 
ensure that this trend continues. We must redouble our efforts 
in the war on drugs, and we must adapt to a changing world to 
protect our communities and Nation from increasing threats of 
domestic and global terrorism and cybercrime. This subcommittee 
and the Congress will do our part to provide the necessary 
resources to meet these challenges.
    While we will continue to support law enforcement, we will 
also hold the Department accountable. There are still some very 
serious mismanagement problems that need to be addressed if the 
taxpayers are going to get the most out of their investment in 
the Department of Justice.
    The INS budget, which totals almost $4.3 billion, 
represents over 20 percent of the Department's total resources. 
Since 1995, the Congress has more than doubled the INS budget, 
and what have the American people gotten for their money--
mismanagement, scandals, failure. We no longer can continue to 
provide the resources to the INS without fundamental change in 
the structure of that agency. It cannot and will not continue. 
And we must ensure that the significant resources with which we 
have entrusted the Department in other areas are being spent 
efficiently and effectively.
    Madam Attorney General, as always, this Subcommittee will 
continue to work with you to ensure that law enforcement has 
what it needs to fight crime. We appreciate your being here 
today. We will insert your written testimony in the record. 
After I recognize my colleague, we will be happy to listen to 
your statement, but now let me yield to my friend, Mr. Serrano.

                        Statement of Mr. Serrano

    Mr. Serrano. Thank you very much, Mr. Chairman, and 
welcome.
    I first of all want to congratulate you, Attorney General 
Reno, on the work your Department has done and to once again 
remind you that I stand ready to support you in every way that 
I can to make sure that you get the needed resources and needed 
legislation to do the work that you have to do. As you know, I 
have interests in some issues before you, and I want to take 
just a few minutes to speak of them.
    First, I want to thank you for the courtesies extended to 
the parents of Amadou Diallo and the rest of us who met with 
Deputy Attorney General Eric Holder last week. Mr. Holder 
clearly understands the deep desire for justice in this case, 
and I trust that you and your Department will do all that you 
can to achieve justice.
    While I understand the bar to bringing a Federal civil 
rights suit is high, you can also press for speedy completion 
of the pattern and practices investigation of the New York City 
Police Department so needed reforms in the NYPD can be 
identified and implemented. As you know, this situation took 
place in my congressional district and has become not only a 
national issue but one discussed in other countries well.


                             ELIAN GONZALEZ


    Next, you know my views on Elian Gonzalez' case. I believe 
the INS position, which you and the President support, that he 
belongs home with his father is correct, and that the delay in 
returning him to his father in Cuba is unnecessary and harmful. 
I must tell you, however, that the INS has been very 
unresponsive to my office on this case. I wrote to Commissioner 
Meissner on January 4 asking several questions about the case, 
and I have yet to receive any response.
    In general, my concern was 2 months ago, and remains, that 
by placing the boy with relatives in a community where he had 
already become the subject of posters calling him Castro's 
latest victim, INS made it highly unlikely that any decision to 
return him to Cuba could be enforced. That decision alone has 
led to the delays and legal wrangling that have prolonged 
Elian's separation from his father; and any psychological 
changes, including his so-called bonding with his cousin in 
Miami, are the responsibility of the INS.
    I am troubled to tell you that I really see no end to this 
and no way out. I want to believe that we will do the right 
thing and send this child back to his father, but at this point 
I think that when Elian is 20 years old we will still be 
discussing why he is still here.
    In closing, I reiterate my support for the work that you 
do, notwithstanding these troubling situations that I have with 
the Department; and I stand ready to support you in any way 
that I can and look forward to your testimony.
    Attorney General Reno. Thank you.
    Mr. Rogers. Madam Attorney General, this is your eighth 
year of appearances before this Subcommittee, and it may be 
your last one. We are not sure about that, because we may want 
to invite you back to be with us. But this is the eighth annual 
budget that you have presented to us, and although we have had 
differences from time to time in the past, I have always found 
our relationship, yours and this Subcommittee and mine 
personally, to be warm and friendly and cooperative and 
helpful. We still have some disagreements about various 
matters, but that doesn't stand between our friendship and 
respect for you. It has been a pleasure, I must say, working 
with you these several years.
    Attorney General Reno. Thank you so much, Mr. Chairman; and 
thank you, Mr. Serrano.
    Mr. Rogers. You are welcome to give us your statement.

                   Attorney General's Opening Remarks

    Attorney General Reno. Thank you. I think it may be the 
last time I appear, but if it is not I will welcome the next 
opportunity.
    It has been an honor and a privilege to work with you. I 
have been so impressed by the thoughtful, careful way that you 
have addressed the issues and tried to make sure that the 
people's money was spent as wisely as possible. And although it 
is an appropriations process, and there are days that I could 
have done without, in so many instances it has been just a 
model of bipartisan thoughtfulness.
    The execution of the great majority of this budget will lie 
in the hands of another Attorney General, and I will be home in 
Miami, but I will care as deeply as I do now about how and what 
happens. And, Mr. Chairman, next year I may call you and say, 
what are you doing about this?
    Mr. Rogers. Are you going to ask me about the INS?
    Mr. Serrano. She may be agreeing with you next year.
    Attorney General Reno. I obviously care very deeply about 
the Department and its mission, and I want to thank all of the 
members of the committee who have done so much for this Nation, 
for the Department of Justice and for our system of justice.
    You pointed out, Mr. Chairman, how working together we have 
added Federal agents and prosecutors, put cops on the beat in 
our neighborhoods, expanded prison capacity, provided new 
crime-solving tools, improved technology, worked to secure our 
Nation's borders and helped to train and equip first responders 
to address the growing threat of terrorism; and I think we have 
shown once and for all that we can take steps to prevent crime 
before we have to endure the tragedy of crime.
    As you point out, and as a former prosecutor, Mr. Chairman, 
I know these figures can go up, but I think we have an 
extraordinary challenge because crime has fallen for the 
seventh year in a row--every type of crime in every region of 
the Nation. Our communities are safer. Yet, as you point out, 
there is still much to do. And I think what this committee and 
the Department of Justice has been able to do is to develop a 
partnership, and we, in turn, have developed a partnership with 
State and local officials, that tries to put aside partisan 
politics and work together to see what works in the reduction 
of crime.
    And I think it is working. I think we have a golden 
opportunity in this Nation in the next 5 years to keep up what 
we have started, to develop professional model policing that is 
sensitive and brings a community together rather than split it 
apart, that we can do so much if we work together to develop 
cybertools, and that we can end the culture of violence in this 
country once and for all if we don't become complacent and keep 
the pressure on.


                         FY 2001 BUDGET REQUEST


    The President's fiscal year 2001 budget request recognizes 
the need for continued vigilance. It includes $23.4 billion for 
the Department of Justice, an increase of $1.8 billion.
    My written testimony has been made part of the record, and 
it will expand on some of the specifics, but I would like to 
highlight some of the issues.


                            COUNTERTERRORISM


    Preventing terrorism is one of the most serious challenges 
facing our Nation today. The Department is the lead Federal 
agency in the fight against terrorism. Because of this 
subcommittee's efforts, the Department has many tools to carry 
out its important responsibility.


                                  NDPO


    In fiscal year 2000, with your support, we established the 
National Domestic Preparedness Office and developed a blueprint 
for its operation. We will soon be submitting a reprogramming 
to the committee for funds to establish the NDPO as a one-stop 
shop for information about domestic preparedness that will 
serve Federal, State and local communities. And this is one I 
can assure you, Mr. Chairman, I won't forget, because I have 
watched first responders on the streets of their community 
responding in so many different situations.
    I now have a nephew who is a firefighter and a first 
responder, and I have learned whole new dimensions of the 
challenges that they face, and I think this effort is extremely 
important in preparing this Nation.
    This subcommittee also helped us to establish the Office 
for State and Local Domestic Preparedness Support and to 
develop a process for equipping and training the State and 
local first responders to prepare them.
    The budget requests an additional $119.6 million to 
strengthen our national response to terrorism, combat hostile 
intelligence activities and further prepare State and locals.
    This has been an extraordinary 7 years because we have 
watched the whole potential of information technology become a 
reality as we see extraordinary new opportunities in learning, 
in communicating, in education around the world, in commerce. 
The development and proliferation of the Internet has expanded 
our horizons, but our growing dependence on computers has made 
us increasingly vulnerable to criminals, both at home and 
abroad.


                               CYBERCRIME


    Mr. Chairman, in the time I have remaining, I would like to 
work with you and the committee in developing a 5-year 
thoughtful plan for the Department and other agencies that 
would give us a long-term, coordinated strategy to deal with 
the problems of cybercrime. We have got to develop the capacity 
to actively investigate and work with our colleagues around the 
world to bring these people to justice and to do whatever we 
can to prevent cybercrime in the first place.
    We need to develop regional laboratories where Federal, 
State and local officials share and avoid expensive duplication 
in labs that can enable us to search computers pursuant to a 
search warrant, and enable us to develop the evidence according 
to standards that will permit the admissibility of the evidence 
in court.
    We must continue to work with State and local authorities 
because we are right at the point where enforcement of 
cybercrime issues will make a difference for the way we look at 
the Internet for a long time to come. If we let people know 
what can and can't be done under the law in a fair, appropriate 
manner now, we are going to set the tone, the standard, and the 
community's reaction to the Internet. State and local officials 
all too often don't have the tools to do the job, and we are 
going to have to work with them in terms of training and 
sharing as we never have before. Our fiscal year 2001 request 
for an additional $37 million will provide a base to strengthen 
our expertise and form those partnerships.
    One model that we have for those partnerships is the 
regional computer forensic laboratory in San Diego. This lab 
brings together expertise from State and local representatives, 
government personnel including the FBI and the United States 
Navy, and it serves as a resource in the San Diego area to 
solve crimes involving complex computer forensics.

                        Request For Prosecutors

    Improving our ability to respond to crime, including 
terrorism, whenever and wherever it occurs, must include 
ensuring that there are prosecutors with the expertise 
necessary to do the job. Our fiscal year 2001 budget requests 
increases of $74.5 million for the United States Attorneys and 
the Department's legal divisions. Balance is critically 
important in the criminal justice system. The very best agent 
will find his or her efforts thwarted if unable to receive, in 
a really current way, specialized legal support in times where 
speed is absolutely essential.

                       Community Law Enforcement

    Our budget request continues the Department's commitment to 
improve community law enforcement efforts and to build closer 
relationships between law enforcement and the communities that 
they serve. We are requesting an increase of $616.4 million to 
improve community law enforcement. Included in our request is 
an additional $32.9 million for new initiatives to address 
police integrity training, improve diversity among police 
recruits and to ensure that our police understand and respect 
the cultural and racial diversities of the communities that 
they serve.
    Congressman Serrano, this is very much a part of this 
budget and one that we are very concerned about.
    Our request also includes funding for innovative programs 
such as Strategic Approaches, an approach which is under way on 
a pilot basis in five cities. It boosts the U.S. Attorney's 
role as a community problem solver and uses data and 
information, combined with thoughtful, well-trained analysis, 
as navigational tools so the crime-fighting approaches are 
supported by actual data.
    Our Strategic Approach project in Indianapolis tackled the 
problem of that city's homicide rate by bringing the community 
into the problem-solving process, involving the FBI and 
intelligence and analysis and improving communication. The 
initial results show that homicides are down 36 percent for the 
first 6 months of 1999, as compared to the same period a year 
earlier.

                      Offender Re-Entry Initiative

    Now, Mr. Chairman, one of the things that you said in your 
opening statement was that we propose some programs which are 
new and untried. But sometimes you have to look at what you 
have got and figure out how to work together to address the 
issue.
    When this issue was first brought to us by State and local 
mayors and law enforcement, one of the most difficult issues 
that we faced, and it has frustrated me as Attorney General, is 
recidivism amongst a core group of criminals. A small number 
create a significant percentage of the crime. The reentry of 
hundreds of thousands of offenders into society upon their 
release from prison is a critical public safety issue.
    This year, nearly 570,000 inmates will return to their 
communities, many with the same problems as when they entered 
prison, and most of them will be re-arrested within 3 years of 
release. We must address this problem as a public safety matter 
with initiatives that are strengthened by the provision of 
adequate services through partnerships with the Department of 
Labor and Health and Human Services.
    The Administration's offender reentry initiative includes a 
request for $60 million for DOJ to provide our communities with 
resources that will help them manage this threat to public 
safety. One component is the suggested establishment of reentry 
courts modeled after our successful drug courts. The drug court 
offers a carrot-and-stick approach, which says if you work with 
us, if you agree to drug testing, if you come out clean, we 
will work with you in terms of job training and placement and 
get you off on the right foot. But if you don't, you face a 
more serious sanction every step of the way.
    A reentry court would use its authority to apply graduated 
sanctions and positive enforcement in much the same way as the 
drug court. The message of the court would be, work with us, 
stay clean, stay out of trouble, get a job, and we will help 
you in these efforts. But if you come back, testing positive, 
if you commit further crimes, if you violate the condition of 
your release, you are going to face a more serious punishment 
every step of the way.
    If we are to successfully address the growing problem, we 
must stop treating this as just a problem that nobody is 
addressing and recognize the public safety implications. I 
would like to work with you, show you what we are doing along 
the way, Mr. Chairman, and see if we can't show that this can 
work.

                                 CALEA

    The increased sophistication in technology has made 
significant changes and improvements in the way we work and 
live. Just as society as a whole has become dependent on new 
technologies, so, too, has law enforcement.
    When I came to the Department in 1993, I found a crumbling 
technological infrastructure; and I have worked hard to improve 
the tools available to our agents and prosecutors. We have come 
a long way, but I need your continued support. We request an 
additional $358 million to improve our technology 
infrastructure, including an additional $105 million to 
continue implementation of CALEA.
    Under your leadership, Mr. Chairman, the subcommittee has 
spearheaded efforts to move CALEA along, thereby helping to 
ensure that law enforcement is able to keep pace with 
advancements in technology in the new digital communications 
environment. We appreciate your support.
    I really value and will remember your thoughtful comments 
at the outset, and I look forward to working with you in these 
months that I have in trying to do everything we can to make 
the agencies of the Department of Justice responsive to the 
needs of the people of this country, and to make sure that I 
can say that at the end of these months I have done everything 
I can to help Harold Rogers have confidence that they are 
spending it wisely.
    [The information follows:]
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                         FY 2001 Budget Request

    Mr. Rogers. Thank you very much, General Reno, for your 
last comments. It has been a pleasure working with you these 7-
plus years.
    Now, at first glance, your budget request looks good, 9 
percent increase over the fiscal year 2000 for the war on crime 
and drugs. Compared with what OMB gave you last year, a modest 
1.7 percent, it looks like you did okay in the budget wars 
between Justice and OMB.
    Upon closer examination with a microscope, the story begins 
to unravel. In fact, there are some big holes in your request, 
holes that this committee will have to try to find some way to 
fill.
    First, you eliminate and reduce $1.4 billion that we have 
provided for years now to the State and local law enforcement 
programs. That is eliminated again in your budget request, and 
we have repeatedly rejected your cutting of that program on a 
bipartisan basis. So, even before we start, we are $1.4 billion 
in the hole, just for openers.
    Then there are the fees gimmicks--$600 million worth of 
gimmicks repeatedly rejected by Congress in the past. You know 
we are not going to do those fees, and yet here we are again. 
To make matters worse, a large chunk of the fees are to pay for 
INS programs. In fact, 50 percent of the $503 million in INS 
increases is dependent on these new fees.
    So I guess I need to ask you right off here, are we 
supposed to seriously consider a number of items in your 
request, particularly for the INS, given all of the holes and 
gimmicks that I have mentioned?

                               User Fees

    Attorney General Reno.  Mr. Chairman, I think one of the 
challenges that we face on the whole issue of law enforcement 
is how we work together to ensure continuation of the 
principles of federalism, recognizing that State and local law 
enforcement are on the front lines and have the primary burden 
and that we do not want them becoming dependent on the Federal 
Government for the sources of their funds. So we have tried to 
work on programs that focus dollars in ways that can make a 
difference; and, if proven successful, State and locals can 
take them over.
    With respect to user fees, let me give you an example.
    The Administration is proposing to establish a voluntary 
expedited premium service fee for business cases. The service 
will provide businesses with a consistently high level of 
customer service and improved processing. It will permit an 
investment in the infrastructure that is necessary to ensure 
the processing. It will permit other resources to be more 
fairly used with respect to the whole population. And I think 
it makes good sense. But we will work with you in trying to 
address these issues and the concerns that you may have.
    Mr. Rogers. Well, I agree that the one you mentioned, INS 
voluntary premium processing fee, may be the only one that we 
can seriously talk to you about, but that is only $80 million. 
There is $590 million in other user fees: gun check fees, 
airline inspection fees, new cruise ship fees, new fee on 
broadcasters. We rejected all of those before, and here we are 
again. I assume that these are not something that you requested 
but were given to you by OMB and were told to put in your 
budget; is that correct?
    Attorney General Reno.  I think we need to look at these, 
Mr. Chairman, and see if you think something is not 
appropriately a user fee, that it doesn't permit an investment 
in the process that is serving the people, and that it doesn't 
provide for a fairer distribution of funds to others, let's 
look at it. But I think a user fee, properly structured, makes 
sense.

                                 CALEA

    Mr. Rogers. Let me switch quickly to the CALEA, 
Communications Assistance for Law Enforcement Act. It sounds 
like a bureaucratic title, but it is a very essential thing. 
CALEA is the effort by the government to update the capability 
of law enforcement agencies, Federal, to wiretap in a digital 
age. Given the switchover from old equipment to brand new 
equipment, all of a sudden the FBI, DEA, and other Federal 
agencies were unable or would have been unable to conduct a 
very important part of law enforcement investigations, and that 
is to tap into telephone conversations. It is an expensive 
proposition, and we have been wrestling with it now for years, 
but it sounds like we may be nearing a solution.
    CALEA, of course, is vital to law enforcement, no more so 
than in the war on drugs. Can you tell us about how important 
CALEA is to the war on drugs? Just give us a thumbnail sketch 
on that.
    Attorney General Reno.  Mr. Chairman, I appreciate the 
opportunity to do so because, from my experience as a local 
prosecutor and now 7 years as Attorney General, it is 
absolutely critical to the war on drugs. In fact, 72 percent of 
all criminal electronic surveillance orders were related to 
drug investigations, and the number of such orders have 
increased significantly.
    Court-authorized surveillance was vital to the success of 
Operation Impugnity and Millennium, two multi-jurisdictional, 
multi-agency investigations that tied drug trafficking activity 
within the United States to the highest levels of the 
international cocaine trade. Operation Impugnity resulted in 
the arrest of 93 individuals linked to a drug trafficking 
organization linked all over the United States. Millennium 
concluded with the arrest of 31 individuals, including members 
of the original Medellin cartel.
    Criminal enterprises are increasingly using advanced 
telecommunications technologies to elude law enforcement 
efforts, and we are seeing that, Mr. Chairman. Without the 
timely implementation of CALEA, we will risk losing this 
extraordinarily important law enforcement tool and make it 
impossible for law enforcement to achieve some of the results 
that it has.
    Mr. Chairman, you and I understand, but I would like to 
just make the point when we talk about electronic surveillance, 
that this is a very careful process done only through court 
order after an application and affidavit, that is very 
detailed, and steps are taken to make sure that there is full 
compliance with the law with respect to such surveillance.

                          CALEA IMPLEMENTATION

    Mr. Rogers. Can you update us on where we are on CALEA--
funding, implementation and the like?
    Attorney General Reno.  DOJ is negotiating with 
telecommunications carriers and manufacturers of 
telecommunications equipment. This effort has focused on 
reaching agreements for the reimbursement of a carrier's 
purchase of a nationwide right-to-use--RTU--license for 
manufacturers' CALEA compliant software.
    Nationwide right-to-use licensing agreements represent our 
attempt to minimize the overall cost associated with the 
implementation of CALEA, while simultaneously ensuring law 
enforcement electronic surveillance needs are being addressed.
    DOJ has reached a nationwide RTU license agreement with 
Nortel Networks with regard to its major wire line and wireless 
switch platforms. In addition, the Department is working 
aggressively with Lucent Technologies, Siemens, Motorola and AG 
Communications and has reached an agreement on price with all 
of the above manufacturers.
    With respect to reaching contractual agreements with the 
manufacturers for licenses on their switch platforms in the 
very near future, we think that will happen. But any agreement 
is contingent on the funding.
    Another facet of our CALEA implementation strategy supports 
carriers' deferred deployment of CALEA software solutions in 
accordance with their normal business cycles, for such 
deployment will not delay implementation of the CALEA solutions 
in high priority areas. This flexible deployment initiative is 
the result of the recognition of the issues facing small rural 
carriers and represents an attempt to minimize the cost.
    Again, I want to thank you for your leadership. And, Mr. 
Chairman, if you will permit me just a moment, we hear so much 
about government employees and bureaucrats, but you and I, I 
think, share the regard for one amongst many, and he represents 
the excellence of so many. Steve Colgate has done a beautiful 
job, and I want to thank him.
    Mr. Rogers. That is very nice of you to say so, and I join 
you in that salute. Steve, raise your hand. He has been at the 
center of making this happen between all of the conflicting 
parties, and this is a huge amount of money that we are talking 
about, of enormous importance to the security of the country. 
He has been our mainstay and yours as well. And he and Therese, 
who formerly worked for this subcommittee and is now with the 
Department, have been very important. I want to join you in 
thanking them.
    Attorney General Reno. Mr. Chairman, that raises an issue 
that we are all going to have to grapple with in the United 
States, and that is there are so many wonderful people working 
with Steve, but trying to attract and retain people is 
difficult, and particularly in the area of cybertechnology, 
when they can make so much money in the private sector. We are 
going to have to think of new ways to address issues of 
cybercrime and cybertechnology through public-private 
partnerships and the like, and I would like to work with you in 
the next few months on those issues as well.

                     SUPPLEMENTAL FUNDING FOR CALEA

    Mr. Rogers. A subject for another hearing, maybe.
    Back to CALEA, on January 10, you asked us to reprogram 
$100 million to begin to implement CALEA. It is my 
understanding that, even with that hundred million, you would 
still have a shortfall this year; is that correct?
    Attorney General Reno. We will be unable to fully implement 
the two initiatives just described, namely the right-to-use 
agreements and the flexible deployment, without the additional 
funding.
    Mr. Rogers. While the fiscal year 2001 budget asks for $240 
million, as I understand it, you really need the money in this 
current fiscal year, fiscal year 2000; and, as a result, we 
have included funding as a part of the supplemental that will 
be taken up by this full committee Thursday and, hopefully, on 
the floor next week. How much do you need this year to 
implement CALEA?
    Attorney General Reno. In order to complete our agreements 
with the manufacturers for the right-to-use licenses and to 
reimburse the carriers for the deployments of these solutions 
that are already available, at a minimum $231 million in 
addition to the $100 million reprogramming which will be 
required.
    Mr. Rogers. If you don't get a supplemental this year, if 
this somehow should fall out or not take place, the money we 
are placing in the supplemental appropriations bill, what 
impact would that have on CALEA and the drug war?
    Attorney General Reno. It could be potentially 
catastrophic. DOJ and the manufacturers will be forced to 
abandon their current negotiations for the right-to-use 
license. Manufacturers will have to market their solutions to 
individual carriers on a switch-by-switch basis, which will 
result in increased cost to both carriers and to the 
government.

                    CARRIER COMPLIANCE IN RURAL AREA

    Mr. Rogers. What we are talking about is providing the 
equipment so that telephone carrier companies will be able 
mechanically and electronically to carry out a court-ordered 
electronic surveillance and that this would apply to all 
carriers. I am concerned, have been concerned all along, about 
the problem that might be facing the small telephone carriers, 
particularly in rural areas that are not capitally endowed, 
that would be required to install very expensive equipment.
    I have heard recent concerns that flexible deployment might 
pose an unrealistic and undue burden on these small rural 
carriers. They don't have the resources to be able to meet the 
June 30 deadline. As a result, they are very concerned about 
their liability since they can't comply with these deadlines. 
How would you deal with this concern in a way that relieves 
unnecessary burdens on these small carriers?
    Attorney General Reno. Our flexible deployment initiative 
is a simple approach for carriers to inform the FBI of their 
planned deployment cycles in recent electronic surveillance 
activity. The limited burden on the carrier providing this 
information is reasonable.
    Small rural carriers, typically located in areas of low 
electronic surveillance activity where there is not much going 
in terms of surveillance, can expect the support of DOJ for 
their petitions before the Federal Communications Commission 
(FCC) for extensions of the compliance date. It is my 
understanding that in those instances where a carrier and the 
FBI are in flexible deployment negotiations, that the FCC will 
stay the compliance deadline until such time as the agreement 
is reached.
    Mr. Rogers. Well, I want to continue to work with you on 
that to be sure that their concerns are addressed.
    Mr. Serrano.
    Mr. Serrano. Mr. Chairman, my senior colleague, Mr. Dixon, 
has a meeting to attend, an appropriations meeting. If I can 
yield this round to him, then you can call on me later.
    Mr. Rogers. You are recognized.
    Mr. Dixon. Thank you, Mr. Chairman and ranking member.
    I want to add congratulations to the very fine job that you 
have done over the last 7 years. I think everyone wants an 
independent Attorney General until their issue becomes ripe. 
And when you don't agree with them, then in fact you are not a 
good Attorney General. But I think the fact that you have stood 
very tall and administered the Department of Justice in a fair 
and equitable way, notwithstanding criticisms from time to 
time, it speaks well for your record, and I would like to 
congratulate you on that.
    Attorney General Reno. Thank you.

             CIVIL RIGHTS DIVISION PRACTICES WITH THE LAPD

    Mr. Dixon. I don't have any questions as it relates to the 
budget, but I would like to submit for the record a series of 
questions. And let me touch upon them basically now and get a 
response from you later in writing.
    The first one is the practices that the Civil Rights 
Division initiated with respect to the LAPD, and if you can 
respond in writing what the status of that is and when it will 
be terminated.
    [The information follows:]

   Civil Pattern or Practice Investigation of the Los Angeles Police 
                               Department

    The Civil Rights Division opened a civil investigation into 
alleged patterns or practices of civil rights violations by the 
Los Angeles Police Department (LAPD) in 1996. Our investigation 
is looking at allegations of patterns or practices of excessive 
force and discriminatory policing practices throughout the 
LAPD, including allegations of misconduct by the Rampart 
Division. We are currently evaluating the information obtained 
through our investigation, along with the relevant data 
contained in the LAPD March 2000 Board of Inquiry report, to 
determine what action by the Department of Justice is most 
appropriate. Although this investigation is large and complex, 
we will make every effort to complete our work as quickly as 
possible.

                     INS ACTIVITIES IN LOS ANGELES

    Mr. Dixon. The second one deals with the INS and its 
activities in Los Angeles. I don't know enough about it to make 
any judgment about it, and Congresswoman Roybal-Allard and I 
have met with Commissioner Meissner. I would suggest to you 
that there are serious problems with the INS in Los Angeles, 
not necessarily with the way that they have implemented policy 
but in management and the rank and file members, and I would 
encourage you to look at that.
    The first stories broke, the INS was pointing the finger at 
the LAPD. Then they said, the FBI made us do it. The most 
recent discovery is that there is a memo talking about their 
participation and how they could be cooperative. I think there 
are some serious problems out there, and I would encourage you 
to look at them.
    [The information follows:]

                      Investigation in Los Angeles

    The INS' Office of Internal Audit (OIA) is conducting an 
investigation to establish the facts surrounding INS and Los 
Angeles Police Department enforcement activity connected to the 
``18th Street Gang'' in Los Angeles. Some of the issues being 
investigated have been raised in the media, including 
allegations that INS officials did not act upon reports of Los 
Angeles Police Department mistreatment of individuals 
apprehended during that enforcement activity. The OIA is aware 
of the references made to an ``INS report'' in the media, and 
has included authenticating that report in its planned 
investigative activity. Due to the fact that the Department of 
Justice's Office of Inspector General (OIG), at the request of 
the United States Attorney's Office for the Central District of 
California, has recently initiated investigative activity, 
which overlaps that planned by the OIA, the OIA is holding in 
abeyance interviews of INS employees who could possibly 
identify and authenticate the report. The OIA will resume its 
investigation as soon as the OIG has concluded its work.

                        CONFIDENTIAL INFORMANTS

    Mr. Dixon. The third issue deals with confidential 
informants. You may or may not be aware that I am interested in 
the whole confidential informant program of the DEA for over a 
year, based on some reports that have been published. But, most 
recently, a Los Angeles times article on Thursday or Friday of 
last week talked about a person who has made over $2 million 
being a confidential informant, and his credibility was 
attacked. I would like to feel that I can use you as a resource 
from time to time, perhaps, if the DEA is not as cooperative as 
I would anticipate--thus far, they have been very cooperative, 
but I am concerned about the confidential informant program. I 
don't know that it is not working properly, but there have been 
some red flags which have been raised.
    [The information follows:]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Attorney General Reno. Congressman, thank you. We will give 
you the details in response to your questions, every detail 
that we can consistent with the pattern and practice 
investigation--the fact that it is pending. I will follow up. 
We are reviewing the INS participation and looking at that very 
carefully, and we will try to keep you as appropriately 
informed as we can.
    I am very concerned about the CI policy. I will tell you 
that the acting administrator of DEA has been very responsive 
and very keen on this issue. We are looking at it very 
carefully. It has arisen now in a number of different 
situations with respect to the same CI, and I am very concerned 
about it and expect to pursue it.
    Mr. Dixon. A postscript there, I am concerned about that 
case, but you may be aware that I am concerned about another 
case where a confidential informant has been used over and over 
again and I suspect inappropriately. I would like to know that 
I could at least call on you when DEA resists in coming forth 
with what I would think an appropriate manner, and perhaps you 
can arbitrate that for me.
    Attorney General Reno. Our concern is not with respect to 
just the one case, it is a concern with respect to payments and 
everything.
    Mr. Dixon. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Kolbe.

                          User Fee Legislation

    Mr. Kolbe. Thank you, Mr. Chairman.
    Attorney General Reno, welcome to this subcommittee once 
more and, as you said, possibly for your last time. We 
certainly appreciate your being here and, I think, the good 
relationship we have had with you.
    Let me start on following up with something that Chairman 
Rogers was talking about with the fees and the gimmicks as he 
referred to them, I think correctly, that are in this budget 
submission.
    We have had this problem every year in Congress, and 
Congress has not gone along with these. So my question to you 
is, rather than just submitting this budget submission this 
year with these things in there, will there be follow-up or has 
the Administration submitted legislation for these fee 
increases to the authorizing committee? Can you tell me whether 
the Justice Department intends to work with the authorizing 
committees to draft legislation for this?
    Attorney General Reno. Let me just make sure that I can 
give you the--Mr. Kolbe, if I may, let us clarify just where 
each one is. Mr. Colgate advises me that some are contained in 
the general budget document itself, but I will get back to you 
this week with the specifics.
    Mr. Kolbe. You don't know whether there has been specific 
communication with the authorizing committee on these specific 
proposals asking for legislation to be introduced or you have 
submitted to ranking members for submission of legislation and 
asking for a hearing yet?
    Attorney General Reno. I don't think it has, but I will 
verify that.
    Mr. Kolbe. That is the problem. In the case of my 
subcommittee, the Treasury Postal, it is Customs where last 
year massive fee increases were proposed, and then there was no 
follow-up. So there was no real intention on the part of the 
Administration to really pursue these fees or some would call 
it tax increases; and that is why I think it is not unfair to 
describe them as gimmicks since they are just in the budget but 
there is no intention to really seeing them enacted into law. I 
don't believe that Congress would follow through anyhow, but I 
think the Administration needs to make a good-faith effort if 
they intend to fund a large part of the Justice Department's 
budget with these kinds of fees.
    Attorney General Reno. Let me review that.
    Mr. Kolbe. Thank you.
    [The information follows:]

                    Legislation on INS Fee Accounts

    We plan to and will consult with the Committees on the 
Judiciary on the proposed changes in statutory fee language and 
the resulting proposed increases in fees.
    However, fee-related Immigration and Nationality Act 
changes have been made in appropriations bills in past years, 
and we did not think it was inappropriate to suggest these 
changes in the FY 2001 appropriations bill. Particularly when 
these changes are pertinent to the planning and appropriating 
of INS funding in light of the limited resources available in 
FY 2001.

               Title III: Americans With Disabilities Act

    Mr. Kolbe. A question on Title III of the Americans with 
Disabilities Act, and you may not be able to address this at 
the moment, but it is a matter of some concern.
    ADA prohibits discrimination against individuals with 
disabilities in places of public accommodation, and that has 
been defined by regulations which were promulgated 9 years ago 
as saying that public accommodation must take steps to make 
sure that no individual with a disability is denied services or 
treated differently than other individuals.
    And a public accommodation has been defined to include a 
doctor's office. The question arises here in the case of this 
particular constituent, and I have since learned there are a 
number of similar inquiries, is just how far medical 
professionals must go in providing interpreters in particular 
situations? In other words, they can't be denied medical 
service because of their disability or lack of an interpreter, 
but if they have one at all times it is obviously a tremendous 
expense, but by not providing an interpreter they can open them 
themselves up to litigation. There has been some effort by the 
medical profession to get guidance. Does your Department intend 
to provide some guidance in this area?
    Attorney General Reno.  We have tried generally throughout 
the whole implementation of the ADA to work with professions 
and particular industries to provide guidance. In determining 
whether a sign language interpreter is necessary, the doctor 
should consider the length and the complexity of the 
communication involved. For instance, a note pad and written 
materials may be sufficient to permit effective communication 
when a physician is explaining a simple procedure. It also may 
be possible to provide effective communication by using a 
computer at which the doctor and patient can type out their 
communication.
    However, if the information is lengthy and complex, the use 
of written materials may not be effective. Usually, the patient 
is the best source of guidance for the doctor, because the 
patient can inform the doctor about their specific needs.
    The Department's Title III regulation generally requires 
the doctor to absorb the cost of providing an interpreter or 
other auxiliary aid or service which is required to ensure 
effective communication. However, the doctor is not required to 
provide any aid that would result in an undue burden. The term 
undue burden means significant difficulty or expense. The 
burden must be determined on a case-by-case basis after 
considering factors such as the nature and the cost of the aid 
or service and the overall financial resources of the practice.
    Mr. Kolbe. I appreciate the response. It still leaves a lot 
of room on the part of the doctors as to what is an unnecessary 
expense.
    Attorney General Reno. Mr. Kolbe, think about it. It has 
been exciting for me to have people respond with what the ADA 
has done. I would like to work with you to make sure that we 
provide appropriate instruction, but think about it for a 
moment. If you were deaf through no fault of your own and were 
going to go through an extraordinarily complex surgery 
involving the heart, you would want to be able to talk to them.
    Mr. Kolbe. Absolutely.
    Attorney General Reno. Let's see if we can't work together.
    Mr. Kolbe. I think that is what we need to do. It is 
whether at all times there has to be somebody on standby. There 
are some implications for the profession which may result in 
less care rather than more care.
    Attorney General Reno. I will just take a moment. I was, 
early on, taken to the town of Takoma Park near Washington to 
see what they had done to adapt to the ADA, and some were just 
small, reasonable steps, maybe having one person at a hospital 
or something like that. But I would like to work with you. I 
think this is an important issue.
    Mr. Kolbe. I quite agree with that. It is. It isn't that I 
don't think anybody in the medical profession doesn't want to 
provide that service. It is knowing what the rules are and 
where they have to go so they are not open to more litigation 
as a result of it.

                               Cybercrime

    You spoke at some length in your brief testimony at the 
outset here, you spent a great deal of it talking about 
cybertheft and cyberproblems, and I quite agree with you. This 
is an enormous problem.
    I think everybody understands if you break into a house and 
steal somebody's computer, that is theft, but we don't seem to 
hold the same standard when it comes to cybertheft in 
cyberspace. We know it is a crime to steal software records off 
shelves of a store, but we take a fairly casual attitude about 
theft over the Internet, and that is why in 1997 we enacted the 
No Electronic Theft, or NET Act, to help in the prosecution of 
cybertheft.
    How many cases have been brought under that act and what is 
the Department doing to publicize the fact that cybertheft is 
theft, nothing less than that?
    Attorney General Reno.  First of all, on that issue, 
because it covers a whole range, not just theft but intrusion, 
breaking into somebody else's conversation or mail, I was 
meeting with an advisory committee on the issue of information 
technology and one gentleman said, you know, I have just been 
thinking about it, listening to you. My 13-year-old knows not 
to go into someone else's room when the door is locked, not to 
read their mail, not to take their possessions, but I am not 
sure that she knows what to do and what not to do on the 
Internet. And I think that is an issue that we have got to 
address, and we will be working with industry to try to do so 
because we have a good partnership in that regard.
    But what we have done in the Department is to try to 
develop CCIP, which is the Computer Crime and Intellectual 
Property section, which has some of the best minds on 
technology but also have good backgrounds in the law, to 
address these issues and to develop training programs for State 
and locals as well as other Federal agencies as to how we are 
going to address these issues, how we prove them, what we do.
    Now, one of the major problems is that somebody can sit in 
a kitchen in St. Petersburg, Russia, and on his computer steal 
from a bank in New York. As a consequence, I have raised the 
issue in the G-8, which is the group of the eight big 
industrial nations, and back in 1998, we held a conference in 
Washington on that.
    We have followed it up--interestingly enough, in 1999 we 
followed it up--or early 1999--followed it up with a video 
conference at which the Japanese had to stay until 11 o'clock 
at night--I had to get there at 6:30--but we had a 4-hour 
videoconference which was impressive in terms of technology. 
And we just finished a meeting in Moscow in which we developed 
the capacity amongst the eight nations for 24-hour-a-day, 7-
day-a-week capacities to trace intrusions that can result in 
theft or other inappropriate activity which is a crime.
    So we are recognizing that borders are meaningless in terms 
of cybercrime, and we are going to have to link around the 
world in our efforts to bring these people to justice. Those 
are some of the initiatives that we are undertaking.
    Mr. Kolbe. I appreciate that very much.
    You might just for the record, if you would, give us some 
information about cases that have been brought under that act, 
the NET act, in other words, how many criminal prosecutions 
have we had. And I would be interested if you would provide any 
background about your educational anti-crime efforts that are 
devoted to addressing the cybertheft of intellectual property, 
how much money in your educational efforts you have spent on 
this.
    [The information follows:]

                    Cases Brought Under the Net Act

    This past year, the Department has significantly increased 
its domestic and international efforts to protect Intellectual 
Property rights. In July, for example, Deputy Attorney General 
Eric Holder announced the Intellectual Property Initiative, 
which is a coordinated enforcement undertaking among the FBI, 
U.S. Customs Service, and U.S. Attorneys Offices in seven major 
districts. This initiative aims to develop meritorious IP cases 
by accomplishing four objectives: (1) train and equip 
investigators and prosecutors, (2) work with industry to 
generate appropriate criminal referrals, (3) seek additional 
reform of domestic laws where needed, and (4) support the 
government-wide international coordinated effort on bilateral 
and multilateral discussions and training. Part of the 
initiative focuses on NET Act prosecutions.
    Currently, DOJ attorneys and a special squad from the FBI 
have been working with industry representatives to identify 
individuals who are offering digital works over the Internet in 
violation of the NET Act. Since the initiative was announced, 
there have been two successful criminal prosecutions involving 
individuals who made digital programs available for downloading 
free from the Internet. One case involved a 22-year-old student 
at the University of Oregon and the other concerned a 26-year-
old sailor stationed in Virginia. In addition to these 
prosecutions, there are currently a number of other open 
investigations also involving allegations of NET Act 
violations.
    Not all our NET Act investigations materialize into 
prosecutions. In many instances, for example, agents have 
invested considerable resources into investigations only to 
later determine that the violators were minors who, as you are 
aware, are not generally prosecuted under federal law.
    At the international level, the Department of Justice 
remains active in addressing concerns over intellectual 
property crime. The Department regularly raises piracy and 
counterfeiting issues during bi-lateral meetings with officials 
from foreign ministries of justice and police. Additionally, 
the Criminal Division continues to devote resources to training 
efforts in countries where a particularized need is identified. 
DOJ attorneys completed a very successful training seminar in 
the Czech Republic late last year, and helped provide training 
to Russian judges and enforcement officials in cooperation with 
the Department of State and the Federal Judicial Center. DOJ 
attorneys have also met with officials from a number of 
countries and provided technical assistance to legislative 
drafters, investigators, prosecutors and judges.

                     Educational Anti-crime Efforts

    The Department has undertaken efforts to educate parents, 
teachers, and students on the responsible use of computers and 
the Internet. For example, the Department has a web page for 
children to visit that answers their questions about 
cybercrime, including software piracy issues. Also, the 
Department is participating along with the Information 
Technology Association of America in the Cybercitizen 
Partnership, which focuses on teaching children and parents 
about the ethical use of computers and the Internet, including 
ethical issues concerning digital piracy. At the same time, 
however, we must all recognize that private industry is in the 
best position to lead the way in educating the public and that 
the Department needs to rely on their resources to accomplish 
this objective.

    Attorney General Reno. What I would also like to do is 
follow up with you and make sure that we have the benefit of 
your comments and your staff's comments concerning the 5-year 
plan as we develop it.
    Mr. Kolbe. Thank you.
    Mr. Chairman, I do have some other questions, but I will 
wait for the second round.
    Mr. Rogers. Mr. Serrano.

                                  COPS

    Mr. Serrano. Thank you, Mr. Chairman.
    Last year, funding for the COPS program created some 
difficult times. In fact, it was one of the main reasons why we 
couldn't get early bipartisan support for our committee's bill, 
because of the funding for COPS. Could you briefly tell me 
where we are with the program? And, secondly, what does your 
request this year do to enhance the program? And do you foresee 
the same problems as last year?
    Attorney General Reno. What we have tried to do is to build 
a grant program which is properly monitored to make sure that 
the dollars are being spent as wisely as possible. So we have 
involved the Inspector General, the COPS office, and the 
Justice Management Division--JMD--in making sure that it is 
done right. And through those monitorings, we have identified 
areas where we thought there might be an inappropriate use of 
the funds or that people had not complied with the terms of the 
grant, and I think we have worked out those issues.
    One of the issues is that the COPS program provided moneys 
for technology that would free up officers so they could go to 
the streets, and to do that well sometimes requires more time 
than I think perhaps it should--to plan the automation and the 
computer-assisted techniques in a way that uses the money as 
wisely as possible. Congressman, we are very carefully 
monitoring that to see that it is being done and that the cops 
that will be freed up are in fact appropriately counted towards 
our goal.
    With respect to--I think that addresses most of the issues 
that we have faced--number one, the implementation of the more 
grant; and, two, making sure that the hiring grants are done 
right, that there is a plan for retention of the officers that 
is consistent with our guidelines, that there is no supplanting 
and that the moneys are being used for community policing.
    Mr. Serrano. So you feel that you are still on target for 
the 150,000 police officers by 2005?
    Attorney General Reno. We are on target for the 100,000 by 
2003. The 100,000 have been funded. I think we will meet that 
deadline to get them in the field and trained. For the 30,000 
to 50,000, I can't say that we will meet it because I won't be 
around, but I think we will have the platform and the 
foundation prepared for it.
    Mr. Serrano. I would make a suggestion which would be very 
helpful to both the chairman and I and to all of us here this 
year. I suspect that the COPS program may become an issue so 
any help we can get early on in ironing out any difficulties in 
our views, on both sides of the aisle, and your agency, the 
Department, would help us. I would hate for the COPS program to 
be, sometime in September and October, another stumbling block 
in agreeing on this bill.
    Attorney General Reno. We will do so.
    Mr. Serrano. And I want to take this opportunity to thank 
the Chairman as we wound through the process last year dealing 
with this issue.

                             ELIAN GONZALEZ

    Let me move to the two issues that I mentioned in my 
opening statement. Can you outline what the INS would normally 
have done in a case identical to Elian Gonzalez's in every 
respect other than his nationality? If he were Haitian, would 
we have handled this differently? What procedures has the INS 
carried out with respect to Elian Gonzalez and what is his 
immigration status at this point?
    And two more questions: Do you feel constrained by the 
Florida court's exercising of jurisdiction over Elian? And if 
the Federal court--I am not a lawyer, but it seems to me that 
too many courts got involved. But we live in a system where, 
once the courts are involved, we seem to wait for them to tell 
us what they have to tell us. If the District court were to 
rule later this month that it does not have subject matter 
jurisdiction over this case, would you be prepared at that 
point to collect Elian and return him to his father in Cuba?
    Attorney General Reno. You ask his status. Elian Gonzalez 
is inadmissible to the United States under section 212(a)(7) of 
the Immigration and Nationality Act as an alien not in 
possession of proper entry documents.
    When he first arrived in Florida on November 25, 1999, the 
INS deferred his inspection and paroled him until December 23. 
They subsequently continued that inspection again in order to 
permit a thorough re-evaluation of the issues in his case until 
January 21. The INS again extended his deferred inspection to 
give the Federal courts an opportunity to review the INS 
decision. He remains on parole status.
    You ask if there was--would we treat him differently if he 
was anybody else, and I can assure you not--I mean, if it were 
another country. We have all racked our brains, and we have 
never seen a case such as this, but we would treat it the same 
under all of the circumstances, as far as I can see, if the 
country involved was the equivalent in terms of background, 
just the whole range of issues. If the only difference was a 
different country. As long as that country presented the same 
issues, we would treat the case the same.
    The hearing is tomorrow in Miami; and, Congressman, I don't 
think I should comment further, particularly since the judge 
has asked us not to comment and to litigate the case. But I am 
committed to doing everything I can to see that the law is 
enforced, and we are doing that.
    Mr. Serrano. I understand--believe it or not, I understand 
the situation you find yourself in. In probably every area of 
the country there are people from other countries being 
deported on a daily basis--including from my congressional 
district--while we have been discussing everything from 
permanent resident status to citizenship for Elian Gonzalez.
    Now, I think I know what you mean when you say we treat 
people the same. I think that is the intent of the Department. 
But let me tell you that I, personally, am not really looking 
forward--I try to be a gentleman and a diplomat at all times--I 
am not looking forward to the INS hearing before this 
Subcommittee, because I blame INS for this mess we are in. They 
had no right, and they had nothing other than some political 
agenda to turn this child over to this family in Miami and 
create this situation, and I don't know how it will end. It 
doesn't matter how it ends. It is a mess already. And I want to 
tell you that I am extremely upset at them and their inability 
or lack of desire to communicate with me and to let me know 
what is happening, but I will save that anger for them. I went 
through a period where INS was okay with me. INS is not very 
nice in my community, but----
    Attorney General Reno. Congressman, direct it at me, 
because I have affirmed it, and the buck stops with me.
    Mr. Serrano. You have affirmed the only good decision they 
made, which is to send him back. They took a child--they could 
have picked a foster family--whoever made this decision locally 
knew that once you turned Elian over to that particular family, 
loving family, caring family, that family--that he was going to 
become the 1999-2000 political poster child for everything that 
divides people on that particular issue.
    Right in front of me I have articles about a child returned 
to Jordan, a 6-year old, Chinese children still being held in 
detention, eventually to be sent back, and the best quote on 
this is by David Abraham, Professor of immigration law at the 
University of Miami, ``We hate Castro, and we don't hate King 
Abdullah.'' This is the issue. I would hope that you could come 
around to say, if the court says he can't stay here, I will 
make sure that he doesn't stay here.
    Attorney General Reno. The court--again, I didn't make the 
initial decision, but be angry at me, because I could change 
it. But don't be angry at me because I think if I had the 
opportunity and could comment, you wouldn't be angry at me.
    Mr. Serrano. You know, English is a second language to me, 
but----
    Mr. Kolbe. I didn't get it either.
    Mr. Serrano. And I am happy to know Mr. Kolbe didn't get it 
either.
    That is okay. I think I'm ready.
    Attorney General Reno. Mr. Serrano, I will pledge to you, 
at the first point that I can comment, I will be happy to come 
up, sit down with you and go through it in detail.
    Mr. Serrano. All I want is, please understand that there 
are people in this country who are applying a lot of pressure, 
and rightfully so, to elected officials: Why Elian and not me, 
why Elian and not the Dominican child, and why Elian and not 
the Mexican child?
    This was a political decision, and it was a terrible 
political decision, and I don't know how it is going to end. 
You want me to tell you how I think it is going to end? Elian 
Gonzalez is going to be 13 years old playing in a Little League 
game in Miami, and some kid is going to say, your father wanted 
you back home. And he is going to look at the family he is with 
and ask, why didn't you let me go back with my father? And then 
I think we will look inward as a Nation and say how sick were 
we in 1999 and 2000 when we did this.
    Attorney General Reno. Congressman, I will come up and go 
over it with you to the extent that the laws of the United 
States government will permit me as soon as the court 
proceeding will permit me.
    Mr. Serrano. Thank you.

                           POLICE MISCONDUCT

    Mr. Chairman, let me take a couple of more seconds here. 
Another subject of great interest in my neighborhood and 
throughout the country, as I mentioned in my opening 
statement--and, again, I appreciate the courtesies shown to the 
Diallo family and their supporters by Deputy Attorney General 
Holder last week. I also appreciate that the leadership of the 
Department at the highest levels understands the deep desire in 
the South Bronx and elsewhere for justice in this case and in 
other cases which increase communities' fear of the officers 
sworn to protect them.
    What effort is the Department undertaking to seek justice 
and end the crisis of confidence? I assume that you agree that 
we are running into a crisis of confidence, if we're not there 
already. I see in your budget a $616,000 increase for certain 
investigations, and I would like to know if you feel that is 
fully appropriate or, as the Chairman said, something that OMB 
is asking you to ask for.
    One final comment on this issue and why I think it is a 
crisis. This is the best way I can explain it. I grew up in a 
Bronx Puerto Rican migrant family, migrant because we were 
citizens. The minute we came to New York, we saw some young 
people who always had a problem with the police, and you always 
heard the older members of our community and the families 
saying no, no, the police are our friends, the police are here 
to protect us, and there was always that wonderful 
contradiction where the older folks were always setting the 
record straight.
    Today I am sorry to tell you the largest number of people 
on the picket lines, in the protests, getting arrested in front 
of the police stations are the older members of my community, 
who no longer feel safe with the police. That is a crisis, and 
the Department has to address that not only in this case but in 
all cases.
    Attorney General Reno. The Department is requesting 
additional funding for two initiatives in the Civil Rights 
Division budget totaling over $1 million to address police 
misconduct and other civil rights' violations.
    In our whole approach, I think this is one of the most 
important times in policing for just the reasons that you talk 
about. We have seen America become safer, but we have seen 
concerns develop about policing. At the same time, we have seen 
more professionalization in both the administration and the 
rank and file of so many departments. We have seen young people 
get into trouble or come back from prison feeling like they are 
kind of marked, marked to be stopped, marked to be hassled; and 
then, Congressman, you see a community where community policing 
is working, where the police officer is the person that is the 
glue that brings the elderly person out from behind the bars on 
the door so she can give the police the what-for at the 
community center. You see the young people relating to police 
officers.
    What we are trying to do through the development of 
initiatives that train is prevent it. But, at the same time, 
through our pattern and practice investigations that are being 
supported by the appropriations process, we are working to make 
sure that the standards of a police department in terms of 
racial profiling, in terms of collection of data, in terms of 
handling of complaints, in terms of unjustified use of force, 
that we address those issues in a thoughtful, very careful way, 
and we do it in as timely a manner as possible so that people 
will have confidence in the police.
    What is most encouraging to me, I had the opportunity to 
meet recently with the incoming chair of the International 
Association of Chiefs of Police, and he said we have got to 
take community policing one step further. We have got to take 
it to problem solving. And when you get good police officers on 
the street working with citizens to solve problems, rather than 
create problems, it is so important.
    I appreciate that you know why I can't comment on Diallo 
now, and you know from Eric Holder, the Deputy, that the 
process is under way. But it is so important that we take steps 
to prevent and problem solve, and this is a critical time, and 
I am committed, as much as I possibly can be, to trying to come 
out this year with a whole new approach to problem solving in 
policing.
    In that connection, let's not talk about any of the pending 
cases, but we need to teach police officers how to respond to 
particular situations, what to do, how to handle things; and we 
can do so much if we look at it from that point of view of 
problem solving. So I will welcome your continued thoughts, and 
I hope you will not hesitate to pick up the phone and call me 
if you have suggestions about what the Department can do.
    Mr. Serrano. Mr. Chairman, let me thank you for your 
generosity with time, and let me reiterate my support for those 
police officers who do the job right and try to do what is 
right. In fact, just a few minutes ago I was supporting the 
hiring of more police officers. I just want to fight the 
behavior of some. Thank you.
    Mr. Rogers. Mr. Miller.

                 ATTORNEY GENERAL EFFORTS ACKNOWLEDGED

    Mr. Miller. Good morning. Let me start off with a couple of 
thank yous. Every year you have met with a group of students 
who are high school juniors from my district. This began before 
my time on this subcommittee, and you have really impressed 
these young people, and I thank you for taking that time.
    Let me thank you for your involvement in the Sheila Bellush 
murder case in Sarasota, Florida, the young mother of six who 
was brutally murdered in November, 1997, the mother of 2-year-
old quadruplets. The accused murderer fled to Mexico. He was 
born and raised in the United States, his parents born and 
raised in the United States, and we had trouble getting him 
back. I know that you personally got involved in that case. 
Sometimes we never know all of the things that you end up doing 
on a case, but I know that you were in contact with the 
attorney general in Mexico, and I thank you because the suspect 
was returned last summer, and there is a trial scheduled this 
summer.
    I also know that the Justice Department got involved in 
investigating the related conspiracy. Two other people were 
found guilty, and there is another person in Texas whom charges 
have now been brought against under Federal law. When you get 
involved in issues like this, it can become very personal. Your 
personal involvement is appreciated, and I thank you publicly, 
as I have said.
    I have gotten involved in issues of extradition because of 
this one case, and one of the things that I found is how little 
leverage you, in effect, have. You can talk to the attorney 
general of Mexico or any other country, and there are a lot of 
other high-profile cases, but there is not much leverage that 
you have. What can be done to improve leverage besides the 
personal relationships you may have?
    Attorney General Reno. We have made some good progress, and 
I appreciate your comments.
    First let me tell you about the young people. I try to talk 
to young people when they come to the Department of Justice 
because there is such a sense of hope. They are shrewd and they 
can sometimes be cynical, but they really want to contribute 
and they want to make such a difference. And I just think it is 
wonderful when you all sponsor them and make sure that they 
have such an extraordinary opportunity in Washington because 
they go home just aglow, and they come over to the Department 
excited about what they have seen and done that week. And the 
more we can give young people a voice, the more I think we will 
benefit because they have some good ideas, and your students 
always impress me.
    Mr. Miller. I see young people coming in and out this 
morning. I think there is a group of Close Up students in the 
back right now. We see them come and go, and you do make a very 
positive impression.

                              EXTRADITION

    Attorney General Reno. On extradition, I as a local 
prosecutor had Earl Morland's frustration, and it is 
frustrating not to get somebody extradited. So when I came to 
Washington, I started learning more about the process, and I 
have spent an awful lot of time on it.
    My theory, particularly in this hemisphere, where it is a 
critical issue, we are trying to build a hemisphere based on 
trust, and that has been my message. Because the whole theory 
about extradition is we don't want to expedite because of a 
threat to our sovereignty. My response is, look, I respect the 
sovereignty of your country in every way that I can, but I also 
am trying to build a relationship of trust with you. And if we 
trust each other in trade and other forums, then why don't we 
trust each other in the criminal justice system? Because every 
prosecutor I know believes that the crime is best tried where 
the crime is committed and you shouldn't force people to come 
to another country or have long distance prosecution. It should 
be tried where the community can understand that the interest 
of justice has been vindicated.
    I started with that and I used the example, what would 
happen, what would you say if you didn't extradite somebody who 
had come to your country from the United States, attacked an 8-
year-old girl, raped and left her for dead on the side of the 
road and then come back to the United States. If I told you I 
would not extradite, you wouldn't like it, and they understand.
    As a consequence, I have just returned from a meeting of 
the ministers of Justice in San Jose for the Organization of 
American States--OAS--meeting, and it was very impressive to me 
to see the strides that we have taken in developing processes 
and procedures that permit the extradition of nationals, and 
that speed up and facilitate the appropriate extradition of 
others.
    We still have a ways to go, but one of the reasons that I 
have discovered that there are delays and confusions, is 
because there are so many different processes and forums. We, 
through the OAS, are now developing common processes and 
procedures with glossaries and translation available 
immediately so we can expedite the whole process. I think we 
have made some real progress, but we have some ways to go.
    Mr. Miller. Thank you. I think in the report language last 
year we requested the development of a database and the status 
of countries. Do you know the status of that?
    Attorney General Reno. Let me check on it and let you know.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

    Status of Database Development for Tracking Extradition of U.S. 
                               Fugitives

    In August 1999, the Division upgraded its computer software 
from an old tracking system to a new, more functional database. 
This change in software will improve the ability of the 
Division to give Congress information about extradition (and 
deportation) of U.S. fugitives.
    The new system has many more data fields than the previous 
system, which allows the Division to capture and preserve many 
more facts about each case. Other features of the data-base 
include query screens, standard reports that were defined by 
users at the Office of Information Affairs (OIA), and an ad hoc 
reporting capability. The deployment of the new system and the 
attendant conversion of data from the old system was largely 
completed by September 1999, although some data conversion and 
clean-up efforts continue.
    The Division's capacity to record data about cases on its 
current docket and new cases that are opened every day is much 
improved. The data on closed cases from the old system, 
however, is quite limited. This means that statistics that 
purport to show historical trends, or that use baselines, for 
extradition cases open and closed in the years prior to 
September 1999 will necessarily be imperfect and incomplete. 
The Division is working on supplementing this data to overcome 
this shortcoming. To the extent that resources requested for 
OIA in FY 2001 are provided, it would have an indirect effect 
of allowing this process to move more quickly.

                       PERCENTAGE OF EXTRADITIONS

    Mr. Miller. Dateline NBC last year had a story that claimed 
that only one out of every four criminals ever gets returned to 
the United States. Is that number correct?
    Attorney General Reno. It may well be one out of four 
because there may be the burglar who goes home who stole a tire 
at a business, or something like that that, got charged but 
returned home and is not extradited.
    You have the same situation with respect to the extradition 
between States, where it used to frustrate me to have to deal 
with a poor victim who said, what do you mean you are not going 
to extradite him? I would say, it costs too much money. But it 
was my favorite piece of jewelry and how can you not extradite 
him so you can make him give me back that jewelry? But it is 
one of the balances that the criminal justice system has to 
undertake.

                EXTRADITION PRACTICES OF OTHER COUNTRIES

    Mr. Miller. Which countries are the most difficult to deal 
with on this issue or can you generalize?
    Attorney General Reno. I don't think that there are any in 
particular. Everybody has--I have been so impressed, 
Congressman, about the attitude exhibited in San Jose because 
we all know that extradition is a matter of trust, and if we 
are going to build the kind of hemisphere that we want, we need 
to build that trust.
    Mr. Miller. A couple of the most famous cases are the 
Einhorn case and the Sheinbein case, and I know in the 
Sheinbein case Israel changed its laws and became more 
cooperative. In the Einhorn case, the possibility remains that 
he may get returned. Do you have any more insight on that case 
and how we progress? That murder took place in 1977.
    Attorney General Reno. It is pending, so I can't comment 
except to reaffirm that the Department continues to work very 
closely with the State of Pennsylvania, the Department of State 
and the French authorities to ensure his return to face 
criminal charges.
    Mr. Miller. With respect to the Bellush murder, do you have 
any comments about the Blackthorne trial where you will decide 
whether or not you will seek the death penalty?
    Attorney General Reno. No, sir.

                          INS NON-DEPORTABLES

    Mr. Miller. Let me ask one more question about INS 
nondeportables. We have a jail in downtown Bradenton, and the 
INS basically has taken it all over, and I am told that two-
thirds of the beds in this facility are occupied by 
nondeportables, and this is becoming a bigger problem. There 
are cases of Cubans, Jamaicans, and others. Where do we stand 
on that? You read about these cases, and they are getting more 
publicity and stories in the newspaper but can you enlighten us 
with where we are going on that problem?
    Attorney General Reno. It is a big problem. We meet with 
officials from these countries to try to encourage them to take 
back their nationals. U.S. officials met last month with 
officials from Southeast Asia, in part to talk about 
repatriation, and we periodically bring up the issue with other 
nations such as Cuba.
    INS continually works with all embassies to improve the 
travel document process, which is the key. It also works with 
the State Department diplomatic security to automate the 
notification of the removal process.
    But the burden on both the Federal system and the State 
system is acute, and it is--you take some of the smaller 
countries of the Caribbean--it is a tremendous burden on them 
to have so many serious criminals deported back to their 
countries. The Dominican Republic has been magnificent in terms 
of trying to address these issues and take them back; but its 
minister made clear to me that it is creating a terrible 
problem for them.
    I don't have the answers. I am trying to work through it.
    Mr. Miller. It is very costly for us to keep them 
continually in jail, and especially with no end in sight. I 
have heard the personal stories. It does affect the budget, and 
it is going to get worse because it is a growing number.
    Attorney General Reno. Again, I think we are going to have 
to recognize that in this hemisphere, particularly in the 
Caribbean, with the community--comparable communities of 
immigrants from those islands that live in the United States, 
we are going to have to work with them and come up with new 
solutions.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    Welcome, Attorney General Reno. I have several questions 
that I would like to submit for the record and receive a timely 
response on, but I have three issues I would like to ask about.

          TENNESSEE VALLEY AUTHORITY ON THE INSPECTOR GENERAL

    The first is rather parochial. Within the Tennessee Valley 
Authority, the chairman of the TVA took the Inspector General 
out of his position last summer and referenced allegations of 
wrongdoing on to the Professional Council on Integrity and 
Ethics which led to a referral to the FBI and subsequently to 
the DOJ. The General Accounting Office said that the man didn't 
do anything wrong and that TVA needed to change their own 
policies. Can you tell me today or sometime very soon why this 
has taken so long and when we can expect this report to be 
issued so this perfectly good Federal law enforcement official 
can go back to work or have this case cleared up?
    Attorney General Reno. The Department completed its review 
of the matter involving him. The Public Integrity Section of 
the Criminal Division declined prosecution on March 6, and I 
will be happy to try to trace the chronology of it to find out 
why it took so long.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

         Chronology of Inspector General Prosser Investigation

    The following outlines the Public Integrity Section's 
criminal investigation of Tennessee Valley Authority (TVA) 
Inspector General George Prosser:
    Consistent with long-standing practice, the Integrity 
Committee of the President's Council on Integrity and 
Efficiency referred the allegations against Prosser to the 
Public Integrity Section for a prosecutive determination.
    The referral was received by the Public Integrity Section 
on July 1, 1999, the Public Integrity Section reviewed the 
matter and determined that a criminal investigation was 
warranted. It requested investigative assistance from the 
Federal Bureau of Investigation on August 5, 1999.
    During the next few months, the FBI Special Agent reviewed 
documents, conducted numerous interviews, and continuously 
updated the assigned Trial Attorney from the Public Integrity 
Section.
    On January 12, 2000, the FBI Special Agent completed his 
investigative report. Unfortunately, through clerical error, 
the report was inadvertently sent to the wrong Division in the 
Department of Justice.
    When the Public Integrity Section and the FBI realized the 
error in mailing, a new report was express mailed to the Public 
Integrity Section, which received the report on February 12, 
2000.
    The Public Integrity Section reviewed the report, asked 
follow-up questions of the FBI, and prepared a written analysis 
of the matter. Supervisors within the Section reviewed the 
recommendations and the matter was formally declined on March 
6, 2000.

    Mr. Wamp. Thank you.

                         ATTORNEY OVERTIME PAY

    Secondly, you have many very fine attorneys that work for 
the Department of Justice across the country. We all know that 
there is a dispute among them over overtime pay for those 
attorneys and there is pending litigation so you might not be 
able to say a lot today. I do have some questions in writing 
that I would like you to answer.
    I do wonder, looking at the records, a memo between 
yourself and Mr. Colgate in 1996 that basically says that you 
all may have the liability of overtime pay for these attorneys 
and these attorneys are the only attorneys within the Federal 
Government that don't receive overtime pay, why wouldn't you 
just settle the case and be done with it instead of every year 
having to come back up here and kind of cover your tracks and 
put it off? Or is there an effort to just put it off?
    Attorney General Reno. I can't comment because it is 
pending. But at the point I can comment, I would be happy to 
try to do so.
    Mr. Wamp. Mr. Serrano and I are in the same situation. I 
have some questions. As soon as you can answer them, I would 
like for them to be answered.
    Attorney General Reno. Thank you.

                           CHILD PORNOGRAPHY

    Mr. Wamp. In 1957, the year I was born, the Supreme Court 
ruled that illegal pornography was not covered by first 
amendment protection.
    Mr. Serrano. You didn't have to throw that in, the fact 
that you are so young.
    Mr. Wamp. 1957, that was the year that I was born.
    Mr. Serrano. That was the Yankee-Milwaukee Braves World 
Series?
    Mr. Wamp. You were there?
    Mr. Serrano. I was.
    Mr. Wamp. With your cane, with your wheelchair. He is a 
friend of mine.
    Illegal pornography was not protected under the first 
amendment. I understand that in the late 1980s, early 1990s in 
this country, 126 convictions were brought against illegal 
pornographers in this country and that it really changed the 
way that the pornographers did business in this country because 
there was a Federal effort to try to crack down on illegal 
pornography.
    I also understand, and I would like for you to give me some 
input today on this or feedback, that the prosecutions have 
been reduced by 75 percent in the last several years; and I 
just wonder what the position of the Department of Justice is, 
especially with the proliferation of Internet pornography. And 
I am most interested in child pornography and what we are doing 
about it as a Federal Government to try to really attack this 
problem, because it leads to all of these social problems with 
violence, violence against women, the breakdown of the family. 
It is really a cancer in our society, and I wonder how active 
the Department of Justice is today at prosecuting illegal 
pornography cases?
    Attorney General Reno. Well, first of all, I think the 
decision you referred to distinguishes and says that obscenity 
is not protected. You can have something that may be enacted 
into law as illegal, but the court can define it as protected 
by the first amendment. I think what the court said was that 
obscenity is not protected.
    What we have tried to do is to focus on child pornography. 
In 1999, 510 cases were filed concerning 525 defendants; 378 
persons were convicted; 36 percent of those sentenced received 
terms of more than 3 years. The Criminal Division coordinates 
the Department's efforts to aggressively pursue and prosecute 
violators of Federal statutes, which prohibit the trafficking 
of child pornography. In collaboration with the FBI, the 
Division's Child Exploitation and Obscenity Section--CEOS--
helped to coordinate the Innocent Images Project, which was 
organized in 1995 to combat the trafficking of child 
pornography over computer networks.
    The FBI currently assigns all computer child pornography 
cases to the Baltimore field office, and the Division continues 
to work closely with the FBI on the project. As the FBI creates 
regional task forces to work these cases, CEOS, the section, 
also participates in training for task force personnel. It also 
works with the United States Customs Service and its 
cybersmuggling center on undercover operations. It is working 
with the customs services on Operation Cheshire Cat, an 
international child pornography investigation. The United 
States Postal Inspection Service has also developed numerous 
undercover operations, and the section works with them as well.
    Mr. Wamp. Thank you, Attorney General Reno. I look forward 
to the response to these written questions.

                           TOBACCO LITIGATION

    Mr. Rogers. Thank you, Mr. Wamp.
    Let me ask you, Attorney General Reno, last year you 
requested a $20 million increase in your budget specifically 
for the tobacco litigation. That request was denied. The 
Department told the committee last year that the base level of 
resources for this activity within general legal activities was 
$1.8 million. How much does the Department plan to spend this 
fiscal year from this account on the litigation?
    Attorney General Reno. We estimate that we will need 
approximately 10 to $15 million for the litigation this year. 
We have spent $1.45 million in preparation to date. We are 
using the existing resources in the Civil Division's tort 
branch, which includes carryover balances from the Automated 
Litigation Support Fund and funding provided to the Department 
from the health care fraud and abuse control account. In 
addition, we are seeking reimbursement of almost $8 million 
from three client agencies--the Departments of Defense, 
Veterans Affairs and Health and Human Services.
    Mr. Rogers. Are you proposing to spend out of Justice 
Department moneys above the $1.8 million base funding level?
    Attorney General Reno. I would anticipate that there would 
be more out of the tort branch and from the Department's access 
to the health care fraud and abuse control account.

             REPROGRAMMING OF FUNDS FOR TOBACCO LITIGATION

    Mr. Rogers. When would we get a reprogramming request then?
    Attorney General Reno. We believe that the funding we 
receive from client agencies in the Health Care Fraud and Abuse 
Control account does not fall under our reprogramming 
notification requirements, and we are taking it from there. 
However, what I would be glad to do is review the committee's 
concerns, because it is not our intention to violate the 
notification requirement.
    Mr. Rogers. Well, as you know, section 605 of the 
Appropriations Act requires that if you spend out of Justice 
Department moneys above $1.8 million in base funding that we 
have given you this year for that purpose, then you would be 
required to submit a reprogramming request to this committee to 
shift moneys from some other portion of your budget into that 
account. We have not received that. Instead, you say that you 
are taking moneys from other Federal agencies to fund this 
lawsuit, and we think that violates if not the letter then 
certainly the spirit of the appropriations process, and we will 
not look upon that with kind eyes.
    Attorney General Reno. Well, we will come see you.
    Mr. Rogers. Well, I want more than that. I always enjoy 
seeing you.
    Attorney General Reno. Thank you, sir. We need to lay it 
out for you as to what the situation is. Section 109 for fiscal 
year 1995 Appropriations Act contained the following language, 
``Notwithstanding 31 U.S.C. or any other law, in litigation 
involving unusually high costs the Department of Justice may 
receive and retain reimbursement for salaries and expenses for 
fiscal year 1995 and thereafter from any other governmental 
component being represented in litigation.''.
    Mr. Rogers. Did the Department seek reimbursement from 
these agencies on its own or was OMB and the White House 
involved?
    Attorney General Reno. We have looked at the possible 
sources of funding, and this was a joint effort between the 
Department of Justice and OMB.
    Mr. Rogers. Did the White House ask you to do that?
    Attorney General Reno. No, sir. Not to my knowledge.
    Mr. Rogers. To look at it, at least?
    Attorney General Reno. I am not aware of any request from 
the White House to look at this. I think we looked at it, but I 
will ask Steve to check and see if there was any initial 
request. My understanding is that we looked to see what we 
could appropriately do under the law, and this was one avenue 
we determined.
    Mr. Rogers. I want to know whether anyone outside the 
Department requested that you seek reimbursement from other 
agencies to fund this lawsuit which this committee and the 
Congress denied you the funds to do.
    Last year you specifically requested funds for the lawsuit. 
The Congress specifically rejected that request. And now you 
have sought funds by hook into other agencies, and we don't 
like the looks of that very much at all. So we are going to be 
probing on this.
    Attorney General Reno. I understand.
    Mr. Rogers. We want to know who is making you do this? Who 
is making you mislead the very committee that has been so kind 
to you?
    Attorney General Reno. I am not trying to mislead you. I am 
laying out for you exactly what we are trying to do. We will 
come up and talk with you and let you probe and see what we 
work out, because we are not intending to avoid the 
notification requirement.
    Mr. Rogers. Well, we want to know what specific legal 
authority you are using to receive reimbursement.
    Attorney General Reno. Section 109 of the 1995 
Appropriations Act.
    Mr. Rogers. As well as the agencies that are giving you 
money.
    Attorney General Reno. That is the Departments of Defense, 
Veterans Affairs and Health and Human Services.
    Mr. Rogers. Well, we want the legal authorities that allows 
them to do that as well.
    Attorney General Reno. I would suggest that is section 109.
    Mr. Rogers. How much are you requesting for the lawsuit in 
the coming fiscal year, within the Civil Division?
    Attorney General Reno. Excuse me?
    Mr. Rogers. Within the Civil Division of Justice, how much 
are you requesting for this lawsuit in fiscal year 2000?
    Attorney General Reno. We are seeking additional funding in 
the form of reimbursements from the client agencies as well as 
continuing to use resources that are available to the torts 
branch. The budget request for DOJ contains no program increase 
for tobacco litigation.
    Mr. Rogers. How much are you spending in fiscal year 2001 
in Civil Division torts? How much are you requesting?
    Attorney General Reno. We will provide the figure for the 
torts branch.
    [The information follows:]

  FY 2001 Tobacco Litigation Request for Civil Division's Torts Branch

    The Department has not requested at FY 2001 program 
increase for the Civil Division's Torts Section. Currently, 
base funding in the amount of $1.8 million is available in the 
Torts Section for expenditure on tobacco case litigation costs. 
Torts Section base funding will continue to be available in FY 
2001 for tobacco litigation costs, and will be supplemented by 
funding from the Health Care Fraud and Abuse Control Account. 
During the FY 2000 appropriations process, Congress made it 
clear that the Department could use existing funding sources to 
support its litigation effort. Accordingly, the Department is 
drawing on funding sources that it regularly uses to support 
litigation on behalf of the United States.

               FEW BUDGET REQUEST FOR TOBACCO LITIGATION

    Mr. Rogers. How much is being requested from within the 
Fees and Expenses of Witnesses account?
    Attorney General Reno. What I am aware of is carryover 
balances from the Automated Litigation Support and funding 
provided to the Department from the Health Care Fraud and Abuse 
Control account.
    Mr. Rogers. Well, in fact, there is a $56 million increase 
in that account. Why would there be such a huge increase in 
that very obscure account, Fees and Expenses of witnesses, an 
increase of $56 million? Does that have something to do with 
the tobacco lawsuit?
    Attorney General Reno. I don't know of anything, but let me 
double-check, Mr. Chairman, so I don't mislead you.
    Mr. Rogers. Surely you or your staff know why there is such 
a huge increase in that one area. In the justifications it says 
something about tobacco, but there is no justification, no 
dollar amount. Can you give us a dollar amount?
    Attorney General Reno. We are working on it, Mr. Chairman.
    Mr. Colgate. Mr. Chairman, we are requesting a program 
increase of $56 million in appropriations as it relates to 
expert witnesses. We have in our budget summary articulated 
extraordinary expenses related to Windstar, tobacco cases, mega 
Comprehensive Environmental Response, Compensation and 
Liability Act--CERCLA--defense contribution cases in the 
environment and several large tax position cases. We didn't tie 
any specific amount related for tobacco, but we have just seen 
a significant increase in these large cases, and we articulate 
some of these large cases on page 79 of our budget summary.
    Mr. Rogers. Well, it is a 50 percent increase in that 
account, and so you must be planning some hefty expenditures in 
the tobacco litigation that we have--again I repeat--
specifically denied you the moneys for on the table. Now if you 
want to go under the table, which you are doing here to get 
moneys, you will pay a price.
    Attorney General Reno. I don't want to go under the table. 
I want to come talk to you and show you what we have done, make 
sure that I have all of the facts and figures so I don't 
mislead you and be straightforward about it.
    Mr. Rogers. Yeah, well, you know we denied you the money 
last year, this current year?
    Attorney General Reno. I do, sir.
    Mr. Rogers. And you have gone and requested these other 
agencies to pay you some of their money for this very purpose 
which we denied you money for; is that right?
    Attorney General Reno. That is right, sir.
    Mr. Rogers. Now what I am asking you is, did you do that on 
your own or did somebody make you do that?
    Attorney General Reno. I tried to work with Steve and 
everybody. I was not asked to do something but to figure out 
how to fund the tobacco litigation because I believe in it, Mr. 
Chairman.
    Mr. Kolbe. Mr. Chairman, would you yield for a comment?
    Your statement about coming up and explaining it to the 
chairman, I am vitally interested in this as well and have a 
whole series of questions. I hope you will brief the entire 
committee.
    Attorney General Reno. I will be happy to come back 
serially or however you wish. I want to make sure that you have 
the facts and the questions, at hand, answered.
    Mr. Rogers. The last I heard, the Congress still controls 
the pursestrings of the government; and the last I heard in the 
Congress it was the Appropriations Committee that handled that 
chore for the Congress; and in relation to the Justice 
Department and what you do with your money, it is still this 
subcommittee that regulates your spending. When you are 
spending moneys contrary to our express wishes, then that calls 
for another step; and be assured we will take another step if 
that is necessary. But I want to know the details on this, and 
I want to know who is behind it and why there is this 
subterfuge in getting the moneys to finance a lawsuit which we 
denied you the moneys to pursue directly. So I guess you know 
that we do have--or I certainly do have a burr under my saddle 
on this one.
    Attorney General Reno. Yes, sir, I understand.
    Mr. Rogers. And we will pursue it, don't you know.
    Attorney General Reno. Yes, sir.
    Mr. Rogers. Mr. Latham.

                        ANTITRUST INVESTIGATIONS

    Mr. Latham. Thank you, Mr. Chairman; and welcome, Madam 
Attorney General. It is a pleasure to have you here.
    I guess I relate to this in a different way, and we have 
talked previous years about the real concerns in agriculture, 
about vertical integration, about consolidation, the fact that 
the Justice Department has done nothing about it. Last year 
after this hearing, the next day you called me, which I 
appreciate very much, and said that you would make it a 
priority; and a few weeks later I got a call from Joel Klein 
saying that he needed more money and without additional funds 
he could not do anything.
    Going along with what the chairman is talking about, the 
frustration that I have is when this Administration started in 
1993 we had 250,000 pork producers in this country. Today, we 
have lost 60 percent, there are under a hundred thousand. And 
the Justice Department has done nothing, and yet we have huge 
lawsuits against Microsoft, and I would like to know how much 
we have spent on this lawsuit. The money that is spent as far 
as the litigation that the chairman is talking about which was 
denied but yet money is being expended, and yet you come back 
on a real problem out there for real people and nothing is 
being done.
    You can understand there is great frustration when we see a 
very hapless Justice Department doing nothing to help farmers 
who are losing their livelihood and we see money being spent on 
a lot of other areas that many people believe we should not be 
involved in.
    Attorney General Reno. Yes. I continue to persist in being 
very committed to doing what we can. The Department takes very, 
very seriously the concerns that you expressed and have 
continued to express. I have met on a number of occasions with 
various Members of Congress. Joel Klein has participated in 
community meetings to hear firsthand from the farmers 
themselves. We have been very active.
    Joel has tried to monitor it in every way that he could. He 
has gone so far recently to appoint a special counsel for 
agriculture who will take another look at the level of 
competition in their marketplace, fully exploring any possible 
violation of antitrust law. He has looked on previous 
occasions. We will look at it again in this effort.
    There is a significant degree of concentration in some 
parts of the industry. While concentration itself is not in and 
of itself illegal, it can increase the potential for antitrust 
problems, and we have been monitoring the industry closely and 
are taking industry concentration into account as mergers are 
proposed.
    We have conducted a number of antitrust investigations 
pertaining to agriculture in recent years, leading to a number 
of enforcement actions, including prosecution of participants 
in a worldwide vitamin conspiracy, which artificially inflated 
prices for vitamins used in animal feeds and elsewhere, harming 
consumers around the globe. Participants in the cartel included 
some of the largest multinational companies in the world, 
including companies headquartered in the U.S., Japan, Germany, 
Switzerland, France and Canada. The Division's work has 
generated record-level criminal fines levied against leading 
chemical and pharmaceutical giants.
    In addition, in July, 1999, we challenged the Cargill-
Continental Grain merger. To resolve our competitive concerns, 
Cargill and Continental agreed to divest a number of grain 
facilities throughout the Midwest and the West as well as the 
Texas Gulf, and the proposed consent decree is in the court 
approval process.
    The criminal prosecution of Archer Daniels Midland (ADM) 
and others for fixing the price of the feed additive, lysine, 
resulted in ADM being fined $100 million and several of its 
officers being convicted as well.
    Finally, the required divestitures of part of Monsanto-
DeKalb genetics merger of cutting-edge genetic transformation 
technology has been one of the efforts.
    Because the Department opens antitrust investigations only 
where there is information giving a reasonable basis for 
believing there might be an antitrust violation, the Department 
is always on the lookout for such information, and we have 
tried to do outreach to the farmers to make sure that we get 
that information.

                               MICROSOFT

    Mr. Latham. How much money have you spent on Microsoft?
    Attorney General Reno.  I don't know the answer. I will try 
to provide it for you, sir.
    [The information follows:]

                           Microsoft Expenses

    Over the past 10.5 years, from the start of FY 1990 through 
the present, the Division has spent approximately $13.57 
million investigating and litigating against the Microsoft 
Corporation. This includes actual expenses from October 1, 1989 
through February 26, 1999 (the last date at which a 
comprehensive review was conducted), of $12.57 million and an 
estimated $1 million in additional charges incurred since 
February 1999. This composite cost includes such matters as the 
investigation and resulting civil action that culminated in a 
negotiated consent decree with Microsoft in 1995, the 
investigation and filing of a court case challenging 
Microsoft's acquisition of Intuit Inc. in 1996 (a proposed 
acquisition ultimately withdrawn by Microsoft), and the on-
going litigation in U.S. District Court in Washington, D.C.

                      LIVESTOCK AND PORK INDUSTRY

    Mr. Latham. You can understand the frustration. We are 
obviously spending millions and millions of dollars on these 
other things that are not believed by many to be authorized or 
money appropriated for, and yet when we have a very real, clear 
problem, you come back and say we can't do it because--like $2 
million or $3 million, when money is being diverted all over 
the place for reasons which this subcommittee has not 
appropriated money for.
    I just came from a hearing with Secretary Richardson. The 
frustration in agriculture today is that there is just this 
blind eye to anything that is happening out there, whether it 
is in consolidation, vertical integration. The Secretary said 
he is impotent to do anything about the huge increase in energy 
costs, and we are going into the field here in a few weeks. 
Farmers are in dire straits out there. We are going to have 
huge energy increases, and agriculture is probably the most 
dependent industry in the country as far as inputs and energy. 
And then we see, you know, 60 percent of the livestock 
producers out of business, and no one is doing anything to 
help.
    Attorney General Reno.  We are trying, sir, and we will 
continue to try in every way that we can.
    Mr. Latham. This is the fourth year that I have brought 
this issue up, and nothing has happened.
    Attorney General Reno. When I don't have a basis for acting 
under the law I can't do it, but I will assure you that I will 
do everything within my power to properly pursue these 
investigations. I haven't found a basis to do so other than 
those I have described here to do so under the evidence in the 
law.
    Mr. Latham. I just want to make sure that you understand 
the frustration. I have had 24 town meetings at home. It is 
very, very real.
    Attorney General Reno. Joel said it was one of the most 
important things that he had done, to hear firsthand from 
farmers. When I go out and talk to them, I understand that it 
is more than frustration. It is fear, it is anger, it is 
heartbreak in some instances, and I think it is one of the real 
issues that we face in this country; how we maintain the 
American farmer in the tradition that he and she and their 
families have been used to. I fully understand exactly what you 
are saying.
    Mr. Latham. There is a lot of talking and no action, and we 
have lost 60 percent of the pork producers in the country.
    Attorney General Reno. What would you like me to do?
    Mr. Latham. Enforce the law or actually do something.
    Attorney General Reno.  I will be happy to come up again. 
You show me what I can do, and I will try to do it.

                            METHAMPHETAMINE

    Mr. Latham. As you know--to change subjects, which I am 
sure that you appreciate--the meth situation, use and 
trafficking in Iowa is a major problem. The subcommittee in the 
past few years has provided money for several programs such as 
the COPS program for meth trafficking and to assist local law 
enforcement efforts and giving them equipment, and as in 
previous years you have not included any funding in your budget 
again. How are we supposed to combat this problem with no 
funding? That is the basic tool for our local law enforcement 
to give them some type of help and assistance. It is an 
epidemic.
    Attorney General Reno.  What we are embarked on with U.S. 
attorneys, DEA and other agencies, is to develop comprehensive 
efforts that would focus on a community with regional 
enforcement teams from DEA through resources that are 
available, and to do it in a comprehensive way. Sometimes it is 
a Mexican organization that brings in the meth, sometimes it is 
a mom-and-pop operation, and it is going to vary from community 
to community.
    What I am hopeful that we will be able to do is prioritize 
and identify the worst situations, develop a comprehensive 
effort within the region or the community to identify every 
piece of intelligence we can on the distributor, the source, 
whether it is a mom-and-pop lab or other lab, identify 
treatment programs that are available in the community that are 
meth-specific. Then in a comprehensive take down, arrest the 
organizations and the others that are responsible, take down 
the lab, get the people into treatment, and try to enforce it 
through drug courts.
    Where there is an organization in the community, we will 
try to move a weed and seed, or other type of organization, in 
to fill the vacuum so someone else won't come in and fill it 
with illicit activity, and come back and enforce what we have 
been able to achieve through the comprehensive effort. That, I 
think, can make a difference.
    Mr. Latham. The major tool that I hear from my local law 
enforcement is the grants that we have been able to give them 
as far as assistance with computers, radios, cameras, 
educational initiatives and things like that, and there is no 
money in your budget for that.
    Attorney General Reno. There are some wonderful programs 
that can make such a difference in terms of training; and if 
you will put me in touch with chiefs of police, I will try to 
address them.
    Mr. Latham. But as far as equipment and what they really 
value--most of them can't use the normal COPS program because 
of their budget concerns. What they need is equipment and 
assistance in that way, and there is no money in the budget for 
that.
    Attorney General Reno. I believe there is extensive amounts 
of money for technology and equipment, and we are trying to 
work with State and locals to ensure that.
    Mr. Latham. All right. In isolated cases.
    Attorney General Reno.  No, we are trying to be as 
comprehensive as we can in developing it in a thoughtful way, 
Congressman, so that it is not a piece here and a piece here, 
but that we develop the use of technology and equipment that 
can be shared between departments so there is costly 
duplication.
    One of the things that we have seen in much of the 
technology is that it is getting more and more expensive, and 
the more we can plan it in a comprehensive way, I think, the 
better we will be able to do it.

                Jail Space In Midwest For Meth Offenders

    Mr. Latham. It is very expensive, and they need the help of 
the local law enforcement block grants.
    In the Midwest, and this has a lot to do with the meth 
problem somewhat and also immigration concerns, is lack of bed 
space in jails and prisons. In our bill last year, there was 
money for them, such as the INS detention facility in Grand 
Island, Nebraska; and apparently there are some problems in 
proceeding with that. It seems to me that the Midwest has been 
neglected, and apparently there are more bottlenecks now. Did 
you plan on addressing the problem that we have? It is a huge 
load that our counties and local law enforcement cities are 
having to make up as far as space for illegals and also people 
involved in drugs which we could use this facility for.
    Attorney General Reno.  I would be happy to check out the 
specifics of the facility and call you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                Facilities in Midwest for Meth Offenders

    Question. What is the status of the Grand Island, Nebraska 
detention facility for INS?
    Answer. The building of a detention facility requires 
extensive infrastructure support, especially for a facility 
that could serve the needs of the INS in the Midwest. The Grand 
Island, Nebraska area does not have the necessary 
infrastructure to support such a detention facility. The 
location lacks sufficient legal services for aliens, 
transportation support (including available commercial air), 
consular offices, medical facilities, housing and other 
services.
    Neither the Grand Island area nor the Omaha District 
generates sufficient apprehensions to justify such a facility. 
Grand Island is not a location central to the offices 
generating most of the workload or central to the 
transportation corridors. It is quite distant from major 
centers of INS activity, and due to its severe weather and lack 
of commercial air, it would be difficult at times to move 
aliens in and out of the facility. The average distance to 
Grand Island from the four districts it would support ranges 
from 180 miles to Omaha to 520 miles to Chicago. More promising 
locations for such a facility would be Des Moines, Kansas City, 
and St. Louis. These locations would also be more promising in 
terms of providing support to INS eastern region districts.
    A detention facility would house large numbers of criminal 
aliens, most of which would be from outside the Nebraska area. 
These individuals have the right to appear before immigration 
judges to determine their immigration status. These aliens are 
entitled to legal counsel, which is insufficient in the Grand 
Island area, and which would be difficult to entice to provide 
legal services for such a population so far away from major 
population centers.
    In some cases detainees are released from detention on bond 
or recognizance. Thus, the Grand Island area would need to 
provide the ability to house some of these individuals and 
their relatives for short periods of time, and also have the 
available transportation for them to move in and out of the 
area without much difficulty. Grand Island only has a small 
regional airport that operates only 12 hours a day, no train 
service except for freight, and bus service via Greyhound with 
seven daily runs.
    Mr. Latham. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.

                               CYBERCRIME

    Mr. Serrano. Thank you, Mr. Chairman. I have just one last 
brief area.
    We keep talking about cybercrime, and I wonder if we all--
starting with me--fully understand what we are talking about. 
We shop on the Internet, we read, we do research. We use the 
Internet for quite a bit of information and transactions. What 
kinds of cybercrimes are being referred to you and what is it 
other than the obvious: security of your credit card and the 
issue of pornography? What other issues are being discussed 
here?
    Attorney General Reno.  As I mentioned to you, we have 
prosecuted or dealt with the case of a man who sat in his 
kitchen in St. Petersburg, Russia, and on the Internet, engaged 
in fraudulent electronic wire transfers. You have mentioned the 
issue of pornography around the world. You have the issue of 
illegal gambling over the Internet. You have stalking and 
intrusions and threats on the Nation's information 
infrastructure. These are just some of the issues. You have 
others using the Internet in commerce and then not delivering 
on what they said they were going to deliver. There are a whole 
range of issues.

                         Voting On The Internet

    Mr. Serrano. Yesterday I believe it was, the State of 
Arizona used the Internet for voting, and the way it was 
presented on TV, it is the first time ever perhaps in the 
history of the world that on-line voting has taken place--and 
it is interesting, it wasn't for local prosecutor or local town 
supervisor, it was for the President of the United States. What 
do you foresee or how have you already been asked to be 
involved in making sure that that experiment becomes a reality?
    Attorney General Reno.  First of all, I think it is 
important to make clear, because industry sometimes thinks that 
we are trying to get in to regulate them, and we don't want to 
regulate them, we want to work with them to develop the 
Internet in the wisest way possible and to be prepared to 
respond in terms of prevention, but also in terms of 
enforcement so that people can have confidence in the Internet.
    I think that that is an experiment within Arizona, and I 
think people are looking at it, but it, again, is an example of 
the wonderful things that can be done with the net if people 
have confidence in it and we can respect the privacy of 
individuals so that people won't know how you are voting.
    It is probably one of the most exciting, complex, 
challenging and critical issues that law enforcement will face 
in the next century, how we respond in the right way, fairly, 
effectively, according to law, while at the same time enforcing 
the privacy of individuals who use the Internet and making it 
the tool that it can be----
    Mr. Serrano. Are you aware whether the State of Arizona did 
this on their own or did they contact the Department----
    Attorney General Reno.  To my knowledge, they didn't 
contact us, but I will check and let you know. There may have 
been contacts through--I am not aware of any. I, frankly, read 
about it in the paper.
    Mr. Serrano. So did I. I saw it in the paper.
    [The information follows:]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Serrano. It was interesting that the senator from 
Arizona was involved in raising so much money on the Internet, 
which is a whole different thing than the voting there.
    Once again, I thank you for your answers to my questions. 
For my part I stand ready to continue to work with you; and, 
hopefully, we will be able to resolve any differences on those 
other two very small issues.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. This is probably the last opportunity. I have 
some questions that I will submit. I just want to express to 
you on a personal level how much I admire you and thank you for 
the service that you have given. We don't agree on several 
things, and that is very obvious, but on a personal level I 
very much admire you.
    Attorney General Reno.  Well, I thank you, Congressman. I 
had calves and cows when I was little, and the bottom fell out 
of the calf market just after I invested a lot of money in it, 
my money being $5 and $10 which I earned. It is a tough issue, 
and I admire you for continuing to push it and bring it to 
other people's attention, and I thank you for your comments.

                               INS Issues

    Mr. Rogers. We are going to get you out of here very soon, 
but not before we bring up our favorite topic, which is the 
INS.
    I want to update the list that I have been doing with you 
every year of disasters, failures, problems, whatever, at the 
INS. I want to update you with the very latest, current list.
    We have doubled this agency's budget since 1995. In 1995, 
their budget was $2.1 billion. It is now $4.3 billion in the 
current year. If you go back a few more years, we have 
quadrupled INS's budget over the last few years in an effort to 
try to stem the problems that were taking place within its 
jurisdiction, thinking mistakenly that all they needed was more 
money, more staff, more authority; and they have spent the 
money, but the problems get worse, not better.

                             Border Patrol

    Here is the latest, an update from last year. Border Patrol 
is still not under control. The border is still not under 
control, no more under control than it was 4 years ago, despite 
the fact that we have increased the number of Border Patrol 
agents from a level in 1993 of 3,900 agents to a level of 9,377 
agents, a 136 percent increase. In fact, while a stream of 
illegal aliens may have been slowed in the San Diego area, it 
has moved east to Arizona, New Mexico and Texas. Yet their 
budget request funds less than 1,000 agents over 2 years. In 
spite of extensive recruiting efforts, they are still having 
problems hiring and keeping Border Patrol agents.
    Ahmed Ressam, suspected Algerian terrorist, crossed at a 
checkpoint in Washington State with the components of a bomb in 
his car, five other suspects have also been arrested, and yet 
the northern border of the U.S. only has 322 Border Patrol 
agents. Out of almost 9,000 that were authorized for fiscal 
year 1999, only 5 percent are on the northern border. INS 
remains almost exclusively focused on the southwest border.
    Mariano Faget, an INS official in Miami, indicted on 
suspected spying for Cuba, in the news right now.

                              Ident/IAFIS

    Failure in the identification system to interface with the 
FBI fingerprint database that resulted in the Border Patrol 
releasing Rafael Resendez-Ramirez, the suspected serial killer, 
even though he was on the FBI's 10 most wanted list. INS didn't 
know it, hadn't linked up to FBI, and released him. He had been 
previously deported by INS three different times and was in INS 
custody on eight other occasions.
    This agency is inept. The failure to plan for and request 
resources, to keep up with their detention needs that Mr. 
Latham mentioned, resulting in two large and last-minute 
requests for additional space, an $80 million emergency 
supplemental in fiscal year 2000, a $230 million budget 
amendment request for detention space for criminal aliens. Even 
though there are 6 million more illegal aliens now living in 
the United States, growing faster than the rate
that INS removes them, in spite of the considerable resources 
that we have invested in the Border Patrol, the fiscal year 
2001 budget justification says that INS has had its new 
interior enforcement strategy in place since January, 1999, and 
yet they have yet to provide us with a satisfactory plan.
    Justice, as you well know, has had to step in more 
frequently to clean up INS disasters, a few of those that we 
have dealt with you.

                            CITIZENSHIP USA

    Citizenship, USA. In 1996, when INS naturalized 1.4 million 
immigrants waiving all requirements that the FBI furnish them a 
background check on these people before they were naturalized, 
something we have done since time immemorial, in order to get 
1.4 million voters on the rolls in 1996, quadrupled the number 
that is normally naturalized. As a result, there are tens of 
thousands of felons on the streets of the U.S., perfectly good 
citizens now, thank you, because they weren't found by the FBI 
or at least the INS didn't ask the FBI if they had a criminal 
background.

                        INS FINANCIAL MANAGEMENT

    Financial management problems, the audit of the H(1)(b)s, 
temporary visa issuances, INS issued more visas than the law 
allowed. No one yet knows and you can't tell me, unless you can 
tell me now, how many tens of thousands of visas were illegally 
issued by INS. The number of pending immigration benefits other 
than naturalization has increased, and the processing time is 
growing. The number of applications for benefits other than 
naturalization for January, 1999, was 2.1 million and for 
January, 2000, 2.7 million pending, unable to be acted upon.
    INS has failed to anticipate the production needs for 
expiring green cards, and that has resulted in waits of up to 2 
years for green cards to persons granted that status. Their 
$4.3 billion budget is over 20 percent of your whole 
Department's resources. INS was the only Justice agency that 
had deficiencies; and, as a result, Justice was unable to 
receive a clean audit.
    A new report that just came out in the newspaper on 
February 29th about the government performance project where an 
agency graded the Departments of government on their overall 
management, guess what is at the bottom of the list, the 
worst--INS. That confirms something we already knew. I didn't 
need a study to tell me that. Because we have concluded that in 
this subcommittee now for years. They got a D.
    Of the 26 reports that we requested in fiscal year 2000, 13 
have not been submitted by the prescribed deadline, five are 
due from the conference reports, and the fiscal year 1998 and 
fiscal year 1999 reports have never been submitted by this 
agency. They just say, we don't have it--but give us our money 
for next year.
    What are we going to do about the INS and its continued 
inability to get its house in order? Maybe there are some other 
items on this list of failures, transgressions that I have 
omitted. I am sure that there are. Would you like to add to the 
list?

                            INS IMPROVEMENTS

    Attorney General Reno. First of all, I would like to put it 
in perspective. Have you ever been to the border?
    Mr. Rogers. I have.
    Attorney General Reno. I wish you would have gone with me 
in August of 1993 when you talk about a border out of control. 
In San Diego, vast crowds of people waited to cross, and most 
crossed successfully. There were little lighting fence sensors. 
Residents along the border complained about crime. Now you go 
down there and you see, because of your efforts, the Border 
Patrol efforts, Justice Department efforts, fencing, state-of-
the-art sensors; and, after peaking in 1992, the violent crime 
rate is down by 44 percent in San Diego.
    Now your response is, it just moved east. But you go east, 
and you see the steps that have been taken, and there are still 
more steps to be taken. If Mr. Kolbe were here, he would point 
out Douglas, but we are in the process of doing that. Look at 
what they have done. They have absorbed 114 percent increase in 
agents to date, land border inspectors have increased by 53 
percent, miles of lighting have increased by 171 percent, 
fencing by 637 percent. Miles of road have been increased, 
sensors--12,184 sensors have been installed. There has been an 
89 percent increase in vehicles, 105 percent increase in 
helicopters, 176 percent increase in NATS case processing. 
Total removals have increased by 317 percent. Persons inspected 
have increased by 25 percent, and detention beds have increased 
by 214 percent.
    Mr. Chairman, I couldn't agree with you more. There is a 
lot more to be done. I realize more work needs to be done to 
strengthen our detention and removal and identification 
efforts. We recently provided information to the House 
Immigration Subcommittee, that of 35,000 criminal aliens 
released over the last 5 years from our custody, approximately 
37 percent went on to commit additional crimes. Although this 
rate of recidivism is similar to non-alien criminals who were 
recently released, I am troubled by the information, and I want 
to address this very important problem.
    To address it, I think we have got to be concerned about 
the detention effort; and, as you know, we have created the 
concept of a Detention Trustee to pursue these issues. I want 
to do everything I can to improve the institutional removal 
program so that people go directly from the prison back to the 
country of origin.
    There are other things that need to be done; and, in the 
time I have remaining, Mr. Chairman, I would like to work with 
you on what we can do to improve the effectiveness of INS.
    In that regard, I think INS has been unable to keep up with 
the hiring of the thousand Border Patrol agents because it is 
very difficult to hire people in a time of low unemployment to 
go to a lonely spot on the border for $23,000 a year. Last 
year, we fell short by about one-half the Border Patrol hiring; 
and we are going to try our best this year. We see some 
progress.
    In fiscal year 2001, we have requested only 430 new Border 
Patrol agents; and I think a large part of our problem is pay 
related. We are asking for $70 million to provide grade 
increases to Border Patrol agents and inspectors and to reform 
the Border Patrol's overtime pay system, and I want to do it so 
these Border Patrol agents can have the money and have it go 
towards their retirement benefits.
    I think it is important that we address the issue of 
financial management.
    We have made some progress in getting INS's house in order. 
We will continue to--I am putting a full court press to get 
INS' accounting system and their books cleaned up so that the 
INS and the Department have a clean audit opinion in the year 
2000. I am requesting that the committee agree with the 
establishment of a chief financial officer at INS as a means of 
doing this.
    In response to a number of concerns raised about INS's 
congressional relations, including the issue of reports, which 
embarrasses me, I have strengthened the Department's Office of 
Legislative Affairs by adding a deputy who will have greater 
oversight of INS's Congressional Relations Office.
    I think one of the most important issues that we can 
address, Mr. Chairman, is the whole issue of INS automation. As 
more and more workload is placed on the agency in terms of 
application for benefits and the like, so much of the effort 
comes down to automation. As we have so many people coming 
through the system, we have got to make sure that the IDENT and 
the IAFIS system are connected.
    INS has a number of automation projects under way, and I am 
planning to undertake a bottom-up review of the automation 
initiatives, with the focus on developing a comprehensive plan 
to get the INS system fully integrated and fully functioning.
    I would point out again to you a point I raised at the 
outset, though; and that is it is, very, very difficult in this 
day and time to get people who have the expertise and the 
management expertise to build such efforts, but we are 
continuing. I have asked Steve Colgate and Don Prosnitz, my new 
science and technology adviser, to head up this effort.
    I share your concerns. You and I have talked about it, but 
I think much has been done and much has to be done, and I think 
these key initiatives can make a significant difference.

                     INS RELEASE OF CRIMINAL ALIENS

    Mr. Rogers. Now, did I hear you say that the percent of 
released criminal aliens that go out and commit further crimes 
is 37 percent?
    Attorney General Reno. That is the--released over the last 
5 years from our custody, approximately 37 percent went on to 
commit additional crimes.
    Mr. Rogers. Number one, why would a person being held as a 
criminal alien be released by the INS?
    Attorney General Reno.  You may have somebody who served 
time for shoplifting. You may have somebody who has been 
legally in this country for some time that commits an offense 
and is released. We are analyzing that now to determine just 
what the issues are.
    Mr. Rogers. But these people are deportable. If they are 
criminal aliens and they have served their time, are they not 
deportable back to their country rather than being released?
    Attorney General Reno. We are going to look at all of the 
issues to see.
    One of the things that I want to do is to make sure, when a 
person is deportable and should be deportable, that we try to 
do that while they are in custody for the offense that they 
committed.
    Mr. Rogers. Do we know how many of these people commit 
serious crimes after they are released?
    Attorney General Reno. I don't have the exact figures on 
that yet. But I will furnish them to you--unless Steve, do you 
have them?
    Steve tells me that we are still sorting through that, and 
we can come back and testify or give you a briefing when we 
have the precise figures.
    Mr. Rogers. Well, I want to know how many criminal aliens 
we have released onto the streets of America, why they were not 
deported back to their home country when their time was up here 
in jail, and a breakdown of the types of crimes for which they 
were being held and the types of crimes which they committed 
after they were released--that is to say the seriousness of the 
crimes.
    This is shocking, again. Every time, I say nothing that the 
INS does next will shock me, but I have lied again. I am 
shocked. I just can't fathom this agency. We give them money 
that we scrape from every other place by the billions of 
dollars, and they just can't get it right.

                          RESTRUCTURING OF INS

    That is why, as you well know, even though this is an 
agency that this Subcommittee funds, I find myself in the 
unusual, ironic predicament of being the chairman of the 
subcommittee and, at the same time, trying to dismantle this 
agency. It may be incongruous, those two actions, but I don't 
know what else to do. I have tried everything known to 
humankind in the 17 years that I have sat on this Subcommittee, 
the last 5 of which as chairman, to try to solve this agency's 
problems, all to no avail.
    I know you have devoted a lot of your time and attention 
and your staff's attention to the same problem. Don't you agree 
with me that we have got to do something dramatic to deal with 
the jurisdiction of this agency that is not being served by 
this agency?
    Attorney General Reno.  As I have told you and as you well 
know, I want to work with you on issues of restructuring in any 
way that I can. But I think, Mr. Chairman, that in the time I 
have, the most important thing that I can do is to do 
everything I can to get the financial management of the agency 
in order, and we have made real progress, to get the detention 
program working correctly through the use of the Detention 
Trustee and through enhancement of the Institutional Removal 
Program to develop a system of automation that can function. 
And, Mr. Chairman, believe me, that is easier said than done 
when you go out to try to hire computer experts that understand 
what is necessary from a management as well as from a technical 
point of view. But we are going to try. I just look forward to 
working with you in whatever undertaking to try to leave the 
agency in a shape that it can build for the future.

                       RELEASE OF CRIMINAL ALIENS

    Mr. Rogers. Of course, we are talking about real human 
beings here that are suffering, American citizens who pay their 
taxes, who are citizens of our country, who are being preyed 
upon by criminal aliens released by this Justice Department 
upon them with no apparent effort to send them back to where 
they came from originally. How can we defend that type of 
record? One in three--the INS has got to know from these 
statistics that more than one in three of these criminal aliens 
that are being released by them voluntarily are going to 
inflict some pain on another American--kill, rob, maim, cheat, 
steal, break in, drugs, whatever--one in three of those people 
that they are knowingly releasing--they have got to know that 
these people are going to inflict pain on our people. How can 
we defend that?
    Attorney General Reno.  Mr. Chairman, we have got to look 
at exactly who these people are, why they were released and 
take steps to avoid it for the future. But we have got to 
recognize--and I look forward to working with you on that 
effort--that the same rough fraction holds true for those 
United States citizens that are released from our jails.
    Mr. Rogers. But we can't deport them, but we can deport 
these people that came here illegally, committed a crime while 
here and served their time in jail, and then we turn them 
loose. We can return them to their own country, not to inflict 
pain on Americans. I can't defend that.
    Attorney General Reno. Mr. Chairman, Congress passed an act 
in 1996 that said that we couldn't release them. Then I 
suddenly start getting letters saying, why don't you use your 
discretion to release them? It is easier said than done, but we 
have together focused on an issue that has got to be addressed. 
We have got to address it both with respect to citizens and 
otherwise and do everything we can to properly prepare for the 
future.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                          DOJ BUDGET PROBLEMS

    Mr. Rogers. Now you know we have been very supportive of 
the Department of Justice. We have increased your budget by 
about 50 percent over the last 5 years, despite constraints 
that we were under overall in spending. We expect that money to 
be used wisely and in the manner for which we provided it, but 
we have become increasingly concerned that some DOJ components 
are not doing this.
    Last year, we learned that DEA moved around almost $330 
million without our approval. Last year, we had to bail the 
U.S. Marshals Service out when they came up short because they 
had not managed their budget within the level that it was 
given. We have also, as I have said, had to bail out the INS 
financially. Now we have learned that the FBI may be as much as 
$65 million short this year. How do we explain this?
    Attorney General Reno. One of the things that I have tried 
to do is instill respect for sound financial management to 
every one of the managers. The result has been now a clean 
audit except for INS, and this is a tremendous accomplishment 
on the part of these people, and I am very proud of the effort 
that has been undertaken.
    With respect to the FBI issue, we are not looking for you 
to bail us out. We have got to take steps to live within our 
budget. The base budget review that is going on will address 
the causes for the problem. Managing growth so that it does not 
lead to future shortfalls, as I have discovered, is one of the 
issues a manager must cope with. I have reminded my managers, 
and they need to be mindful that decisions made today can have 
an impact down the road.
    One of the areas that I think we need to address and just 
constantly remind them is that we see situations where a pay 
increase is given and it has got to come out of the base where 
there are other obligations that are imposed where you think 
that there is going to be more money but there is not more 
money, and trying to run a big operation in that situation is 
not always the easiest thing to do. But we are committed to 
doing everything that we can to leave this Department in as 
good shape as possible.
    Mr. Rogers. Well, of course, all agencies have the same 
requirement to manage their moneys. Justice has been one of the 
very few agencies that has been flush with money. We provided 
you increases when everyone else was getting cuts, and yet we 
see mismanagement in these components that I have mentioned.
    Attorney General Reno. Mr. Chairman, I think they probably 
appreciate your generosity so much that they keep thinking that 
it is coming each year, and they don't think of the 
consequences sometimes.
    Mr. Rogers. Uh-huh. We can fix that.
    Mr. Serrano. Wrong guy to get that feeling with.
    Mr. Rogers. We directed you in the fiscal year 2000 
conference report to conduct complete budget reviews of the 
major DOJ components. When can we expect those reports?
    Attorney General Reno. Steve says they are in the process 
of compiling the information right now, and I will ask Steve or 
Therese to let you know when to expect it.
    Mr. Rogers. We are going to mark up the bill earlier this 
year than normal, and we need them before we mark up the bill.
    Attorney General Reno. Thank you for that warning.
    Mr. Rogers. Can you assure us that any shortfalls that will 
be found will be fixed without the need for us to bail you out?
    Attorney General Reno. I am committed to doing that.
    Mr. Rogers. I know you are, but are the components going to 
do that? Was that a yes?
    Attorney General Reno. Yes. I think we should confer with 
them.
    Mr. Rogers. With whom?
    Attorney General Reno. The components that the Chair 
referred to.
    Mr. Rogers. I would expect that you do.
    Attorney General Reno. I am going to, and I have.
    Mr. Rogers. Surely they will hear that we want them to take 
care of their own problems. And, if not, we will buy an ad in 
the newspaper or on TV.
    Attorney General Reno. Yes, Mr. Chairman.
    Mr. Rogers. I have a number of other questions which will 
be submitted for the record.
    Attorney General Reno. Mr. Chairman, I am always happy to 
stay for as long as you want.
    Mr. Rogers. We don't want to punish you any more. You have 
been such a nice witness.
    Mr. Rogers. Mr. Serrano, any other questions?
    Mr. Serrano. No, just to thank the Attorney General for her 
testimony today. We will continue to work. As the Chairman 
said, we are trying to mark up early this year, and we hope 
that many of the issues under your jurisdiction that tied up 
this bill last year will be resolved prior to that.
    Attorney General Reno. Thank you.
    Mr. Rogers. Thank you, Attorney General Reno, for your 
testimony and your generous time and your staff, and we look 
forward to working with you.
    Attorney General Reno. Thank you.
    Mr. Rogers. The hearing is adjourned.
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




    
                                          Thursday, March 16, 2000.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

LOUIS J. FREEH, DIRECTOR

                      Opening Remark of Mr. Rogers

    Mr. Rogers. The Committee will be in order. This afternoon 
we would like to welcome the director of the FBI, Louis Freeh, 
to appear before the Committee on behalf of the FBI's budget 
for fiscal year 2001. You are seeking $3.281 billion from this 
Committee for the FBI, which represents a net increase of $240 
million, or 8 percent over the total comparable amounts 
available to the FBI in the current year. We have tried to 
respond to the FBI's needs so that the United States is better 
protected and better prepared to respond and better informed on 
the threat of terrorism, violent crime, and other violations of 
Federal criminal law.
    In the last 5 years we have increased funding for the FBI 
by $1.03 billion, a 50 percent increase in these 5 years, 
including $700 million in new resources to assist you in 
responding to the increasing terrorist threats we face both 
here and abroad. The FBI's mission is to perform these 
responsibilities in a manner that is responsive to the needs of 
the public and is faithful to the Constitution of the United 
States.
    In 1999, law enforcement all over the country received new 
tools to fight crime, as we will finally see our large 
investment in IAFIS and the NCIC-2000 come to fruition. 
Investments in a new crime laboratory, DNA identification 
systems, and command and control centers will also allow for a 
better response to the crime problems facing the country.
    This will be an extremely difficult budget year for this 
committee. The FBI will be given no exception to having to 
justify every dime that it needs and to demonstrate to us that 
the additional resources will make a difference.
    Hopefully, this hearing will provide you that opportunity 
to do that today; and we appreciate your being here with you 
and your staff. Let me yield to my ranking member, Mr. Serrano.

                     Opening Remarks of Mr. Serrano

    Mr. Serrano. Thank you, Mr. Chairman; and once again it is 
a pleasure to welcome Director Freeh. As always, you have had a 
busy year; and I look forward to hearing about the challenges 
that you are facing. Particularly, Director Freeh, I am 
interested in discussing cybercrime and cyberterrorism; and 
then I will ask a series of questions regarding an issue of 
special interest to me and to the people who reside in the 
Commonwealth of Puerto Rico regarding FBI actions in the not-
too-distant past. I welcome you here, and I stand ready to 
assist you in any way that I can in this budget process.
    Mr. Rogers. We will insert your written statement in the 
record and welcome your oral statement.

                 FBI Director Freeh's Opening Statement

    Mr. Freeh. Thank you very much, Mr. Chairman and 
Congressman Serrano and Members of the Committee. This is 
actually the seventh budget that we have worked on over the 
years, and let me just echo the appreciation not just of the 
FBI and the Attorney General, but really all of my colleagues 
in Federal, state, local and now even foreign law enforcement 
who have benefited from the extraordinary support that you have 
just briefly alluded to in very summary fashion.
    In all of those programs, all of those endeavors, this 
committee has been at the leadership level with respect to 
public safety and law enforcement; and we are very, very 
grateful for that. There have been a lot of changes as you 
mentioned over the years and an unprecedented period of growth 
for the FBI for which we are very thankful.

                         CHANGING DEMOGRAPHICS

    I was looking at some of our statistics before the hearing, 
and not only has the nature of our work changed even over a few 
years, but the demographics as well as the composition of our 
agency has also changed.
    Since October 1993, we have hired 13,188 employees. That 
includes 4,788 agents and 8,400 support personnel. That 
represents about 45 percent of the current on-board employees 
of the FBI, which demographically puts us in a very 
historically unique position. In addition to the technology 
areas, Congressman Serrano, you noted particularly cybercrime, 
we are entering a period of great challenges with probably the 
most diverse and, I think, talented personnel, but also, on the 
experience level, probably lower than many, many years before. 
For instance, in our New York office, 46 percent of our 
agents--and we have a total of over 1,100 agents there--have 
under 5 years of experience. I was in Los Angeles on Monday for 
an office visit, and 47 percent of the agents there have under 
5 years of experience. This means that in addition to coping 
with the technology issues, we have to, of course, make sure 
that we are trained and that we have the ability to improve our 
talents and deliver the services that this committee and the 
American people expect.

                       CHALLENGES FACING THE FBI

    If I might take a few minutes, Mr. Chairman, with your 
indulgence to talk very, very briefly about some of the areas 
where we are being challenged and we are responding based on 
your support. In the area of technology, integrating our work 
into the digital world and being a law enforcement agency in 
the information age poses substantial problems. For instance, 
in half of our cases, we now require computer forensic 
examinations, which is a very new phenomenon. In 1999, we 
needed to do 1,800 computer examinations. Next year, it will be 
up to 6,000, which is why, among the other reasons, we have 
asked for an increase in the number of our examiners.
    The nature of our cases also has changed, not just from the 
impact of technology, but also globalization.
    We had a case 2 weeks ago, just by way of illustration, out 
of our New Haven office where the FBI learned from an Internet 
bulletin board that an unknown person posted a message, and the 
message was ``Sometimes I feel like shooting up my school.'' 
Our New Haven office working with other FBI components and then 
working with an overseas Legal Attache--which is why the LEGAT 
program is such an integral part of what we do--was able to 
trace the origination of that message to a 14-year-old in a 
foreign country. We worked as we always do in those cases with 
the foreign police. They issued a search warrant, arrested a 
14-year-old who not only had firearms but also had dynamite. 
The police force in the other country commended us for the 
ability to unravel that kind of a trail, and for the impact 
that that preventive action had probably in that country and 
perhaps other places.
    In the national security area, the Cold War is over. I am 
not sure that everybody understands that. We have been actively 
involved with increasing frequency in the counterintelligence 
area, as exemplified by very significant espionage cases 
against three major countries in the last few months. The 
terrorist threat is rising not only around the world but around 
the United States. The events of the new year period, 
particularly in Seattle where on Tuesday I was able to speak 
with the agents who worked on that case, and the series of 
cases which unraveled in the course of that counterterrorism 
investigation which again took FBI agents and personnel not 
just around the country but outside the United States and 
literally around the world working on cases of immediate threat 
and necessity.

                         GLOBAL COMPUTER CRIME

    With respect to dealing with global crime and computer 
crime, in February the attacks on the Internet companies made 
it crystal clear how this is not only the wave of the future 
but in fact, is the reality of today. Using a computer to break 
into a New York bank from Russia and move millions of dollars, 
and shutting down a 911 system, using computers in the course 
of almost every kind of criminal and counterintelligence 
activity as well as organized crime and drugs, will pose and 
continue to pose great challenges to us.
    Meanwhile, we have to work very closely with our state, 
local, and foreign partners. We have less than 12,000 FBI 
Special Agents as compared to the 12,000 Chicago police 
officers. By way of comparison, that makes us not only an 
organization that has to maximize our resources--and we are 
spread literally all over the world--but to make sure that we 
have the tools and the technologies that give us the force 
multipliers so that the people working for us, and against the 
people we protect benefit.

                       FY 2001 BUDGET INITIATIVES

    With respect to the fiscal year 2001 budget, I believe that 
the areas where we have requested additional support, continued 
support, is central to all of the things that I have alluded to 
and which you, Mr. Chairman, and Congressman Serrano, have 
alluded to. Of the eight different initiatives, three of them 
are operational, that is, dealing with particular cases, five 
of them are in the areas of operational support, technology, 
training and tools and skills that we need to perform our job. 
There is a counterintelligence request for $19.1 million. There 
is a separate request which is operational support for 
information collection, management, analysis, and that is again 
using the tools of the digital world for translation activity 
and the computer software and hardware we need to perform our 
job.
    Training is another separate area, again a support 
initiative. Investigative support, which includes buying new 
digital body recorders which are the state of the art as 
opposed to the old reel-to-reel recorders which we use as well 
as resources to continue preparing for the 2002 Olympics where 
the FBI has the central counterterrorism and intelligence 
collection component responsibilities.
    CALEA, on which you, Mr. Chairman, have been a particular 
leader for many, many years, ensuring that not only the FBI but 
our state and local partners have continued lawful access 
pursuant to court orders to the conversations as well as the 
evidence of people who commit the most serious types of crime.
    Technology and cybercrimes are a separate area. Again we 
are looking for computer examiners and the ability to use these 
tools effectively. We believe that these particular resource 
enhancements, together with our 5-year strategic plan with the 
counterterrorism and technology plan, will put us in good stead 
to begin to manage all of the new threats and burdens that we 
deal with.

                       PAY AND BENEFITS SHORTFALL

    I want to mention briefly before I close, as I have 
previously advised you as well as Chairman Gregg, we are 
projecting a shortfall in the personnel compensation and 
benefit area. The shortfall has both internal as well as 
external reasons and influences. For the internal factors, 
which we take full responsibility for as we do the entire 
shortfall, obviously, there are several factors. We have 
upgraded many of the support positions, 17 specifically, at a 
cost of several millions of dollars. We have provided at my 
decision, substantial financial incentives to staff, some of 
our hard-to-staff offices where the hardships make it very 
difficult and extra expensive for people to serve. Taking 
advantage of the congressionally authorized transit subsidy 
program has cost us some money, which we think is well spent.
    The external factors of course include pay raises as well 
as the migration from the Civil Service Retirement System to 
the FERS system.
    We have taken substantial corrective action to resolve this 
problem using both unobligated resources from prior years as 
well as reprogramming from this year, and those are now being 
finalized and will be presented to the committee. We will work 
very hard to ensure that this problem does not occur again. 
However, we do need to work very closely both within the 
Department and certainly with this Committee and the Senate to 
ensure that in the days to come we have not only the tools and 
skills to perform our job but the funding and positions that 
are requisite to carrying out that mission.
    I want to just conclude by again thanking you, Mr. 
Chairman, Congressman Serrano, all of the Members of the 
Committee, particularly your staff. I also want to thank our 
staff who works as you do year on these issues. I am very 
proud, that the public accounting firm that audits our 
financial statements pursuant to the Chief Financial Officers 
Act gave an unqualified opinion in both 1998 and 1999 for the 
work represented in those statements. I want to thank my staff 
for working and preparing for the hearings. Thank you, Mr. 
Chairman.
    [The information follows:]
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                         FY 2000 PAY SHORTFALL

    Mr. Rogers. Thank you. Now, I am holding a news account 
which quotes Deputy Director Thomas Pickard on March 8, which 
essentially says that--relating to your shortfall, that 
Congress had not approved funding and that is the reason for 
the shortfall. Now, you know in the last 5 years, as I have 
said, we have increased your budget by 50 percent. You have 
gotten increases in this bill like no other agency except INS 
and the Bureau of Prisons. This Subcommittee has bent over 
backwards. We have scraped the bottom of the barrel, and you 
come up $65 million short this current year and say that 
Congress has not approved your funding. What do you say about 
that?
    Mr. Freeh. It is clear that this is not an issue of either 
congressional funding or OMB approval or even Department of 
Justice funding. This was a shortfall that we were, quite 
frankly, very late in realizing and realizing it late is my 
responsibility. I take responsibility for that. But as I 
mentioned, there are many internal decisions which we made, 
which I have the responsibility for, which have caused and 
impacted on that shortfall. We did not ask for these funds. We 
did not flag this issue for the OMB, certainly not for this 
Committee, so the responsibility is with me and I keep it 
there.
    Mr. Rogers. Well, then maybe you had better talk to Mr. 
Pickard about this statement and see that something is put out 
differently because I know this Subcommittee resents, and 
certainly I do, after trying as hard as we could to find you 
money, being blamed for the shortfall which clearly is an 
internal problem.
    Mr. Freeh. It is, and I take responsibility for that.
    Mr. Rogers. We have learned that you hired 300 more people 
than you requested or received funding for this current year. 
That alone, that overhiring alone created at least a $15 
million shortfall. How did that happen?
    Mr. Freeh. We were determined, as I think we were 
appropriately determined to be, to hire all of the positions 
and fill all of the vacancies. I go back particularly to the 
period in 1997 and 1998 before this Committee where we were not 
filling positions. In fact, for several years in a row, where 
supplemental appropriations he provided positions that had not 
been filled. So we hired. We brought in people we thought in a 
measured manner which would be equivalent to the positions. 
But, by hiring up to the position levels, we used more FTEs. We 
have taken substantial steps to remedy that. By the end of this 
year, due to the internal measures that we have taken, we will 
be under the FTEs with respect to agents. We will be over with 
respect to support. Overall, we will still have an overage of 
227 FTE. But we will, I believe, by that time be in accords 
with a track which will put us back where we belong.
    Mr. Rogers. There is a difference between authorizations 
and appropriations. When Congress authorizes you to have so 
many people on your staff and yet we cannot find the money to 
fund all of those authorizations, it does not mean that you can 
hire them. That is clear, isn't it?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. I think that is what happened. If agencies 
could hire the personnel that they are authorized to hire and 
yet we cannot find the money to hire, the INS would have 10,000 
Border Patrol agents. That is what they are authorized. We 
simply cannot find money for that many. It is the same with the 
FBI and all of the other agencies. We simply cannot tolerate 
any agency exceeding its funded level. So are you going to eat 
that fiscal year 2000 shortfall?
    Mr. Freeh. Yes. We have a plan to address that. As I said, 
by the end of the fiscal year we will still be over but will be 
clearly on a track that will eliminate that overage within a 
short period of time.
    Mr. Rogers. What about 2001, if you eat it and take care of 
it for the current fiscal year, what about next year?
    Mr. Freeh. If we do not have the necessary funding to have 
the number of positions that are authorized filled to the 
appropriate FTE level, we are going to have to look to putting 
the breaks on additional hiring next year or even asking that 
we have a readjustment of the number of positions or FTEs and 
do what we can with the very scarce dollars in which this 
committee has worked hard to provide.
    Mr. Rogers. We all have to live within our budgets. We have 
a certain amount of money to spend. DEA has had shortfalls in 
the past. The U.S. Attorneys, the U.S. Marshals Service. We did 
not bail them out. We made them eat those shortfalls. You will 
have to do the same thing. The Attorney General assured us last 
week that this shortfall problem would be fixed without the 
need for this committee to bail you out. So we expect that you 
will do that in the current year and in 2001. We simply cannot 
find the moneys next year on top of the other increases that 
you are asking for to bail you out in 2001.
    The 2000 conference report that this subcommittee produced 
directed the Attorney General to conduct a complete budget 
review of all of the major DOJ components, including the FBI. 
When can we expect your reports from those reviews?
    Mr. Freeh. I am told April 10, Mr. Chairman.

                        FBI ROLE IN PUERTO RICO

    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Director Freeh, there 
are a lot of members attending today so I am not going to ask 
all of my questions; but as I mentioned, there is an issue of 
great importance to me personally, to people in my community 
and to over 4 million citizens in the Commonwealth of Puerto 
Rico, in view of the fact that more and more, every day, we see 
people reconciling with the past and actions of the past.
    I think it is important to bring to you something you may 
be aware of, and that is this. It was rumored and is now proven 
that during the 1950s, 1960s, and 1970s the government of 
Puerto Rico participated in an operation to discredit the 
independence movement on the island. Files were kept on doctors 
and lawyers and journalists and taxi drivers and workers who 
had at any time supposedly made any comment which could support 
the independence of Puerto Rico. People lost jobs. Some people 
also lost their lives, and there has been serious belief that 
somehow there was involvement by the authorities, if you will, 
in the loss of these lives.
    Recently that has been dealt with in Puerto Rico. People 
understand that these files exist, and they were made public, 
and a fund was even established by the governor to compensate 
people for their losses during that period of time. As recently 
as this month, a couple of weeks ago, the Puerto Rico Senate 
passed a resolution asking the larger question, that is, what 
role did the FBI and other Federal agencies play in what is one 
of the darkest moments in the history of the relationship 
between Puerto Rico and the United States?
    My question to you today is: would it be possible for the 
FBI under your leadership to come clean for its past actions 
and tell us if indeed there was any involvement, tell the 
people of Puerto Rico and tell the American people if there was 
any involvement, and how extensive it was. Specifically, is 
there evidence, as some former FBI folks have reported, of the 
FBI not only being involved in the discrediting of the 
independence movement, but also in some violence and violent 
acts that were committed and passed off as acts of independence 
supporters when in fact they were committed by the government 
to discredit the movement?
    And where does this fit in to appropriations discussions? 
Well, we fund many of your operations, and obviously people who 
were around then unknowingly funded that operation, if that 
operation took place. So the operation that I would like to 
fund this year is the reconciliation with the Puerto Rican 
people and the American people as to what happened during that 
period.
    Lastly, the leader of that movement during the 1930s, 
1940s, 1950s, and 1960s was a gentleman by the name of Dr. 
Campos. Dr. Campos spent 27 years in prison for his 
independence beliefs and died shortly after being released from 
prison. Rumors still persist in the government and other places 
that the FBI participated with Federal prison officials to 
torture him in prison for his beliefs and to try to get 
information from him that he obviously did not have. Or died 
with.
    This is my request. Can the FBI reconcile with the past and 
deal with the truth of what happened, and what can we do to 
deal with that issue?
    Mr. Freeh. Well, I believe we can do a couple of things. 
The first thing is to say again, as has been said but cannot be 
said too frequently, that we deplore anybody in law 
enforcement, whether it be the FBI or any other police agency 
charged with the protection of the people, using the 
instrumentalities, the authorities, the power of police or law 
enforcement, to commit crimes, to violate civil rights.
    Your question goes back to a period, particularly in the 
1960s, when the FBI did operate a program that did tremendous 
destruction to many people, to the country, and certainly to 
the FBI. Part of that involved some of the instances that you 
refer to. In 1976, then Attorney General Ed Levy, who just 
passed away, set forth the Attorney General guidelines which 
are still in force today and which govern, prohibit, sanction 
and, we believe, prevent the recurrence of that type of 
institutional behavior. In fact, in the editorial that The 
Washington Post wrote on Attorney General Levy on Saturday, 
they quoted me talking about the importance of these 
regulations on the FBI as well as other agencies.
    In 1977, the FBI took some steps to notify the people of 
Puerto Rico who were the subjects of some of these inquiries, 
and files and investigations and offered to make those files 
available to them. I asked, when I read the article on December 
28--and I put a direction on there to my deputies to do two 
things: one, to go back and give me, at least on a preliminary 
basis an inventory and two, a briefing as to the extent of our 
involvement. I intend to follow that up, as I did at the time, 
with whatever appropriate legal and necessary steps that we can 
take as an agency to not only look at what is there, and what 
has been there, but also to take steps to make that available, 
as we tried, as I mentioned, in 1977. You have my assurances 
that I will pursue that.
    I will certainly pursue it with the Department of Justice 
with regard to the different standards that we use in those 
cases. But we have no intent to do anything in this particular 
case except make that information available and see if we can 
redress some of the egregious illegal action, maybe criminal 
action, that occurred in the past. I will do that, and you have 
my assurance that we are doing that.
    Mr. Serrano. I appreciate your candor on that issue. I 
would add on a personal note that I will add to this statement 
that I have made today as a member of this Committee by writing 
to you and formally asking for these things. And also, while it 
is indirectly related, many feel that it is totally related to 
the treatment Dr. Campos received in prison. If you can look 
into what the files show on that involvement and what we can do 
to reconcile.
    Let me close, Mr. Chairman, by saying the people in Puerto 
Rico and Puerto Ricans throughout the Nation are dealing with 
the issue of reconciliation. As we look forward to solving the 
status question whether Puerto Rico becomes an independent 
nation or the 51st State of the Union, first it needs to 
analyze what has happened during this 101-year relationship and 
to deal with ourselves as Americans in terms of what went on. I 
thank you and I hope that we can follow up as quickly as 
possible.
    Thank you, Mr. Chairman.

                       ERIC Rudolph Investigation

    Mr. Rogers. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I wonder if you might 
be able to give us a quick update on the Bureau's continued 
search for Eric Rudolph, who is believed to be in my district, 
in western North Carolina. I am aware that he is still one of 
the 10 Most Wanted fugitives. Can you give us also an estimate 
of what it has cost so far for the search and a timetable of 
when the FBI agents are expected to be reduced in the area?
    Mr. Freeh. With respect to total expenditures, I would have 
to come back with a more exact number, but I would say clearly 
with the salaries and all of the infrastructure, we are talking 
about several millions of dollars, certainly just on the FBI's 
part. He remains, as you pointed out, a Top 10 fugitive. He was 
recently the subject of a lot of national publicity as people 
marked the 50th anniversary of this program. We continue to 
believe that he is in that area. We have reduced substantially 
the number of personnel assigned to that investigation. We 
still have an active investigation there. I am going to be down 
there next week to do a site visit, and I will make some 
further determinations as to the number, as well as the scope 
of the activity, that will continue. But our theory was, one, 
that he was there; and, secondly, that the pressure of being 
pursued we believe has contributed to him not doing again what 
he has been charged with doing, at least, and that is two 
extremely serious bombings involving the death of two people 
and the injury of many others.
    I will get you an exact accounting of the dollars. With 
respect to the time frame, I will have a better idea after I 
visit. I will be talking to our State and local counterparts 
while I am there. We will continue to pursue this vigorously. 
Whether we do this with more or less people in that particular 
venue is subject to what I am briefed on. We have not had a 
sighting of him for over 18 months, which of course pushes 
further into a downscaling mode. Obviously, the charges alleged 
against him are very dangerous, and a very highly sought 
fugitive he will remain.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                   Eric Robert Rudolph Investigation

    Eric Robert Rudolph has been charged by Federal Criminal 
Complaints for three bombings in the Atlanta, Georgia area, and 
one bombing in Birmingham, Alabama. The three Atlanta area 
bombings for which Rudolph is charged are: the July 27, 1996 
bomb explosion in Centennial Olympic Park, resulting in one 
fatality and injuries to over 100 other persons; the January 
16, 1997 bomb explosions at the Atlanta Northside Family 
Planning Services facility in which two bombs were detonated, 
the first damaging the building and the second, approximately 
one hour later, resulting in injuries to at least eight 
individuals, including one FBI Agent and one Bureau of Alcohol, 
Tobacco, and Firearms Agent; and the February 21, 1997 bomb 
explosion at ``The Otherside Lounge'' that injured five 
persons. A second explosive device was located and detonated 
during render safe procedures. Following this incident, letters 
signed by the ``Army of God'' and claiming responsibility for 
the bombings were received by local news organizations. Based 
on forensic evidence, investigative personnel working the three 
Atlanta bombings were consolidated into the Atlanta Bomb Task 
Force. On January 29, 1998, a bomb exploded at the New Woman 
All Women Health Care Center, in Birmingham, Alabama. This 
explosion killed an off-duty police officer and seriously 
injured a nurse. The ``Army of God'' claimed responsibility for 
this incident. Based on forensic evidence and other 
investigation, the Bomb Task Force was integrated into the 
newly formed Southeast Bomb Task Force.
    As a result of investigation, a material witness warrant 
was issued for Eric Robert Rudolph on January 30, 1998. 
Subsequently, Rudolph was charged on February 14, 1998, for the 
Birmingham bombing. On May 5, 1998, Rudolph was added to the 
FBI's Ten Most Wanted fugitives list, and a reward of up to 
$1,000,000 for information leading to Rudolph's arrest was 
offered. On October 14, 1998, the Department of Justice 
announced that Rudolph was charge federally in the three 
Atlanta bombings and the Birmingham bombing.
    Between October 1, 1997, and February 29, 2000, the FBI 
estimates it has expended approximately $24,444,000 for the 
investigation of the three Atlanta-area bombings, the 
Birmingham bombing, and the fugitive investigation for Eric 
Robert Rudolph.

                       High-Tech Privacy Concerns

    Mr. Taylor. I want to turn for a moment to the question of 
privacy. I know we are having more and more attention focused 
on crime and law enforcement issues, such as terrorism and 
computer hackers. A lot of the information that you are 
gathering is high-tech and a lot of it is so new in the area of 
high-tech that there are not many rules about it. I know the 
FBI puts forth a message that says we are going after 
criminals, and we are going to catch them, and we are going to 
punish them. I can support that and agree with that, but we 
need to emphasize, I think--and can you speak to this--a 
message saying that at the same time, we are going to protect 
the rights and privacy of law-abiding citizens. A lot of the 
high-tech information, ordinarily, you would not be able to 
share or access. While we are trying to catch those criminals, 
we need to protect the citizens at the same time. Could you 
speak toward that and what your agency does in that area?
    Mr. Freeh. Surely. I would be pleased to. The venues in 
which we work--and you mentioned computer crimes, chasing 
criminals over the Internet as opposed to back fences--we do 
both, and the volume of information, the form of that 
information, the types of information, the whole issue of 
collection, analysis and storage raise the most serious privacy 
issues. Although all of our technologies have changed, and 
certainly the challenges and difficulties have changed, the 
Fourth Amendment has not changed. As the framers put it 
together in 1791, it is exactly the same today.
    So when we came to the Congress in 1994 and asked for 
legislation which would allow the FBI and police departments to 
continue to intercept conversations, on a probable-cause basis 
found by a neutral and detached magistrate, of people who were 
or were about to be committing crimes so that we would have a 
technology that would work in a digital world as opposed to the 
analog world. But probable cause, showing that judge the 
evidence, reporting it back, all of the ceiling and protection 
requirements and the sanctions for the abuse of those, none of 
that has changed.
    We operate on the Internet and we have some very 
significant cases that we work in that area. For example we 
have a case which is called the Innocent Images, which is a 
very carefully controlled undercover operation by which FBI 
agents identify and arrest pedophiles. These are people on the 
Internet who come into your home, literally, and in many cases, 
make arrangements to meet your minor son or daughter in a hotel 
room, those are the cases that we work on. We have made over 
193 arrests. There have been over a hundred convictions.
    Even though we are operating in a new venue and even though 
we are on the Internet as opposed to sitting on the street 
corner, the Fourth Amendment, the Attorney General guidelines, 
the probable-cause standards, the necessity for search warrants 
signed by a judge, none of that has changed. We are working in 
new environments, and we are working with new tools. There is 
no question about that. But the legal standards, the controls, 
the guidelines and the ultimate oversight by courts and this 
Congress have not in one measure, as far as I can see, 
increased our power. They have just adapted to a new venue.

                    NATIONAL REGISTRY OF GUN OWNERS

    Mr. Taylor. Can you speak on the retention of gun-purchase-
background checks? A lot of us have supported that sort of 
measure in controling the illegal spread of firearms. I know 
that you have wanted to hold the background check information a 
little longer. What can you do to assure us that we are not 
going to use that information to create a national registry of 
gun owners? Can we immediately destroy those checks and not 
keep them? I believe that is what Congress intended and what 
the citizens expect.
    Mr. Freeh. We have taken the position--and I know the 
Attorney General has taken the position--that we would like to 
retain these records for as long as it takes to do two things: 
one, ensure that our system, in this case the NICS system, is 
working according to the congressional mandate and according to 
the restrictions of that mandate and not going beyond that; 
secondly, to make sure from an audit point of view people, 
whether police officers or hackers or gun dealers, are not 
abusing the system, that we have a system that has integrity 
and then to get rid of the records because there is no reason 
to keep them. That period varies. Obviously we could argue that 
60 days or 90 days is a more efficacious system than one that 
keeps them for 48 hours. But the necessity is only a necessity 
for the authenticity of the system, the audit controls, the 
integrity of it, not for a national database. We have no 
authority to do that. We would never do that. There is no 
suggestion that we are going to get that authority. We don't 
need it to enforce the instant background system. We do need 
some modest period of retention, if you want us to have it, so 
we can tell you that our system is working and that the wrong 
people are not taking access to the records.

                       Reprogramming Notification

    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Obey.
    Mr. Obey. Mr. Director, I want to talk to you about the 
instant-check system, too; but first I want to follow up on the 
comments of the chairman because, very frankly, I think the way 
your agency has handled your budget indicates that the FBI is 
arrogant. Are you aware of the fact that you have something 
known as section 605 which requires your agency to notify this 
committee every time you move money around from one account to 
another?
    Mr. Freeh. Yes, sir.
    Mr. Obey. Why don't you follow it?
    Mr. Freeh. You would have to give me a specific instance.
    Mr. Obey. No, I do not. Your agency knows what those 
instances are. The only time we receive notice is at the end of 
the year.
    Mr. Freeh. We endeavor to make those notifications as soon 
as we can.
    Mr. Obey. Well, you do a mighty lousy job of it.
    Mr. Freeh. I apologize if that is your view. In many 
instances we make the notifications. We do them as quickly as 
we can. There are some cases where we do not do them. If we 
do--again without citing a specific, I would attribute it to 
oversight and not arrogance.
    Mr. Obey. If I were the chairman, I'll tell you what I 
would do if an agency did not notify me before it spent money 
that was not in accordance with the appropriation: I would cut 
double that amount from your budget every time you did that. 
You have got this huge shortfall and in part, in my judgment, 
one of the reasons you have it is because your agency has not 
consistently informed this committee, and because of that we 
were not red flagged on the problem soon enough to help you out 
of it. So now you have us in a position where you issue this 
kind of ridiculous press release and suggest that it is 
anybody's fault but your agency's. And I for one as a person 
who is supposed to appropriate the taxpayers' money do not 
appreciate that one bit. It is about time that somebody on 
Capitol Hill asked the FBI to behave the same way that every 
other agency is supposed to behave. You are not supposed to be 
above the law as an agency.
    Mr. Freeh. May I respond.
    Mr. Obey. Absolutely.
    Mr. Freeh. We are certainly not above the law. As I said to 
the chairman, I take full responsibility for the neglect in 
bringing this problem to the attention of the committee and the 
Department. We were late in figuring out exactly the scope and 
the depth of that. There was no intention, I can assure you, 
sir, to not report a problem which is a significant one and for 
which I take responsibility. There are occasions where we do 
not get reprogrammings or notifications up, and again I take 
responsibility for that. It is a very large budget. We do it in 
many cases successfully; and we do it in many cases on a 
regular basis, but for those occasions where we do not, hold me 
responsible, as you should, and I will endeavor to do a better 
job.
    Mr. Obey. You have us in one mess of a situation because 
your agency in my view is a mess in terms of its budget 
presentation; and some of the things that you have in this 
year's budget make it even tougher. I think you need to give 
this committee a detailed explanation of how you intend to 
address this problem without setting up Congress as an 
institution, because that to me looks like the position that 
your agency thinks that it is. And Congress--I may have my 
political differences with the chairman, but Congress did not 
cause this problem; your agency did.

                 National Instant Check System Downtime

    Now I would like to ask you with respect to the instant-
check system, we spent $37 million on that system, as I 
understand it. How many times did it crash or was it down or 
off-line last year?
    Mr. Freeh. In the 15 months that it has been running, we 
obviously have some statistics that----
    Mr. Obey. I would appreciate a short answer.
    Mr. Freeh. Some months we were 99 percent----
    Mr. Obey. How many times did it crash?
    Mr. Freeh. I could not give you an exact answer.
    Mr. Obey. My understanding is it crashed at least three 
times.
    Mr. Freeh. I do not dispute that.
    Mr. Obey. One of the times when it crashed was just before 
Wisconsin's hunting season when we need it most, and it 
crashed, I am told, because your agency was engaged in computer 
upgrades either with the NICS system or other systems that feed 
into it.
    Now as you know, we have a lot of controversy in this 
country about the use of guns. It would be nice if we could 
avoid needless controversy on that issue, and I think it is 
very difficult when we cannot count on this system to do what 
it is supposed to do. If it could do what it was supposed to be 
doing, we would not be having arguments about background checks 
because this system would be taking care of it on a virtually 
error-free basis.
    I am going to submit a number of questions for the record, 
but I want to know how many times last year the system was 
down, for what duration was it down, how accurate can that 
system be in providing information when these interruptions 
occur? I want to know what funds are available this year for 
system upgrades. If that is sufficient to meet the need, what 
upgrades are planned and when will they be completed. I want to 
know if you anticipate any additional upgrades this year or in 
fiscal year 2001, and I want to ask who is responsible for 
determining when these upgrades take place, because it seems to 
me when you do upgrades that result in shutting down the system 
at a time when a state such as mine needs it the most, it is a 
spectacular example of how not to do business.
    Mr. Freeh. We will certainly provide all of that 
information in the detail that you want. My understanding is 
that the shut-downs for what they call the software patches and 
upgrades on the occasions that they have been done have been 
timed they thought in a way that would be the least disruptive 
to a system which I must say has worked extremely well in the 
15 months that we have been responsible for it.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                           GUN CHECK USER FEE

    Mr. Obey. If you think that is true, talk to the people in 
my State. They will have some choice words to say about the way 
that this is operating. I will ask a number of other questions 
for the record, Mr. Chairman. I would like to end with one last 
question.
    Why are you back here again proposing the user fee? I have 
had my argument with the OMB and Administration on this, but my 
comments are directed at you and your agency because it is my 
understanding when you get your passback from OMB and you are 
given choices on how you would rather use your money, or what 
choices you want to make to get down to your budget level, you 
would prefer user fees for this program to cutting other 
programs that you prefer to have.
    Mr. Freeh. I do not prefer--since you are asking me 
directly, I do not prefer user fees over any other type of 
funding. I am asking for a funding source for 642 positions and 
at about $71.5 million. Where that comes from, I am not pushing 
the user fee.
    Mr. Obey. Isn't it true when you get your passbacks, when 
you are given a list of choices, you request other items rather 
than full funding for this program without user fees?
    Mr. Freeh. Yes, that is correct--I'm sorry, I am told that 
is not correct. I am told that the user fee is the policy 
determined by the Administration. It is not determined by the 
FBI.
    Mr. Obey. I know that. I have had my argument with the 
administration on that. I would like to know what other items 
in your passbacks you placed ahead of funding this without user 
fees. Do you want to supply that for the record?
    Mr. Freeh. I will have to supply that for the record. I do 
not have it.
    [The information follows:]

                           Gun Check User Fee

    During the FY 2001 budget passback process, restoration of 
direct funding for the National Instant Criminal Background 
Check System (NICS) was the FBI's highest-ranked appeal item. 
The Department of Justice ranked restoration of direct funding 
for NICS as its fifth highest appeal item.

    [Clerk's note.--The referenced material is on file with the 
Subcommittee.]
    Mr. Obey. I appreciate that. It seems to me that Congress 
has been clear. There will be no user fees, so you are putting 
us in the position where we have to raise a lot of extra money 
or deny services, and then it looks like we have been set up 
once again and I don't appreciate that.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.

                          METH PROBLEM IN IOWA

    Mr. Latham. Welcome, Director Freeh. The meth problem in 
Iowa is very, very serious. I would like to commend your 
resident agency for their participation in the Tri-State drug 
task force in Sioux City. You make a real difference.
    I would like an update as to what the activities are with 
the Tri-State drug task force and your agency. I know last year 
you mentioned that the resident agency was having to do mostly 
with crimes on Indian reservations, and you stated then that 
meth was a real problem on the reservations. Is that still the 
case or is there a different role for the agent in the Tri-
State area?
    Mr. Freeh. I am not able to answer your question right now. 
I'm sorry, I did not know about your inquiry beforehand. Let me 
please get back to you on that, and I will make sure that I 
give you that information myself directly. I am not updated on 
that.
    Mr. Latham. If you would, I would appreciate it. It is very 
important for us.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                       Tri-State Drug Task Force

    For 2000, the FBI increased agent staffing in the Sioux 
City Resident Agency from three to four. This increase allowed 
the FBI to expand its ability to investigate crimes on the 
Omaha and Winnebago Indian Reservations and to participate in 
the Tri-State Drug Task Force. The Tri-State Drug Task Force is 
a DEA-led, nine-agency member task force that investigates all 
organized crime and drug matters throughout the Siouxland 
region. One FBI agent is assigned to the task force.
    Only a small number of crimes committed on the Omaha and 
Winnebago reservations are related to either methamphetamine 
use or trafficking. However, drug-related problems on the Omaha 
and Winnebago Reservations have worsened slightly during the 
past year, but the condition is not due exclusively to 
methamphetamine. There have been reports that marijuana is 
being imported from Montana for distribution both on and off 
the reservations, and cocaine has been showing up in small 
quantities.
    With respect to methamphetamine, however, current 
intelligence suggests that there are approximately three groups 
in the Walthill, Nebraska, area, which borders the Omaha 
Reservation, who may be engaged in the distribution of 
methamphetamine. This in an increase of two additional groups 
from last year. It is believed that these groups have settled 
on the reservation in order to avoid scrutiny by larger 
Siouxland area law enforcement agencies. Most of the 
methampetamine distributed by these groups ends up off the 
reservations. No clandestine methamphetamine laboratories have 
been discovered on either reservation.

                        IDENT/IAFIS INTEGRATION

    As you know, a report was recently issued concerning the 
integration of the INS's IDENT database and fingerprint system 
and the FBI's Integrated Automated Fingerprint System. I have 
heard a lot of numbers discussed as to the cost. If you can 
give us an idea of the cost, just a summary, the cost estimate 
and when it will be done.
    Mr. Freeh. There are four studies which have been forwarded 
by the congressional report. Three of them are being done by 
the Office of Justice Programs, or JMD, a division of the 
Department; and the fourth one is being done by the INS. We 
need the results of those studies to certainly make an estimate 
as to the cost that it will take to integrate these systems 
which, as you point out, are different. One is a two-finger 
IDENT system, and the other is 10 finger with different timing 
designs in the systems for obviously different purposes. We 
need the results of those four studies which will cost several 
millions of dollars to perform to make those estimates, and let 
me find out, if I can, exactly when we are expecting the 
results for those. The goal is obviously to integrate them, and 
the Attorney General is committed to doing that.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                        IDENT/IAFIS Integration

    The Justice Management Division of the Department of 
Justice estimates that the studies are expected to be completed 
near the end of calendar year 2000.

                      SOUTHWEST BORDER INITIATIVE

    Mr. Latham. Last year we talked about the resources with 
the FBI and the DEA and the Southwest Border Initiative, which 
is a major factor in our part of the country with meth. Can you 
give me any kind of update on that initiative? We really have 
not seen any reduction as far as trafficking in our area with 
meth, in particular, from the border.
    Mr. Freeh. The Southwest Border Initiative continues to 
have a very high focus on the methamphetamine importation into 
the United States. I think the reason that you are seeing the 
results that you describe accurately is the proliferation now 
of domestic labs, labs which, as I saw in my trip to Seattle on 
Tuesday, are now proliferating all over the states, very small 
labs, easy to set up. Ephedra is becoming more and more 
available. The Southwest Border focuses on an importation 
source and is undermined by the growth of domestic sources.
    So the strategy, which was the way that it was designed but 
to be effective, is now going to have to deal with the foreign 
manufacture exportation; but what is becoming much more the 
norm is the very easy establishment of domestic laboratories. 
DEA has the lead on this. We are working with them. The 
Southwest Border will continue to focus on that issue; but we 
are going to have to get beyond that into the domestic 
production, and that is a huge and diverse problem.

                         INTERPOL RELATIONSHIP

    Mr. Latham. I just had one more question. I would like to 
submit some other questions.
    We were at the Interpol headquarters last August, the 
chairman led our delegation there, and it was very disturbing, 
a report from them that there was very little coordination or 
usage of Interpol by the FBI. We are funding Interpol several 
millions of dollars a year. From what we understood, basically 
those funds were doing us no benefit because of lack of usage 
and coordination with law enforcement and the FBI in the U.S.
    Mr. Freeh. We have a very long-standing and, I think, 
successful relationship with Interpol. There has been a change 
in the leadership there as you probably know. Ron Noble, for 
whom I made the nominating speech last year, is the designated 
new Secretary General. He is a former prosecutor from 
Pennsylvania. For the first time I think we will have someone 
in that position who will want to integrate the FBI into some 
of the senior components, particularly the organized crime 
component and the international intellectual property 
component. He has indicated to me that he wants very high-level 
participation. I have committed that to him. We have not gotten 
that type of invitation previously on those level positions. I 
think with his new leadership, which takes effect in a couple 
of months, you are going to see a more prominent role not only 
for the FBI but the other agencies, including the Treasury. He 
was the Under-Secretary for Enforcement for the Treasury.
    Mr. Latham. Committee members on that trip came away 
wondering why we are spending U.S. tax dollars if we are not 
using any of the great assets that they have available. I think 
the frustration level that day was extremely high.
    Mr. Rogers. We spent a lot of time with the U.S. agencies 
there, the representative at Interpol, and the cooperation with 
Interpol was--I will not say negligible, but it was way down, 
not what it should be considering the money that we invest 
there. I am wondering why have we not done that up until now. 
You are saying you are going to integrate. Why haven't we used 
all of the agencies effectively in the past?
    Mr. Freeh. The American agencies have had representatives 
both in the headquarters previously in Paris, now in Lyon. You 
may have met one of my agents whose full time assignment has 
been over there. She has been over there several years. We have 
not been asked to take senior positions in some of the areas 
where we feel we have the most expertise: organized crime, 
corruption, counterfeit properties.
    What we are getting from the new Secretary General is an 
invitation that we had not gotten before, and it goes to the 
other agencies, too. We use their red notice and warrant 
provisions, and many of the other services which they provide 
and which you support. Where we have not been integrally 
involved is at very high levels of the components which are the 
most essential parts of our mutual interests. I think we are 
going to see a change in that as we get more people asked to 
work on higher levels.
    Mr. Rogers. It just seems to me that it is an asset that 
would be of invaluable assistance to us and them as well. This 
is after all a worldwide organization of law enforcement 
people. While we are expanding your legal attache operations, 
the FBI presence overseas in various posts around the world, we 
would expect to utilize existing police outfits like Interpol 
to further the fight against crime worldwide.
    Mr. Freeh. Yes. Mr. Noble and I have been discussing this 
for the last year. We have a lot of ideas. He has made some 
proposals which we agree with, and I think we can now have an 
opportunity to have a much greater participation.
    Mr. Rogers. Thank you, Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Mollohan.

               DEVELOPMENT OF CRIMEFIGHTING TECHNOLOGIES

    Mr. Mollohan. Director Freeh, I would like to welcome you 
to the hearing today. There have been some expressions of 
concerns. I know that as appropriators we are always sensitive 
about not being informed about reprogrammings and how money is 
to be spent other than as it is appropriated. Those are all 
legitimate concerns on our part, and I know that you understand 
that. Those concerns having been expressed by the Chairman and 
the Ranking Member of the full committee, I would like to 
express appreciation for the tremendous job I think you do 
managing a very complicated agency with a very diverse and 
important, if not dangerous, mission. I also commend you on 
reaching out into the new areas that the FBI is working in, 
breaking new ground in the areas of technology and many 
missions which require forcing technology. I also compliment 
you on reaching out into areas like terrorism which is becoming 
increasing important our country. I note that those are 
challenging missions, cutting edge missions; and we appreciate 
your efforts, accomplishments, and successes in those areas.
    One of the areas that the committee has been very 
interested in has been your development of identification 
technologies to combat the ever-increasing challenges that your 
adversaries present. It is difficult for you to keep up with 
the technology that the people who are committing crimes and 
representing threats can avail themselves of.
    We have appropriated tens of millions of dollars for your 
development of cutting-edge identification technologies; and 
again I am very familiar with that, so I want to compliment you 
on that effort. When you struggled, and the agency and its 
contractors stumbled, you stepped in and righted it and worked 
with it closely. You have stood up an identification technology 
system that reclaims your preeminence in this area in the 
world.

                      IAFIS/IDENT INTEROPERABILITY

    One of the issues that the committee has been interested 
in, because has provided so much money, not only to you but to 
the INS, is how the IAFIS system and the IDENT system should be 
integrated Mr. Latham touched on this issue. I know that some 
reports have now been submitted, and you are awaiting a couple 
of additional reports. I would be interested in your comments, 
as director of the FBI, on how you think these two systems 
should or should not be integrated and what kind of a 
conclusion or resolution we can come to that has the greatest 
benefit for law enforcement from every perspective.
    Mr. Freeh. Yes. First of all, thank you for your remarks.
    The systems need to be interoperable. The much larger IAFIS 
database should incorporate by reference the smaller IDENT 
database. The need for the information in both databases, when 
appropriate to be queried, has to be quickly available whether 
we are just using the right index finger or 10 fingers. It is 
akin to the interoperability which is almost achieved between 
the ATF IBIS system and the FBI's DRUGFIRE system which were 
grown up separately a long time ago and were very dysfunctional 
because even though the technology was really complementary, 
the databases were unavailable to each other. There was no 
intraoperability.
    That has been corrected by the Treasury Department and the 
FBI, and we have now one system with the FBI supporting the 
national communications part of it and the ATF responsible for 
the logistical and uploading part of it. We have to do the same 
thing with the IDENT and the IAFIS systems. The number of 
subjects, whether people are in one database or the other, the 
information which is appropriately collected and retained by 
both agencies has to be quickly, efficiently available to each 
other.
    The IAFIS system, as it works with electronic submissions, 
gives within 24 hours in civil cases and within 2 hours in 
criminal cases a direct response, either a no-record or an 
identification. The IDENT system was designed for a shorter 
response time frame because of the exigencies of processing 
people fairly and efficiently at the borders. But the systems 
contain in many cases overlapping information, information of 
criminality as well as histories that are necessary for the 
people with the separate responsibilities in the FBI and the 
17,000 police departments we service through IAFIS as well as 
the INS to have access to quickly. We need total integration, 
and we believe that the studies are going to achieve a very 
cost-effective way to do that.
    Mr. Mollohan. By integrating the two different 
requirements, one being the FBI's 10-print system and the other 
being the INS', a two-print system, do you think that they can 
be integrated with both retaining their respective requirements 
with regard to the method of taking the prints?
    Mr. Freeh. I am not a technician in this area, but I think 
what is key is whether you have two separately resident 
databases or one where there is interoperability, so one can be 
queried as quickly as the other. You can maintain them 
separately but still input them and regulate them separately. 
But the question and the key thing for enforcement and safety 
is that the information is quickly available each to the other.

                        RESEARCH AND DEVELOPMENT

    Mr. Mollohan. Let me migrate into another technology issue. 
In your budget you have requested a $10 million increase to the 
base for your forensic R&D efforts. We appropriated 5 or $10 
million to look at explosives detection in the past?
    Mr. Freeh. I think it is $5 million.
    Mr. Mollohan. And your base was much smaller. As I read 
your request, you are coming back with, I think, a $10 million 
request. Maybe it is not. $5 million request, would suggest 
that you want a new baseline; you would like a new baseline to 
carry on this R&D. I am very responsive to that. I think you 
are extremely challenged to stay up with your adversaries. I 
would like to give you an opportunity to talk about that and 
support your written request.
    Mr. Freeh. I appreciate that very much. The $5 million is 
to continue what is very much in some respects pure research 
and development, not predicated on a particular case-specific 
technology impediment or challenge but to look broadly. We are 
in, I think, 17 or 26 projects which are being done by 
scientists, universities, corporations, to look broadly at 
areas such as signal management, signal interception, 
collection platforms to see if we can solve some of these much 
more universal problems that affect, by the way, again not just 
the FBI but 17,000 of our state and local departments.

                           Counterencryption

    That is different in kind from another request. For 
instance, we have asked for $7 million for counterencryption 
equipment. That is specifically for the unraveling and the 
access to plain text of commercially encrypted materials of 
which we are seeing a lot. We saw some over the millennium 
actually in some of the computers that some of the terrorists 
overseas were clearly using to plan and carry out attacks 
against Americans. So that is a particular request for access 
to plain text overcoming commercially available or even 
homemade-type encryption technology. The $5 million is much 
more broad-based, and I can give you a much more detailed 
analysis of the subject matters; but they are universal and 
more--much larger issues than the ones that go to encryption, 
for instance.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Mollohan. You say here that as the scientific and 
technical aspects of forensics continue to become more complex, 
it has become increasingly difficult for the FBI to stay on the 
cutting edge of technology. FBI must develop a sufficient 
research and development funding base. Lack of planning and 
strategic planning now will leave the FBI overwhelmed by the 
challenges of the next decade.
    I think that is a pretty strong request. I understand what 
is going on in technology, and I thank you, Mr. Chairman.
    Mr. Rogers. Mr. Miller.

                         FBI Overseas Presence

    Mr. Miller. I have a question about the international 
precedence of the FBI; and if you can just very briefly 
summarize, I know you were in Kosovo and Moscow last year. 
Summarize briefly what the size of that, and the global economy 
and what direction you are moving with that.
    Mr. Freeh. Yes, I am very pleased to. We have right now 35 
offices overseas; and they are all within our embassies, places 
like Russia. Really on every continent we have an FBI office. 
We have a total of 187 people overseas; 113 are agents. Last 
year they covered and were responsible for about 28,000 leads 
or investigative matters. They literally cover the world. Their 
presence in the embassies are known and declared presences. We 
work strictly with our liaison counterparts. The ambassador is 
our supervisor. Everything is done through him or her.
    That is the first line of defense, the forwardly deployed 
ability to bring fugitives back to the United States, like 
Ramsey Yousef or Miramalkasi. Last week we brought back through 
our legal attache operations an individual who was convicted of 
a series of rapes in Minnesota and who had escaped from 
custody. Last week in the People's Republic of China, two 
people were arrested for 1991 homicides charged against them in 
Boston. A small number of resources overseas give us the 
ability to do our work.

                                 Kosovo

    Kosovo was really an anomaly and an exception to that. We 
were asked by the State Department and the War Crimes Tribunal 
in The Hague to send forensic teams to do identification and 
recovery of human remains that would be used in the prosecution 
of Milosevic and four other subjects under indictment. We did 
that deployment as a response to the Secretary of State and the 
Attorney General. We were reimbursed by the State Department. 
On a regular basis we are asked either by our government or 
foreign governments to go overseas and help. If we can do that, 
we certainly comply.

                           Fugitives Overseas

    Mr. Miller. You discussed the international flight after 
crimes in the United States, earlier and last year I talked to 
you about a man that fled to Mexico. After a year and a half he 
was finally extradited and there will be a trial in Sarasota 
later this year. This past week I had the family of Holly 
Maddux in town, whose accused murderer is the fugitive Ira 
Einhorn. Holly's three sisters and brother came to talk about 
their frustration over her 1977 murder and subsequent pursuit 
of Einhorn, as you are aware. How big of a problem is this? It 
is a frustrating problem. I have heard that there are 1,500 
suspects that have fled the country, and that we only get a 
fourth of these back and that extradition treaties are 
nonexistent or date to pre-World War II. How big of a problem 
is this?
    Mr. Freeh. The Einhorn case was pursued by the FBI on the 
unlawful flight warrant, and he was identified in the place 
where he was found because of that investigation. There are 
hundreds and hundreds of fugitives from justice, most of whom 
are from state and local warrants, and prosecutions; very few 
are actually federal fugitives. It varies, as you say, from 
country to country. We got a Top 10 out of the Republic of 
Vietnam about a year and a half ago even though we have no 
extradition treaty. Our legal attache in Bangkok, who worked 
very hard with his counterparts in the Republic of Vietnam, got 
them to arrest and send him into custody in Thailand, an 
individual who committed a murder 10 years ago in upstate New 
York in a tiny county that did not have enough resources to 
chase him interstate, let alone around the world.
    It varies from country to country. In East Africa when we 
had the bombings, we were successful in returning two main 
defendants from Kenya, who are now going to go to trial in 
September. But there are fugitives all over the globe, as I 
look at the map behind you. It varies from country to country, 
and our job is to use whatever legal means we can to bring them 
back here.

                       Violent Crime Apprehension

    Mr. Miller. On the Violent Crime Apprehension Program, how 
does that system work where law enforcement suspects that an 
individual has fled the country? Does it coordinate with 
Interpol and other law enforcement agencies?
    Mr. Freeh. Very much so. In many cases, through the North 
American Interpol representative who recently was an FBI agent, 
the process would be received from the state or local 
jurisdiction; and an international warrant or red notice could 
be issued, which would make that person arrestable in any of 
the Interpol countries that are signatories to the convention.
    In many cases, we work through the legal attaches to run 
out leads on fugitives. The 28,000 matters that I mentioned are 
legal attaches leads. A large number are fugitive matters, and 
I can get you the exact breakdown. If we get a lead from a 
detective or attorney or a victim or a family member that a 
person is in X place, we go through our normal channels, which 
are legal attaches and also Interpol and contact our other 
liaison partners.
    Mr. Miller. Do you have any statistics?
    Mr. Freeh. I am sure that we do, and I can provide them to 
you.
    Mr. Miller. Thank you very much. Thank you, Mr. Chairman.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                           VICAP and INTERPOL

    The purpose of VICAP is to facilitate communication, 
cooperation, and coordination between law enforcement agencies 
and to provide, support for their efforts to identify, 
investigate, track, and apprehend violent serial and repeat 
offenders. A case submitted to VICAP is compared to all others 
existing in the database to identify common behavioral or 
informational characteristics which might indicate a common 
offender is responsible for the crimes. VICAP does not directly 
involve itself with the actual pursuit of known or suspected 
offenders, as this responsibility lies with the originating 
investigative agency. VICAP accommodates requests from other 
foreign countries through liaison between FBI Headquarters and 
the Legal Attaches around the world.
    When American law enforcement officials suspect a fugitive 
has fled internationally, and it is unknown what county the 
suspect has fled, the law enforcement agency can contact the 
U.S. National Central Bureau of INTERPOL for assistance--
whether to post an electronic broadcast/lookout through its 
worldwide communications system, and/or to request placement of 
an INTERPOL ``Red Notice'' placed on the wanted person. A Red 
Notice assures any one of the 177 other INTERPOL countries that 
if the suspect is located, the requesting agency has sufficient 
information to charge the suspect with a felony and they will 
actively seek the suspect's extradition.
    At any given time, the INTERPOL computer system has 
approximately 17,000 active electronic lookouts and Red Notices 
for wanted persons. INTERPOL member countries also routinely 
place this fugitive information in their national databases. 
American and foreign police services actively seek Red Notice 
suspects when the originating agency develops specific 
information on the possible location of a suspect. Red Notice 
suspects are also located when traversing between countries and 
a customs officer becomes suspicious of the individual and 
checks the suspect's name through the national database or the 
suspect is arrested on unrelated criminal activity and 
subsequent arrest checks determine the subjects name is wanted.
    Legal Attaches around the world interact with foreign 
INTERPOL National Central Bureaus based on the individual 
protocols established within the various foreign police 
agencies. For example, when the FBI has specific information 
concerning the possible location of a fugitive in the 
international arena, the information will be forwarded to 
INTERPOL. INTERPOL will then serve as a clearing house for 
requests and assist with the coordination between the Legal 
Attache and the appropriate foreign police unit who is 
responsible for locating fugitives.

                           Overseas Fugitives

    Approximately 9 percent, or 2,446, of the 28,000 leads and 
investigative matters handled by the various Legal Attaches 
during Fiscal Year 1999 involved fugitives. As of March 16, 
2000, there were 258 known international fugitives.

    Mr. Rogers. Ms. Roybal-Allard.

            Los Angeles City Police Department Investigation

    Ms. Roybal-Allard. Thank you, Mr. Chairman. Mr. Freeh as 
you are aware, there is an ongoing investigation into the 
corruption of the Los Angeles Police Department--the Rampart 
Division. At the end of February, according to the Los Angeles 
Times, the two federal agencies, the INS and the FBI, were 
implicated through allegations. Could you explain what is the 
legitimate role, if any, of the FBI with regard to the task 
force and what is currently being done to investigate these 
allegations?
    Mr. Freeh. Yes. With respect to the investigation which you 
accurately described, the Department of Justice, the Civil 
Rights Division, the U.S. Attorney who I met with on Monday and 
discussed among other things this case, and the FBI have the 
responsibility of conducting the civil rights investigation 
which is a broad-based investigation looking at all of the 
different allegations that have been made, not only with regard 
to the Rampart Division but beyond that. This will be a very 
comprehensive and very strongly pursued investigation by the 
Department of Justice in conjunction, by the way, with local 
authorities.
    I cannot tell you too much more about the case. We have set 
up in effect a separate squad. I talked with the people who are 
responsible, including our Assistant Director out there. There 
is no case more important to us or more important to the people 
of California, obviously, than the allegations of such a 
serious nature. We will work it as we work similar cases around 
the country, unfortunately, to whatever result is required.
    Ms. Roybal-Allard. I am sure you are aware of the fact that 
there is some concern expressed that the FBI to some degree is 
actually investigating itself since it has now been brought 
into----
    Mr. Freeh. Yes. I have looked at that. I do not believe 
that is accurate. There was a letter in the Los Angeles Times 
on Monday which our Assistant Director prepared and the local 
legal journal had an article about this. We have looked at 
those issues. We were not joined up with the INS or the 
detective division that was described in last week's paper. 
That is not an accurate statement, and we have satisfied 
ourselves that is the case.
    Ms. Roybal-Allard. Whatever information you got to satisfy 
yourself--I think what the INS said was that it was ``rammed 
down their throats by the FBI,'' end of quote--that you will be 
able, at some point, to present whatever information you have 
to show that in fact was inaccurate?
    Mr. Freeh. Yes. That was an anonymous person quoted as 
saying that. The U.S. Attorney is confident there is no 
conflict. The FBI officials are confident. If that changes, 
obviously we would take steps to correct that.

                 CORRUPTION ALONG THE SOUTHWEST BORDER

    Ms. Roybal-Allard. In the Treasury Postal subcommittee that 
I sit on, last year a report came out from Treasury that said 
that there was widespread belief among law enforcement agencies 
that agents that were hired along the Southwest Border were 
more suspect and more susceptible to corruption than other 
agents that were hired from other parts of the country. When 
asked to present data, there was no data to substantiate that. 
In fact, the data that was presented showed in fact that that 
was not true. I sent a letter to all the different law 
enforcement agencies who refute what had been said by Treasury 
and said that was not their belief. However, the letter that 
came back from the FBI either misunderstood the question or was 
not quite on target.
    So my question to you is: Is there a belief by the FBI that 
somehow agents that are hired that live along the border or 
have family along the border are in fact more susceptible to 
corruption than others? And depending on your answer, do you 
have the data to substantiate that?
    Mr. Freeh. Certainly not. It is not my belief and not the 
belief of anyone in the FBI, particularly those who have 
responsibility of those border offices and the Southwest Border 
Initiative which we referred to earlier.
    I will endeavor to make sure that we answer your letter 
more directly. I apologize if that is not the case. I had heard 
about that report. I have seen no data and heard of no credible 
evidence to support that. Certainly, it would not be the kind 
of assumption that we would make or I would think could be 
supported unless somebody had some data.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                Public Corrupton on the Southwest Border

    The FBI is not aware of any data or research to support the 
contention that law enforcement officers living along the 
Southwest Border, or having family along the border, are more 
susceptible to corruption than others. With respect to 
investigations of corruption of U.S. government employees 
assigned to the Ports-of-Entry along the Southwest Border, the 
FBI has been involved in the investigation of employees who 
were both local and non-local hires.

              INVESTIGATIONS OF WEN HO LEE AND JOHN DEUTCH

    Ms. Roybal-Allard. Which nobody has been able to produce. 
Very quickly, this is a concern of my constituents, and this 
has to do with the Wen Ho Lee case, and there is a feeling that 
he is being treated unfairly. And what they do is they compare 
what is happening with Wen Ho Lee with a former director of the 
CIA, who according to them, is guilty of essentially the same 
act, and that is taking classified information and placing it 
in a nonsecure computer.
    Could you explain why the former director is not in jail, 
has not been charged and in fact is being treated differently? 
Is there a reason? Is there in fact a difference in the two 
cases?
    Mr. Freeh. I cannot actually discuss it much at all. One is 
a pending criminal matter, as of course you are aware, and it 
is before a judge. Another judge as well as a court of appeals 
have looked at the bail aspects of that case, and obviously 
found that he was being treated according to the Constitution 
and the Ninth Circuit precedents. The trial is scheduled, and 
all of the motions that he will be entitled to make he will 
make. Whatever hearings will occur will be public and at least 
this juncture there will be a trial of the facts and the 
government will have to sustain its burden as it always does. I 
cannot talk more about the case. The last thing I would want to 
do is prejudice the government or Dr. Lee or anyone else.
    Ms. Roybal-Allard. Even to explain the difference?
    Mr. Freeh. That is correct. With respect to the other 
matter, we are investigating that. The DOJ has asked the FBI to 
look at that entire matter. We are doing that with a prosecutor 
who has been assigned by the Attorney General. Again, I could 
not talk about it or even compare it. What we do in each of 
these cases at some point will be accountable to committees as 
well as the courts.
    Ms. Roybal-Allard. Thank you.
    Mr. Rogers. Mr. Wamp.
    Mr. Wamp. Mr. Chairman, when I go home and go to church, 
people say, I do not want to bother you in church, so can I 
walk out with you and talk to you when you are leaving? I do 
not want to bother you in church, Director Freeh, but I would 
like to walk out and talk with you. I want to talk to him but 
not here.

                     DIGITAL COLLECTION TECHNOLOGY

    Mr. Rogers. Thank you. Director Freeh, you have spent a lot 
of time talking about CALEA, one of our favorite subjects, the 
ability of the law that will allow the law enforcement agencies 
of the country under court orders to wiretap and seek 
electronic information as you now do in the new digital age; 
having to refit electronically the telephone companies' 
equipment around the country to allow the government agencies 
as I said under court order always to wiretap.
    The good news is after 4 years of delay, the stalemate is 
over, and we are on track to finally realize a successful 
CALEA. $382.5 million is needed to fund it. We have included 
that funding in the supplemental appropriations bill. 
Hopefully, that will ensure that CALEA implementation stays on 
track. In addition to the money for CALEA, you request a $25.3 
million increase for a multiyear initiative to replace your 
current analog-based intercept collection system with a new 
computer-based enhanced collection system.
    How would that differ from your current system?
    Mr. Freeh. The two systems that you refer to--and before I 
do that, I want to echo your remarks about CALEA. As I 
mentioned in my opening statement, I want to thank the 
committee and you personally for your leadership in this area 
over many frustrating meetings. But the result has been a 
remarkable achievement, not only the two signed agreements but 
the four that would follow what the supplemental funding will 
give us, us meaning law enforcement, state, local and federal, 
90 percent coverage of the platforms, which is a huge 
turnaround from where we were a short time ago.
    The two systems that you ask about specifically, Spider Net 
and Digital Storm, give us the sort of one-stop shopping 
digital collection capacity that we do not have right now and 
which is a very severe impediment. The collection systems that 
we are asking to be supported would allow in one collection 
architecture to both collect, analyze, search according to key 
words and then prepare for easy translation the streams of data 
obtained pursuant to court order. So you are literally 
improving from an analog system, reel-to-reel tapes where 
people have to listen to it in real time to a digital capacity 
that not only records but stores, analyzes, and helps identify 
and translate or set up a translation matrix for information. 
It would put us literally light years ahead in terms of our 
ability to know what we have.
    Mr. Rogers. What do you expect would be the out-year 
funding requirements?
    Mr. Freeh. I am not sure that I have that information.
    Mr. Rogers. Provide that for us if you will for the record.
    Mr. Freeh. We will get that for you, Mr. Chairman. I'm 
sorry, I do not have that.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

            Digital Collection Outyear Funding Requirements

    The FBI's estimated outyear funding requirement to deploy 
digital collection systems, based on current planning 
assumptions, is an accumulated total of $65,000,000 for fiscal 
years 2002 and 2003.

    Mr. Rogers. Even though it looks like CALEA will be a 
reality, it will be some time before it is implemented, not 
likely until fiscal year 2002. Given our funding constraints 
here, do you think we can stretch out this new initiative for a 
longer period of time?
    Mr. Freeh. We certainly could. There is no impediment to 
doing that. Obviously, the intent behind the 1994 statute and 
our operational necessity is to achieve compliance as quickly 
as we can. But what we have achieved to date, as I have pointed 
out, is a remarkable turnaround from where we were a short time 
ago.
    Obviously, pushing CALEA out into the outyears does a 
couple of things. First of all, the operational capacity is 
postponed. Secondly, we might lose some of the licensing 
authority and the right to distribute that the industry now is 
able to do and by agreement is obliged to do. Those agreements, 
if they would expire with a postponement of the funding and the 
compliance, we would have to go back and renegotiate that. We 
might lose some leverage and capacity to achieve the 90 percent 
platform.
    Mr. Rogers. We will discuss that as we go along. In view of 
our limited dollars, we will work to maximize those dollars.

           NATIONAL INFRASTRUCTURE PROJECTION CENTER STAFFING

    Switching gears to the National Infrastructure Protection 
Center, under Presidential Decision Directive 63 issued in 
1998, various government agencies were assigned 
responsibilities for critical infrastructure protection and FBI 
was assigned a cyberwarning system, National Infrastructure 
Protection Center and investigating cyberthreats. We have now 
as you've referred to become familiar with the fact that wave 
of the future is upon us with the hack attacks on the major 
Internets in the past few weeks. As part of the government-wide 
effort to better protect that infrastructure, we provided over 
$45 million over the last 3 years. Of that amount $25 million 
was provided to establish the center which is to be an 
interagency center to provide warnings and information on 
cyberattacks. In the current year conference report which we 
issued, we expressed some concerns that that center had not 
been staffed up to the level that we gave money for. In fact, 
it was only about 80 percent of its funded staffing level. Has 
that been rectified?
    Mr. Freeh. No, not completely. We have 78 of the 94 FBI 
personnel assigned there right now. We have 22 individuals from 
other government agencies. We are trying to raise that up to 
40. We have a little bit of staffing to go to get people a 
hundred percent on complement.
    Mr. Rogers. This is the center where all of the government 
agencies would center their activities and coordinate their 
activities on preventing cybercrime, break-ins to computers, 
and the like and networks, and to investigate. Is that right?
    Mr. Freeh. Yes, it is designed as an investigative and 
watch and warning and training center.
    Mr. Rogers. Have some agencies been reluctant to 
participate?
    Mr. Freeh. We have encountered some obstacles with certain 
other government agencies. The issue has been funding, 
reimbursement issues, in part. We have not gotten the full 
agency representation that the center is not only designed to 
have but which is still our objective. It is obviously a much 
more effective enterprise if we can get the other government 
agencies to have full time representatives there.
    Mr. Rogers. My information is and this comes from U.S.A. 
Today, March 9, that the Pentagon is the only cabinet level 
agency represented there; is that right?
    Mr. Freeh. I would have to check. I know of some 
representatives from some of the security agencies, whether 
that is Cabinet level or not, I am not sure.
    My information, Mr. Chairman, the center has 
representatives from the Department of Defense, the National 
Security Agency, Energy, CIA, as well as some state and local 
law enforcement. U.S. Postal Service, and the General Services 
Administration.
    Mr. Rogers. Is there anybody from Secret Service there?
    Mr. Freeh. No, I do not believe there is.
    Mr. Rogers. Transportation?
    Mr. Freeh. Not according to my note.
    Mr. Rogers. As in FAA?
    Mr. Freeh. I will get you a list of agencies.
    Mr. Rogers. Customs or Treasury?
    Mr. Freeh. They are not on this list. Subject to me 
checking, no.
    Mr. Rogers. This news story says that the Department of 
Energy is not represented. Are they in error?
    Mr. Freeh. According to my note they are. Let me double 
check.
    Mr. Rogers. And CIA, which has four slots at the center, 
has filled only one; is that correct?
    Mr. Freeh. I know over the millennium period they were 
heavily represented. In terms of their permanent 
representation, I would have to check for you.
    Mr. Rogers. Are you going to be asking these agencies to 
come on in and let's get this together?
    Mr. Freeh. Yes. We will continue to pursue that.
    Mr. Rogers. It is of utmost importance, obviously. I am 
glad that Department of Defense is there because their 
computers are the last ones that we want hacked into--but gosh, 
the Federal Reserve and all of the financial networks, the 
Customs Service, INS and so on, ought to be there; and we want 
to know why they are not there. I realize that it may not be 
your fault that they are not there, but since you are 
commanding the coordination center and it is located on your 
property, and you have been assigned the cyber part of 
infrastructure protection, we need to know why they are not 
there. If there is a problem, we want to help and try and fix 
it. Is there some sort of problem that these people are not 
there?
    Mr. Freeh. I know that financial issues have been 
represented by some of the agencies to be their reason for not 
having a full-time representative there, and we will continue 
to pursue that.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

    Other Government Agency Staffing In The National Infrastructure 
                           Protection Center

    As of March 23, 2000, there were 21 other government agency 
personnel on board at the National Infrastructure Protection 
Center, and 4 individuals under transfer to the center, as 
follows:

------------------------------------------------------------------------
                                             On board     Under transfer
------------------------------------------------------------------------
Central Intelligence Agency.............               2               1
Department of Defense <SUP>1</SUP>.................              13               2
U.S. Postal Service.....................               1               1
General Services Administration.........               1               0
Department of Energy/Sandia National                   1               0
 Laboratory <SUP>2</SUP>...........................
State/local law enforcement.............               1               0
Foreign Government......................               2               0
                                         -------------------------------
      Total.............................              21               4
------------------------------------------------------------------------
<SUP>1</SUP> Department of Defense includes: U.S. Air Force, U.S. Army, U.S. Navy,
  National Security Agency, Defense Criminal Investigative Service, and
  Air Force Office of Special Investigations.
<SUP>2</SUP> The Department of Energy is represented by a contract employee from
  the Sandia National Laboratory.

                     INFORMATION SHARING INITIATIVE

    Mr. Rogers. The largest single increase in your request is 
$55.3 million for the information-sharing initiative, ISI, 
which is a complex and very costly project to completely 
upgrade your current computer infrastructure, integrate all of 
your files and databases into one bureau-wide database and 
acquire new tools for better analysis.
    As you know, this committee has been expressing concerns 
about the size of the project, the scope of the project, the 
cost of the project. The original plan was for a $600 million 
project to be completed over 5 years, a huge amount of money 
and a very ambitious schedule. Since in the past we had huge 
cost overruns in projects that went way beyond their time 
scope, NCIC2000 and IAFIS among them, we are skeptical about 
whether that project could be implemented and within budget and 
within timeframe.
    We did provide some funding in fiscal year 1999, $60 
million, but we fenced that money and said you could not spend 
it until the FBI submitted, and we approved an overall plan for 
the project before we started to be sure that it was the right 
way to go. The plan was submitted last August. Neither the 
House nor the Senate signed off on the plan because of 
continued concerns about the size of scope and cost. It is my 
understanding that you have developed a new plan, one that is 
less costly than the previous plan, and we would like to see 
it. Can we see that plan?
    Mr. Freeh. Yes, you certainly can. The Office of Management 
and Budget has approved, my understanding, this week the 
submission. I think it just needs to be transmitted up here. 
The plan is not a developmental plan. Unlike IAFIS and 
NCIC2000, it is not a developmental plan. This is basically 
hardware, getting rid of the 13,000 computers that are not 
under service contract any more. We will get that to you. You 
will have that tomorrow.
    Mr. Rogers. Tomorrow. Good man.
    How much does the project cost now?
    Mr. Freeh. With the $80 million from the 1999 and 2000 
budgets, and the additional $60 million which is in the fiscal 
year 2001 request, that is the scope of the plan as currently 
requested. I am told that OMB has $40 million instead of $60 
million, so the remaining $20 million, would have to come out 
of our base.
    Mr. Rogers. Over what period of time?
    Mr. Freeh. Three years.
    Mr. Rogers. Is that total cost?
    Mr. Freeh. The total cost is $200 million.
    Mr. Rogers. Is that your final answer?
    Mr. Freeh. Yes, it is. Eighty, 60 and 60. Three-year 
period.
    Mr. Rogers. And the new plan fully addresses the needs of 
the bureau?
    Mr. Freeh. Yes, beginning with the desk top computers.
    Mr. Rogers. How confident are you that you can deliver on 
time and on budget?
    Mr. Freeh. This is acquisition, so I am very confident we 
can do that.

                   FBI LABORATORY CONSTRUCTION STATUS

    Mr. Rogers. We previously provided $130 million for the new 
FBI lab which was scheduled to begin construction in January 
1999 with an original completion date of August 2001. 
Construction did not actually begin until September and 
completion slipped to February 2002. But as you told me last 
week, it appears there could be some further delays due to some 
contractor problem which apparently has forced a work stoppage 
of the project. What is the status, and when do you expect this 
problem to be solved?
    Mr. Freeh. The status is the general contractor discharged 
the mechanical and electrical subcontractor, which was not our 
hire but the hire of the general contractor basically, for lack 
of performance. A new subcontractor has been retained. They are 
present on the site. They believe they can resume the 
construction again by March 31. We do not believe, at least I 
was told that we do not believe, that this particular delay 
which is a delay, of several weeks of construction, will change 
the February 2002 delivery date which is still holding as the 
date.
    Mr. Rogers. So you will finish when?
    Mr. Freeh. February of 2002.
    Mr. Rogers. Within budget?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you. I like that last question, the 
question may be asked by another chairman in 2002.
    Mr. Rogers. What?
    Mr. Serrano. You guys have term limits. Right? I was not 
suggesting anything nasty, Mr. Chairman.

           BALANCING PRIVACY CONCERNS IN CYBER INVESTIGATIONS

    We have discussed, the big issues around cybercrimes and 
cyberterrorism, but in your desire and our desire and need to 
deal with issue, what about the issue of privacy for the rest 
of us? How do you reconcile doing what you need to do to find 
out who is trying to steal from us, if you will, our 
information in the digital age with our desire as individuals 
to have privacy, including about what information we have on 
our computer?
    Mr. Freeh. Well, I think the balance is very--certainly 
maintained by the law enforcement and public safety end of it 
in the sense that we are--and continue to be--governed as we 
have to be by the Constitution, the Fourth Amendment Privacy 
statutes, and all of the data collection regulations causing 
the electronic surveillance regime which is court authorized. 
We have to go to magistrates to obtain authority to get 
information, whether it is 1s and 0s or the data is stored in 
somebody's ledger hidden under the bed. The standard is still 
the same.
    I would argue that it is not the same in terms of the 
private sector. The private sector has no limitations short of 
the privacy act. They have none of the limitations that law 
enforcement has for the most part, and that is an area of great 
concern and controversy as we see every day in the papers.
    But our authorities and powers are very clearly constrained 
by the Constitution, the courts, the magistrates, and 
ultimately juries and oversight. We have no more powers in the 
digital age than we did in 1792. We still have to convince a 
magistrate that a warrant meets probable-cause standards. 
Evidence can be suppressed if we are not entitled to it. We can 
be sanctioned and sued and prosecuted if we violate those very 
clear guidelines.
    I think we should be more confident about the regime, at 
least to control state law enforcement officers. A lot of 
attention I think has to continue to be applied there, but also 
on private collectors, entrepreneurs, and companies who do not 
have to comply with the same regulations.
    Mr. Serrano. Here is what we are hearing, Director Freeh. 
In the last good number of years, the FBI has gained a 
reputation of being totally separate from its past, and in the 
past you had an agency that--in the past--on many occasions 
made many Americans feel that their privacy was invaded on a 
daily basis for the sake of doing what was right for the 
Nation. That privacy, however, in those days was paper-related 
or involved physically following somebody around. Now it is 
much easier to make a mistake and overreach in trying to do the 
right thing and get into everybody's lives, and that is the 
fear.
    So you can tell me that we are governed by the same laws, 
but directors before you who were governed by the same 
Constitution did things that we know about now, and it was 
harder to do it then. At least I would think that it is easier 
with all of the information that is available electronically. 
Just from our offices right here, you could--in the old days 
you had to ask a Member of Congress for information. He gave it 
or whatever. He ran every 2 years on how much information he 
provided.
    Now you can get into our system for the sake of finding 
someone who is doing something wrong, and also find out every 
memo we sent and every bill we have planned. That is us. How do 
we reconcile the desire to get at what will continue to be a 
problem and grow to be even a larger problem that with the 
desire that we not invade innocent people's privacy?
    Mr. Freeh. I do not want to repeat my answer again, but we 
have very strict constraints. We have guidelines. We have 
controls. We have the authority of courts, judges, juries, 
congressional committees. We do not operate in a vacuum. The 
same potential for abuse by the constable in 1792 exists in 
2000. If we have a dishonest constable or a group, you are 
going to have an abuse whether you are tapping into fiber or 
into somebody's hideaway. I do not think that there is any 
difference, relatively speaking. What is necessary is first of 
all honest people in law enforcement, which I believe is the 
case with the FBI and our colleagues in federal law enforcement 
with exceptions, of course. Unfortunately we have those but 
then very rigorous means to uncover activities and prosecutions 
and sanctions that follow. That is the remedy, and that is the 
solution to corruption which is what you are describing, but 
that is true whether it occurred in the late 1800s or in the 
information age.
    Mr. Serrano. Well, I certainly accept your comments. Put me 
on record as another person who expresses what a lot of people 
express and it is a fear that something is not going to go 
right.

                         Civil Rights Training

    Speaking about corruption at another level, the FBI works 
with other agencies, principally the Civil Rights Division and 
the U.S. Attorneys, on investigations of patterns and practices 
of civil rights violations by police departments. I am 
interested in the status and goal for completion of the 
investigation of the New York City Police Department. But on 
broader issues, the FBI must have developed knowledge on how to 
enforce the law without violating civil rights. What, if 
anything, is the FBI doing to disseminate best-practices 
information or provide training on such practices?
    Mr. Freeh. We have a very extensive civil rights training 
program, and I can give you the exact breakdown for it. But 
last year we trained 17,000 state and local officers. I will 
give you a breakdown on how many of those were civil rights 
courses or initiatives.
    In New Orleans, for instance, the police commissioner, a 
newly appointed police commissioner, asked the FBI to come into 
the department and literally take over and run their internal 
affairs division so they could be more effective against 
internal corruption.
    The patterns and practices authority which the Department 
of Justice has and which it is considering in two districts in 
New York right now is another remedy. Vigorous enforcement of 
the civil rights act, whether they be housing discrimination 
violations or hate crimes, hate crimes is one of the largest 
growing categories of crimes in the United States. We had 884 
cases in 1998; we had 1036 last year. We have dozens of people 
who work in that program. We have reorganized our headquarters 
to give hate crimes a more prominent position. Training, 
vigorous enforcement, large scale judicial action initiated by 
the Department of Justice, court supervision, which we see in 
many cases, those are all a series of steps that need to be 
taken together.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Serrano. I thank you. Mr. Chairman, I do not have any 
further questions, and I want to personally thank the director 
for being here and to encourage him to work on that other issue 
with me.
    Mr. Rogers. Anything further, gentlemen?
    Mr. Latham. No.

                               Conclusion

    Mr. Rogers. Mr. Director, we have been somewhat probing 
today in our questioning, which is the thing that democracies 
do, but let me just say this. I do not know of a time in my 
reading of history when the director of the FBI has had more 
cross-currents and more tight places that he has been in than 
you. This has been a tough time for anybody to be director of 
the FBI. I guess any time is because you are dealing with such 
matters of great import.
    The process that we go through in trying to appropriate 
aboveboard and before the world of all agencies is particularly 
tough to do in the case of the FBI because most of what you do 
is confidential and secret and quiet as it should be, but you 
have carried that out admirably. This is your seventh 
appearance before our subcommittee.
    Mr. Freeh. Yes, sir.
    Mr. Rogers. And perhaps the last as the director, but I 
want to say it has been a pleasure working with you all of 
these years. You have been fair and open with me and with the 
subcommittee. You have been forthcoming and you have been--I 
think you have attempted to do the right thing in every 
instance. You are a commendable human being, and you have been 
a great--are a great director of the FBI. Having said that, we 
will expect the reports that we have asked of you.
    Mr. Freeh. Thank you very much, Mr. Chairman. Those are 
very kind remarks, and again I enjoyed appearing here. This is 
a necessary and vigorous process. Congressman Serrano, thank 
you for your and your staff's efforts.
    Mr. Rogers. The hearing is adjourned.
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                                          Thursday, March 23, 2000.

                       DRUG ENFORCEMENT PROGRAMS

                               WITNESSES

DONNIE R. MARSHALL, ACTING ADMINISTRATOR, DRUG ENFORCEMENT 
    ADMINISTRATION, UNITED STATES DEPARTMENT OF JUSTICE
JAMES K. ROBINSON, ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION, 
    DEPARTMENT OF JUSTICE
MARY H. MURGUIA, DIRECTOR, EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS

                            Opening Remarks

    Mr. Rogers. The committee will be in order. We are pleased 
to welcome this morning Donnie Marshall, the Acting 
Administrator of the Drug Enforcement Administration; Mary 
Murguia, the new Director of the Executive Office of the U.S. 
Attorneys; and James Robinson, the Deputy Assistant Attorney 
General for the Criminal Division to discuss the Department of 
Justice's law enforcement efforts on the war on drugs.
    Our Nation is being weakened by the prevalence of drug and 
drug-related crime in our communities. Without investments of 
law enforcement to take down and punish drug traffickers and in 
prevention programs that are aimed at stopping children from 
using drugs, we cannot and will not succeed in the war on 
drugs. Cocaine and heroin are cheaper and more plentiful than 
ever on American streets. Methamphetamine, which can be 
produced fairly simply in any kitchen in any community, is 
spreading fast to all areas of the country. To respond to these 
very serious problems, this subcommittee is trying to give you 
the resources that you need to respond to this problem. Law 
enforcement is a vital component in this committee to seek to 
ensure that adequate resources are provided to address this 
problem with you.
    We will include your written statements in the record, and 
as soon as I recognize my colleague, we will listen to your 
oral statements.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I just want to 
welcome these folks here today. This is a subject that I am 
very much interested in, especially coming from a place like 
New York, which I do. I would be interested in knowing what we 
are doing on this very important issue; and I will be speaking 
to you about the involvement of different parts of this country 
in the fight, and unfortunately also in the trafficking. So 
thank you, and welcome.

              Opening Satement of Donnie R. Marshall, DEA

    Mr. Rogers. Mr. Marshall, would you begin, please. 
    Mr. Marshall. Yes, thank you, Mr. Chairman and subcommittee 
members. I appreciate the opportunity to be here today. I want 
to begin by thanking you for your support. I have been in law 
enforcement for 30 years, and I know very well the support of 
Congress and particularly this committee and the American 
people is really vital to our success. I thank you for that 
support.

                          OPERATION MILLENNIUM

    Our successes have been many. We have had some notable 
successes lately. We have roughly 4,500, very courageous and 
dedicated DEA agents serving around the world. In this past 
year, they helped dismantle one of the most powerful Colombian 
drug organizations operating in the world today, and perhaps in 
the history of the world, and that was through the agency's 
Operation Millennium. In that operation we arrested two of the 
most powerful drug lords in the world, Fabio Ochoa and 
Alejandro Bernal Madrigal and 34 of their associates. We have 
expectations that those criminals will be extradited to the 
United States to serve time in American prisons. If that comes 
about, this will be the most significant, I believe, drug 
enforcement operation that we have undertaken in many years.

                 MOBILE AND REGIONAL ENFORCEMENT TEAMS

    We have also continued to wipe out violent drug 
organizations in this country through our MET--Mobile 
Enforcement Team--operations. We have extended many of our MET 
investigations to involve and arrest the sources of supply from 
other parts of the country and outside the communities where we 
have actually targeted the violent drug gangs. We have followed 
up those MET operations with community action programs to help 
those communities have a better chance of keeping the drug 
dealers out of their neighborhoods after we have taken them off 
the streets.
    We also have begun deploying our Regional Enforcement 
Teams--RETs--to help meet urgent problems like methamphetamine 
trafficking, particularly in the Midwest and the Western 
regions of the United States. We continue to work with federal, 
state, and local law enforcement partners through our state and 
local task forces and through other cooperative channels to 
target the command and control structure of the major drug 
organizations operating internationally, nationally, 
regionally, and locally. Through this approach, and it has been 
a very successful approach, we have immobilized and had 
enforcement successes against Colombian and Mexican traffickers 
operating in this country time and again over the last several 
years. I have described several of those most recent operations 
in my written statement.

                      DEA'S FY 2001 BUDGET REQUEST

    In our 2001 budget submission, we have three initiatives 
that I think will allow us to continue and enhance those 
successes. The first initiative is a Domestic Enforcement 
initiative, which calls for 18 positions, 11 of which are 
special agents, and $3.1 million. That initiative will go, I 
hope, to our Special Operations Division in order to more 
effectively attack the command and control structures of the 
major Southwest border organizations and the Mexico-based 
organizations, and also to more effectively attack the 
financial structure of these major drug-trafficking 
organizations.
    The second initiative is our Intelligence initiative. We 
have asked for $1.5 million for our El Paso Intelligence Center 
Information Systems, which will enable us to improve 
information collection, analysis, and sharing. I believe very 
strongly that an intelligence-driven approach to our operations 
is very vital to our success, and this will help us do a better 
job in that area.
    The final initiative is our Infrastructure initiative, and 
we have asked for 26 positions and $59.9 million. This will go 
for technology such as FIREBIRD office automation and our 
Financial Management System. It will allow us to better support 
and manage these enforcement operations that I have described, 
our intelligence operations, and our financial resources.
    Again, I want to thank you, the committee, for your 
support, and at the appropriate time I will be happy to answer 
any questions.
    Mr. Rogers. Thank you very much, Mr. Marshall.
    [The statement of Mr. Marshall follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        Opening Statement, James K. Robinson, Criminal Division

    Mr. Rogers. General Robinson.
    Mr. Robinson. Thank you, Mr. Chairman. I want to join in 
expressing our appreciation for the opportunity to appear today 
to discuss this very important subject. I am also joined by 
Deputy Assistant Attorney General Mary Warren, whose major 
responsibility is in the Criminal Division in connection with 
the supervision of our important activities in this area. We 
appreciate this opportunity to testify in support of the fiscal 
year 2001 budget request for the Criminal Division and for the 
Organized Crime Drug Enforcement Task Forces, the OCDETF 
program.
    I would like to echo Director Marshall's expression of our 
profound appreciation to this subcommittee for the resources 
that you have provided to law enforcement over the years to 
carry on various attempts to combat illicit drug trafficking 
and related criminal activities in this country. In the next 
few minutes I would like to outline some of the needs and 
accomplishments of the Criminal Division and the OCDETF 
program.

               CRIMINAL DIVISION'S FY 2001 BUDGET REQUEST

    For fiscal year 2001 the Department's request for OCDETF 
seeks an addition $12,112,000 to allow the task forces to 
continue at fiscal year 2000 levels. For the Criminal Division 
we are seeking an increase of $389,000 for five positions to 
support the Special Operations Division.
    The profits realized by drug-trafficking organizations fuel 
and expand their operations substantially. In order to 
undermine this growth, we need to expand our money laundering 
investigations. The Division's Asset Forfeiture and Money 
Laundering Section's involvement in this area has produced some 
noteworthy results. For example, in a single case more than 
$180 million was repatriated and forfeited, and approximately 
$89 million was shared with Switzerland, who cooperated in 
connection with that matter. Outstanding accomplishments such 
as this demonstrate the extraordinary return on investment we 
can achieve by focusing on the financial infrastructure of the 
criminal trafficking organizations throughout the world.
    We are also seeking to expand our Title III electronic 
surveillance capacity. Because of the efforts such as the 
Special Operations Division, the amount of new wiretaps related 
to narcotics enforcement is growing. The complex investigations 
conducted by SOD are highly dynamic and require expedited 
treatment of our capabilities in this area. We have asked for 
the resources to keep pace with that growth.

                         FY 2000 APPROPRIATION

    This committee's support for these relatively modest 
increases are critical. For fiscal year 2000, the Department of 
Justice Appropriations Act and the Statement of Managers 
included guidance on the distribution of the General Legal 
Activities appropriation by each component, and as a whole that 
appropriation was cut by 2.1 percent below fiscal year 1999 
current services levels. The methodology employed by the 
Conference Committee's Management Statement caused the Criminal 
Division to be cut by 4.5 percent, something that troubles us, 
and we are working on it. This means about a $5 million 
shortfall below our fiscal year 1999 current services level. As 
a consequence we have implemented measures to limit all hiring 
to the point where we will need to produce approximately 90 
vacancies in the Criminal Division. By the end of the fiscal 
year, we are also attempting to trim another $3 million in 
spending by cutting travel, training, and suspending equipment 
purchases, including computers.
    We very much appreciate the support of this committee and 
its willingness to support a reprogramming to help us address 
this precarious situation. We have yet, however, to receive the 
necessary approval from the Senate, but we are working hard to 
try to do that, and we are, I would like to say, cautious but 
still optimistic that that would be possible. This is why it 
seems important to us to seek your support for current level of 
services for OCDETF. We think it is important, and this is why 
the modest increases that we seek are extremely important for 
next year.

               INTERAGENCY AND INTERNATIONAL COOPERATION

    A common theme of our request and my remarks in the 
testimony that we have submitted is an increasingly important 
emphasis on interagency and international collaboration and 
cooperation. Our experience has demonstrated to us that the 
value of this cooperation simply cannot be understated whether 
it is amongst federal agencies, state and local governments, or 
with our trusted international partners. Collaboration is a 
critical component of the OCDETF program, the new and very 
promising Bilateral Case Initiative, Special Operations 
Division, and our participation in Plan Colombia.

                    EFFECTIVENESS OF OCDETF PROGRAM

    We are pleased to report that OCDETF had another exciting 
and highly effective year in fiscal year 1999. In fact, it was 
the single most productive year in OCDETF history and the 
second record-setting year in a row. Figures alone, however, 
don't tell the story of the importance of the OCDETF program to 
the execution of the Department's Drug Control Strategic Plan 
and our overall national drug enforcement efforts.
    The effectiveness of the OCDETF program is underscored by 
the increased level of OCDETF activity over the past 2 years. 
In fiscal year 1999 alone, 1,484 investigations were initiated, 
a 9.5 percent increase over 1998; 4,067 indictments were filed 
against 10,801 defendants, increases of 9.6 percent and 2.9 
percent respectively. This growth is a testament to the 
commitment of all participating agencies to work in the most 
strategic, targeted, and coordinated fashion.

                       BILATERAL CASE INITIATIVE

    We are focussing on international efforts as well. The 
Narcotics and Dangerous Drug Section of the Criminal Division, 
in coordination with the DEA's Office of Foreign Operations and 
SOD and other agencies, has undertaken an international 
Bilateral Case Initiative that formed trusted partnerships with 
our international colleagues using evidence gathered by them. 
We want to ensure that transnational drug traffickers that 
cause devastating harm to our citizens and communities are held 
accountable under United States law whenever possible to 
prosecution in United States courts. This multifaceted approach 
is already paying dividends that only a short time ago were 
believed to be unattainable. As a result of the Bilateral Case 
Initiative, the Colombian Government has been able to arrest, 
pending extradition, a number of narcotics kingpins that 
Director Marshall has mentioned.

                             PLAN COLOMBIA

    The Division is also involved in Plan Colombia, a 
comprehensive plan for peace, prosperity, and the strengthening 
of the Colombian state, including efforts to fight narcotics 
trafficking and related crimes. Throughout our training 
components, we will play an integral role in the crucial 
training and institution-building in the justice sector that 
will also be critical to combatting narcotics trafficking in 
Colombia consistent with our priority of protecting human 
rights and fostering the rule of law.
    Mr. Chairman and members of the subcommittee, these are but 
a few examples of our needs, our accomplishments, and our 
challenges. My statement for the record provides greater detail 
of these and other important activities of the Division and 
OCDETF. I would like to close by reiterating, as the Director 
did, the appreciation that the Division and the Department has 
for the substantial resources that have been provided to us by 
the committee, and we look forward to your continued support as 
we engage in this important work. And I, too, would be happy to 
answer questions at the appropriate time. Thank you.
    Mr. Rogers. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                   Opening Statement, Mary H. Murguia

    Mr. Rogers. Ms. Murguia.
    Ms. Murguia. Chairman Rogers, Congressman Serrano, 
Congressman Miller, I am pleased to be here today with my 
colleagues at the table. I am joined by Joe Famularo, the 
United States Attorney for the Eastern District of Kentucky, 
and Jose de Jesus Rivera, the United States Attorney for 
Arizona and the Attorney General's Southwest border 
representative. With them I represent the 10,000 men and women 
of the 94 United States Attorney's offices nationwide, and I 
thank you on their behalf for your continuing support of our 
critical law enforcement mission.

                 U.S. ATTORNEY'S FY 2001 BUDGET REQUEST

    To carry out that mission, we are requesting a total 
increase of 651 new positions and $58.1 million for 10 
initiatives, among them firearm prosecution; violent crime in 
Indian Country; computer crime; and intellectual property 
theft. I address all 10 of these initiatives in my written 
statement, but will focus my oral testimony on the work of the 
U.S. Attorneys in combatting drug trafficking, firearms-related 
violence, and computer crime.
    I will begin my comments by echoing the words of the 
Attorney General when she stressed the need for balance in the 
criminal justice system. Increased resources for the law 
enforcement agencies must be accompanied by resources for the 
litigating components of the Department. ``Balance is 
critically important'', she said, ``because without it the 
system will break down.''

                     U.S. ATTORNEY'S DRUG STRATEGY

    The U.S. attorney's drug strategy focuses on prosecuting 
significant drug traffickers and complex drug organizations. 
The Organized Crime Drug Enforcement Task Force program, more 
commonly known as OCDETF, is an effective tool against the 
criminal organizations that are responsible for the greatest 
volume of drugs and violence in our country. This past fiscal 
year was the most successful for OCDETF investigations since 
the program began in 1982. As you just heard from Mr. Robinson, 
we increased the number of OCDETF cases filed by 36 percent 
over the previous year, and we obtained an 89 percent 
conviction rate while we were doing it. Ninety-two percent of 
those convicted were sentenced to prison, and 113 received life 
sentences. In the non-OCDETF drug area the United States 
Attorneys filed nearly 14,000 cases against 21,000 defendants 
during 1999, achieving a 90 percent conviction rate.
    Our 1999 drug case filings reflect a 5 percent increase 
over 1998; 1998 was a 22 percent increase over 1997; and 1997 
was a 14 percent increase over 1996. These increases, year 
after year, clearly demonstrate the United States Attorneys' 
commitment to making a significant impact on drug trafficking 
in America.
    The average number of drug cases handled per attorney work 
year raised from 34 in 1997 to 39 in 1999, a 15 percent 
increase in productivity over the last 2 years. Taken together, 
the total number of narcotics cases filed by the U.S. Attorneys 
in 1999 represented 33 percent of all of the criminal cases we 
filed.
    Prosecuting drug offenders is the single biggest thing we 
do, and we do it well. Individuals involved in drug trafficking 
are responsible for much of the gun crime in our nation. 
Although most violent crimes committed with firearms fall 
within the exclusive jurisdiction of state and local 
authorities, when there is an appropriate basis to bring 
federal charges, we do so.
    In 1994, the Attorney General's Anti-Violent Crime 
Initiative asked each United States Attorney's office to focus 
on particular violent crime problems plaguing communities in 
their districts. Last year, in connection with the President's 
directive, the Attorney General asked each United States 
Attorney to develop and implement a firearms violence reduction 
plan in coordination with federal, state, and local law 
enforcement agencies in each district. U.S. Attorneys filed 25 
percent more firearms case in 1999 than in 1998, with 95 
percent of those convicted sentenced to prison. Firearms cases 
represented 11 percent of all of the criminal cases filed in 
1999.
    But we believe that we can do even more, and this has led 
us to make our budget request to you. We do not wish to 
supplant the work of state and local authorities, but to 
supplement and support what they are doing. The additional 
prosecutors we seek will further enable us to implement locally 
tailored projects in each district, such as Project ``Exile'' 
in Richmond, Virginia, and ``Operation CeaseFire'' in Boston, 
Massachusetts. With more resources we can continue reducing gun 
violence throughout the Nation.

                             COMPUTER CRIME

    The last topic I will touch on is computer crime. The 
United States' technological edge is being threatened by 
domestic and international high-tech criminals engaged in the 
theft and piracy of trade secrets, copyrighted software, and 
other intellectual property owned by our nation's businesses. 
Just yesterday the USA Today carried an article saying that 70 
percent of systems professionals report being victimized by 
serious computer crimes, and when viruses and other pilfering 
are factored in, the figure rises to 90 percent.
    The growing complexity of computer systems and networks 
that enable computers to communicate around the world demands 
prosecutors with the technical expertise equal to this 
challenge. This is an incredibly fast-moving field, and we must 
not fall behind.
    In closing, let me reiterate that our requested increases 
are intended to ensure balance in the criminal justice system 
and will be used to further the coordinated efforts of the 
total federal, state, and local law enforcement community. Once 
again, I appreciate the continued support for the United States 
Attorney's offices and would be happy to answer any questions.
    Mr. Rogers. Thank you very much for all of your testimony.
    [The information follows:]
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                           MEXICO COOPERATION

    Mr. Rogers. I am especially glad to see my friend from 
Kentucky Joe Famularo, the Eastern District U.S. attorney. He 
is doing a wonderful job in that capacity in an area that has 
had significant increases in criminal caseload of late. Good to 
see both of you and all of you.
    Now, again this year the administration certified Mexico 
as, quote, fully cooperating, unquote, with the U.S. in the war 
on drugs. Mexico continues to be the greatest transit point for 
drugs into this country; 60 percent of cocaine comes from South 
America, 80 percent of the methamphetamine precursor chemicals 
come from Mexico across the border. Mexico is the major source 
country for heroin and marijuana. Last year the administration 
justified certification on the basis that, one, the U.S. had 
successfully negotiated with Mexico a performance plan to 
measure Mexico's progress in the drug effort; and, two, Mexico 
agreed to devote $400 million in their drug efforts; and, 
three, Mexico had passed money laundering statutes. But the 
same problems we have talked about for years remain unsolved, 
no evidence that there has been any real progress in the last 
year on any of these.
    Let me just mention some of them. Corruption. Both the 
Bilateral Task Forces, that is the U.S.-Mexico task forces, and 
the vetted units have been corrupted. Agents of the newly 
created Mexican Federal Preventive Police, FPP, which was 
established only in 1999 to address police corruption, 
themselves are already being investigated for corruption a year 
later. Things are getting worse. The most alarming incident 
occurred in November 1999. Two agents, U.S. agents, were 
accosted and threatened by a Mexican drug trafficker and 15 
Mexican police officers. The agents called the Mexican police 
commander for help, were ignored, and they were left to fight 
for themselves. Corruption.
    Cooperation. Mexico continues to refuse to allow DEA agents 
and other U.S. law enforcement agents to carry guns for self-
protection in that corrupt country. The Bilateral Task Forces 
and the vetted units have been ineffective not only because of 
corruption, but because Mexico has failed to fully staff and 
provide funds for those units. Mexico has never extradited a 
major Mexican drug trafficker, ever, and in the past year the 
Mexican courts have issued rulings which have actually set back 
even further those extradition efforts. So once again we have 
certified Mexico as fully cooperating, and everyone in this 
room knows they are the worst in the world for cooperating with 
us. Can you disagree with that, Mr. Director?
    Mr. Marshall. Mr. Chairman, I share all of your concerns. 
No, I don't disagree with that. I have to look at this from a 
law enforcement standpoint. Certainly you have outlined many of 
the problems there as well or better than I could.
    I have to say that I am not reluctant to give some small 
degree of credit to at least one institution in Mexico, and 
that is the Attorney General's Office. The Attorney General 
himself, Jorge Magroso, I believe to be a dedicated 
professional, and his command structure at the Attorney 
General's Office, I believe, forms a corps of people who want 
to work with us, cooperate with us and do the right thing. 
However, once you get outside this very small corps of people, 
the corruption, the underfinancing, the lack of training, many 
of the problems that you outlined, Mr. Chairman, really have 
prevented them from being effective.
    You are absolutely correct. I am disappointed in their 
progress with regard to extradition, with regard to progress in 
dismantling drug organizations there, and with regard to the 
progress or lack of progress in providing security for DEA and 
FBI agents there. The only other bright spot that I might point 
out is that they have begun to try to make some progress in the 
area of corruption during the tenure of Jorge Magroso, the 
current Attorney General. They have dismissed some 1,400 
officers for corruption. Unfortunately early on in that 
process, a number of those fired officers were hired back 
because of civil service regulations. This year, though, they 
have reformed that system, and they have fired approximiately 
350 officers. We do not believe they will be hired back.
    So there is that small ray of hope, I would say, in the 
Attorney General's Office itself, but beyond that there are not 
too many bright spots.

                       MEXICO--A CRIMINAL THREAT

    Mr. Rogers. Last year DEA Administrator Constantine, 
publicly stated here that Mexico posed the greatest criminal 
threat to the United States of anything he had seen in 40 years 
in law enforcement. Do you agree with him on that?
    Mr. Marshall. I agree with him, and that has not changed a 
bit. In my 30 years of law enforcement, I believe the Mexican-
based organizations and their alliance with the Colombian 
organizations present the greatest law enforcement threat that 
we have ever faced in this country.
    Mr. Rogers. The LA Times reported last month the U.S. 
Ambassador to Mexico said that Mexico was the headquarters of 
the drug trafficking world. Do you agree with that?
    Mr. Marshall. Yes, along with Colombia.
    Mr. Rogers. How in the dickens could anybody in their right 
mind in the White House certify that Mexico is fully 
cooperating with us on the war on drugs? Can you tell me that?
    Mr. Marshall. That decision, sir, comes out of the White 
House, and from the State Department. My role in this process 
is to provide objective, factual information on this subject to 
the Justice Department, who then works with the State 
Department and others to arrive at the certification.
    Mr. Rogers. I know the process, but how could anybody with 
any sense--that is saying a lot when you are talking about the 
State Department--certify that Mexico is fully cooperating with 
the United States in the war on drugs? Tell me how they come to 
that conclusion.
    Mr. Marshall. Sir, I would suggest that you ask the State 
Department that question.
    Mr. Rogers. Mr. Serrano.

                         DRUGS IN THE CARIBBEAN

    Mr. Serrano. He walks out and leaves me with this. I don't 
want to upset the State Department. Thank you for being here 
this morning.
    I want to stay close to Mexico and stay on the issue of the 
Caribbean. I want to try to clarify something here which has 
been a little confusing to me. Some time ago I read comments 
which came out of President Castro in Cuba where he said he was 
asking the United States, in an unprecedented gesture I think, 
asking the United States to help him, to get involved with him, 
in fighting drugs in the Caribbean. The response from some 
Members of Congress and members of the political community was 
to do the opposite and start an investigation of whether anyone 
in Cuba in the last 41 years had sold drugs. Then I heard 
members of the administration saying that Cuba was, in fact, 
trying to fight the drug war, and that they needed help. The 
people who did not want us to work with Cuba on the issue of 
drugs were actually saying the opposite, that Cuba was the 
major drug trafficker in the history of the world and certainly 
the Caribbean.

                    CUBA AND THE FIGHT AGAINST DRUGS

    Number one: What is, from your information, the truth on 
the issue? Is Cuba, in fact, trying to fight drugs in any way, 
shape, or form for their own reasons, for their own community? 
And secondly, have we decided to work with them at all, or have 
we ignored that petition?
    For those of us who understand this relationship, or the 
lack thereof, to have Castro suggest as he did at one time that 
we have DEA agents stationed in Cuba just baffled me to the 
point where I said either this is the greatest political 
statement ever made, or this guy is serious about fighting 
drugs. Either way it was baffling to me that he would allow you 
guys in Cuba. What is going on?
    Mr. Marshall. Let me try to give you my best assessment of 
that. It is a complicated situation which is more complicated 
by the fact that we are not in Cuba to observe and see 
firsthand what is going on there. There has been an increase--I 
think that we can show through other means that there has 
actually been an increase in transit traffic across Cuba. I 
think there is an increase in air traffic that brings the drugs 
up from Colombia and air drops them either on the island, or 
around the island. There have been some indications that Cuba 
is a transit point for Colombian cocaine going to Europe. We 
are not yet sure if any of that reaches the United States.
    In years past there have been some Cuban Government 
officials--and this goes back several years--that have been 
arrested for complicity in this trafficking. We cannot say 
definitively whether that constitutes official Cuban Government 
corruption and sanction of the trafficking or whether these are 
simply isolated incidences of involvement.
    Certainly from a law enforcement standpoint, there would be 
some advantages to DEA being in Cuba. Regardless of the level 
of cooperation, we would at least be on the ground there and 
able to assess firsthand what is really going on there. On the 
other hand, the question of whether our relations with Cuba are 
normalized to the point that we can go in there, that is not an 
issue that I can solve. That is an issue for the Congress and 
Administration.
    Mr. Serrano. Where are we now? There was a request from 
Castro, join me in the war on drugs. Our drug czar got into a 
lot of trouble saying that the Cuban Government is making an 
effort, but they don't have ships, airplanes, the kind of 
equipment they need to fight this. So where does it stand? Does 
it stand that we do not move because we couldn't under current 
embargo laws----
    Mr. Marshall. I could only answer your question from the 
DEA standpoint. At this point, we have not been directed to 
pursue that. We have not pursued the question of a DEA office 
in Cuba.
    Mr. Serrano. Not as an official statement on your part, but 
do I remember the request correctly including the possibility 
of negotiating the idea of having DEA agents in Cuba?
    Mr. Marshall. I recall some overtures of cooperation. I do 
not recall that it went so far as requesting a DEA office in 
Cuba. But yes, there were some overtures of cooperation.

                      DRUG PROBLEM IN PUERTO RICO

    Mr. Serrano. I would hope--and I know that these are not 
decisions that you make, but I would hope--in the fight against 
drugs, we should team up with anybody. It doesn't matter what 
the politics of it are.
    Now, Puerto Rico continues to be a place, in my 
understanding, where drugs come in and are--I don't know the 
official proper language--repackaged, and then they reach New 
York and other places. Obviously this is done by airplane. Does 
the ability of these drugs to get in have anything to do with 
how people are treated when they leave Puerto Rico? Since 
people are traveling from a place where American citizenship is 
in force, is it that we are not checking people, that we cannot 
under law check people to a certain extent? Why is that 
happening? Or is it just that people do this well in bringing 
it north?
    Mr. Marshall. It is some of both, Congressman. And 
certainly the Customs Service would be in a much better 
position to give you all of the details of how that all 
operates. But I think the fact that Puerto Rico is a U.S. 
territory and that there is free travel back and forth, these 
individuals they are not subject to Customs inspections, as I 
understand it, between Puerto Rico and the mainland United 
States. My logic tells me that certainly that ease of travel 
contributes to the problem.
    Now, what else contributes to it, I think, is Puerto Rico's 
proximity to Haiti and the Dominican Republic. Haiti and the 
Dominican Republic are certainly emerging as transit countries, 
and there is that kind of traffic between Colombia and those 
countries and those countries and Puerto Rico. So it all 
contributes.

                        MEXICO DRUG TRAFFICKING

    Mr. Serrano. Now the Mexican situation that the Chairman 
was speaking about, that traffic is across the border, if you 
will; the Colombian traffic comes through that border and 
through other places?
    Mr. Marshall. Yes. The Colombians ship cocaine. They do it 
by aircraft, large vessels, and then off-load into go-fast 
boats to get the product into Mexico. The drugs then cross the 
border in cargo, private automobiles, trucks, trains, that sort 
of stuff.
    Now, with regard to Colombian heroin, most of those routes 
are through the Caribbean and up through the East Coast.
    Mr. Serrano. Is there any reason for deciding that this 
particular drug is going to go through the Caribbean and this 
through Mexico?
    Mr. Marshall. There is not really any logic for deciding 
that. It is predominantly different trafficking groups who 
handle cocaine versus heroin. There has been some crossover in 
some organizations that handle both drugs, but I think what we 
saw a few years ago was that the cocaine cartels, that we 
disrupted in Medellin and Cali in the late 1980s and early 
1990s, changed their way of doing business in the United States 
and into the United States. They formed alliances with the 
Mexican traffickers, and they started moving that cocaine 
product more predominantly through Mexico rather than the 
Caribbean.
    Colombian heroin trafficking is a more recent phenomenon, 
with different groups trafficking heroin, and those groups have 
stuck with the traditional Caribbean routes.

                       COLOMBIA DRUG TRAFFICKING

    Mr. Serrano. I have one last question, Mr. Chairman. It is 
a concern that I have. I don't know if you are in a position to 
give me your opinion. In our involvement in Colombia we are 
taking supposedly the side of the military government in order 
to fight drug traffickers, except in this case there is a civil 
war going on, and both sides have been accused of using drug 
money. We have referred to the traffickers, the insurgents, if 
you will, as narcoterrorists. Now, I make the point that that 
is a dangerous thing for us to do, to refer to them as 
narcoterrorists, because in this country we don't negotiate 
with terrorists, and we shouldn't negotiate with terrorists. So 
by calling them narcoterrorists, we have just closed the door 
on ever speaking to a group of people who are involved in a 
civil war where drug trafficking is a part of fighting that 
civil war. Does that make any sense to you? Do I make any sense 
to you?
    Mr. Marshall. I would have to stick to my area of 
expertise, and that is drug trafficking. I look at the FARC and 
the ELM and the paramilitaries as being involved in the drug 
trafficking. They are not traditional drug trafficking 
organizations in that they don't have their own production and 
supply networks and money laundering operations and that sort 
of stuff, and they don't operate in foreign countries. As far 
as we know, they don't directly export the product from 
Colombia, but they facilitate the trade by providing protection 
and logistical support as well as extortion.
    Mr. Serrano. That is to finance their revolution.
    Mr. Marshall. It is my understanding that is to finance the 
revolution. So to the extent they are drug traffickers, they 
are legitimate targets for DEA and the U.S. Government. They 
have taken over certain areas of Colombia where the national 
police can't go in and be effective. I think it is legitimate. 
My personal opinion, is that they are a legitimate target for 
us to attack.
    Mr. Serrano. With your knowledge, sticking to drugs, would 
you say that on the government side there is also room to go 
after drug traffickers in the military, in the government that 
we are going to fund to go after the FARC and others; are there 
people there also?
    Mr. Marshall. I think the problem that we face there is 
probably more of a military problem. The military needs to go 
in and deal with the insurgents and reclaim those areas of the 
country so that the Colombian National Police, the law 
enforcement people, can then go in and do their job.
    Mr. Rogers. Mr. Wamp.

                        METHAMPHETAMINE PROBLEM

    Mr. Wamp. Thank you, Mr. Chairman.
    My questions all revolve around methamphetamine. General 
McCaffrey said this week, quote, methamphetamine has a serious 
potential nationally to become the next crack cocaine epidemic. 
He also said methamphetamine remains one of the most dangerous 
substances that American has ever confronted. Then he says this 
is a war we are winning, but he needs to come to rural east 
Tennessee where I live and where in fiscal year 1998 42 labs 
were seized, in fiscal year 1999 116 labs were seized, and 
already in this fiscal year, just 3 months into it, really, 
since the bill was signed, 137 labs were seized. Most of those 
are in rural counties, because this is the moonshine of our 
generation, but 50 times more deadly and dangerous.
    This is a crisis and epidemic, and we are not winning the 
war. This committee added $1 million just in east Tennessee to 
the Methamphetamine Task Force's budget, yet not a penny of 
that has actually made its way into the field yet. I need a 
report on the status of that million dollars so they can fight 
this problem. No way local law enforcement can deal with this 
without Federal help. There is just no way. They are not 
equipped. They don't have the men. They don't have the hours. 
They don't have the machinery, the labs, the vans, all of the 
different things that they need. That is why we are trying to 
supplement this effort.
    This has migrated from California to the rural counties 
because it smells--it is an urban problem, but not near like an 
urban problem. We also have got the data showing that rural 
children are 70 times more likely to actually experience the 
woes of methamphetamine production and use than urban children 
because this is out in the sticks, in the hills.

                     FUNDING FOR METH LAB CLEANUPS

    I need to know about that million dollars.
    And then the latest real crisis is the DEA Nashville office 
has sent a memo to the sheriffs in east Tennessee that they 
will no longer help clean up these sites, which are toxic 
sites. It costs $5,000 to clean up each one of them, and I have 
already defined the problem with local law enforcement 
capability of dealing with this. They can't clean them up. This 
will shut down their seizures because they are not going to 
seize a lab if they have to pay $5,000 to clean it up because 
they don't have the $5,000-per-lab seizure.
    We need to attack the problem. We need your help, and I 
need two answers for the people back home and all of the 
children of Tennessee that might come in contact with this 
terrible problem of how we are going to--and why we don't see 
supplemental requests--the bell is going off, the alarm is 
going off, and we need money now to help the cleanup of these 
labs when they are seized at the local level.
    Mr. Marshall. With regard to the million dollars, 
Congressman, that is actually COPS money that is administered 
by the Justice Department. While some of that money has come to 
DEA in the past, and we used that money in the past 2 fiscal 
years for state and local laboratory cleanups, we did not get 
any additional money this year in DEA for state and local clan 
lab cleanup. It is my understanding, however, that you are 
absolutely correct; the FY 2000 COPS Meth Program grants have 
not been actually sent out yet. But you would have to address 
that with the Justice Department.
    With regard to your assessment of the cleanup situation, I 
think you are absolutely right. I think that absent sufficient 
resources from DEA, a lot of these problems overwhelm the state 
and local agencies. There is a long history to this. Prior to 
1998, DEA only cleaned up laboratories that we were directly 
involved in. We did that out of our operational funds. Now, in 
1998, DEA got money through the COPS program and appropriated 
some of our own money. In 1999, the same thing happened. In 
2000, all of that COPS money went to direct grants, to the 
state and locals and DEA did not get any of that money.
    What we have had available to us this year is $4.1 million 
through a direct appropriation to DEA for that type of cleanup 
activity, and $3.9 million in carryover COPS money from 
previous years. We have expended all of that, and we are back 
now into a situation where we only are able to clean up 
laboratories that are directly seized by DEA.
    Mr. Wamp. Let me just say, Mr. Chairman, as we close, a 
handful of Members had sent a letter to Janet Reno asking that 
this $4.1 million be released for help in cleanup. Apparently 
we are going to have to stay on top of DOJ in order for any of 
this money appropriated to make its way in the field. I would 
just appeal to everyone involved that we work through the 
course of this 2001 appropriations process to try to get this 
money released and help with these cleanups, because we are 
going to end up with a real problem of not being able to 
dispense the money in a timely manner that we have 
appropriated.
    Mr. Marshall. If I could make one more comment, I have 
spoken to the Attorney General about this problem, and I am 
working with JMD, Steve Colgate and the Justice Management 
Division, and we are trying to find some solution within the 
Justice Department to the degree that we can. We are very much 
aware of the problem, and we hope there will be solutions.
    Mr. Wamp. Thank you.
    Thank you, Mr. Chairman, for all that you are doing on this 
issue.
    Mr. Rogers. Thank you, Mr. Wamp.
    On that point, before I yield to the other gentlemen, it 
needs to be clarified while we are on it that this can be 
handled--I am inundated with calls from Members on this 
problem, the supposed shortfall to pay State and local costs of 
cleaning up these meth labs. The administration's budget never 
requested money for that activity, but we did make some money 
available in prior years under the COPS program for that 
purpose. DEA has spent some of its own money from its base for 
this purpose, too, but all of the funds have been depleted 
because of the huge demand, like the gentleman from Tennessee 
just mentioned.
    Have you asked the Attorney General to send us up a 
reprogramming from the COPS program to fund these local and 
State needs this year? The money is there. All they have to do 
is ask us to reprogram it for that purpose, and I would happily 
sign the letter.
    Mr. Marshall. I know that has been discussed. I am not sure 
where we are with the reprogramming request, but that has been 
discussed.
    Mr. Rogers. Let the word go forth. The money is there. Meth 
labs are prospering, and the administration is doing nothing.
    Mr. Miller.

                              EXTRADITION

    Mr. Miller. Good morning. Let me ask some questions about 
extradition. Last year at the hearing I brought up an 
extradition problem in my district, and that has been resolved, 
and I want to thank you or anyone who was involved in resolving 
that issue and also proceeded with Federal charges on the 
fourth person, and, once again, let me say thank you for what 
you have done.
    When I got involved in this issue, I began to see it was a 
much larger issue. One of the points I want to bring up is that 
we don't know how much of a problem this is. One of the things 
that we asked in the bill last year was to develop a database 
on extradition cases. Can you give me an idea where we stand in 
developing that database so we know which countries are the 
real problem countries? I know it will probably be a few more 
months on that, but give me an update. Do you have the 
resources on that?
    Mr. Robinson. Certainly. The suggestion to really get our 
arms around the ability to respond quickly with the status of 
extraditions is a good suggestion, and we are working hard to 
try to implement that. We are making significant progress. The 
new system is in the process of being implemented with more 
data fields in it to be responsive. Particularly with our 
relationships with extradition with Mexico, we have been 
working hard to clean up the files and figure out how many of 
these matters are stale and how many are current.
    I think we are making significant progress to get that 
current database together so we can respond effectively and 
efficiently. I think we are moving along.
    Mr. Miller. In the next few months we would have more 
information.
    Mr. Robinson. Yes.
    Mr. Miller. Last year on Dateline NBC, a report said that 
we are only successful in 1 out of every 4 extradition cases. 
Is that number about right?
    Mr. Robinson. Bringing them to justice, you mean? I would 
want to double-check.
    Mr. Miller. It was a Justice Department statement to that 
effect. That is the kind of thing we are trying to find out, if 
we are only successful 25 percent of the time.
    Mr. Robinson. That wouldn't surprise me, but I will check 
on it.
    Mr. Miller. I recently got involved in the Ira Einhorn 
case. One of the things that we found out is we don't have a 
lot of leverage when we negotiate on extradition. And the 
problem is that it appears that you can only make a personal 
plea, as I know Mrs. Reno did in this case as well as Mary 
Warren. I know that the DOJ was also involved in the Sheinbein 
case. What else can we do to give you more ability to 
negotiate, more clout, whether it is with France or El Salvador 
or anyone else? What can we do to help strengthen your ability 
to develop these extradition treaties? Right now it is a 
hodgepodge. We don't even have treaties with many countries.
    Mr. Robinson. This, Congressman, is going to be a growing 
problem as we go forward. Globalization, ease of travel, this 
is taxing the resources of our Office of International Affairs. 
We now have a number of Criminal Division people including 
Elizabeth Farr, who is in Paris working very hard on the 
Einhorn matter.
    We are going to have to put additional resources into 
dealing with this. Each of these countries presents unique 
circumstances. Some of them have prohibitions of the 
extradition of their nationals. We need to continue our process 
of renegotiating treaties to try to eliminate those kinds of 
requirements.
    One of the major concerns is Mexico. Some of their legal 
system have this powerful equivalent of our habeas corpus that 
allows things to be caught up in the judicial process of these 
countries. We have experts in the Office of International 
Affairs working closely with each of the components with the 
various countries, but this is going to happen more and more as 
we identify people around the world.
    Part of what we realized is we are going to have to put 
more resources into the Office of International Affairs to not 
only deal with getting the treaties up to date, but working on 
a case-by-case basis, going through the courts of countries 
that have completely different legal systems and bringing to 
bear the public attention on some of these issues. That does 
make a difference. I think the cry that has occurred over the 
Sheinbein case and other cases has put the pressure that is 
appropriate on these other countries to try to make sure there 
is no safe haven for international criminals.
    Mr. Miller. Haven't some countries changed their laws?
    Mr. Robinson. Yes, indeed. We meet with our counterparts in 
other countries, and we constantly press the international 
community to come together on the notion of no safe havens for 
international criminals, arrangements that allow people to face 
the music where they committed the crime. That is something 
that we need to work on, expand the number of treaties, have 
the resources to extradite these cases. Some of these areas 
where you have a major narcotics trafficker that is going to 
spend a lot of money on the legal systems of these other 
countries trying to stay out of our clutches.
    We have been very encouraged by the relationship we have 
developed with Colombia, a real breakthrough in this area. The 
more this happens, the more effective job we will do.

                    U.S. ATTORNEY EARMARKS OF BUDGET

    Mr. Miller. We have the more sensational cases that we 
could talk about, but there was a story on 20/20 in the past 
year about El Salvador where the reporter took a local 
detective from here in suburban Virginia, went down there, and 
there were five murder cases, and he just walked up and talked 
to these suspects. That has to be so frustrating for local law 
enforcement. These guys are free down there. They can't even 
bring them to stand trial, as I said. Because of the global 
economy, this will be a growing problem. We need to develop 
some way to give you more ability, to bring these people to 
justice. I would encourage you to do anything you can to help 
push that along.
    Let me ask a question about the U.S. Attorney's Office. I 
have not been a lawyer, and I have never dealt with U.S. 
Attorneys before, but I visited a Federal courthouse in Tampa 
at that attorney's office. I am impressed. It covers a huge 
area; my area of Florida is gigantic. I see in this budget that 
the U.S. Attorney's office does a lot of earmarking. A few 
million here for guns, a few million for something else, it 
takes away a lot of the flexibility of the local person. How 
much of a problem is that? We do earmarking when we have a 
problem, but then the local U.S. attorney doesn't know how to 
shift the flexibility that he or she may have. You are 
contributing to it, too, not just the Members of Congress.
    Ms. Murguia. Your U.S. Attorney used to be Director of the 
Executive Office of U.S. Attorneys. That is interesting that 
you are asking that question--I would like to say that I agree. 
We appreciate whatever resources we can get. However, when we 
can defer to the people in the field, the U.S. Attorneys who 
consult regularly with federal and state and local law 
enforcement authorities to distribute the resources--it is more 
effective because they know what the needs are. And so to the 
extent that we can protect that discretion within the U.S. 
Attorney community who are in constant consultation with their 
state and local and federal law enforcement agencies on how to 
best use the resources that we get, I think that is really 
important.
    Mr. Miller. But you still do the earmarking, too, like the 
gun issue. I am not saying with certainty that we ought to do 
that, but it is earmarking, so the U.S. Attorney in each of 
these areas, even where they may need more resources for 
drugs--have to focus on this gun issue, and we don't have those 
resources.
    Ms. Murguia. I think that is a pattern that has developed 
because we see that the Members of Congress want to hold us 
accountable to different areas. We want to demonstrate how we 
could use some resources in these designated areas. I think 
that is why we put together by subject matter what kind of 
resources we are looking for and how we would use them. But 
ideally we would like to be given additional AUSAs to fight 
crime. The U.S. Attorneys decide how best to use them; that 
would be the ideal situation.
    I think over time we have seen that there has been an 
expectation that we designate requests for how we will be using 
them, so we go ahead and submit our request in that manner.
    Mr. Miller. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.

                    BUDGET REQUEST FOR LAB CLEANUPS

    Mr. Latham. Thank you, Mr. Chairman, and welcome, all of 
you here on the panel.
    My number one concern was the lack of funding available for 
the cleanup operations. I guess I am curious why there was no 
request--did you make a request to OMB for funds for cleanup? 
But there was nothing in the President's budget last year, and 
why not? This can't be something that you didn't see coming.
    Mr. Marshall. Congressman, actually DEA did make a request. 
The Justice Department did support that request, and I 
understand that once the conference committee came out, Justice 
went in with a conference appeal for something on the order of 
$18.5 million for methamphetamine cleanup.
    Mr. Latham. That is your request for this year?
    Mr. Marshall. Yes, sir.
    Mr. Latham. I was wondering about last year----
    Mr. Marshall. I am sorry. That is for Fiscal Year 2000.
    Mr. Latham. So you asked for that, OMB said zero, but 
Justice came back and said, yes, we do need some money?
    Mr. Marshall. That is correct.

                        TRISTATE DRUG TASK FORCE

    Mr. Latham. But OMB zeroed it out, okay.
    I would echo what Mr. Wamp was talking about, the huge 
problem, as you all know, as far as the meth in the Upper 
Midwest. I really want to thank you for the great job that you 
are doing with the Tristate Drug Task Force. It has helped a 
lot of law enforcement throughout the region with their skills 
in fighting the war on drugs, and Chairman Rogers has been 
fantastic as far as helping us with the regional meth training 
center. We have trained now about 8,000 local law enforcement 
up through the whole--actually four-State area up there. 
Everywhere I go it has been a great success with law 
enforcement officers at all levels.
    Could you give me any kind of perspective on the Tristate 
Drug Task Force itself and what you are seeing there? How much 
is this type of operation being expanded around the country?
    Mr. Marshall. We are seeing a lot of methamphetamine 
activity in that part of the country. We are involved with the 
Tristate Task Force, as we are with many others around the 
country. We have had some cooperative successes there. I think 
that is one of the basic principles of law enforcement in this 
day and age. We all have limited resources, but we all have 
unique skills and resources to bring to the job, so when we can 
work together as in the Tristate task force, I think that we 
really leverage our assets and increase our effectiveness. We 
are very much committed to task force arrangements.
    We also have in that part of the country one of our 
regional enforcement teams. They are deployed based in----
    Mr. Latham. That is out of Des Moines, I believe.
    Mr. Marshall. And they have deployed to Omaha, I believe. 
There will be further deployments of that team in the future. 
It is a very effective team.

                         TASK FORCE COOPERATION

    Mr. Latham. I guess it takes a lot of coordination as far 
as the task force; you have all of the different agencies 
coming together. I wonder, is there cooperation? We had a 
hearing yesterday with INS, and part of the task force up there 
is INS. Is the coordination and cooperation there as far as all 
of the different agencies? I guess specifically because of 
INS's problems, I am more sensitive to their----
    Mr. Marshall. I think in general, Congressman, that law 
enforcement cooperation in this country is better than I have 
ever seen it in the past 30 years. That is not to say there are 
no problems. Obviously there are problems, and any time you get 
agencies together, you are going to have problems. But I think 
by and large law enforcement has adopted a different philosophy 
over the last 10, 12, 15 years. We have recognized that no one 
agency can do this job alone. We have become less possessive. 
We have become less jealous of other organizations. We really 
have done many things to promote cooperation, and DEA has been 
at the forefront of that.
    I just spoke to a group of drug unit commander course 
graduates last evening. I got some great feedback from them on 
law enforcement cooperation across the country. I think my own 
personal observation is it is better than ever, and it is 
getting even better with some of the things that we are 
implementing.

                   COOPERATION ALONG SOUTHWEST BORDER

    Mr. Latham. One of the real concerns that I have in 
recognizing that we have a problem with meth labs, but from my 
understanding, unless the numbers have changed recently, 90 
percent of the drugs, meth in particular, are brought into the 
area and are not produced locally. Being aware of the cartels 
basically that have set up marketing plans in the Upper 
Midwest, I just wonder about the Southwest Border Initiative. 
Are we getting cooperation as much as you would like to see, 
and are we making a difference?
    Mr. Marshall. Among the U.S. agencies on the Southwest 
border, yes, I think we are. We have good cooperation along the 
Southwest border. Again, there are some rough spots, and there 
are always bumps in the road. But among the Justice agencies, 
we have the Border Coordinating Initiative, and the U.S. 
Attorney from Arizona has recently been named the Chair of 
that.
    We have a number of other mechanisms, including the HIDTA 
mechanism, which really brings a lot of agencies together and 
promotes cooperation there. We have the intel centers who we 
are trying to hook in and test and try to improve intelligence 
exchange, that sort of stuff. I think that cooperation is going 
very well, from my perspective.
    Also, we have operating mechanisms between DEA and Customs, 
between DEA and INS, and DEA and Border Patrol. Sometimes they 
overlap, but we have a reasonably good definition of who does 
what and how we all fit together.
    Mr. Latham. Do we have any numbers as to volume coming in? 
Has that changed, been reduced? With meth, a lot of times it is 
these components that are brought in. Is there any analysis 
available to see what we are actually working or not?
    Mr. Marshall. There is, and I could get you a detailed 
analysis of that.
    Just a couple of overarching observations: I think in the 
aggregate we could figure that some 60 percent of all drugs 
that are foreign-produced are coming in across that border from 
Mexico. That is more or less depending on what drug it is.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                       METHAMPHETAMINE PRODUCTION

    With regard to your specific concern on methamphetamine, 
DEA has put a tremendous amount of resources into the 
methamphetamine issue over the last number of years. We have 
hosted a national conference. We have been involved in training 
many new officers not only in lab certification, but in 
investigations and tactics and that sort of stuff.
    What we are seeing in the methamphetamine issue is really 
two problems. You have the Mexican groups that produce 
methamphetamine, and you have what we call the mom and pop 
laboratories. The Mexican groups are probably the easiest to 
attack because they are organizations. They are producing, by 
the way, most of the methamphetamine in the country. They have 
to get large volumes of chemicals. We can attack them in 
traditional ways, and we have been successful at that. 
Operation META from about a year ago immobilized the major meth 
trafficking organization. They, unfortunately, were quickly 
replaced.
    What we are seeing right now, though, is that we are 
beginning to have a little bit of an impact on the Mexican 
operators. The reason that I say that is because the purities 
coming out of Mexican labs have gone down in the last year or 
so, and we are seeing that not only in California, but in the 
other Western States. State and local law enforcement agencies 
confirm this trend. We are seeing the Mexican groups shift 
from--in many cases from methamphetamine to amphetamine. That 
is a different process. It is a little bit different process 
and different chemicals, and that suggests to me we are having 
an impact on the chemicals.
    That is the good news. The bad news is with the decline 
in--a change in the way that the Mexicans are doing their 
laboratories, that results in a rise in the mom and pop 
laboratories. They produce smaller quantities of the drug, but 
it is more dangerous for the public. They try to set them up in 
trailer houses, motel rooms, even in the back of moving vans. 
They are a tremendous danger to the public, law enforcement 
people, and there are no organizations associated with them, 
just small groups of people cooking a batch of methamphetamine 
for their own and their close associates' use. They make enough 
money to cook the next batch, and then they go about their 
business. When you immobilize one of those groups, it is a 
smaller group, you don't have as much impact. And by the way, 
the latter group accounts for most of the laboratories that you 
are seeing and most of the cleanup problems.
    Mr. Latham. Is the percentage still about the same, 90 
percent with the cartels----
    Mr. Marshall. Eighty to ninety percent to the 
organizations, and the rest mom and pop, yes.

                        U.S. ATTORNEY'S WORKLOAD

    Mr. Latham. I wanted to ask you about the workload, and we 
are hearing a lot from our prosecutors, obviously, about what 
their situation is. Is there anything besides more money that 
we could do?
    Ms. Murguia. We appreciate your moral support, however----
    Mr. Latham. You get a lot of that around here.
    Ms. Murguia. Additional allocations in terms of money and 
resources would be the most helpful.
    I mentioned earlier in my statement the need for balance. I 
think what is happening is we are seeing the effects of 
previous allocations given to some of the law enforcement 
agencies. I will give you an example. FBI over the last 2 years 
got an increase of 90 agents to work on cybercrime, computer-
related crime. We are desperately trying to keep up. I am 
concerned because the percentage of matters pending has 
increased almost 400 percent since 1992. And as those 
additional agents generate cases, you will need to fund the 
U.S. Attorney allocation, I think, to correspond effectively to 
that.
    Another example is the Border Patrol. The Immigration and 
Naturalization Service's Border Patrol has an allocation for 
4,500 additional agents that have been given in recent years. I 
know that they have been allocated. INS has almost 5,000 
additional Border Patrol agents and inspectors. I know they are 
not hired to full capacity. I know they are not up to full 
capacity, but they have hired most of those. All of them will 
generate cases for the U.S. Attorneys.
    We were fortunate to get some drug AUSAs in 1997, 1998, and 
1999; however, the cases that are coming in are coming in at 
really an exponential level.
    Mr. Latham. Is the problem access to courts? Is that where 
the big backup is and the time available?
    Ms. Murguia. You will see it on every level; the cases 
coming in and prosecutors trying to deal with them. It is 
affecting U.S. marshals' ability to transport them and the 
courts ability to detain them, and most likely the Bureau of 
Prisons is dealing with this issue as well. So it is really 
affecting every level.
    Mr. Latham. I have gone on too long. Thank you, Mr. 
Chairman.

                 ILLEGAL IMMIGRANTS TRANSPORTING DRUGS

    Mr. Rogers. Thank you, Mr. Latham, for your line of 
questioning.
    Let me get back briefly to Puerto Rico with you. The 
Attorney General of Puerto Rico visited the other day and 
reports that there is a big and growing smuggling operation 
going on of illegal immigrants and drugs from the Dominican 
Republic across the 80-mile straits to Puerto Rico's west side, 
and once they get there, they are home free because they can 
get on a plane and come to the U.S. without inspection. And he 
says that the number of illegal Dominican immigrants crossing 
that strait into Puerto Rico and being used by the organized 
crime to transport drugs from Colombia into the U.S. system 
through Puerto Rico is a real weak spot in our efforts to 
combat drugs. What do you see about that?
    Mr. Marshall. I know that immigration question has been the 
subject of a lot of debate and dialogue among law enforcement 
agencies here and in Puerto Rico. I know there is a lot of 
problems with illegal immigrants, both Dominican and Colombian. 
I think that is correct, that once they get into Puerto Rico, 
the free access to travel certainly does contribute to the 
abuse and trafficking problem.
    Mr. Rogers. There is a big problem?
    Mr. Marshall. Yes, it is a big problem.
    Mr. Rogers. What are you doing about it?
    Mr. Marshall. You would have to ask the Immigration 
Service.
    Mr. Rogers. I am asking you. I know this is the Customs 
Service--it is everybody, but you are a big part of that.
    Mr. Marshall. On the drug problem what we are trying to do 
about that is investigate the organizations that are moving 
those drugs. We have had some successes in Puerto Rico and 
throughout the Caribbean, as a matter of fact. We recently 
mounted an operation called Columbus, where we pulled together 
six or seven of those island nations including Haiti and the 
Dominican Republic, and Puerto Rico. We shared intelligence 
where----
    Mr. Rogers. The problem apparently is they come across the 
80-mile strait by night in boats from Dominican Republic to 
Puerto Rico, and we have no way of spotting them at night, so 
they just flood across in the nighttime. I know from my other 
work in the transportation subcommittee, and I fought to get 
more forward-looking infrared radar on the C-130s to spot 
nighttime fast boats and the like. We have assets in the 
region. This apparently is a major, fairly new way to defeat 
the system.
    Have you talked with the Coast Guard about having them look 
at night for drug smugglers across the strait?
    Mr. Marshall. Yes. We are engaged with the Coast Guard, 
with Customs, with INS in these joint operations.
    Mr. Rogers. The Puerto Rican Attorney General doesn't know 
about it if you are.
    Mr. Marshall. Well, there is interagency cooperation in 
that part of the world, yes.
    Mr. Rogers. I want to know, and you can tell the 
subcommittee later, what you are and the Coast Guard and 
Customs are doing to close down that strait.
    Mr. Marshall. I will provide you that report. I will point 
out that that type of high seas interdiction is the major 
responsibility of the Coast Guard.
    Mr. Rogers. I understand that, but we all work for the U.S. 
Government. If you can't get along with the Coast Guard or get 
them to do something, we need to discuss that.
    Mr. Marshall. We get along with them very well.
    Mr. Rogers. I know you get along with them, but do they do 
what you want them to do on these problems?
    Mr. Marshall. Yes. We have continual dialogue with them. Do 
they do everything we ask? No, but we do work well. I will get 
you a report.
    [The information follows:]

                 Illegal Immigrants and Drug Transport

    Historically, DEA and the law enforcement community in 
Puerto Rico have gathered intelligence, which clearly indicates 
that there is a nexus between drug and illegal immigrant 
smuggling between Hispaniola and Puerto Rico. Transportation 
groups provide services to smuggle both drugs and illegal 
aliens through this region.
    To address this problem, the U.S. Coast Guard (USCG) has a 
permanent operation in the Mona Pass gap between the Dominican 
Republic and Puerto Rico. Despite this effort, the interdiction 
of migrant vessels is a difficult task, even if there is 
intelligence indicating that a migrant boat is en route to 
Puerto Rico. These vessels do not necessarily take a direct 
approach to Puerto Rico; on the contrary, they navigate well to 
the north or south and then approach Puerto Rico through remote 
beach spots along the northern and southern regions of the 
territory instead of spots along the West Coast. Additionally, 
might vessels are sometimes utilized by transportation groups 
as ``bait'' to draw all interdiction assets away from another 
vessel also en route to Puerto Rico but loaded with a multi-
hundred kilogram shipment of drugs.
    In FY 1999, nearly 90,000 Coast Guard cutter operating 
hours and over 16,000 aircraft flight hours were applied 
against the Caribbean threat, amounting to nearly one-third of 
the hours available for all missions within the Coast Guard 
Atlantic Area. Based on this threat, the Coast Guard has nearly 
all of their counterdrug efforts focused on the Caribbean 
Transit Zone.
    The USCG continues to seek solutions to the growing 
regional smuggling problem by expanding their efforts in the 
transit zone. Operation New Frontier--the use of force from 
aircraft combined with over-the-horizon cutter boats using 
night vision goggles, has been a tremendous success. The 
Maritime Interdiction Support Vessel has sailed to the 
Caribbean with deployable pursuit boats that can match and 
exceed the speed of the smuggler's go-fast boats. The USCG also 
continues its efforts to negotiate a series of bi-lateral 
maritime counternarcotics agreements with foreign governments 
to enable more effective and efficient coordination of 
interdiction forces in the region.
    The primary counterdrug focus of USCG efforts in the 
Atlantic Area in the upcoming year will be on Puerto Rico, 
where the smuggling infrastructure is well established. The 
USCG is continually working with other agencies, including DEA, 
to develop a systematic approach to attack this threat and 
force smugglers away from Puerto Rico. The focus will be to 
engage in cooperative interagency efforts and achieve 
breakthrough results by linking interdiction and investigative 
operations to permanently dismantle regional smuggling 
operations.

                       MEXICO LACK OF COOPERATION

    Mr. Rogers. Back to Mexico a minute. We have been very 
patient, the Congress. Back to--I want to recall my 
conversation with you earlier on--about the failures of Mexico 
to help in the drug war. We have been told for years that 
progress was being made with Mexico, that give us a little more 
time and they are going to cooperate. But it just seems to 
slide backwards. We are not making any progress. In fact, it is 
getting worse, in my judgment.
    We provided additional resources to augment DEA's 
activities as well as the cooperative effort with the Mexican 
law enforcement agencies. For example, the U.S. Government made 
a major commitment to joint U.S.-Mexican task forces in what is 
called vetted units. I want to ask you, are those units working 
as planned?
    Mr. Marshall. No, they are not.
    Mr. Rogers. Still plagued by corruption?
    Mr. Marshall. Yes.
    Mr. Rogers. Better or worse?
    Mr. Marshall. Certainly no better, probably a bit worse.
    Mr. Rogers. Do you think Mexico has demonstrated their 
complete commitment to making these units work, staffing and 
resources?
    Mr. Marshall. I think that the elements of the Attorney 
General's Office--and I referred to that earlier--have tried to 
do the best that they can with what they have, but those units 
are understaffed. They are underequipped and unfinanced, and 
they do have those corruption problems.
    Mr. Rogers. What about the safety of your personnel?
    Mr. Marshall. That is my gravest concern in Mexico right 
now. You outlined one incident where, but for the resourceful 
thinking of the two agents, they may not have survived that 
incident.
    I have to say, Congressman, that I was a bit disappointed 
in the Government of Mexico's reaction to that situation. The 
Attorney General's Office themselves are investigating that 
activity, and while they haven't apprehended the criminals yet, 
they are conducting an investigation. However, there were some 
elements in Mexico that focused more on whether the DEA and FBI 
agents were violating their sovereignty than they did on the 
fact that there were 15 corrupt state and municipal officers 
involved in attempted kidnapping and possibly attempted murder. 
I was disappointed in that.
    Mr. Rogers. Let's get this straight. Fifteen Mexican police 
officers?
    Mr. Marshall. They were identified as 15 or so municipal 
and state police officers, who appeared to be working at the 
behest of and taking orders from the trafficker, Mr. Cardenas.
    Mr. Rogers. What did they do--describe the incident a 
little bit for us.
    Mr. Marshall. My understanding of the incident is the two 
agents were down there essentially debriefing a source of 
information, and in the process of their driving through the 
city of Matamoros, there they were confronted by Cardenas and 
these 15 armed men who apparently had seen them drive by from a 
house that we believe, was occupied by this major trafficker. 
They brandished weapons, some of those automatic assault 
weapons. One said it appeared to be a gold-plated automatic 
assault weapon. They tried to get the two agents to give up the 
informant so they could take the informant away. The agents 
refused to open the car doors or give him up.
    At one point apparently Cardenas gave the order to kill the 
three men. The DEA agent at that point very resourcefully told 
Cardenas, you can do that if you would like, but remember what 
happened the last time you killed U.S. agents, and you are 
probably going to be biting off more trouble than you can 
handle here if you do this. And then apparently Cardenas backed 
down and gave the order to not kill them, but warned them that 
they better never come back and they better leave them alone. 
That was essentially the incident.
    Mr. Rogers. Were the DEA agents armed?
    Mr. Marshall. I would rather not comment on anything that 
might compromise the security of our agents down there in terms 
of how we operate or that sort of stuff, Mr. Chairman.
    Mr. Rogers. Has there been any progress made in getting 
Mexico to agree to allow law enforcement personnel to carry 
firearms for their own protection?
    Mr. Marshall. We have not come to a satisfactory agreement 
for the security of our agents.
    Mr. Rogers. It has been going on forever, hasn't it?
    Mr. Marshall. We have not come to an agreement.
    Mr. Rogers. So under Mexican law they are not allowed to 
carry weapons?
    Mr. Marshall. Correct.

                        EXTRADITION WITH MEXICO

    Mr. Rogers. Mr. Robinson, any significant progress on 
extradition with Mexico?
    Mr. Robinson. This is another area of substantial 
disappointment on our part. We continue to work hard at it, and 
I think it is incumbent on us to do the best we can to work 
with the Attorney General's Office in Mexico, and I agree with 
the Director that the Attorney General Magroso has worked very 
closely with us, but much of the disappointment in the 
extradition area is related to the judicial decisions in Mexico 
that have made it very difficult for us to carry these matters 
out.
    I think there needs to be very substantial revisions in the 
Mexican legal system's approach to these matters. We need to 
recall, I guess, ourselves how long it took to get some measure 
of habeas corpus reform in this country. But we think this is a 
major problem of having our efforts being thwarted in various 
ways. They are pursuing appeals, but these things take a long 
time.
    We are disappointed. We are not satisfied with the current 
status of our relationship in the extradition area. We continue 
to work on it and raise it at every opportunity to push ahead 
with it, and we need to continue to make that effort, but we 
would like to see better results.
    Mr. Rogers. How many active extradition requests are 
currently pending?
    Mr. Robinson. I want to double-check to get the exact 
number.
    It is 150, I am told by Ms. Warner.
    Mr. Rogers. How many of those are for major drug 
traffickers?
    Mr. Robinson. A significant number.
    Mr. Rogers. Is that right?
    Mr. Robinson. Yes. That number would include our efforts 
for state and local governments extraditions. They are not all 
of our extradition requests. We have a number of significant 
questions.
    Mr. Marshall. My understanding of that, Mr. Chairman, is 
the number of major fugitives that DEA is interested in, is 
about 12 to 15.
    Mr. Rogers. How many extradition requests has Mexico 
honored?
    Mr. Robinson. Well, it depends. If you mean by honored----
    Mr. Rogers. Major cases.
    Mr. Robinson. We have yet to receive, as you indicated 
earlier, a successful extradition of a major trafficker from 
Mexico.
    Mr. Rogers. Well, I asked Administrator Marshall whether he 
thought we ought to certify Mexico as fully cooperating with us 
in the drug war. He said no.
    Mr. Marshall. I would have to decline to comment on that. I 
believe I said that you needed to ask the State Department why 
they recommended that in the face of some of the information 
that they had.
    Mr. Rogers. Mr. Robinson, what do you say to the same 
question?
    Mr. Robinson. I might have been born at night, so I would 
have to say the same thing. I think that obviously this is a 
decision that gets, as they say, made above our pay grade. We 
provide the information, and it is obviously the decision made 
by the President on many sources of information, including our 
input. We basically provide the kind of answers that you have 
solicited here in that process.
    But as I said, we need to continue to work at this. We 
can't abandon the playing field, and we will continue----
    Mr. Rogers. If we were getting a small supply of drugs 
through Mexico, it might be a different question. Perhaps 
politics might--you might excuse the recognition of political 
questions more than law enforcement, but that is not the case 
with Mexico. As I mentioned earlier, 60 percent of the cocaine 
comes through Mexico. Eighty percent of the meth drugs that are 
rapidly taking over our young people in this country, killer 
drugs, are coming from Mexico.
    If there were any other type of thing going on where one 
nation was causing so much death and destruction in this 
country, we would not hesitate, the U.S. Government, to act and 
act decisively to take appropriate actions. But for some reason 
this administration just simply refuses--they have their eyes 
absolutely shut and their head turned while most of the killer 
drugs are coming into this country across the border from our 
neighbors in Mexico, who do nothing to help us fight the 
battle.
    For the life of me I can't understand that. I think they 
are going to be held accountable for this. People understand 
what is going on, but it doesn't excuse what they are doing. I 
am very much saddened by it and disappointed, frustrated, just 
like I think you are and all right-thinking people and people 
who know what is going on. The decision may be announced by the 
State Department, but it is not made by the State Department. 
It is made in the White House, and they use the State 
Department's PR person to put it out.

           COMMUNICATIONS ASSISTANCE FOR LAW ENFORCEMENT ACT

    Now let me ask you about CALEA. As you know the Congress 
passed the act on the floor to allow law enforcement agencies 
to be able to wiretap in the new digital age and to require 
telephone companies and others to install equipment that would 
allow wiretapping, as we once did in the old system, to be done 
in the new system. Highly complex, technical, expensive. 
Finally we have been able to get the moneys together, mostly in 
the supplemental that the House Appropriations Committee has 
passed, headed to the floor hopefully in the next several days, 
that would fully fund CALEA. And it has been a long battle.
    I would like to have all of your ideas about the importance 
of wiretaps in the performance of your jobs. How important is 
it to the war on drugs or the war on crime or any other thing 
that you be able to conduct court-ordered wiretaps in the 
performance of your respective duties?
    Mr. Administrator, do you want to start?
    Mr. Marshall. Yes, Mr. Chairman. From the DEA's standpoint 
it is very important. It has become one of our basic tools 
against the command and control structures of the major 
organizations. And we find that more and more we are able--
through the intercept of their communications, we are able to 
paint pictures of the organizations, we are able to identify 
the people in those organizations, we are able to identify how 
they do business, we are able to assess their vulnerabilities 
and then set about attacking those vulnerabilities.
    In virtually every major operation that we have done 
recently, we have done court-authorized electronic 
surveillance. That is in virtually all of our major 
investigations. Now, of the universe of criminal electronic 
surveillance orders in this country, upwards of 70 percent, I 
believe it is 72 percent, of those are drug-related. So for the 
drug issue it is very important. We would be at a serious 
disadvantage and our effectiveness would be severely hampered 
if we lost that tool.
    Mr. Robinson. I couldn't agree more, that our ability with 
court authorization and this process is very careful to protect 
people's rights. But without the capacity to engage in court-
ordered electronic surveillance, we would be substantially 
handicapped in our ability to take down these major narcotics 
trafficking organizations. It is also essential with regard to 
terrorism; it is essential with regard to organized crime 
generally. This is a critical tool for law enforcement, and we 
would be very significantly handicapped in our ability to 
engage in our functions without the kind of support that is 
being provided in this area.
    Ms. Murguia. I have to state the same. It has been very 
important to the U.S. Attorneys, the Assistant U.S. Attorneys 
who are out there every day working to fight crime. Again, it 
is not just for major drug traffickers, but also for terrorists 
and organized crime. It has been an extremely basic and 
critical tool.
    I think you can see that by the number of times it has been 
used. Since 1991, there has been an increase of about 225 
percent to--last year we had over 1,300 wiretaps that helped us 
in pursuing drug traffickers. From what I said in my earlier 
statement, our conviction rate is 90 percent. I think that this 
tool is very helpful in having us be able to go after drug 
traffickers effectively.
    Mr. Rogers. Would it be an overstatement to say that if all 
of a sudden you weren't allowed to do court-ordered wiretaps, 
there would be a collapse of law enforcement on organized crime 
and drugs?
    Mr. Robinson. I think it would deal a body blow that would 
be very problematic for us in doing our job. There is a major 
difference between having witnesses testify--and some of the 
stuff you can't get without this, but having the voices 
actually there engaging in criminal activity is a powerful tool 
in the courtroom, and what it really means is that many of 
these cases don't have to go into the courtroom because the 
evidence is there. It is really irrefutable and critical.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    The Chairman informs me that we are very short on time. 
First of all, Mary, I would like to submit a set of questions 
to you regarding the Southwest border and the impact that all 
of these prosecutions are having on the job you have to do. It 
is nice to see you here.

       TRAFFICK OF DRUGS AND ILLEGAL IMMIGRANTS FROM PUERTO RICO

    Mr. Serrano. By the way, Mr. Chairman, every time I see 
her, I get confused because her sister was a very prominent 
member of the White House staff, who is now a very prominent 
member of a campaign in Tennessee. Something is happening down 
there. They come from a family of how many judges and lawyers? 
Quite a few.
    Ms. Murguia. To the extent it is important for the record--
--
    Mr. Serrano. Just for the pride factor.
    Ms. Murguia [continuing]. We have four lawyers. One of them 
is a Federal district court judge, and one is a lawyer in 
private practice. I am here with the Department, and then my 
twin sister used to work for a Congressman and then worked for 
the White House and now has another job.
    Mr. Serrano. I don't want to put you on the spot. I just 
want to get a report on the story of your family.
    My last question, a very brief one. The Chairman made an 
excellent point about the traffick of drugs. But there is also, 
Mr. Chairman, a traffick of immigrants from the Dominican 
Republic to Puerto Rico. Here is my question. That island is 
100 miles by 35 miles. So the section we are talking about, 
which is where I was born, with today's technology is not a lot 
of room to cover. Why is it that people continue to be able to 
sneak in at night? It would seem to me--we were talking about 
the Mexican and Canadian border, that is a large area. But here 
we are talking about a small part of today's world, yet we 
don't seem to be able to see people coming in.
    Mr. Marshall. Well, unfortunately I am not as familiar with 
the Coast Guard and Customs and that sort of technology as I 
should be, but----
    Mr. Serrano. You work with them, right?
    Mr. Marshall. Yes, but I am not aware of their technology, 
and I think it would be better to address this to them.
    Mr. Serrano. I would hope for the record you would find out 
from the Coast Guard why they don't allow you to do the job 
that you should be doing, because they are coming in all of the 
time. The Resident Commissioner from Puerto Rico, Mr. Chairman, 
asked me yesterday to ask Ms. Meissner about the immigration 
problem, but immigration also brings the drug problem.
    Anyway, I want to thank you. We know that you have a very 
difficult job, all of you, and we appreciate your testimony 
here today.

                 FY 2001 BUDGET REQUEST FOR LAB CLEANUP

    Mr. Marshall. Mr. Chairman, may I revisit an issue? I had 
an exchange with Congressman Latham. He asked me if we had 
requested laboratory cleanup money, and I didn't mentally shift 
gears. I thought he was talking about the particular crisis 
that we are in right now, fiscal year 2000, and I gave him an 
answer that related to 2000. I think his question may have been 
what did we ask for 2001, and we did ask for $22 million in lab 
cleanup money in this particular budget year. That was not 
approved by the Administration for submission to Congress.
    Mr. Rogers. We appreciate all of your testimony and of your 
staff that is with you. We appreciate, more importantly, the 
work that you are doing in your respective jurisdictions. We 
talked to you pretty hard, but I want to mention that your work 
is paying off. The crime rate is at its lowest level in 
recorded history. Violent crime is dramatically down. Drug 
business still continues to flourish. The price of drugs 
continues to drop, and more new drugs come into the business. 
The meth craze is ruining our youngsters, but we are making 
some progress. And you are doing a good job in spite of all of 
the difficulties that you have to face, including facing this 
bunch up here.
    Mr. Serrano. That is the least of their problems.
    Mr. Rogers. We have attempted in the past to find moneys to 
fund things that you do. I know all of you are not happy 
perhaps, but we have been under the crunch here, too, in trying 
to find moneys from up above us, and this will be another 
difficult year here in that regard as well, but there are a lot 
of things that we can do to spend our money better.
    I am absolutely puzzled why the Administration doesn't 
pursue the Mexican problem more vigorously. I think if they 
did, we could have some real progress there. But Mexico knows 
that they have got a free ride, and they are not about to 
cooperate. There is no skin off their back. I find that 
appalling, while we have youngsters dying up here, we turn our 
heads for political purposes. That to me is a cardinal sin.
    But nevertheless, thank you for the good work that you are 
doing, and we will be in touch with you. Keep in touch with us. 
If we come up with less allocation than you need from our 
higher-ups, we may have to begin to ration the funds that we 
dispense out to the various agencies we deal with, which means 
you may not get all that you want. That means that we would 
like to talk with you about your highest priorities as we go 
through here. There are bound to be some things more important 
to you than others, and we may have to talk to you about 
picking and choosing some of those as we go through here.
    This will be an abbreviated year. We hope to get things 
done quicker than usual, so bear that in mind as well. Thank 
you, and be careful out there.
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




                                         Wednesday, March 15, 2000.

                    STATE AND LOCAL LAW ENFORCEMENT

                               WITNESSES

MARY LOU LEARY, ACTING ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE 
    PROGRAMS
THOMAS C. FRAZIER, DIRECTOR, OFFICE OF COMMUNITY ORIENTED POLICING 
    SERVICES
JOHN J. WILSON, ACTING ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND 
    DELINQUENCY PREVENTION

                       Mr. Rogers Opening Remarks

    Mr. Rogers. The committee will come to order. We are 
pleased to welcome this afternoon Mary Lou Leary, the Acting 
Assistant Attorney General for the Office of Justice Programs; 
John Wilson, the Acting Administrator for the Office of 
Juvenile Justice and Delinquency Prevention; and Thomas 
Frazier, the Director of the Office of Community Oriented 
Policing Services, also known as the COPS program.
    These agencies represent the government's primary 
assistance to State and local law enforcement agencies in the 
fight against crime in our communities. You are responsible for 
administering grants totaling over $4.8 billion and covering a 
full arsenal of programs from adding more police officers, 
building new prisons, addressing domestic violence and 
combating juvenile crime. I am concerned that the 
administration proposes cutting or eliminating important 
programs with proven records such as the State Prison Grant, 
Local Law Enforcement Block Grant, and Juvenile Accountability 
Incentive Block Grant, the COPS Methamphetamine Drug/Hot Spots 
Program and the School Resource Officer Program and initiating 
other programs without proven track records.
    Obviously, money is not the only answer because not only 
has the Federal crime effort substantially increased, but State 
and local governments are also spending more and more, all for 
the sake of our struggle to reduce crime. We all have ideas 
about how best to tackle these problems, and with the 
limitations on funding that we face, we will have to pool our 
knowledge, talents, and resources together to make sure that we 
are investing in truly effective programs.
    You are the experts who must look closely at State and 
local needs and recommend strategies for them that work and 
will make a difference. We will continue to support you as we 
have over the past years to the best of our ability to give you 
the resources that you need to address the most significant 
crime problems.
    At this point we will include your written statements into 
the record and as soon as I yield to my colleague, Mr. Serrano, 
for opening remarks we will hear your testimony. Mr. Serrano.

                     Mr. Serrano's Opening Remarks

    Mr. Serrano. Thank you, Mr. Chairman. It is indeed a 
pleasure to welcome our witnesses this afternoon. The work that 
you do and the assistance you provide to State and local law 
enforcement agencies and the communities they serve play a 
critical role in improving the effectiveness of our criminal 
justice system, and this assistance is needed now perhaps more 
than ever.
    I have, as you know, a particular interest in efforts to 
improve police professionalism and accountability, particularly 
through improved recruiting and hiring, training and oversight, 
as well as to improve relations between police forces and the 
communities they are sworn to protect. I will be especially 
interested in hearing what you are doing to further those 
goals.
    Thank you.
    Mr. Rogers. Mr. Obey, would you like to say something at 
the outset?
    Mr. Obey. No, not right now. I have some questions at the 
proper time.
    Mr. Rogers. Ms. Leary, we would like to hear from you.

             Opening Statement--Office of Justice Programs

    Ms. Leary. Thank you. Mr. Chairman and members of the 
subcommittee, after much fanfare and a bit of trepidation, the 
21st century has arrived. This new millennium brings with it 
new challenges for us to ensure safety in our communities 
across the country. I am really pleased to have this 
opportunity to talk with you today about the Office of Justice 
Program's fiscal year 2001 budget that will help State and 
local communities meet those challenges.
    Mr. Chairman, while I have served as the Acting Assistant 
Attorney General of OJP for less than 3 weeks now, I do have a 
long history with the Department of Justice. In my 15 years 
with the Department I have worked closely with OJP and I have 
been impressed with OJP and their commitment to figuring out 
and building on what works in the public safety arena. Through 
its innovative programs and its partnerships with State and 
local criminal justice practitioners and its bipartisan working 
relationship with you and the other members of this 
subcommittee, OJP has helped shape our criminal justice system 
and has been at the forefront of the dramatic reductions we 
have seen in crime and delinquency.
    Along those lines, I would like to acknowledge the 
exceptional vision and leadership of my predecessor, Laurie 
Robinson. My goal is to build on these successes that OJP has 
had in urban, suburban, tribal, and rural communities alike.
    As a former United States Attorney in the District of 
Columbia I have seen devastation, the ruined lives and the 
blighted communities that result from crime, especially from 
violent crime. But I have cause for optimism as well because I 
have also seen how these crime-torn communities, with a lot of 
hard work and dedication at the local level and some targeted 
resources from the Federal level, can turn their neighborhoods 
around.
    Mr. Chairman, given the limited time I have this afternoon, 
I would like to take a few minutes to just highlight a few of 
the priority program areas in the OJP budget, and those are 
areas that have been identified for us by our State and local 
partners as critical to public safety.

                      COMMUNITY-BASED INITIATIVES

    First our community-based initiatives. I believe that real 
change is achieved one community at a time. I learned this in 
1991, when I was an Assistant United States Attorney here in 
D.C., I helped bring one of the Nation's first Weed and Seed 
programs to a public housing development in the 5th district 
here in D.C. Through that experience I saw firsthand how you 
can take some strategic law enforcement efforts and couple that 
with the work of a few dedicated citizens and mobilize a 
community.
    I worked in a public housing development there that was 
plagued by drugs and by crime. Through law enforcement efforts 
and those neighborhood folks, that community was transformed 
into a vibrant neighborhood, with a safe haven at the local 
junior high school, child care facilities, a job training 
program, and a ``Grannies in the Hood'' senior citizens 
program. It was a remarkable experience. It taught me, and we 
know from other experiences, that Weed and Seed and other 
community programs work. Now, we want to build on the success 
of those kinds of programs.
    One example of that is the Strategic Approaches to 
Community Safety Initiative, better known as SACSI. That 
program is modeled after Boston's very successful program to 
reduce youth violence. In SACSI we are adding an analytical 
piece to that coordinated community approach that is used in 
Weed and Seed. We are teaming researchers together with local 
decision makers. They analyze the crime trends and then develop 
targeted strategies to respond to a community's specific 
problems. This initiative has been piloted in five communities 
and we are very encouraged by the preliminary results; for 
example, a 36 percent reduction in homicides in Indianapolis in 
the first 6 months last year.
    We would like to expand that SACSI program in the next 
fiscal year. We would also like to expand our community 
prosecution efforts. As a former AUSA who worked to bring the 
pilot prosecution program to the 5th district in D.C., I can 
tell you from personal experience that community prosecution 
does work. Those prosecutors work closely with law enforcement, 
other criminal justice partners, and the folks from the 
community who can prevent, investigate, and respond to local 
crime. It shifts their emphasis from assembly line case 
processing to identifying local crime problems and proactively 
working to improve public safety.
    Most of the funds that we have requested for community 
prosecution will be used to hire or redeploy up to 1,500 
community prosecutors to urban, suburban, and rural communities 
that are experiencing high rates of gun violence. By targeting 
gun cases, these prosecutors will ensure that offenders who use 
firearms in the commission of their crimes are held 
accountable.

                        OFFENDER ACCOUNTABILITY

    That brings me to the second priority for OJP, holding 
offenders accountable. More than half a million offenders are 
returning to our communities after incarceration every year. 
100,000 of them are under no supervision whatsoever. If that 
statistic is not enough, try this: Historically, about two-
thirds of those released offenders reoffend within 2 years of 
their release. These statistics demand our attention. We must 
plan for offenders' return from prison and do everything that 
we can to maximize public safety by maximizing the returning 
offenders' accountability and productivity. The reentry program 
that we propose would fund reentry courts. They are modeled 
after our very successful drug courts to use the power of the 
court to oversee an offender's return to the community through 
graduated sanctions and positive reinforcement. We have worked 
out the proposal in coordination with the Department of Labor 
and Health and Human Services. They would also contribute to 
fund partnerships among law enforcement, corrections, and the 
community.

                         TECHNOLOGY INITIATIVES

    I would like to speak for a minute about technology. This 
new century brings with it endless possibilities for the use of 
technology to enhance public safety. Another one of our 
priorities at OJP is to ensure that communities benefit from 
that technology. Too often we see that public officials can't 
communicate in the middle of a crisis. When seconds count and 
lives are at stake, the technology fails.
    Law enforcement, fire officials, EMS, need, and have 
repeatedly requested, our support to help them implement 
wireless systems that would allow multiple jurisdictions to 
communicate effectively by radio during emergencies. Our State 
and local partners met and asked us for help in developing a 
nationwide network for criminal justice information systems. 
Officials across the criminal justice sector need immediate and 
electronic access to information that they are going to need to 
make informed decisions.
    Unfortunately, technology advances also bring technology 
abuses. As the Attorney General said in her remarks before this 
subcommittee just last week, we really have to work diligently 
to help prosecutors and investigators to contend with cyber 
crime. They need specialized training and they need access to 
sophisticated commuter labs for forensic purposes. Our budget 
addresses all of those needs.

                      DOMESTIC PREPAREDNESS NEEDS

    As the subcommittee has recognized, we must also include 
domestic preparedness in our public safety portfolio. I want to 
thank you, Mr. Chairman, and the other members of this 
subcommittee for your bipartisan support in this critical area. 
In 2001, OJP plans to significantly expand its efforts to help 
State and local authorities prepare for and respond to domestic 
terrorism.
    Our request includes new funds to support the Nunn-Lugar-
Domenici preparedness training program, which we expect will be 
transferred to OJP from DOD in October of 2000. We are also 
asking for additional funds for the first responder equipment 
acquisition program. There is a huge need at State and local 
levels for critical protective clothing and specialized tools 
that the first responders need to safely investigate an 
incident.
    Mr. Rogers. Ms. Leary, let me interrupt you. We have a vote 
on the floor. We only have a minute or so left. We will have a 
temporary recess while we vote and we will come right back. 
Hold that thought.
    [Recess.]
    Mr. Rogers. I am sorry. You may continue.
    Ms. Leary. Thank you. I appreciate it. We also plan to 
build in to our counterterrorism technology program support 
testing and standards development for counterterrorism 
equipment to ensure that federal, State, and local funds are 
invested wisely.

                           YOUTH GUN VIOLENCE

    Mr. Chairman, before concluding, in light of recent events 
particularly, I think that I would be remiss if I did not 
discuss youth gun violence. Most recent data tell us that every 
single day we lose 13 children in this country to gunshot 
wounds. OJP will continue to play an active role in the 
Department of Justice's efforts to stem gun violence, 
particularly as it impacts on youth. In our budget request we 
propose to help local jurisdictions hire community prosecutors 
to focus on gun violence. We will support local media campaigns 
that are aimed at advertising tough penalties for gun crimes 
and advertising the proper storage of firearms to prevent 
access by our children. We will expand and evaluate our 
Partnership to Reduce Gun Violence program, which is designed 
to reduce illegal firearms use by juveniles.
    We propose to further develop the smart gun technologies 
that will prevent guns from being used by anyone other than the 
owner. My prepared statement describes all of these strategic 
plans fiscal year 2001.
    Thank you for making it part of the record.
    In conclusion, Mr. Chairman, I pledge to you that I will 
work with you, members of this committee, and all of the other 
Members of Congress on a bipartisan basis to make sure that 
States and local criminal justice practitioners have the 
resources that they need to protect our Nation's communities in 
the 21st century. Thank you very much. I would be pleased to 
answer any questions that you have.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Rogers. Thank you for your testimony.
    Mr. Frazier.

                        Opening Statement--COPS

    Mr. Frazier. Mr. Chairman, Mr. Serrano, members of the 
subcommittee, I am pleased to appear before you today on behalf 
of the COPS program. This is a particular honor for me. I have 
only recently joined the COPS program. This is my first 
appearance before the subcommittee. I am here today to present 
the fiscal year 2001 budget request for the COPS program, 
provide the update on the progress of the initiative, and 
address any questions or concerns that you may have about COPS.
    After 33 years of service in law enforcement I have seen 
firsthand the impact the COPS program is having. My experiences 
over the past 6 months have only confirmed what I already knew 
as a law enforcement officer, that community policing and the 
COPS program are making a very real difference in the 
neighborhoods that we call home. As you know, the COPS program 
was created in 1994 and added additional officers to the beat 
and advanced community policing nationwide. I am happy to 
report that we have made great strides toward that goal.
    Last year the COPS program funded its 100,000th officer 
under budget and ahead of schedule. Already 60,000 of those 
officers are on the beat fighting crime and improving the 
quality of life in our neighborhoods. The rest are well on 
their way.
    As you know, it takes law enforcement agencies an average 
of 18 months to hire, recruit, and train a qualified police 
officer. This is, however, a necessary delay, ensuring that 
local agencies can carefully select and train officers for our 
neighborhoods. COPS-funded officers work side by side with 
residents to improve their communities in concrete ways.
    Officer Holly Johnson of El Paso walks a beat in a low 
income community whose residents must contend with decaying 
apartment complexes plagued by drugs and violence. The 
residents of these complexes know that Officer Johnson is there 
to help and together they are ridding that community of the 
crime that plagues it.
    Officer Johnson's story is not uncommon. Thousands of COPS-
funded officers just like her are on the streets of our 
hometowns every day.
    In light of recent episodes of school violence, communities 
are turning to law enforcement to preserve school safety. Since 
the COPS program's last appearance before this subcommittee, we 
have enhanced our commitment to this critical issue and funded 
the addition of more than 2,200 officers to our Nation's 
schools. These officers work with students, teachers, and 
parents to address issues of crime and violence before they 
escalate, ensuring that our Nation's schools are places where 
teachers can focus on teaching and students can focus on 
learning.
    All said, the COPS program has invested $6.3 billion in 
local law enforcement with grants to 12,000 of our Nation's 
18,000 law enforcement agencies. The demand for COPS grants is 
strong. In the last 7 days COPS received requests for hiring 
grant applications from 1,300 law enforcement agencies.
    The strategy of more officers on the beat engaging in 
community policing is working. In only 6 short years since the 
COPS program was created, the crime rate in America has fallen 
more than 14 percent to its lowest point in more than a 
generation. The violent crime rate is down more than 20 
percent. This historic drop in crime coupled with a record high 
number of officers is a real testament to the commitment that 
we as a Nation have made to public safety through the COPS 
program.
    Today we have the opportunity to strengthen our commitment 
and to answer the needs of local law enforcement. The 
Administration has requested $1.3 billion for the COPS program 
in fiscal year 2001 as part of its comprehensive 21st Century 
Policing Initiative. These programs will allow the COPS program 
to fund much needed officers for our streets and schools, vital 
crime fighting technologies, valuable training and technical 
assistance, innovative crime prevention initiatives, and 
community prosecutors. We will work collaboratively with the 
Office of Justice Programs (OJP) to administer this 
comprehensive program to local law enforcement.
    This request includes $422 million to add up to 7,000 
officers to the beat. With these funds law enforcement will be 
able to hire additional officers or purchase time saving 
technology to redeploy existing officers. The proposal before 
you equips law enforcement with 21st century tools to fight 
21st century crime. With the $350 million requested, we will 
invest in interagency information networks, technology centers, 
ballistics testing, DNA research and backlog reduction, crime 
lab enhancement, and crime mapping and analysis. This budget 
proposes $135 million for community crime prevention. These 
initiatives attack the causes of crime and violence at their 
roots and invest in programs to enhance police diversity and 
integrity. We have also requested $200 million to hire 
community prosecutors who will complement our community 
policing efforts in helping bring justice to our neighborhoods.
    Despite our gains over the past 6 years, crime is still too 
high in this country. A violent crime is committed every 21 
seconds, a woman raped every 6 minutes, a person murdered every 
30 minutes. We must continue to fight this battle against crime 
and violence and invest in the COPS program. We will not relent 
in this battle. This one is worth fighting for.
    Mr. Chairman, Mr. Serrano, members of the subcommittee, I 
would like to thank you for the opportunity to testify about 
this very important program and look forward to working with 
each of you to continue the tremendous support that you have 
provided local law enforcement in recent years. At this time I 
would ask that my written statement be submitted for the record 
and I would be pleased to answer any questions that you might 
have.
    [The information follows:]
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    
    Mr. Rogers. It shall be.
    Mr. Wilson.

                  Opening Statement--Junevile Justice

    Mr. Wilson. Thank you. Mr. Chairman, members of the 
subcommittee, it is my pleasure to be here today to discuss the 
activities of the Office of Juvenile Justice and Delinquency 
Prevention. I am honored to appear with the new head of OJP, 
Acting Assistant Attorney General Mary Lou Leary, and COPS 
Office Director Tom Frazier to discuss our proposed 2001 
funding priorities.
    We have seen America's communities make great progress in 
recent years in reducing juvenile crime. These reductions are 
due in part to strong community efforts to undertake 
comprehensive approaches to juvenile violence, approaches that 
combine prevention and early intervention programs with 
graduated sanctions that hold young offenders accountable.
    OJJDP's programming is designed to assist and support in 
these efforts to protect children from harm, to steer them away 
from crime, drug abuse and gang involvement, and to intervene 
early and effectively when high risk and delinquent behaviors 
first occur. We carry out this work through individual programs 
such as those that focus on mentoring and gangs and through 
supportive comprehensive community efforts such as Safe Futures 
and our Comprehensive Strategy. Yet even with the recent 
declines in juvenile arrests, youth crime and violence remain 
very serious problems. Clearly we still have much work to do to 
change the lives of troubled children while, at the same time 
maintaining public safety and confidence in the juvenile 
justice system.
    Mr. Chairman, I will focus my oral remarks today on three 
priority areas: Guns, drugs, and school violence. Any 
comprehensive effort to reduce juvenile crime and delinquency 
must make juvenile gun violence a priority. Evidence of this 
need is demonstrated by the dramatic increases in the mid-1980s 
to the mid-1990s in homicides by juveniles, all of which were 
firearm related.
    To help communities in their efforts to address this 
critical issue, OJJDP recently published Promising Strategies 
to Reduce Gun Violence. This was a departmentwide effort that 
profiled programs in 60 communities that successfully 
implemented innovative gun violence reduction programs and 
strategies. The document serves as a basic resource for 
communities across the country that are struggling with the 
problem of gun violence, providing them with tested program 
ideas and solutions. It is one example of how we share best 
practices information with the field.
    Effective community efforts must also focus on reducing 
juvenile drug abuse. We are working hard to implement the Drug 
Prevention Program. Its centerpiece, the Life Skills Training 
Program, is now reaching 142 middle schools and serving nearly 
77,000 students. We expect to dramatically expand the program 
this year and are working with the Center for Substance Abuse 
Prevention on a new initiative to replicate effective drug 
prevention programs that will reach students in all grades. 
OJJDP continues to partner with the Office of National Drug 
Control Policy and other Federal agencies in implementing the 
Drug-Free Communities Support Program. This program supports 
communitywide coalitions that engage youth, parents, media, 
schools, and law enforcement to reduce and prevent Youth 
substance abuse.
    OJJDP is also working collaboratively to address school 
crime and safety issues, a third priority area. Our work is 
fueled not only by recent tragic school shooting events but 
also by the fact that students report feeling less safe at 
school now than they did just a few years ago, an unacceptable 
situation if our youth are to learn and succeed. Schools are 
increasingly working with parents, law enforcement, local 
juvenile justice systems and mental health service providers to 
create comprehensive safety plans to help make schools the safe 
havens that they should be. We support this work through 
collaborations like Safe Schools, Healthy Students, a hallmark 
program of the Departments of Justice, Education, and Health 
and Human Services. It is designed to promote school safety and 
community safety and create safe environments for learning.
    Mr. Chairman, in administering these and other programs, 
OJJDP is committed to ensuring that our limited resources are 
invested in strategies that work. Through research and 
evaluation, we determine the scope of juvenile violence and 
victimization issues and identify the most effective approaches 
to addressing them. We are committed to sharing information on 
research, statistics, and effective programs with the public, 
policy makers, and practitioners.
    In conclusion, the President's proposed budget will enable 
OJJDP to continue our strong support of states and communities. 
We believe that the commitment of federal resources to the 
priority areas I have highlighted, and to juvenile justice 
initiatives in other key areas, will lead to further reductions 
in juvenile violence and victimization.
    I want to thank you, Mr. Chairman and the members of the 
subcommittee, for the support that you have provided to OJJDP 
in the past. I look forward to working with you to continue the 
progress we have achieved under the leadership of Attorney 
General Janet Reno and our former Administrator. I would be 
pleased to answer any questions you may have. Thank you.
    [The information follows:]
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    
               LOCAL LAW ENFORCEMENT BLOCK GRANTS (LLEBG)

    Mr. Rogers. Thank you for your testimony, all three of you, 
and for those new to the subcommittee we want to say a special 
word of welcome. This subcommittee and its constituent agencies 
are a hard working group that covers a lot of waterfront and 
very important subjects, none more important than the one we 
are covering today.
    Ms. Leary, we are very pleased to have you here. You have 
some very large shoes to fill and I mean that not literally----
    Ms. Leary. Though it is true.
    Mr. Rogers [continuing]. Because Lavine Robinson was an 
exceptional talent we think. She handled this job in a very 
efficient way and very effective way and we wish her well in 
her new endeavors. But we hope that you can live up to her 
standards. But that is quite a high mark--or low mark----
    Ms. Leary. I will do my best.
    Mr. Rogers. We want you to know this year the budget 
eliminates your--your request eliminates the Local Law 
Enforcement Block Grant again in spite of the fact that we have 
been fair about supporting the COPS program over the years, 
over the last 4 years. Even though every year the 
Administration blocks or continues to eliminate in their 
request the block grant programs for local law enforcement 
agencies, which we think are terribly important. This puts the 
committee in the position of trying to find additional moneys 
from other programs so that we can continue to fund the Local 
Law Enforcement Block Grant and help local communities in their 
crime efforts with a little bit more leeway than the COPS 
program provides. I am interested, did you request funding for 
the Local Law Enforcement Block Grants from OMB?
    Ms. Leary. We did, Mr. Chairman.
    Mr. Rogers. How much?
    Ms. Leary. I can get you those exact figures on how much 
the requests were. I would say this, that----
    Mr. Rogers. Give me a ball park estimate, surely somebody 
with you knows that.
    Ms. Leary. I would say that for the Local Law Enforcement 
Block Grant we requested $250 million and for the Byrne, and 
the VOI/TIS we also put in a request.
    Mr. Rogers. I'm sorry.
    Ms. Leary. For Byrne and for VOI/TIS we also put in a 
request.
    Mr. Rogers. How much?
    Ms. Leary. For Byrne, $400 million. And for Woods VOI/TIS 
$250 million.
    Mr. Rogers. All three of those were denied by OMB?
    Ms. Leary. Well, the Administration made a different call, 
Mr. Chairman. We had a lot of competing priorities, limited 
resources, and they made a call that a different mix was what 
was going to come back to us. I think in fact the block grants 
have been very helpful to communities and I would say that OJP 
has done a very good job of administering them and in 
particular with respect to recent events in, for instance, 
putting LLEBG on-line for applications and draw down. So it has 
been effective.
    However, when you have limited resources you have to 
balance your priorities and there were a lot of innovative new 
approaches that the Administration wanted to support in this 
year's budget.
    Mr. Rogers. But do you agree that the block grant programs 
together with discretionary grant programs provide a balanced 
approach for supporting local law enforcement and firefighting 
efforts?
    Ms. Leary. We are very grateful for the support that has 
come from Congress for these funds over the last number of 
years. I would say that they have been helpful but we have 
learned from the Maryland report, which this subcommittee 
commissioned, and from our experience that sometimes it works 
better when you invest your resources in figuring out new 
innovative approaches to problems and then demonstrating them, 
evaluating them, and disseminating that to the field.
    Mr. Rogers. Do you think you are better at doing that than 
the people on the ground in the local communities?
    Ms. Leary. Every one of the programs that we propose, Mr. 
Chairman, is proposed after we have gotten a lot of feedback 
and input from our state and local partners. That is really a 
large part of what we do at OJP.
    Mr. Rogers. But if a local community doesn't need more 
salaries for officers, but radio equipment or tires for the 
police cars instead, or what have you, shouldn't they be 
allowed to have some discretion about how they spend the monies 
we give to them?
    Ms. Leary. There is still money going out to state and 
locals where they really do have discretionary power. There is 
a lot of leeway in many of programs that are proposed as well.
    Mr. Chairman, could I just clarify one point that I made. 
The Administration did not eliminate the Byrne funding. It was 
just reduced.
    Mr. Rogers. For what?
    Ms. Leary. The request for the Byrne was reduced by $400 
million.

                        LLEBG--BALANCED APPROACH

    Mr. Rogers. Yes, you are correct. But they did eliminate 
the local law enforcement program.
    Mr. Frazier, do you agree that the Local Law Enforcement 
Block Grant program has given a balanced approach for 
supporting local law enforcement along with the COPS program?
    Mr. Frazier. Mr. Chairman, I think--and I speak as a very 
recent local chief--that the needs are immense. There are so 
many things that local agencies need. There is far more demand 
I think there than there is funding in a number of areas. I 
think across the board the results of COPS grants are clear, 
but police chiefs would say that there is far more need than 
there is ability to fund it.
    Mr. Rogers. What I am asking you is in addition to salaries 
for policemen there are other very pressing needs, are there 
not, in the local police forces?
    Mr. Frazier. I think there are, Mr. Chairman. I think that 
one of the things that needs to be done is to figure out how we 
can get the best kinds of results, the decreasing crime rates 
that I think we all strive for within the parameters of the 
available funding.
    Mr. Rogers. But as a local police chief--where were you a 
police chief?
    Mr. Frazier. Baltimore.
    Mr. Rogers. As a local police chief, don't you know better 
where you need moneys spent as a police chief than somebody 
sitting in Washington does?
    Mr. Frazier. I think, sir, that one of the beauties of the 
COPS program was that in the earlier years--I remember well 
sitting at Major City Chiefs where representatives of the 
Justice Department came and said ``what do you need?'' The 
answer was police officers and law enforcement technology. So 
in that sense I thought the program was responsive.
    Ms. Leary. Mr. Chairman, also I am sure the committee knows 
that Byrne money can be used to purchase equipment for the 
police departments.
    Mr. Rogers. Well, the so-called COPS technology program 
that you referred to, was an initiative of the Congress and 
enables local agencies to have moneys available for 
technologies. As you well know, we have funded the COPS 
program. But many of the local communities are now going to 
have to put up 100 percent of the costs of the police that were 
added during the COPS program. As we all know, the percentage 
of funds that the feds provided decreases over a 3-year period 
to zero in the fourth year. Many of them are now hung out on a 
limb and are not able to fund the police that were hired. On 
the contrary, the local law enforcement program can be used for 
cops' salaries and is 100 percent federally paid. There is no 
local moneys that go into it.
    Would that not be an advantage to a local police chief?
    Mr. Frazier. I think the advantage of the COPS grants is 
that it is a very much more predictable funding stream. You 
know that you have funding coming in a 3-year cycle. It is a 
decreasing amount so that you can in essence wean off. The 
agreement with local agencies and the Federal Government is 
well-known at the outset of the program. I think it is a good 
way to provide seed money for advances in local police 
departments without setting up, in essence, an entitlement 
program.

                     PIECEMEAL REPLACEMENT OF LLEBG

    Mr. Rogers. Well, we have provided over $1.5 billion over 
the last 3 years to local communities here--with the Local Law 
Enforcement Block Grant program and they have used those funds 
for everything imaginable in the law enforcement field at their 
discretion rather than being told from Washington that this 
money will be spent for a particular purpose. We have let them 
have some, a good deal of discretion in how they spend those 
moneys. We have heard of no fraud or misuse of those moneys, 
although I suspect a dollar or two here and there. By and large 
the discretion of the local police chief has had the capability 
in that program to adjust their needs to the moneys that could 
become available to them with much more leeway than the COPS 
program.
    Now, instead the Administration is expecting to abolish 
that program and in place of those very successful block grants 
are proposing many unauthorized new programs for things these 
block grant programs can already be used for. My question is 
why are you proposing a series of new piecemeal programs to 
replace a very successful and flexible block grant program?
    Ms. Leary. Mr. Chairman, with respect to the authorization 
question--there are some programs that need authorization and 
that language will be coming up to Congress soon. But with 
respect to going forward with these other kinds of programs, we 
recognize that some very popular programs have been eliminated 
that address a very real need in local communities. But at the 
same time we have to balance it out and make difficult choices 
here. There were a lot of areas of real concern like offenders 
coming back into the community, violence against women, police 
use of force, the issue of cyber training that really cried out 
for the development of targeted programs so that we could take 
innovative approaches to these kinds of problems and build on 
that. The Administration made a call that was how to best serve 
the public.
    Mr. Rogers. These block grant moneys that I have mentioned 
has been used by localities to hire police officers. Do we know 
how many officers were hired with that funding in fiscal years 
1997, 1998, 1999, and if these were in localities that couldn't 
afford the COPS program?
    Ms. Leary. I know in 1999 about 14 percent of the LLEBG 
money went to hiring. I can get you the specific numbers for 
the number of officers and the numbers for the other areas as 
well. I would be happy to provide that to the committee. That 
fund is also used not just for hiring but for equipment and for 
overtime. So it covers a broad range. It is not enough to meet 
the needs for hiring or for equipment, overtime, and the like.
    [The information follows:]
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Rogers. But it filled a great void, did it not?
    Ms. Leary. It was certainly helpful.
    Mr. Rogers. I have more questions but in fairness I want to 
make sure that all of other members have an opportunity. Mr. 
Serrano.
    Mr. Serrano. Mr. Chairman, Mr. Obey has another hearing to 
attend. I would like to take a pass now and let him go ahead.
    Mr. Rogers. We yield to Mr. Obey.

               CURRENT PRISON POPULATIONS AND CONDITIONS

    Mr. Obey. I appreciate that very much. Let me say that I 
take a backseat to no one in my support for tough law 
enforcement. My brother-in-law, who is a district attorney, was 
shot in the line of duty, and I had a wife who came at me with 
a knife so it was sort of an equal opportunity weapon approach 
to life. But I nonetheless have just three questions I would 
like to ask. The first has to do with a question of whether we 
are being smart as well as tough in the way that we deal with 
the criminals today. In 1976 Wisconsin spent $26 million in its 
whole adult prison system. Today it spends $311 million. We 
have had a 1200 percent increase on what it spends in adult 
prisons. We have had 500 percent increase in the adult prison 
population. In 1969 the entire State general fund budget was 
$890 million. Today the budget for the corrections department 
alone for our State is $675 million. That puts into context how 
much more we are spending today.
    I would like to ask one simple question on this point. Has 
your agency done any analysis of who is in prison today in 
comparison with who was in prison 10 and 15 years ago, the 
nature of their crimes, what percentage of persons in prisons 
are those who have committed what we regard to be dangerous 
crimes, those who committed other kinds of crimes? I don't want 
you to because of the time squeeze to respond to that now, but 
I would like you to respond in depth for the record. My staff 
will discuss with you how I would like to have it down so that 
we can have some view of what we are doing.
    Ms. Leary. We would be happy to work with you on that. The 
Bureau of Justice Statistics has done work in that area.
    Mr. Obey. The second question: Are prisoners human beings?
    Ms. Leary. They certainly are.
    Mr. Obey. They are not supposed to be in some subhuman 
category just because they have committed a crime?
    Ms. Leary. Certainly not.
    Mr. Obey. We just had an incident in Wisconsin where an 
inmate by the name of Michelle Greer, who was an inmate at the 
Taycheedah prison, died February 2 in the prison dining hall 
from an asthma attack. She had complained to guards for an hour 
that she could not breathe. She begged to see a doctor. Guards 
were told by the prison nurses that it was not an emergency 
because she could still talk. She died an hour later.
    I would like you to review that incident because there had 
been a concern expressed by the Milwaukee district attorney on 
that issue. I would like you to review that incident and get 
back to me with an analysis, not just of what happened but how 
that kind of thing can be prevented in the future. I would also 
like to know whether or not there are any other cases around 
the country, cases of inmates who have died while they have 
been asking for medical attention.
    I recognize that accidents can happen. My old friend 
Archie, the Cockroach, observed that there is always comfort in 
time of trouble when it is someone else's trouble. But I would 
nonetheless like to know what the policies are in Federal 
prisons with respect to making certain that people are aware of 
the health needs of prisoners so that if they run into problems 
they wind up in some condition other than on the slab 
somewhere.
    Ms. Leary. Certainly.
    [The information follows:]

                    Inmate Health Care and Treatment

    On March 27, 2000, staff from the Office of Justice Program's (OJP) 
National Institute of Justice, Bureau of Justice Statistics, and 
Corrections Program Office, as well as staff from the National 
Institute of Corrections, met with Andy Tantillo from Mr. Obey's staff 
and Sally Chadbourne from House Appropriations to discuss several 
issues related to inmate health care and treatment.
    OJP and NIC provided Mr. Tantillo and Ms. Chadbourne with a variety 
of facts, statistics, and policies related to inmate care and 
identified training and technical assistance resources available to 
assist corrections personnel to more effectively identify potential 
problems and better manage these issues. We have not received further 
requests from Mr. Obey's staff since this meeting.

             IMPACT OF TRANSFERRING PRISONERS OUT OF STATE

    Mr. Obey. Thirdly----
    Mr. Rogers. Mr. Obey, if the gentleman would yield, was 
this a State prison?
    Mr. Obey. Yes. But that brings me to the next question. 
Wisconsin ships about 4,000 prisoners out of State to West 
Virginia, Ohio, Tennessee, Mississippi. I am curious to know 
whether within the field of criminology either in your agencies 
or in the academic world anyone pays attention to this stuff, 
whether there has been any analysis of what happens to our 
ability to rehabilitate prisoners when they are shipped long 
distances away from home and whether there is and if there is, 
what kind of impact there is on the children of those inmates 
in cases where they are shipped long distances from their home. 
I recognize in the Federal penitentiaries that is the norm. I 
frankly don't think it ought to be the norm with respect to 
State penitentiaries and our State prisons.
    So I would simply like to have you scout the literature and 
tell me what is out there because I think we ought to consider 
those factors--something other than which party can prove it 
has the biggest muscles in being tough on crime in an election 
year.
    Ms. Leary. Those are important issues, Mr. Obey, and work 
has been done in those areas that you have described. We would 
be happy to get together with your staff and provide you this 
material.
    Mr. Rogers. Briefly, there is a report that we are 
expecting momentarily from the Bureau of Prisons dealing with a 
lot of this that we should get any moment.
    Ms. Leary. There are a number of reports in the works. On 
the health concern issues, for instance, the National Institute 
of Justice is working on a survey of State prisons with respect 
to the health status of their inmates and what kind of 
protocols and resources they have in place. They are also doing 
something extremely innovative, which is pioneering 
telemedicine in prisons. One of the problems is getting enough 
medical staff to go into the prisons and work there. So through 
the use of telemedicine, that is being piloted in two places 
now----
    Mr. Obey. That gives new meaning to the term house calls by 
doctors.
    Ms. Leary. Right. But we have done a lot of work in the 
areas that you have described and we would be happy to provide 
you with that information.
    Mr. Obey. Thank you.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. I would also like to allow Mr. Dixon to ask a 
question. I have a theory that if I get rid of my senior 
members they will not know how little I know about this.
    Mr. Rogers. Mr. Dixon.

                   PARAMETERS FOR USE OF COPS FUNDING

    Mr. Dixon. Thank you, Mr. Chairman. I appreciate you 
yielding, Mr. Serrano. Director Frazier, my question is 
directed to you and it is concerning a parochial matter. As I 
understand it, you had a meeting yesterday with some members of 
the City Council of Los Angeles and you have received a letter 
from the city dated March 13, 2000, and I am wondering if you 
had a chance to review it.
    Mr. Frazier. Very briefly. March 13?
    Mr. Dixon. Yes. Let me ask you this way. What are the 
parameters of the use of COPS money with the exception of 
hiring new police officers, if any?
    Mr. Frazier. I think--and just with a very brief read of 
this letter the question is one of supplanting, does this 
proposal--the letter is a bit vague. It needs to be a little 
more specific.
    Mr. Dixon. I will interpret the letter for you. I don't 
think it is vague at all. He wants to use the COPS money that 
he has not spent for 1998 to pay the salaries of supervisors 
and experienced officers in critical functions. I am quoting 
from the letter. So I am not challenging you, I am just asking 
you whether under the existing guidelines whether that is 
already permissible?
    Mr. Frazier. If that means to use a hiring grant to promote 
existing officers, it is not.
    Mr. Dixon. Right. And that is the normal procedure, 
certainly with LAPD, they don't hire somebody from outside as 
sergeant. It would be a promotion and what he wants to do is 
use the money for that purpose.
    Mr. Frazier. I suspect that it does not fall inside our 
funding parameters but it is----
    Mr. Dixon. In order to pay the salaries of more experienced 
officers in critical functions; is that correct? That is just 
saying that we want to pay somebody that has been on the force 
for some time.
    Mr. Frazier. That is supplanting in essence.
    Mr. Dixon. Thank you, Mr. Chairman. That is it.
    Mr. Rogers. Mr. Serrano.

                 TENSION BETWEEN POLICE AND COMMUNITIES

    Mr. Serrano. Thank you, Mr. Chairman. I want to talk about 
a subject that I am sure all three of you can speak to, perhaps 
especially you, Mr. Frazier. As you know, one of the issues 
that we deal with and that has really blown up to a crisis is 
the tension that exists more than ever between police officers 
and the communities that they police. I represent the district 
in the Bronx where Diallo was killed. I am in the city where 
Abner Louima was tortured, if you will. I am in a district 
where Andrew Baez was killed. And you know those names and you 
know the situation in LA. The best way to describe what I think 
is happening, something that I have said at some public 
gatherings in the past and at this subcommittee, comes from a 
personal experience. I grew up in a community where whenever a 
young person, usually a young person, complained about the 
police, the older folks always stood up and whether it was in 
Spanish or English, broken English or broken Spanish, they 
would tell the young person, listen, they are here to help us 
and serve us and they are our friends and you are wrong and you 
will realize that you are making a mistake about how you feel 
about them. In many ways that was part of growing up. In some 
cases it was a real problem and in some cases just part of 
anger at authority.
    But in the last few years I have seen senior citizens from 
my community on picket lines complaining about the treatment 
that they get from the police and making statements like ``we 
don't feel safe any longer from the police''. We are told that 
crime has gone down. That is true. But crime in the police 
departments has gone up. And so my question to you, to all of 
you--while I agree with the chairman that localities usually 
know what they need to do their job and they know more than we 
do, in the case of how to train police officers, how to make 
them behave in a different way, I don't think that we will get 
a fair statement from communities because no police department 
wants to admit that there is a problem. Very rarely are you 
going to hear ``you are right, there is a problem here''. 
Whether it is from racial issues, arrogance, lack of training, 
lack of supervision, there is a problem here. And nobody wants 
to admit that.
    We have a problem in New York City and no one in the police 
department wants to admit that there is a problem. The 
community knows there is a problem. So administering the 
programs that you do at any level, what should we be doing at 
the Federal level to send a strong message that there is a 
problem in this country and many communities are feeling that 
the price they are paying for lower crime rates is perhaps not 
worth lower crime rates because the innocent are suffering? 
What can we do?
    Mr. Frazier. I couldn't agree with you more, Mr. Serrano. I 
would like to frame my answer just a bit. There are nearly 
640,000 police officers in America. I think by and large those 
men and women do an extraordinary job every day under very 
difficult circumstances. There is a small percentage who engage 
in misconduct--specifically unnecessary force, or profiling--
kinds of things of which you speak. Those things are simply 
wrong and I think that that is why that is very much a focus of 
the COPS budget this year. We have asked for in this budget $20 
million for integrity and hate crimes training, data collection 
that have identified racial profiling through our original 
community policing institutes, integrity training, technical 
assistance grants to promote police accountability, all of the 
things that get at diminishing the crime rate without losing 
trust. It is very much a focus of our budget this year.
    Two of our original Community Policing Institutes 
specialize in ethics and integrity training. In those 
Institutes we have trained 77,000 police officers and community 
leaders. Oftentimes they are trained in the same classroom, 
with the same curriculum, and the same instructors. I think 
where COPS and the Justice Department, and other components, 
such as Civil Rights Division and Community Relations Service, 
focus is on issues of integrity and accountability.
    I think there is one other very important piece in this 
budget proposal. There is $5 million in this budget for a 
police recruitment initiative, and there is a theoretical model 
about what community policing is. However, all of these things 
are driven by who is selected to come into law enforcement 
service in the first place. How do we find men and women who 
want to be police officers in the spirit of service, not the 
spirit of adventure?
    Mr. Serrano. Let me speak to that for a second. You have 
figures here like $422 million. You have other numbers yet you 
tell me $20 million is requested for this particular area. I 
realize $20 million is not a few pennies, but in comparison to 
what you are spending in other areas, is that enough to attack 
a very serious problem? I do agree that it is a serious 
problem.
    By the way I should have prefaced my comment by saying that 
I also, we all support the work that is done by most police 
officers. Most do what we want them to do and those other guys 
get all of the publicity when they do something wrong. There is 
a big difference. In our profession when we do something wrong 
the system lends itself to having a lot of people criticize you 
for it.
    That blue wall of silence, for instance, in New York City 
and other departments, and that 48-hour rule, which doesn't 
allow a police officer who kills somebody, shoots somebody, to 
speak to anyone for 48 hours. Assuming that the person wants to 
cover something up, my God, even a nervous guy like me could 
come up with an explanation about what happened in 48 hours. 
How can we justify only $20 million for that and so much more 
for other things? Not justify, why would you want only $20 
million is my question. Is $20 million enough?
    Mr. Frazier. In my experience--and in today's environment 
that we all are well aware of, I think the need for this 
training goes across America. We have a delivery system in the 
Regional Community Policing Institutes to deliver that. I think 
some Federal assistance, particularly in terms of who is hired 
in the first place, is timely and beneficial, but I certainly 
think that this is an enormous training need----

               NEED FOR QUALIFIED TRAINED POLICE OFFICERS

    Mr. Serrano. I understand. I don't want to beat this to 
death. But in all due respect, sir, I sense a very cautious 
approach to this. I am not going to second guess what you have 
done, but there is a major problem here, a crisis. We are 
losing more and more young people every day who believe that 
the police are not there for them. We are losing more and more 
citizens every day, good tax paying citizens who believe the 
police are not there for them. We have to do something 
aggressively. I am going to tell you there is a problem.
    So you have two problems and you have to look at them and 
maybe come back to us later and tell us what you think we could 
do from the Federal level. One is the general recruitment of 
people and how you find out who is fit to be a police officer. 
Then there is a specific problem which exists in New York City 
and other places, which is a real problem. I will tell what it 
is. A large number of police officers in New York City are born 
and raised in the suburbs and they are, in many cases, non-
minority. And so what happens when a young man or young woman 
is born and raised in a community, say on Long Island or the 
mid section of New York State where he hears in the school 
yard, maybe in the church yard, maybe in the synagogue, maybe 
at the dinner table that those people who live in the Bronx or 
in Brooklyn who don't speak English or whatever are a problem 
and they have this and that. How can we try to screen folks out 
who come with those preconceived notions? Because when you have 
a person faced with four police officers in plain clothes with 
guns out, and that person is trying to show them his ID card 
because he comes from an African nation where the first thing 
you do is identify yourself; he doesn't know they are police 
officers and they don't identify themselves; but he tries to 
show an ID card that is in a wallet and they think it is a gun 
and they shoot at him 41 times. They were afraid, they said. 
Well, if you are afraid 100 percent of the time you shouldn't 
be a police officer. If you don't understand them, don't police 
them.
    I will close with this. If you don't believe in God, you 
shouldn't be a priest or a minister. If you don't like saving 
people's lives you shouldn't be a doctor. If you are afraid or 
you think you are better than the people you police, you 
shouldn't be a police officer. That is the problem that we 
have. I am the biggest supporter of the COPS program and the 
chairman knows that last year we fought to the bitter end and 
he supported us to get more money into the COPS program.
    You know, more money to hire police officers that are going 
to behave like some others are behaving does nothing for me. So 
I am not one-sided. I support more police officers, but I care 
how they handle the job. I am tired of having my son and his 
friend stopped on the street by police officers because they 
are driving a car they are not supposed to be driving, because 
nobody knows they are college graduates and they earn money, 
and they pay taxes, just because they look different. I am 
tired of that. Believe me, it doesn't matter that they are a 
Congressman's son. In fact I tell them not to tell them that. 
It might get me in trouble.
    Ms. Leary. If I might respond for a moment, this is an 
issue of great concern to the entire Department of Justice. In 
fact we have been collaborating across the Department on this 
very issue with the Civil Rights Division at the Department, 
COPS, and OJP in trying to get at the very issues that you are 
raising, which is how do you build a legacy of trust, which is 
really at the core of the problem here. There are a number of 
things that the Federal Government can and should do, and some 
are things we are doing already. One is the kind of training 
that Mr. Frazier was referring to. Training dollars actually 
can go very far when you train trainers who then can go out and 
teach others. So that is an important vehicle for instilling 
attitudes and values and teaching people how to handle 
themselves in a way that provides effective law enforcement, as 
well as sensitive and respectful conduct in the community in 
which you are policing.
    The other thing is that we need to know a lot more about 
what is going on with police use of force. One of the things 
that we are doing at OJP is we started a number of studies and 
research efforts, for instance, surveying 90,000 people about 
their encounters with police to find out what really is going 
on; an analysis of homicides that have been labeled justifiable 
police homicides, to find out what went on there and what are 
the factors that lead to these kinds of situations. We have 
been working on surveys of best practices for recruitment and 
hiring, training tapes that can be used at roll call and a 
number of initiatives like this.
    So I want you to rest assured that we are extremely 
concerned about this. We have stretched the budget, we are 
taking all of the available dollars we can to put them into the 
kind of initiatives that will teach us what we need to know to 
address the problem effectively instead of just react, and, 
secondly, to help others learn what works and model those good 
practices in their own communities.
    Mr. Serrano. Let me just close with this, Mr. Chairman. As 
I said before, I am a big supporter of the COPS program and I 
think that you will find that a lot of folks, from the inner 
cities to the Congress, are supportive of it. And to go a step 
further, I think you will find the vast majority if not all of 
the members of the Black and Hispanic Congressional Caucuses 
supportive of the COPS program. But if we continue to get a 
sense of more of the same we might do a whole turnaround. On 
the one hand I want more cops but on the other hand I have no 
interest in sending more problems into my community. I want you 
to be aware of that, that that is a problem that could actually 
happen.
    Thank you, Mr. Chairman.
    Mr. Rogers. Is that your final question?
    Mr. Serrano. That is their final answer.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. Does that mean you are giving them a life line 
or something?
    Mr. Serrano. It is called the appropriator's life line.

                   LOCAL LAW ENFORCEMENT BLOCK GRANTS

    Mr. Latham. Welcome. I think the chairman has brought up a 
subject with the local law enforcement block grants. Obviously 
I think they are extremely important to a district like mine, 
the State of Iowa. I am disappointed from the earlier testimony 
that OMB zeroed it out. You had asked for $250 million. Were 
there any of the funds or--was there $523 million that we put 
in that weren't used last year?
    Ms. Leary. I can get those numbers for you.
    Mr. Latham. But we pretty well used up the money that was 
in the program last year?
    Ms. Leary. I think so.
    Mr. Latham. So you cut it in half and OMB zeroed it out; is 
that right?
    Ms. Leary. We did put in a request and the administration 
put in a different call.
    Mr. Latham. But your request was only for $250 million, 
right?
    Ms. Leary. Right.

                     PARTICIPATION IN POLICE CORPS

    Mr. Latham. Hopefully we can rectify that situation. One 
thing that has been brought to my attention, I guess, in the 
Police Corps, I was looking at the states that are involved and 
it looks like there are only maybe half the states that are 
participating. Maybe you could explain why it is that there 
also appears there should be like $31 million that is not 
obligated and maybe explain where that is or what is happening. 
If you only have half the states, I would question should we 
continue the program that apparently hasn't caught fire on out.
    Ms. Leary. I think there are 24 states and the Virgin 
Islands that are participating in Police Corps now. They are 
working very hard on their recruitment into Police Corps and I 
think they have made some real inroads in that regard. It is a 
program that started small and it is catching on. They have 
more and more interest. I would note for Mr. Serrano, they are 
doing some interesting innovative training with Police Corps on 
use of force and techniques, specific techniques for dealing 
with difficult situations in the community in a way that 
minimizes the use of force. So we are working with them. With 
respect to the funding when Police Corps transferred to OJP we 
were able to enter into agreements with States that allowed us 
to send the money to State agents up front. That seems to have 
expedited the flow of funds considerably.
    Mr. Latham. I would be interested--New York doesn't 
participate. Iowa doesn't participate. I don't know if it is 
doing you any good or not up there. What about the unobligated 
funds? There should be $31 million according to the--from the 
GAO report that there is $31 million that is----
    Ms. Leary. Those funds will be fully obligated this year.
    Mr. Latham. Are we going to have more States involved in it 
this year?
    Ms. Leary. Yes, we will.
    Mr. Latham. It appears that the number of States going into 
this is declining each year. You are not getting a lot of new 
starts.
    Ms. Leary. Well, as I said, they are working hard on 
recruitment efforts. I think there is still interest, states 
are still signing up. I also think, as people learn more about 
the kinds of efforts that the Police Corps is making with 
respect to, for instance, this kind of training they will 
continue to be interested.
    Mr. Latham. How long has it been in effect, since 1996?
    Ms. Leary. Police Corps? 1996, right.
    Mr. Latham. Maybe we ought to get the message out to more 
people.
    Ms. Leary. We do need to get the message out.

                    DIFFERENT LEVELS OF COPS GRANTS

    Mr. Latham. I guess one question I would have on the--some 
of the grants I guess under the COPS program and from my own 
information I guess there seems to be a real disparity about 
the amount of the grant between say Forest City, Iowa, and 
Spirit Lake. There is like $30,000 a year difference in the 
model grant for one officer. Can you explain that?
    Ms. Leary. Mr. Frazier might be better at that.
    Mr. Frazier. I would think that if it is for a police 
officer, there are salary differences and benefit package 
differences in officers from city to city. Those perhaps would 
depend on the type of grant. It is difficult to say without--we 
will fund $75,000 over 3 years.
    Mr. Latham. That is the maximum, so if you gave $107,000 
one year that would be deducted from the total that they would 
get over 3 years? You wouldn't get 3 years of $107,000.
    Mr. Frazier. It depends on--the amount decreases from year 
1 to 2 to 3. There are a number of variables. It is very 
difficult to.

                           BULLET PROOF VESTS

    Mr. Latham. Do you have a bullet proof vest at all? I am 
just curious. It is something that I think is of benefit to law 
enforcement. I just wondered where we are on the status of the 
program and how many grants you have had this year on bullet 
proof vests.
    Ms. Leary. Actually, the bullet proof vest program is going 
quite successfully. This year we instituted an online process. 
Jurisdictions can apply for the vests online. They can draw 
down and get all of the information they want. It includes some 
very interesting Web sites about the types of equipment they 
are able to buy through this program. This is funded at $25 
million this year and we have requested that in the coming 
year. We are very pleased with that and we have gotten great 
feedback on how helpful this is from state and local 
governments.
    Mr. Latham. Good to hear. Maybe we can take some money from 
the Police Corps which nobody cares about and help Mr. Serrano 
in New York in another way here.
    Just a statement. I certainly hope that we can work to 
restore the funds for the local law enforcement block grants. 
That is so important to a state like Iowa and small communities 
who can't afford the COPS program.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Latham. Ms. Roybal-Allard, any 
questions?

           VIOLENCE AGAINST WOMEN OFFICE REORGANIZATION PLAN

    Ms. Roybal-Allard. Thank you, Mr. Chairman. Let me just say 
first in support of what Congressman Serrano was saying and the 
concerns that he raised, that you only need to look at what is 
happening in Los Angeles. Not only has tremendous distrust 
emerged from the community but unfortunately it has even 
tarnished our Federal agencies with allegations. I think he 
raises some very valid points that need to be looked at and 
addressed.
    It has been brought to my attention that there are a lot of 
concerns about the reorganization plan. One of the concerns is 
that it is going to reduce the departments and the offices' 
ability to respond to the needs of victims and of various 
agencies.
    For example, I was given three concerns. One was that the 
proposed structuring would fragment and divide the current 
coordinated functions of the office by dividing them into three 
divisions housed in three different departments and accountable 
to three different leaderships. In addition there is concern 
that there is a real lack of specificity about how policies are 
going to be formulated and implemented and how the Federal 
statutory provisions of VAWA would be implemented. And finally 
another concern was that the proposal would undermine the goals 
of the recent merger between the Violence Against Women Office 
and the Violence Against Women Grants Office within the 
Department of Justice, which to my understanding was merged in 
the first place in order to coordinate the policy and grant 
functions in the office. Could you address those concerns?
    Ms. Leary. Sure, I would be happy to. I would like to start 
by reassuring you that the Department of Justice remains very 
committed to the Violence Against Women Act goals and to 
protecting and helping victims ensure that they have a safe 
home and life, and their children are safe as well. Because of 
that, we strongly support the Violence Against Women Office. I 
would say that, in fact, I think that the proposed 
reorganization will strengthen the VAWO Office in many 
respects. First of all, the Violence Against Women Office would 
remain the central place in the Department of Justice for the 
development of policy and programs and for statutory 
interpretation with respect to the Violence Against Women Act. 
In fact, now there are other components at OJP who also deal 
with domestic violence and give grants for addressing domestic 
violence. Under the proposed reorganization all of that would 
come under the VAWO Office. It would be a good consolidation 
and enhance their effectiveness and their ability to work in 
the field and disseminate best practices and fund deserving 
programs.
    The state desk concept is actually envisioned as kind of a 
support mechanism for a program office like VAWO. VAWO would be 
the subject matter of experts. They would continue to make 
decisions about who gets the grants. The state desks would 
support VAWO through routine grants administration freeing them 
up to focus more on policy and direction for programs, being 
close liaisons with the states, getting the pulse on what is 
happening in the states, and feeding that information back to 
the program office so they can make decisions that are informed 
by that. So I think actually it will work out quite well for 
the VAWO office.
    Ms. Roybal-Allard. So the concerns you think have been 
raised are not really valid but in the different areas this 
would actually be a strengthening of VAWO and how it is 
implemented under the grant?
    Ms. Leary. I think so. Whenever there is any kind of 
proposal for change, somehow misinformation gets out because 
change breeds questions and sometimes some anxiety. But I 
really do believe it will be a strengthened office.
    Ms. Roybal-Allard. Just going back to--and I have not seen 
the proposal. I am just raising issues that have been raised 
with me. They said in the restructuring that the current 
coordinated functions of the office were going to have three 
different divisions housed in three different departments with 
three different, leaderships. Is that true? And if it is true, 
how does that strengthen when you are dividing a function?
    Ms. Leary. All of the program and policy development would 
still be vested in the Violence Against Women Office. State 
desks would do more of the grants administration function and 
liaise with the states to keep their finger on the pulse of 
what is happening in the individual states. The third component 
would be what we call information central so that you, for 
instance, could call and find out what is available through OJP 
to address this domestic violence problem of kids who are 
witnessing violence in the home in Los Angeles. You would be 
able to go through this information central and they would know 
what is in the VAWO offices and elsewhere across the Department 
and give you that information, instead of having to go to one 
place and see what is going on in the area of domestic violence 
and then to the VAWO office and see what is going on there.
    We need to make our services and our information more 
available to the general public. That is the goal.
    Ms. Roybal-Allard. Once I have the opportunity to read the 
proposal perhaps I will get back to you with some more 
questions.

                FUNDING FOR YOUTH ANTI-GANG INITIATIVES

    On pages 8 through 10 of your testimony you mentioned that 
you are undertaking two new major youth gang initiatives while 
maintaining the $12 million current funding level. Since these 
are major youth initiatives and you are not asking for any more 
money, what is it that you are giving up in order to institute 
these new problems? What is being reshuffled?
    Mr. Wilson. We have two new programs. One is to develop a 
closer working relationship between schools and other community 
organizations in addressing gang issues. Our intent this year 
is to fund four sites to do the planning and process there. 
Fortunately for us the total cost of that program for this year 
is $975,000 of which the Department of Education may contribute 
$500,000 and the Center for Mental Health Services may 
contribute $300,000, which leaves OJP with $175,000 for this 
planning effort. After this year of planning our intent or our 
thought process would be to fund the implementation of those 
programs at somewhere in the neighborhood of $400,000 per 
program, per year, over a 2-3 year period. Hopefully those 
partners will still be with us so the cost to the office for 
our part of gangs program would remain fairly modest.
    With regard to the Gang Free Communities Program, we have 
learned a lot from funding five different jurisdictions to do a 
comprehensive gang initiative. Three of those programs have 
completed their work and two of them have been funded for a 
final year in fiscal year 2000. What we are doing with these 12 
new communities is taking the lessons that we have learned from 
the 5 original communities and 6 other pilot sites and putting 
them through a planning process which we also learned we needed 
to do to bring the community together, identify what the gang 
issues are and how they are to be addressed.
    So for this year that will be a $2.1 million cost to fund 
those sites at $1.8 million total with $150,000 per site. We 
will also be providing technical assistance at $300,000. What 
we plan to do in subsequent years is not to fund those to 
scale, but with the understanding that after the planning year, 
the communities will pay for the bulk of the expense so that we 
would probably continue to fund those 12 communities that 
successfully complete the planning process, continue those at 
the--at about the $150,000 a year level. So for the costs to 
implement those 12 programs after this year we would use the 
money freed up from the original 5 Comprehensive Gang Free 
Community Sites. Those sites were funded between $400,000 to 
$500,000 a year. I know that one of those sites was Riverside, 
California. We had a very successful gang site there in 
Riverside. So the checks kind of balance out. We finish up some 
activities and start new ones and we will continue our work in 
the gang program in the next 2-3 years.
    Mr. Serrano. You mean an anti-gang program.
    Mr. Wilson. Anti-gang program.
    Mr. Serrano. You said successful gang program.
    Mr. Wilson. Anti-gang program. Thank you.
    Ms. Roybal-Allard. Mr. Chairman, I have to leave so could I 
stick the rest of the questions in the record?
    Mr. Rogers. Sure. Mr. Latham, do you have another question?

                        METHAMPHETAMINE PROGRAM

    Mr. Latham. Yes, thank you, Mr. Chairman. I overlooked an 
important item in your budget request for Iowa and the Upper 
Midwest. I see you are eliminating the methamphetamine hot spot 
program, zeroing that out. Was that your request or OMB or what 
happened there? What was your request? You are--this is a 
tremendous problem in the Upper Midwest and you are zeroing it 
out.
    Ms. Leary. I am going have to defer to Mr. Frazier on this.
    Mr. Frazier. We did request that funding.
    Mr. Latham. You requested the funding and OMB zeroed it 
out?
    Mr. Frazier. Apparently so.
    Ms. Leary. There still is a lot of work being done on 
methamphetamine, particularly with respect to finding out more 
about the problem, defining the problem through the ADAM drug 
testing surveys that NIJ does and through several reports that 
have just come out--one is Meth in the Heartland and Meth in 
Rural America. There is that kind of work going on.
    Mr. Latham. It doesn't sound like we are going to do 
anything about it if we are going to zero out the funds. We are 
going to have all kinds of reports but if we don't have the 
ability to do anything about it, it doesn't make much sense. I 
don't think that we need a report to know that kids are dying 
in my hometown. This is outrageous as far as I am concerned.
    Mr. Rogers. How much did you ask for?
    Mr. Frazier. I will have to get that information for you.
    Mr. Rogers. Surely somebody knows.
    Mr. Frazier. I would hesitate to hazard a guess.
    Mr. Rogers. No one here knows? You don't care enough about 
that--no one in the Department knows?
    Mr. Frazier. My best information is that it was in the 
range of $35 million.
    Mr. Rogers. Current level is $36 million. So you 
essentially asked to renew the program and they said no.
    Mr. Frazier. I would assume that is the case.
    Mr. Rogers. Oh, give me a break. They either said yes or no 
and you know. They said no, right?
    Mr. Frazier. It is not in the budget.
    [Clerk's note--The referenced material is on file with the 
Subcommittee.]

    Departmental Request for Methamphetamine Funds to the Office of 
                         Management and Budget

    The COPS Office requested $15 million for FY 2001 for a 
drug reduction and outreach program. This program would have 
provided discretionary grants to State and local law 
enforcement to address methamphetamine and other drug problems.

                  JUVENILE ACCOUNTABILITY BLOCK GRANT

    Mr. Rogers. Now the Juvenile Accountability Block Grant 
which you proposed to eliminate can fund juvenile gun courts, 
juvenile drug courts, juvenile detention facilities and 
technology. Mr. Wilson's testimony talks about a balanced 
approach to juvenile crime. Did you ask for funds for the 
Juvenile Accountability Incentive Block Grant?
    Ms. Leary. No, we did not, Mr. Chairman.
    Mr. Rogers. Why not?
    Ms. Leary. As you know, the legislation is still pending. 
The JJ legislation is still spending.
    Mr. Rogers. So is COPS. COPS is not even authorized. None 
of these things are authorized. That is not an answer. Why did 
you not ask for money for the Juvenile Accountability Incentive 
Block Grants, or did you? Did you ask for money?
    Ms. Leary. No, we did not. Again it was the same kind of 
situation where the determination was made to target the funds 
at different kinds of programs in the juvenile arena.
    Mr. Rogers. Well, now, juvenile crime--I am an old state's 
attorney. Juvenile crime is a local matter. States and 
communities deal with juvenile crime. Feds have nothing to do 
with juvenile crime. It is a local jurisdiction handled by 
local people.
    As Mr. Wilson points out in his written testimony, the 
States are in the best position to decide the particular 
programs that would best address juvenile crime issues in the 
communities; is that not right? And yet you eliminate the whole 
block of moneys that they have been using to great effect, 
frankly, in fighting juvenile crime and helping juveniles in 
our communities. I am puzzled why you just scrap that in favor 
of these other categorical grants that people have to comply 
with and have no discretion?
    Ms. Leary. Mr. Chairman, I think that there is an important 
role for the Federal Government to play in juvenile crime in 
the same way that we play a very important role with respect to 
local law enforcement--the DA's offices, for instance. And that 
is that crime and the criminal justice system are of concern to 
the Federal Government even if it is not within the Federal 
statute. It is the whole issue of public safety that crosses 
those lines. And I think we have an obligation and actually 
have played a very effective role in helping communities figure 
out what works for crime prevention and for solving crimes and 
dealing with public safety issues.
    Mr. Rogers. Well, the moneys that you have been funding 
have been mainly preventive programs. Not to say they are 
important, they are, but almost to the exclusion of the law 
enforcement end of juvenile crime. And that's what the block 
grants do. I am absolutely puzzled, again, why these agencies 
see fit to do away with something that has been very effective 
in helping communities and schools deal with this horrendous 
problem that we have with juveniles and violence in our schools 
and local communities. I am puzzled.
    Ms. Leary. Communities are still using the funds. In fact 
there is still a lot of 1998 money in the pipeline--the States 
have been very slow to spend the 1999 funds. So they are still 
working with their JAIBG funds. As I said, the decision with 
respect to block grants was target funds instead.
    Mr. Rogers. Well, what it is, are you substituting your 
judgment for local people's? That is by and large it, is it 
not?
    Ms. Leary. No. I think what we are doing is using what we 
know to help model successful programs that jurisdictions can 
adopt.
    Mr. Rogers. I just say that they know more than you do, I'm 
sorry, because they deal with it every day. You are 3,000 miles 
away from it.
    Mr. Wilson. Mr. Chairman, might I add something? Our 
funding this year counting the Juvenile Accountability 
Incentive Block Grant funds is about $580 million for juvenile 
justice programming. About two-thirds of that money goes back 
to the States in five different block and cumulative grant 
funds. Those funds are used, as I said in my testimony, very 
effectively by State and local governments. But those block 
funds I think address some very basic needs. And I think States 
and local governments got behind in supporting their juvenile 
justice system in those kinds of functions that are funded with 
the Juvenile Accountability Incentive Block Grant funds.
    So I think that money has provided a significant shot in 
the arm in terms of stimulating States and local governments to 
work together to bring the juvenile justice system 
infrastructure back up to where it needs to be. But I think the 
categorical discretionary grant funding stimulates a lot of 
innovation and we have seen it with a lot of our programs in 
OJJDP from gangs, to gun programs, to mentoring. I think that 
is a very valuable contribution.
    So it is a matter of achieving some kind of balance. I wish 
we had a budget that was a blank check. There are so many 
competing interests in the Department that the budget process 
every year is a very difficult one to go through. But I do 
think that there are so many needs out there it is just very 
difficult to make what are very tough choices for the 
Department.
    Mr. Rogers. We think we know that experience. You also 
propose to eliminate a program that has been one of the reasons 
why I think the crime rate has been decreasing. That is locking 
up those violent criminals with very serious sentences. You 
propose to eliminate the $578 million State Prison Grant 
program, which as you know gives money to States provided they 
have a law requiring violent prisoners serve so much of a high 
percent of their sentence. Your own Bureau of Justice 
Statistics concluded that the average time served by violent 
offenders has increased as a result of States changing their 
laws to require the lockup of violent prisoners for a long 
period of time. Those grants have resulted in keeping a lot of 
violent criminals off the streets for longer periods of time 
and I think thereby reducing the violent crime rate.

                       STATE PRISON GRANT PROGRAM

    Did you request moneys for the State Prison Grants program?
    Ms. Leary. I think we did request money for that. I would--
--
    Mr. Rogers. How much was it?
    Ms. Leary. I have got the number for you.
    Mr. Rogers. How much was it? I didn't hear how much it was.
    Ms. Leary. $250,000,000.
    We have been very successful in achieving the goal of 
encouraging States to pass truth in sentencing laws. Thirty 
States have passed them and we have no indication that any more 
States will be passing those laws in 2000 and 2001----
    Mr. Rogers. At $250 million and in the current level is 
$653 million. So you really decimated even when you request the 
amount of money for the program and then the OMB gave you 
essentially zero, the White House did. Wouldn't you agree that 
the State Prison Grant program has been effective in dealing 
with violent criminals?
    Ms. Leary. I think it has been effective.
    Mr. Rogers. Why did you propose to eliminate it?
    Ms. Leary. As I said, the intent was to encourage States to 
pass these truth in sentencing laws. Thirty States have passed 
them and there is no indication that any other States intend to 
pass them this year or next year. It has been a joint venture 
with the States all along; for instance, the States picking up 
the operational cost once the prisons are built. The intention 
all along was this would not be a long-term, forever kind of 
proposition.
    Mr. Rogers. Yes, but we made the promise to the States, 
look, if you will change your laws so that you are locking up 
violent criminals for a hefty percentage of their sentence, we 
will give you ``x'' dollars in your prisons to help you solve 
that problem. Now, after a year or two or three maybe we are 
saying, we didn't mean that, sorry.
    They have already changed their laws. They have already got 
the prisons built and prisoners locked up and now Uncle Sam is 
backing away from its commitment. Don't you feel a certain 
amount of pain about that?
    Ms. Leary. I think the commitment was to help them--when 
they passed truth in sentencing laws to give them help to get 
going on the prison construction. And it has been very 
successful in that regard but it was not a commitment going 
beyond----
    Mr. Rogers. You are interpreting the congressional intent, 
are you?
    Ms. Leary. No, I certainly don't----
    Mr. Rogers. We passed that law and we admitted it was not a 
matter of we will do this for a couple of years and you are on 
your own. It was a commitment to do this, change your laws, 
which they have, and we will stay with you. We know this was a 
long-term problem. That was the congressional intent and you 
are reneging.
    Ms. Leary. I think perhaps, Mr. Chairman, one of the 
considerations was the extreme need for funding for Federal 
prisons as well, which seems to outstrip the State----
    Mr. Rogers. Let us worry about that. We are funding Federal 
prisons as fast as we can go. Your not funding the State prison 
branch is not helping us out. We are going to fund the Federal 
prison structure regardless. That is this committee's 
responsibility and we have done that now for many years. There 
is not a squeezing of funds. You can't use that excuse. That is 
our decision and we are going to see that we build the prisons. 
Why else didn't you--give me an another reason?
    Ms. Leary. I have given you all of the reasons that we 
have, Mr. Chairman.

                              COPS HIRING

    Mr. Rogers. Well, it is a disaster and I am really shocked 
at this point.
    Now, Mr. Frazier, how many of the original target of 
100,000 cops are actually on the street?
    Mr. Frazier. 60,000.
    Mr. Rogers. So all that we hear out of the White House is 
we have 100,000 on the beat. Is this not accurate?
    Mr. Frazier. There are 103,000 funded, 60,000 put on the 
street.
    Mr. Rogers. In 1999 how many applications--applications, 
not grants made but applications--for your universal hiring 
program came from small populations, that is to say rural 
jurisdictions?
    Mr. Frazier. I do not know what the application ratio was. 
I have--I know for instance that 68 percent of our grantees who 
were awarded grants were from cities with less than 25,000 
population.
    Mr. Rogers. I know that. I want to know applications.
    Mr. Frazier. I would have to get that for you.
    Mr. Rogers. The truth is, is it not, there are many 
applications from rural areas that have not been met?
    Mr. Frazier. Have not been----
    Mr. Rogers. Met.
    Mr. Frazier. There are--there is the formula--it is 
statutory that half of our funding funds agencies larger than 
150,000, half of our funding funds cities of less than 150,000. 
So there are some restrictions in that regard.
    Mr. Rogers. Well, the point I wanted to get at was there 
are maybe more applications from rural areas that you cannot 
fund because of the 50 percent requirement in the law that says 
you have to split the moneys 50-50, right?
    Mr. Frazier. We believe that to be true.
    Mr. Rogers. So if you had more money you could fund a lot 
more of the rural applications that are pending, correct?
    Mr. Frazier. Correct.
    Mr. Rogers. Or if we change the split?
    Mr. Frazier. Correct.
    Mr. Rogers. Have you funded most of the applications from 
the large population jurisdictions?
    Mr. Frazier. Yes, we have, historically we have.
    Mr. Rogers. And the big unmet demand is from the rurals, 
correct?
    Mr. Frazier. I believe that is correct.
    Mr. Rogers. Now, the July 1999 report of the Inspector 
General of the Department of Justice concluded, and I am 
quoting, that while COPS projects in its fiscal year 2000 
budget that it will fund 107,019 additional officers our audit 
findings raise serious questions about whether several 
thousands of these funded officers that are currently counting 
towards COPS goals will ever materialize, end quote.
    In the Legal Times article, the IG also says that ``due to 
the failure to retain officers hired with COPS funds cops will 
be lost.'' He continues to say, as a large number of these 
grants expire over time and State and local governments fail to 
continue those programs, we are going to lose those cops, end 
quote. And again the goal of 100,000 COPS cops will not be met. 
We have referenced to this earlier, in the first year full 
funding and then 75 percent, so on, on down to zero Federal 
funding in the fourth year.
    You are fighting a losing battle, aren't you? Many of those 
communities are not picking up that ever increasing local share 
because they can't afford it?
    Mr. Frazier. The Inspector General's report and the Legal 
Times article expressed the view of an ex-Inspector General. In 
the actual Inspector General's report, their own survey even of 
the Phase One grantees who had no retention requirement was 
that 96 percent of those grantees intended to retain those 
officers. That same percentage held in the later phases on the 
grant funding.
    Mr. Rogers. Well, you say that only 60,000 of the goal of 
100,000 are on the street. How can you justify continuing 
another program for additional 50,000 officers when the 
original 100,000 are not yet on the street?
    Mr. Frazier. There are two major problems, once the COPS 
office obligates the funding to local agencies. One is that it 
is a very difficult hiring market for quality police officers. 
Our experience is currently that it takes an average of 18 
months to recruit, do a background check, and hire an academy 
trained and field trained police officer. Likewise in the 
technology grants and with many of these grants going to 
smaller agencies that have not yet had technology grants 
before, they are finding problems in local purchasing issues. 
The number of officers on the street is the result of local 
issues, not because COPS didn't get the funding out of the 
door. However, because of the funding issues at the local level 
it is more difficult than anticipated. We actually have pending 
1,700 requests for 2,700 more police officers being processed 
in our office now.
    Mr. Rogers. But if a local community drops a cop they hired 
under the original program you are not counting that cop as 
being on the beat, are you?
    Mr. Frazier. Very few grants have matured through that 
closing process. I think our best indication is that the IG's 
report said that 96 percent intended to retain.
    Mr. Rogers. The question, are you counting cops that were 
originally hired under the program but have--since that COPS 
grant has expired in the local community, left the beat? You 
are not counting that person on the beat, are you?
    Mr. Frazier. If the grant funding cycle of 3 years of 
Federal funding and the one-year local retention requirement, 
if that grant is 4 or 5 years old, yes, we are.
    Mr. Rogers. Is that the reason why we only have 60,000 on 
the beat----
    Mr. Frazier. I don't follow this. The reason that there are 
100,000 funded and 60,000 on the street is there is a time lag 
between funding and solo deployment.
    Mr. Rogers. I guess what I am trying to say and I think you 
said it, am I accurate in saying that if the local community 
originally hired a cop but then that grant went away or matured 
and the cop was laid off, you are still counting that cop as 
part of the 100,000?
    Mr. Frazier. If they do not retain them we subtract them.
    Mr. Rogers. Well, I am puzzled. You have only got 60,000. 
You are saying--the White House said you have 100,000. What is 
going on?
    Mr. Frazier. The difference between--it is accurate to say 
that 103,000 officers have been funded. There is a time lag 
between funding and deployment. There are 60,000 deployed on 
the street.
    Mr. Rogers. Well, the next time I hear the White House say 
they have 100,000 cops on the beat I am going to quote you. Do 
you mind?
    Mr. Frazier. Be my guest, sir.
    Mr. Rogers. Okay.
    Mr. Latham. I just want to say that this proposal--if we 
are going to pass your bill on the floor, this wouldn't get 5 
votes. It is outrageous.
    Mr. Rogers. We have a vote on the floor. We are going to 
call a temporary recess. We will be right back.
    [Recess.]

                          COPS MERGER INTO OJP

    Mr. Rogers. Ms. Leary, in previous hearings and in reports 
submitted to us by OJP, OJP has said there are duplications and 
overlaps in OJP programs causing confusions with applicants. I 
think you were asked something about this. We have been working 
with OJP over the past few years to see if there are ways to 
streamline the process and try to provide that one stop 
shopping for State local law enforcement. The COPS office now 
has taken on many different types of programs, not just hiring 
programs, and I am worried that we will have a repeated 
situation where the COPS office would have duplication and 
overlaps in their programs, again causing some confusion. Why 
shouldn't we merge these two, the COPS program into the OJP 
program?
    Ms. Leary. Mr. Chairman, I want you to know that we do at 
OJP work very closely with COPS. We put a lot of effort into 
collaborating and coordinating our efforts. We at OJP have 
longstanding relationships with State and local law 
enforcement. I think COPS has developed their own unique 
relationships with local law enforcement agencies as well and 
particularly through their hiring programs. Now, COPS is moving 
more in the arena of technology which makes sense as part of 
the next step. If you have more police officers you want them 
to work smarter and work faster and have the right tools. We 
are coordinating very closely with them to make sure that we 
don't have duplication and overlap.
    Mr. Rogers. Mr. Frazier, why shouldn't they be merged?
    Mr. Frazier. Mr. Chairman, I think that the fact that the 
COPS office is the only Federal entity whose sole mission is to 
directly support local law enforcement is perhaps the reason 
that the major police chiefs groups, the police labor 
organizations, U.S. Council of Mayors, County Executives of 
America, all support COPS as an independent entity. They have 
found that the funding streams are very direct. They have found 
the relationship positive, found that the COPS office delivered 
the officers and technology that they told us they wanted. And 
I think that the support of the autonomy of the COPS by all of 
those organizations speaks well to that.
    Mr. Rogers. Well, in Ms. Leary's testimony she says that 
$599 million of the $1.3 billion COPS budget request for fiscal 
year 2001, 49 percent is to be administered by OJP, not COPS. 
Why shouldn't the money for those programs that are proposed to 
be administered by OJP be funded in the COPS program be funded 
directly to OJP? Isn't it a charade to give the money to COPS 
and then in turn almost half is turned to OJP to be 
administered?
    Mr. Frazier. I think our budget reflects things that are 
well within the scope of what COPS does. The relationship 
between COPS and OJP is a good one. The collaborative nature of 
these projects I think speaks to that.
    Ms. Leary. In some instances the kinds of initiatives, 
particularly in the technology area, are things that OJP has 
some expertise in. It makes more sense, and it is more 
efficient to administer them through OJP.
    Mr. Rogers. It is not a question of that. It is a question 
of why the money is just not directly funneled to OJP rather 
than go through and let COPS handle it towards transferring 
over to OJP? Is there any reason for that?
    Ms. Leary. I think it is just the nature of collaboration. 
Sometimes funding comes into one part of the Department and we 
work together and end up seeing who has the expertise and 
experience to do the best job on any particular initiative.
    Mr. Rogers. That is another argument for merging the two, 
it seems to me, wouldn't you think?
    Ms. Leary. Of course, we will do whatever Congress decides 
you want to do. We are very flexible.

                 DRUG PREVENTION DEMONSTRATION PROGRAM

    Mr. Rogers. We provided--Mr. Wilson--an $11 million grant 
program to your office to develop iniatives that would increase 
the perception among teenagers of the risk and harm of drug 
use. Can you tell us what you are doing with that funding?
    Mr. Wilson. Yes. Under the drug prevention demonstration 
program our initial efforts under that program have been to 
replicate the Life Skills Training Program, which I referenced 
in my testimony. The bulk of the funds under that program have 
gone to the Center for the Study of Prevention of Violence at 
the University of Colorado which administers these funds for 
the office in cooperation and collaboration with the Life 
Skills Training staff headed by Gil Bachman.
    What is unique about this program is that it is a proven 
effective Blueprints program which has been found to be highly 
successful. It has been replicated in a number of different 
sites and found to succeed across sites. So when we take it 
into a school as long as the teachers and school administrators 
are properly trained and deliver the program with fidelity, we 
can be assured that it is going to have its intended effect of 
teaching children self-management and social skills and the 
skills that they need to avoid the use of drugs.
    As you know, this is a program that is targeted at middle 
school, whether that is 6th, 7th, and 8th grade or 7th, 8th, or 
9th grade in a particular school district. The Life Skills 
Training Program actually takes 3 years to deliver. Schools are 
now in their second year or beginning their first year.
    As I said in my statement, we are now delivering that 
program to 77,000 students. We have recently committed an 
additional $5 million to the program and hope to double the 
number of students participating in the program in the next 
year.

                        COUNTERTERRORISM PROGRAM

    Mr. Rogers. Ms. Leary, the fiscal year 2001 budget includes 
a $30 million increase in counterterrorism programs so that DOJ 
can assume funding responsibility for a DOD program, the Nunn-
Lugar-Domenici program. Why are you proposing to fund a program 
that was authorized in and funded by the Department of Defense 
the last 4 years, including this year?
    Ms. Leary. Mr. Chairman, in 1998 we held kind of a 
stakeholders meeting for participants in the Nunn-Lugar 
training program. What we learned from listening was that there 
is a lot of confusion out in the field about the plethora of 
training and equipment and exercise programs that are available 
in the area of domestic preparedness. The Attorney General and 
the Secretary of Defense discussed this and the decision was 
made that it would make sense to transfer the training program 
part of Nunn-Lugar to OJP because it fits with our 
comprehensive program on domestic preparedness and it also fits 
with our mission to provide training to State and locals on 
areas of public safety concern like domestic preparedness. We 
think ultimately that it will end up being a better program and 
it will be more cost efficient by being administered through 
OJP.
    Mr. Rogers. Did you consult with or get agreement from this 
subcommittee prior to agreeing to assume responsibility for the 
program?
    Ms. Leary. I think, Mr. Chairman, there has been a lot of 
consultation with this committee over the development of the 
program, and we are doing our best to work with the committee 
and we are going to continue to work with this committee as we 
move down the road towards assuming responsibility from DOD.
    Mr. Rogers. Well, the answer is no? The answer is that you 
did not consult or get the agreement of this subcommittee 
before you agreed to assume responsibility for the program. Now 
you are asking us to pick up the bill.
    Ms. Leary. I think, as I said, it makes sense. It is a 
complementary program. It makes sense for us to be----
    Mr. Rogers. That is your statement. I am not sure I agree 
with you or the subcommittee agrees with you. This is a two-way 
street. If you want funding for a program we expect to be 
consulted and agree to it. You have done this without our 
approval. I don't agree with it, quite frankly. DOD received 
funding in their own budget in fiscal year 2000 to fully fund 
the costs of the program, but is DOD fully funding the program 
in fiscal year 2000?
    Ms. Leary. I think they will have already trained about 68 
cities by the end of this year.
    Mr. Rogers. The question was they received money in the 
current year, DOD did, to fully fund the cost of this program. 
Are they fully funding the program?
    Ms. Leary. No, they are not.
    Mr. Rogers. Why?
    Ms. Leary. I think one of the big problems for DOD, Mr. 
Chairman, is the equipment. In fact that is one of the reasons 
it makes sense to transfer the program to OJP, we can make 
direct equipment grants to the jurisdictions.
    Mr. Rogers. The question was they got the money for the 
program, they are not doing the program, and you are picking it 
up. Why are they not funding the program they got money for?
    Ms. Leary. They are not, and I can't really answer for 
them, Mr. Chairman.
    Mr. Rogers. I can tell you why. They are diverting it to 
other purposes and asking you to pick up the bill. That is just 
not going to happen.
    Can you assure us that OJP is not picking up these year 
2000 costs of that program?
    Ms. Leary. DOD is responsible for the program through 2000 
so I can assure you of that.
    Mr. Rogers. So you are not picking up any of the costs in 
the year 2000?
    Ms. Leary. That is correct.
    Mr. Rogers. If DOD refuses to fund the program, what impact 
will that have on your cost for assuming the program?
    Ms. Leary. I think if they refuse, it is going to increase 
the costs for OJP, but I don't think it will be an enormous 
increase, Mr. Chairman.
    Mr. Rogers. It is not the first time that OJP has agreed to 
assume funding for DOD programs and without any real 
consultation or much less approval with this subcommittee. Can 
you assure us that you will take no further actions to assume 
new funding or program responsibilities on this or any other 
matter without prior consultation and agreement with this 
subcommittee?
    Ms. Leary. Mr. Chairman, we will continue to work with the 
Subcommittee and----
    Mr. Rogers. That is not the question. I want the question 
answered.
    Ms. Leary. I think it is fair to say that if the President 
were to direct OJP to do something we would have to do that.
    Mr. Rogers. Contrary to congressional wishes? Would you 
follow the executive leader knowing that the Congress did not 
authorize it?
    Ms. Leary. I think, Mr. Chairman, that it is very unlikely, 
first of all, that we would find ourselves in that situation. 
But it is clear that consultation with the Congress is the 
preferred way to go and I think actually in the context of our 
efforts--for instance, the counterterrorism program----
    Mr. Rogers. You already assumed responsibility for a 
program that we have not authorized you to do. Do I have to 
remind you that it is the Congress that holds the purse strings 
and that if you spend money without congressional approval you 
are liable and we will crack the leash----
    Ms. Leary. I understand that. I know who holds the purse 
strings.
    Mr. Rogers. That is an elementary thing in this business 
that we are in here. But you have assumed responsibility for a 
DOD program that we did not authorize you to do and that better 
be backed out pretty quick. Can you assure me that you will do 
that?
    Ms. Leary. I'm sorry, sir----
    Mr. Rogers. Can you assure me that you will back out----
    Ms. Leary. Out of the Nunn-Lugar program?
    Mr. Rogers. Out of assuming responsibility for a DOD 
program?
    Ms. Leary. I think what I can promise the chairman is that 
before we take any action with respect to the Nunn Lugar 
program we will consult with this committee.
    Mr. Rogers. And get agreement?
    Ms. Leary. Yes.
    Mr. Rogers. Okay. Any questions?
    Mr. Serrano. No.
    Mr. Rogers. Thank you for your testimony. We have kept you 
a long time here. It has been a useful session I think. It is 
good to have all of these agencies at the same table because of 
the shared responsibilities. This is one of those theme areas 
that we try to put up at one place those with similar 
obligations and we thank you for your testimony. And we will be 
in touch with you during the year and hope to be helpful to 
you.
    Ms. Leary. Thank you. We look forward to working with you, 
Mr. Chairman.
    Thank you.
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                                         Wednesday, March 22, 2000.

IMMIGRATION AND NATURALIZATION SERVICE

                                WITNESS

DORIS MEISSNER, COMMISSIONER

                            Opening Remarks

    Mr. Rogers. The committee will be in order.
    Commissioner Meissner, today we had hoped to have a hearing 
on your budget request for 2001, but I'm not sure that we will 
have time to delve into your request today because we all have 
questions for you about new and continuing failures of the INS.
    First, a new INS disaster has recently come to light. The 
Attorney General told this subcommittee last week that, over a 
five-year period, the INS has released 35,318 criminal aliens, 
instead of deporting them, and that 37 percent of those people 
have gone on to commit more crimes. It's absolutely appalling.
    Ordinarily, if something of this severity had happened to 
another agency, I would consider calling for the resignation of 
that agency's top official, but I'm sorry to say that, in the 
case of INS, that action would not result in an improved INS. 
More serious reform of the agency is now, more than ever, 
necessary.
    Commissioner Meissner, I have always said that you've had a 
tough job, and this Committee has supported you, both with 
resources and with strong direction--``tough love'', if you 
will. I had hoped that, after the Citizenship USA catastrophe 
and its continuing cleanup, that we would have been through the 
worst and things could only get better. Unfortunately, that was 
just wishful thinking.
    Next to me on the dias is a pile of Inspector General, GAO, 
and other reports on INS failures, inadequacies, screw-ups, for 
just a past few years only. Your agency and the Congress and 
this committee is becoming buried in documents that plainly 
show that your agency is unworkable and ineffective. You and 
your agency have given us excuses, blamed others, and provided 
empty promises.
    As this is most likely your last appearance before the 
subcommittee, and your last chance to take responsibility for 
the failures and misdeeds of the INS, I intend to proceed 
directly to questions from the members of this panel. Your 
written statement, if you wish, will be placed in the record. 
You will be given every opportunity to respond to my questions 
and those of the other members of this subcommittee.
    But let me warn you now: I do not want to hear more 
excuses, more blame, more empty promises. I have firmly 
concluded that the position of the INS Commissioner lacks the 
necessary power to address the failures of this agency. You can 
do only so much with this organization. Ultimately, we have to 
make dramatic changes to this agency in order for change to 
truly occur.

                           INS Restructuring

    This morning, the House Immigration Subcommittee favorably 
reported my INS restructuring bill, H.R. 3918. This was the 
second time the subcommittee took action on this bill, because 
after long and productive negotiations with the Attorney 
General, we presented to that subcommittee a compromise that 
the Justice Department could support. However, at the end of 
last year, the Administration backed out of that compromise and 
took away the promises they had made to us.
    The Administration keeps saying that they are for a 
restructuring. However, their actions, unfortunately, are 
speaking louder than their words. So we are back to our 
original bill.
    I am going to recognize my friend and colleague, 
Representative Serrano, for some opening remarks. As I 
indicated, your written statement will be put into the record, 
if you wish, and then we'll move directly to questions.
    [The information follows:]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Chairman, in agreement with your feelings about this 
agency, I have to say that at this point in a hearing it is 
always a tradition for the ranking member to be the one who 
comes to the defense of the agency. You and I have exercised 
that constitutional right.

                             Elian Gonzalez

    But I, like you, am very troubled by the work of this 
agency, especially on the case that I have been involved with 
the most, the issue of Elian Gonzalez. I believe, Mr. Chairman, 
and I believe, Ms. Meissner, that it was your agency that 
created this mess that we're in now. And this is a mess.
    Let me from the outset say, as much as people may disagree, 
that it pains me deeply to say that I don't think Elian 
Gonzalez will ever go home. I think that we will continue to 
find ways to keep him here. I think eventually his family may 
come here to look for him, and we will find ways to tie them up 
in court, also.
    My anger is that none of this had to happen, had INS made 
the proper and caring decision, rather than the political, 
Miami-based decision that was made by your agency. I don't ever 
profess to be an intelligent or brilliant man on any issue. But 
I do know a little bit about the Miami-Cuba issue. And how come 
I knew, sitting in Washington and in the Bronx, that if you 
turned the child over to a family in the Cuban community, right 
at the time that posters had been printed by anti-Castro 
groups, calling Elian Castro's latest victim, it didn't take a 
genius--and I'm far from it--to know that this mess was going 
to be created, that this was going to become a political 
football.
    In addition, INS had to be aware of the fact that both 
political parties--and I underline ``both'' parties--are trying 
at every level to out-Miami/Cuban each other for the 
presidential election vote, and we're going to run away from 
the issue, or if getting involved would say things like all 
candidates have said, ``let the court take its time, let's do 
this, let's do that, let's not return him back to a 
dictatorship.'' This is what we made of Elian.
    I have thought about this, I have discussed it with my 
staff, I have discussed it with friends and constituents, to 
try to come up with another explanation of who caused this mess 
for us. The mess was caused by INS.
    I don't know the name, nor do I care ever to face the 
person who made that political decision, a person who obviously 
wanted to score points with the local community and turned this 
little boy over.
    By the way, I am not, in any way, shape or form, attacking 
the integrity or questioning the integrity or the beliefs or 
the love or the care of the family that has this little boy. 
But to give them that boy was, in fact, to tell the child he 
was never going back. And then to allow people--and yes, INS, 
by doing what they did, have allowed other things to happen, 
allowed a state court to get in that shouldn't have been 
involved, to suggest that the father had to come here and pick 
him up, to then allow other elected officials to get involved 
because INS didn't act quickly enough, to say he has to bring 
his whole family, go before a court and tell us, one, whether 
he's fit to be a father, and two, if he wants to stay in this 
country with his child.
    None of these subjects would even be discussed at this 
point if INS had done what it was supposed to do: either turn 
the child over to a foster family temporarily, or give him to a 
church or a synagogue temporarily, until this was resolved.
    But I repeat. I'm not a brilliant person, and I knew the 
minute you turned him over to a political situation, he was 
going to become a political figure. And he is. Now the saga 
will continue because now there's greater interest. My god, the 
mini-series now is going to go up. It's not ``Elian goes 
home''. It's ``Elian goes to court, Part 2.'' People are 
already offering money for this mini-series.
    So I have to tell you--and I'll close with this. I wish you 
had really thought this through. I wish you had not become a 
victim of politics in Miami, presidential election year 
politics, which is what I think you became a part of.
    On a more personal level, I regret to tell you that I was 
treated very badly by your agency. I wrote to the President of 
the United States on this issue and got back a letter right 
away. I wrote to your agency on January the 4th, putting forth 
my position, and it wasn't until I complained publicly, on 
March 9th, that I got a letter dated March 10th.
    Now, I'm not the chairman of this subcommittee, but this 
chairman respects me enough to let me play a role, and he 
allows for me to have something to say about the future of your 
agency. I don't know what political/legislative school all of 
you went to, but you don't ignore the person who's supposed to 
be your champion for three months.
    So, Mr. Chairman, I will close now because there's no need 
to carry this on any further. But I have to tell you--and I'll 
say it one more time--Elian is not going home, and all of you 
in your agency will be responsible for it.
    Mr. Rogers. I understand we have two votes scheduled, so we 
will have a temporary recess while we retire to the floor to 
vote.
    The Committee stands in recess.
    [Recess.]
    Mr. Rogers. The Committee will be in order.

                       Release of Criminal Aliens

    Commissioner Meissner, while I had wanted to begin my 
questions today with the Resendez incident--and I will get to 
that--there is another INS disaster that's upon us that needs 
to be aired today for this subcommittee.
    During the Attorney General's testimony before this 
subcommittee on March 8th, she told us about a startling new 
situation, that INS had released 35,318 criminal aliens out 
into the countryside, after their terms were up, and that 37 
percent of them went on to commit more crimes, a staggering 
number of crimes, committed by people who INS should have 
deported.
    At a recent briefing, Justice told us that, of the 11,605 
criminal aliens committing further crimes, 5,913 of them had 
records of nonviolent crimes; 3,847 had records of drug-related 
crimes; and 1,845 had records of violent crimes, that's 1,845.
    Of that number, 98 committed homicides, 98 lives no longer 
exist. Of the 1,845 that had records of violent crimes, how 
many committed sexual assaults after they were released? The 
answer is 142. Rapes, plundering. How many committed 
kidnapping? Forty-four. How many robberies resulted from your 
release of these violent criminals? Three-hundred and forty 
seven robberies. How many committed assaults on Americans? One-
thousand, two-hundred and fourteen.
    In the past, we have heard a myriad of excuses as to why 
problems, even catastrophes, are not INS' fault. Well, the 
excuses stop here and today. I don't want to hear that you 
didn't have enough detention space, because we gave you an 
additional $280 million over the last year for detention space, 
$80 million in the fiscal '99 supplement, $200 million in this 
year's bill, the current year's bill. I also don't want you to 
point fingers at the Justice Department, OMB, anybody else. 
This is your agency.
    Now, my question is, are you still releasing known criminal 
aliens from your custody, or are you deporting them, as you've 
been directed to do?
    Commissioner Meissner. Mr. Chairman, the removal of 
criminal aliens is the top priority of the Immigration Service, 
in its interior enforcement activities. That priority has been 
funded, as you have described, by the Congress over the last 
five, six or seven years. That effort, on the part of the 
Immigration Service, to focus on criminal alien removal, has 
resulted----
    Mr. Rogers. The question is, are you still releasing 
criminal aliens, instead of deporting them, as you were told to 
do?
    Commissioner Meissner. We have deported----
    Mr. Rogers. The question is, are you still deporting or are 
you still releasing them on the American public?
    Commissioner Meissner. We deport criminal aliens every 
single day. In fact, we deport them----
    Mr. Rogers. Are you still releasing criminal aliens? Answer 
the question, please.
    Commissioner Meissner. We both deport criminal aliens, and 
we release criminal aliens.
    Mr. Rogers. Are you still releasing criminal aliens on the 
American people?
    Commissioner Meissner. When criminal aliens are released--
--
    Mr. Rogers. Answer the question, please.
    Commissioner Meissner. I just answered the question.
    Mr. Rogers. Are you still releasing criminal aliens on the 
American people?
    Commissioner Meissner. I just stated that we both deport 
and release criminal aliens.
    Mr. Rogers. So you're still releasing them on the American 
people?
    Commissioner Meissner. May I explain the circumstances 
under which----
    Mr. Rogers. When you answer my question, I will be happy to 
hear an explanation.
    Are you releasing criminal aliens today?
    Commissioner Meissner. I answered your question, yes.
    Mr. Rogers. All right. Now you may explain.

                  Criminal Alien Release Circumstances

    Commissioner Meissner. The circumstances under which 
criminal aliens are released fall into a variety of categories. 
Sometimes criminal aliens are released because their 
deportation cases are decided in their favor. Sometimes 
criminal aliens are released because judges approve bond for 
the release of aliens. Sometimes criminal aliens are released 
because INS makes the judgment that they, having served their 
sentence in a federal or state facility for the crime that they 
committed and for the reasons that we are detaining them, are 
no longer a danger to the community in the best judgment of 
those evaluating.
    Sometimes criminal aliens are released because they are 
from countries, such as Cuba, Vietnam, or Laos, that will not 
accept the return of their nationals. They have served their 
sentences and are judged to no longer pose a danger or a risk 
of flight.
    Those reasons, and the circumstances under which the 
numbers were released, that you have cited in the report that 
we provided, are continuing to be analyzed. We will have a full 
report of the release of those aliens as soon as we complete 
that work.
    Mr. Rogers. Madam Commissioner, I am quoting from section 
303 of the 1996 Immigration Act, the one that we gave amnesty 
in. I'm sorry. I'm mistaken about that. It's not the amnesty 
bill.
    But section 303 states, in subparagraph (c) of section 236, 
``The Attorney General shall take into custody any alien who is 
deportable under sections 237'' and so forth ``on the basis of 
an offense for which the alien has been sentenced to a term of 
imprisonment of at least one year.'' It doesn't say you may. It 
doesn't say you will think about it or have any other 
conditions. It says the Attorney General ``shall'' take into 
custody any person who has been sentenced to a felony, when the 
alien is released, without regard to whether the alien is 
released on parole, supervised release or probation, and 
without regard to whether the alien may be arrested or 
imprisoned again for the same offense.
    What do you say to that? You have released, in the last 
five years alone, 35,000-plus, contrary to the law of the land, 
not to mention the directions of the Congress.
    Commissioner Meissner. We have detained during that period 
of time more than 300,000 people. Of those 300,000 people that 
we have detained, this number that you cite have been released 
based on a variety of reasons, which I have provided, and which 
are also part of the statutory framework. The mandatory custody 
is a mandatory 90 days minimum. In cases where we are unable to 
return people to their country, or where, under other 
circumstances, there has been a bond determination, or the 
country will not take the person back, those are examples of 
the reasons why we release people. But they are released based 
on a determination that they do not pose a danger to the 
community, or a risk of flight.
    Now, these are cases of people who had committed crimes and 
had been arrested subsequent to that release having taken 
place. That is at a rate of 37 percent, according to the 
analysis that we've done. That is a very serious number and it 
is a great concern to us. It is also the case that it 
represents recidivism that is not atypical for the criminal 
population. Criminals recidivate at a very high rate, and 
criminal aliens recidivate as do U.S. citizens.
    Mr. Rogers. You know that every time you release a hundred 
of these criminal aliens, 37 of them are going to go on to 
commit crimes, and that a good number of them are going to 
commit murders, rape, sexual assault, robbery, kidnapping, 
assaults of all sorts, on American taxpaying citizens, and yet 
you continue to release them.
    How many have you released this year?
    Commissioner Meissner. I don't have that number for you. 
That's part of this analysis and we will be happy to provide 
that number. But I think it's very----
    Mr. Rogers. Surely, you know how many you released this 
year. I mean, do you consider this a serious matter?
    Commissioner Meissner. I just said that we consider this a 
very serious number.
    Mr. Rogers. And yet you cannot tell me how many you have 
released this year? These figures, by the way, go up to May of 
'99, so we've got almost a year since these--the numbers that I 
have are accurate only until May of '99.
    Since May of 1999, how many criminal aliens have you 
released?
    Commissioner Meissner. I would have to get that figure for 
you. But the important thing here is the custody of criminal 
aliens is a top priority of the agency, and the removal of 
those criminal aliens is occurring at a very rapid rate.
    Some of these people do reenter the United States. That's 
one of the things that is of most concern to us, that criminal 
aliens, once deported, sometimes get back to the United States 
and commit subsequent crimes. The difficulty in making a 
release decision is to determine how you can predict whether 
somebody might commit another crime when they have already 
served their sentence.
    Mr. Rogers. Madam Commissioner, of the 100 people that 
you're releasing, we know from these statistics that at least 
37 of them are going to commit crimes.
    Now, if we take for the past five years the release of 
39,000 as an average, if you will, that's at a rate of 7,700-
plus per year. Are we to say that there have been about that 
many released this past year?
    Commissioner Meissner. Well, if you take that data, the 
35,000 released over the course of the last five years, 7,000 a 
year, then you could extrapolate that forward. That would be a 
rough estimation.
    Mr. Rogers. So, of the 7,700 that probably have been 
released this past year, since May of '99, that over a third of 
those people have committed crimes; is that a reasonable 
assumption?
    Commissioner Meissner. That is a reasonable assumption. 
Again, this is a situation in which release decisions are made 
individually, case by case. They are made carefully, and it is 
very difficult to know which person----
    Mr. Rogers. The law does not say that you have the 
discretion in this. The law says you shall detain and deport 
these people. I don't know where it says that you have the 
right to decide which one of them you're going to let loose and 
which one you're going to try to deport. The law says you 
should detain them and deport them.
    Commissioner Meissner. That's correct, and that is what we 
do. But there are circumstances where either we or judges or 
custody reviews lead to a decision to release, which is also 
within the statutory framework.

                    Match with FBI Criminal Records

    Mr. Rogers. Well, if we are to take the Resendez case as an 
example, here's a case where you didn't even know that this 
mass murderer had a record. And of these 35,000 that I have 
quoted to you, a great number of those you hadn't even notified 
the FBI and received an FBI number on that case. Of the 35,000 
aliens that were released from your custody, only 23,000 of 
them had FBI numbers; that is, during their processing, through 
either a State or Federal criminal justice system, they were 
fingerprinted, entered into the FBI's NCIC system, and assigned 
an FBI number. And then, when they were transferred to your 
custody for deportation, INS was to record the FBI number into 
its system. But of those 35,000, INS had failed to keep the FBI 
number for 12,000 of those cases, a third of them. So there is 
no criminal rap sheets on those 12,000 cases.
    So how can you tell us here today that you go through these 
matters and you sift some out and you sift some in, when you 
don't even know whether or not they had a rap sheet?
    Commissioner Meissner. I think there are two separate 
processes. The process of the rap sheet and of matching the FBI 
number with INS records is a function of the analysis that 
we're currently doing, which is to run an INS dataset against 
an FBI dataset.
    When we make release decisions, we make release decisions 
based on a careful review of the individual record, which 
includes the arrest records, and includes the information that 
we have available to us from state and local authorities, which 
are based on the crime that was committed.
    Mr. Rogers. Of these 12,000 that I mentioned, there are 
12,000 of the 35,000 for which you did not have the FBI record 
of their past; is that correct?
    Commissioner Meissner. There are 12,000, for which there 
was not a numbers match, that is my understanding.
    Mr. Rogers. Not a numbers match, meaning that you did not 
have the FBI rap sheet on them, their previous record?
    Commissioner Meissner. No, my understanding of that is 
that's a question of the FBI's records and the INS records on 
automated data. When we do a release decision, it is an 
individual review and we query the records on that individual. 
It is on a dataset that is being matched against another 
dataset.
    Mr. Rogers. Well, of these 12,000 that I mentioned, when 
the decision was made to release them to the public, did you 
have the FBI record of their previous criminal history?
    Commissioner Meissner. I can't answer that question.
    Mr. Rogers. I can. You did not. The records show--and the 
subpoena that the Congress sent out, so we have the records 
here--show that of those the 35,000-plus, aliens who were 
released, criminals, a third of them, you didn't even have the 
FBI record of their criminal history. I just find this to be 
another, absolutely catastrophic failure of this agency in 
dealing with the problem.
    Now, what are the consequences? Well, we've got 98 people 
who are dead; we've got an untold number of rape victims, 
robbery victims, assault victims, all over this country, 
because of the ineptitude of this agency, again.

                     Institutional Removal Program

    Now, you've bragged in the past about the Institutional 
Removal Program. As I understand it, you go into the prisons, 
state and Federal, you find out who are criminal aliens, and 
before they're released, you do the necessary prepatory work to 
deport them while they're still in the prison.
    How many of these 35,000 did you run through that 
institutional release program?
    Commissioner Meissner. We don't have that in this analysis. 
The Institutional Removal Program is a very effective way of 
dealing with deportation and a very effective way of conserving 
Federal detention dollars. The Institutional Removal Program is 
exactly as you say, but it could--if somebody is deported under 
the Institutional Removal Program, which we do every day in 
increasing numbers--there is always the possibility that that 
person could reenter the United States and commit another 
crime. Obviously, we do everything that we can to prevent that, 
but it does happen. That could be reflected in the statistics 
you're citing. But we did not do an analysis of whether the 
people that you're talking about were deported under the 
Institutional Removal Program or were deported under INS 
measures.
    Mr. Rogers. Now, you didn't release these people because 
you didn't have space to hold them, did you?
    Commissioner Meissner. By and large, we released these 
people because we believed that they would not commit another 
crime, or because they were released by a bond decision, 
properly made by an immigration judge.
    Mr. Rogers. How many of these people did you release solely 
on your own discretion and not because of some legal, technical 
bond or whatever?
    Commissioner Meissner. I believe about--I would have to 
check the report, but I believe--there definitely is a category 
that were released under INS discretion, but again, that is a 
decision that is made by district directors and made based on a 
thorough review----
    Mr. Rogers. The question is how many. How many?
    Commissioner Meissner. I would have to check for that 
number. I don't recall right offhand.
    Mr. Rogers. Does anybody in the room have it? You've got 
your staff here.
    [Witness conferring.]
    Commissioner Meissner. I'm sorry, we don't have that 
breakdown. We don't have that breakdown complete yet. We're 
still in the process of analyzing this data and we don't have 
that breakdown.

                  Knowledge of Criminal Alien Release

    Mr. Rogers. Well, when did you discover that there were 
35,000-plus criminal aliens that had been released on the 
American people and not deported? When did you discover it?
    Commissioner Meissner. When did we discover--I'm sorry. 
Could you state the question again?
    Mr. Rogers. When did you discover the problem?
    Commissioner Meissner. We have been aware that criminals 
repeat their criminal behavior. That is the most serious 
problem that the criminal justice system faces--recidivism. We 
face it with criminal aliens just as we face it overall with 
American citizens in the criminal justice system. We try----
    Mr. Rogers. Let me just interrupt you. There was a subpoena 
issued by the Judiciary Committee of the House for records 
relating to this. They have boxes of them down there now and 
they're going through them. Then the Attorney General, when she 
testified here earlier this month, volunteered that there was 
this huge number of criminal aliens that had been released. 
That's the first knowledge that we had of it.
    You didn't tell us about this. We had to discover it. We 
discovered it the hard way, and we had to do it even by 
subpoena. It was not even a voluntary getting out of 
information. That's after we had been told for the last two 
years that you had to have more detention space, and we scraped 
around and, in an emergency supplemental bill, gave you money 
for that purpose. And then, in the regular bill for the current 
year, gave you plenty more.
    Let me just give you a little history of that. In 1997, we 
provided $114 million, $70 million more than you requested, for 
funds for detention due to the then shortage of detention 
space, and then in 1998, we gave you all you asked, $178 
million, for detention and related costs. In 1999, we saved $25 
million for INS detention, that INS would have eliminated by 
denying a portion of a reprogramming, taking $25 million in 
detention funds.
    Also during the regular cycle, you requested no funds for 
detention spaces for either contract facilities or for state 
and local prisons, and instead requested funds for the 
construction of future detention space. And then we also 
provided the requested $80 million in an emergency supplemental 
for detention space relating to criminal and illegal aliens, 
relating to Central Americans and Hurricane Mitch. In the 
current year we provided $200 million of the $230 million 
requested in a budget amendment for detention.
    So I don't think you're going to tell us that you did not 
have the necessary moneys to provide for detention space for 
these released aliens, are you?
    Commissioner Meissner. I have not said that we did not have 
sufficient detention space, and I am not saying that to you 
now. What I have said is that criminal aliens are released for 
a variety of reasons, some of them in INS discretion, some of 
them in the judgment of judges, and because they come from 
countries to which we cannot return them.
    I have also said that we do the best that we can to 
determine the safety and the risk factors in release, but that 
recidivism occurs among criminals and among criminal aliens. It 
occurs at an alarmingly high rate for U.S. citizen criminals, 
just as it does for criminal aliens.
    Mr. Rogers. Well, look, I've had it. This agency we have 
poured money into since I've been on the subcommittee. We have 
quadrupled your budget over the last ten or twelve years, 
enormous increases, in the hope that that would solve the 
problem.
    Obviously, money is not the answer. The answer is an agency 
out of control. I have simply had it. I don't know what else we 
can do except to dismantle and start over again. That is what I 
have reluctantly concluded has to be done. What we're dealing 
with here is mayhem on the American people. That cannot be 
tolerated.
    I want you to tell me in the next week how many criminal 
aliens have been released since May of '99, what was the reason 
for their release, how many of them have committed further 
crimes, and what kind of crimes. I'm going to ask this agency 
also to give this Subcommittee a monthly report on the criminal 
aliens that you're releasing in the future, why you released 
them, what their record was, and I want to know whether or not 
the FBI has given you a rap sheet on these people and that you 
have it in your custody.
    Commissioner Meissner. We will provide that information, 
Mr. Chairman.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Rogers. Mr. Serrano.

                             Elian Gonzalez

    Mr. Serrano. Thank you, Mr. Chairman.
    Madam Commissioner, given the decision rendered by Judge K. 
Michael Moore, is there anything in the decision that prohibits 
you from sending Elian back to Cuba?
    Commissioner Meissner. Judge Moore's decision upheld the 
decision made by the government, made by me initially and 
reiterated by the Attorney General. That decision is that 
Elian's father speaks for him on immigration matters. We intend 
to reunite Elian with his father as soon as possible, as we 
have said from the outset in this case.
    Mr. Serrano. So nothing in this order says you can't pick 
him up tonight and either deliver him to Cuba, if you will, or 
have his father meet you in Washington, in LA, New York, 
Waukegan, IL and turn him over to his father? There is nothing 
in this decision that says you can't do that?
    Commissioner Meissner. This decision says what it says. It 
says that his father has the right to speak for him on 
immigration matters.
    Mr. Serrano. I understand that. But is it your 
interpretation of this decision that you are not restrained in 
sending Elian back to Cuba, that you could do that at any 
moment?
    Commissioner Meissner. It is our interpretation of the 
decision that we want to reunite Elian with his father. We will 
work with all of the parties to achieve that as soon as 
possible.
    Mr. Serrano. Why are you then not picking up Elian tonight 
in Miami and taking him to Cuba?
    Commissioner Meissner. Well, I think we need to let this 
unfold in a way that works for all the parties, and we are 
moving as quickly as we can.
    Mr. Serrano. This mess that your agency created has 
unfolded enough. I don't know what more unfolding it needs.
    People are hiding behind the involvement of the court. I'm 
not a lawyer, but there are many people who say that, legally 
it's kind of a strange thing to say because a court legally 
always has the ability to be involved. But in immigration law, 
only you as an agent of the Attorney General, can decide what 
to do with the child. And even though you did decide, you did 
it too late and too little after you had created the mess that 
you guys did by turning him over in that situation to the Miami 
family.
    But if there is nothing here that says he can't go back, 
and if everybody, including your agency, has been saying let 
the court speak, and the court spoke, then why isn't Elian back 
home, or on his way back home tonight? Or is it that your 
agency continues to pander to the political climate in Miami 
and refuses to confront the truth, which is that this child 
needs to be back? I mean, what needs to be done?
    Commissioner Meissner. What needs to be done is that Elian 
needs to be reunited with his father, and we are working as 
expeditiously as possible to achieve that outcome.
    Mr. Serrano. Let me ask you a question. Does that mean that 
you are trying to get the family in Cuba and the family in 
Miami to work out an agreement for him to return?
    Commissioner Meissner. Well, I think we need to--I cannot 
share with you the details of what----
    Mr. Serrano. Why can't you share that with me? I mean, 
there are no details to share.
    I'm really trying not to join the chairman in being angry, 
but I can't help but be angry. The court spoke. I will say it 
one last time and I won't say it again. Everybody on both sides 
of the aisle was saying let the court speak. I'm not a lawyer, 
but I know enough to know that the court spoke.
    Now, what is it? Are we waiting for an appeals court, for 
the Supreme Court, for The Hague, for the United Nations, for 
the public opinion court, for ``Judge Judy''? What are we 
waiting for? Why isn't Elian on his way home?
    If Elian was Haitian, he would be home already, wouldn't 
he, Commissioner? If Elian was Mexican, you would have kicked 
him out when he arrived. Why is he still here? Why is he not 
home with his father already, and why can't you go pick him up? 
Don't you have the ability to go pick him up? Didn't you just 
raid 140 people somewhere--incidentally, during the Census 
count----, didn't you just raid 140 people? Don't you go to my 
district on a weekly, daily, hourly basis and take people out? 
Why can't you send this child home, or at least say to me for 
the record, ``I can't. It's too politically hot.'' You know, I 
understand that. I don't agree, but I understand that.
    Why is Elian still here if the court spoke? What are we 
waiting for?
    Commissioner Meissner. The court has spoken, and I know 
this is very frustrating. What I'm telling you is that we are 
working as expeditiously as we can to have Elian reunited with 
his father, and we will continue to work as quickly as possible 
to that end.
    Mr. Serrano. Okay. Let me tell you what you're going to do. 
Since you won't tell me what you're going to do, let me tell 
you what you're going to do.
    You're going to drag this out even more. You're going to 
let every court and everybody get involved in making this even 
a bigger political case than it is. In the meantime, you're 
going to harm this child more and more. This is at the feet of 
your agency.
    What you're telling us, and what I have heard from the 
Attorney General, who was trying to be supportive of the 
mistakes your agency made, supportive in terms of not hanging 
you out to dry, is we're going to have them talk to each other.
    Well, that's the same as if I was a police officer, and 
somebody stole the chairman's car, and I say, ``Mr. Chairman, I 
know who stole your car, but go talk to the person who stole it 
and see if you can work it out so you can get your car back.'' 
That's not what I'm supposed to do. I'm supposed to go get the 
car and give it back to the chairman, because that's what I do. 
You're supposed to return that child, and you haven't returned 
that child.
    For the record, I want to say that it troubles me, that if 
it were any other child, you would have kicked him out of the 
country already. This child is here because your agency is 
playing politics during a presidential election year in one 
county in Florida.
    Just to follow up very quickly, Mr. Chairman, we have a 
situation here where, on November 25th, Elian is picked up. On 
November 27th--we always say the Cuban government orchestrated 
this. On the 27th, his father very quickly sent a letter to his 
government, saying ``I want my son back.'' It isn't until the 
8th of December, which allowed time for him to become the 
poster child of the anti-Castro movement----on the 8th of 
December Robert Wallace writes to him, to the father, and says, 
``Oh, by the way, here are the papers you have to submit to get 
your son back.'' Then, on January 10th we wait for a State 
court to say well, he should come here and pick him up, which 
was really ridiculous. But you folks allowed that to happen.
    So I'm asking you one last time for the record, will you be 
picking up Elian Gonzalez within the next 24 hours, now that 
the court has spoken and the Nation is waiting--and if we're 
poll takers, 64 percent of the American people want him back 
right away--are you picking him up? And if not, can you tell me 
what specific steps you're taking to send him back, and give me 
a date certain on which Elian will be back in Cuba with his 
father?
    Other than that, what you're telling me is it's going to be 
another political season and Elian will still at least stay 
until after the presidential election.
    Commissioner Meissner. Congressman, I very much want to be 
able to be responsive to you on this issue. This has been an 
enormously difficult issue. We have tried to handle it in a way 
that is judicious, where all of the parties are concerned.
    It is virtually a unique case. It is virtually 
unprecedented, for a whole variety of reasons. The court has 
spoken. We intend for the reunification of Elian with his 
father to occur as quickly as possible. That must take place in 
a way that is prompt, orderly, and fair. We are consulting with 
all the parties in order to achieve that goal.
    Mr. Serrano. Okay. And I know what ``orderly'' means. You 
don't have the will or the desire to confront the mess you 
created by going into Miami and saying this child has to go 
home.
    I'm not going to take the time now, because there are other 
members who want to speak, but we all have a list of people you 
have deported, children you have deported, children who were 
not allowed to stay here 24 hours, children who stayed for 
medical care, and you deported their mother and then united 
them.
    Elian is a political issue. Again, I repeat to you, 
Commissioner, if you could just admit that to us, we could all 
move on to deal with that issue. But don't tell us that you did 
this for the welfare of the child, or you're trying to do it in 
a proper and judicious way. This was a political decision that 
took place in Miami. The people that you supervise made this 
decision, and this has created a mess for us. This issue is 
going to haunt this Congress, and the people who have friends 
in Congress arguing with each other, not to mention the 
American public.
    I put this at your feet. You guys did this, and I don't 
know how you're going to get out of this mess. But please, 
don't insult my intelligence by telling me that you did this 
because you wanted to protect this child. You did it because 
there's that one county where everything falls by the wayside, 
and they have their own rules down there and you guys bought 
right into it.
    Mr. Rogers. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman.

              REIMBURSEMENT FOR ILLEGAL ALIEN MEDICAL CARE

    Madam Commissioner, I share the concerns that have been 
expressed by the chairman, and in a different way by the 
ranking member, about the management of this agency. I have the 
greatest admiration for you as an individual and respect for 
you as a person, but I have to tell you that I think the 
leadership of the agency has been woefully inadequate. I think 
it's borne out today by the frustrations that you're hearing 
today.
    I want to talk about at least one area, and I hope to get 
to a couple of them, but I want to talk about one in 
particular. This has to do with the problem of reimbursements 
to local communities when emergency medical service is 
provided.
    You have Federal case law, the case of the City of El 
Centro versus the United States. It says that when an injured 
illegal alien is in the custody of the INS, it is the INS' duty 
to reimburse the medical facility for the costs of the care 
that is given.
    But that's a very straightforward case there, the El Centro 
case. But what's actually happening on the ground, let me--Mr. 
Chairman, if I could, I would like to place in the record a 
letter from the Administrator of the Copper Queen Community 
Hospital in Bisbee, AZ.
    Mr. Kolbe. Let me just quote from one part of this letter. 
It's about an incident that occurred last week with a group of 
illegal aliens. And I quote: ``Among this group a 49 year old 
male apparently had an injury to his ankle. The Border Patrol 
called the local ambulance to transport this patient to our 
hospital. We evaluated the patient, called in the orthopedic 
surgeon, the surgery team the next day, Saturday, performed an 
open reduction for an ankle fracture.
    ``They had to hold the patient until Monday in a hospital 
setting--you know what the cost of a hospital room is--so we 
could arrange for the Mexican Consulate to arrange to take this 
gentleman back to Mexico. The gentleman's care will not be paid 
for under preexisting Federal programs because he was never 
taken into custody. We could not discharge the patient because 
he has no legal residence or health care provider to provide 
continuity of care. The Border Patrol will not come on to the 
hospital's property to apprehend the patient and perform their 
duty.
    ``We are in an untenable position. When we explain the 
nature of our problem to the local Border Patrol offices, we 
are offered two explanations. We are told they can do nothing 
about it. These explanations get their genesis as a result of 
two internal directives to the Border Patrol. The first is that 
they cannot go into any church, school or hospital to apprehend 
illegal aliens. Second is they cannot delay the rendering of 
health care by taking illegal aliens into custody and then 
transporting them for care.
    ``We have at numerous times explained the `Catch 22' that 
they have created by these directives. I have requested copies 
of these directives from the local office and legal counsel in 
Tucson. They will not give them to me.''
    My first question is, would you provide to the committee 
those directives?
    Commissioner Meissner. If they're available to be provided, 
I would be pleased to do so.
    Mr. Kolbe. They are obviously available. I would like to 
have a copy for the committee of whatever directives you have 
from the national office or your local offices, in terms of the 
policy to be followed in regard to providing emergency medical 
services to illegal aliens when they are in the hands, if not 
the legal custody, of the Border Patrol. When the Border Patrol 
makes the initial contact with the ambulance company, with the 
hospital or somebody to transport them to the hospital. I would 
like to know what your directives are about that.
    Commissioner Meissner. We will provide that.
    [The information follows:]

 Directives on the Policy for Providing Emergency Medical Services to 
                             Illegal Aliens

    No written policy exists directing agents not to enter 
hospitals to pickup illegal aliens. In practice, the reverse is 
true. When hospitals call to say a possible illegal alien is 
being released from treatment, INS will dispatch an agent, if 
available, to determine alienage and status. If the suspected 
alien is determined to be an illegal alien, the person is taken 
into custody if medically cleared to travel.

                 CARE FOR ILLEGAL ALIENS NOT IN CUSTODY

    Mr. Kolbe. Let me just tell you what happened this morning 
at about 7:30. There was a high-speed chase by the Border 
Patrol of a van carrying suspected undocumented aliens--UDAs. 
Apparently the van overturned and between 20 and 26 UDAs were 
injured, requiring medical attention from local hospitals. Now, 
this hospital in question is so tiny that they all couldn't be 
taken to that one, so they had to be spread out, I'm sure, 
between Douglas and Bisbee, and perhaps even to Sierra Vista. 
At least one was medivaced by helicopter to the medical center 
in Tucson. Not one of these UDAs was taken into custody by the 
Border Patrol.
    Do you have a Border Patrol internal memorandum to the 
effect they are not to take these people into custody?
    Commissioner Meissner. I'll have to check on what the 
internal memorandum trail is. But the overall issue here is 
that we are responsible for the care and medical expenses of 
aliens when they are in our custody. We don't take them into 
custody simply for the purposes of getting them to medical 
care.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



    Mr. Kolbe. Wait a minute. You've apprehended a person. 
There's no question that if somebody is in one of your 
detention facilities, they break their arm, you're going to 
transport them to the hospital and you're going to end up 
paying for it, and you're going to bring them back to the 
detention center.
    Commissioner Meissner. Right.
    Mr. Kolbe. Now, here is somebody that's coming over the 
fence in Douglas. They fall down on the other side and they 
break their ankle. The Border Patrol person is there. You call 
the ambulance, but you refuse to take them into custody.
    Do you think it's right that the local hospital should have 
to bear that cost because he fell off that fence, you didn't 
prevent him from coming over, and he injured himself inside the 
United States?
    Commissioner Meissner. I don't think it's right. I would 
like to just make reference to the conversation that we had a 
few weeks ago on this issue. I think this is a serious issue 
where we need to find some solutions that we don't yet have.
    The situation that you describe is not acceptable for the 
local hospitals, nor for the INS, because we also are not 
funded for these emergency costs. There are different kinds of 
authorities sprinkled throughout the Federal Government on how 
these kinds of costs should be met. So it seems to me that we 
really do need to follow up on the pilot project that we did in 
Arizona and work together with you and other border states on 
what appropriate machinery needs to be put into place to deal 
with this burden.
    Mr. Kolbe. Have you asked the Congress--As I said, if this 
occurs when it's in your detention facility, you obviously have 
something in your budget for that kind of medical cost. Have 
you asked the Congress, ``Look, we can't put this burden on 
these local hospitals. These people are here in the United 
States because of a failure of the Border Patrol to keep them 
from coming into the country.'' I think that's an accurate 
statement from a legal standpoint. They've gotten into the 
country illegally.
    It's a Federal responsibility. It ought not be the 
responsibility of that local hospital to have to bear that 
cost.
    Commissioner Meissner. The Administration has asked for 
those funds, and those funds have been appropriated. But they 
are funds that are for reimbursements to states----
    Mr. Kolbe. To states, to Medicaid.
    Commissioner Meissner. Exactly.
    So then it is the states that dole out the money and small 
border hospitals may not be getting----
    Mr. Kolbe. If you would take that person into custody right 
there at the border, as you're calling the hospital, you just 
wave a magic wand over them and say they're in custody, we're 
doing the processing here a little later, but we're going to 
get you to the hospital for medical treatment. But if you 
acknowledge they were in your custody, you would have to bear 
that cost and we would have to provide the funds, not through 
Medicaid to the states, but from you for it.
    Commissioner Meissner. That would probably be one way of 
doing it.
    Mr. Kolbe. Isn't that the fair way to do it for these 
hospitals? I mean, we're killing these hospitals. They're 
dying.
    Commissioner Meissner. I don't know if that's the fair way 
to do it. I mean, the fact of the matter is that that would set 
up an entirely new funding line for health care through the 
Immigration Service, and that maybe is the way to resolve this. 
But that is certainly not a decision that has yet been made by 
either the Congress or the Administration.

             DETAINING ILLEGAL ALIENS FROM LOCAL HOSPITALS

    Mr. Kolbe. So you call the ambulance. You know the person 
is an illegal. They fall on the ground, you call the ambulance, 
he's transported to the hospital, but you have a directive that 
says you will not come on to the hospital property, is that 
correct? Apparently that's what----
    Commissioner Meissner. I don't----
    Mr. Kolbe. I mean, I would like to see if there is such a 
directive.
    Commissioner Meissner. Okay. For the purposes of providing 
health care, particularly in an emergency situation, we would 
look to health care professionals to do that.
    Mr. Kolbe. If a rancher calls and says there's 20 of them 
sitting in my yard here, eventually the Border Patrol will come 
and pick those people up. They will come and do their duty of 
apprehending them.
    Why, if the hospital calls and says we're about to 
discharge this illegal immigrant here, why won't you come and 
pick them up and transport them back to the border?
    Commissioner Meissner. Well, if they were never in our 
custody, then we don't have custody of them. But again, 
Congressman----
    Mr. Kolbe. That's a ``Catch 22'' if I ever heard one.
    Commissioner Meissner. Congressman, I am not trying to 
create a set of barriers here. I really do believe that this is 
a problem that we need to solve.
    Mr. Kolbe. You just told me, if I call you as a rancher and 
say there's 22 illegal aliens sitting here in my yard, you 
don't have custody of them at that point but you'll send 
somebody to investigate and get them, right?
    Commissioner Meissner. That's correct.
    Mr. Kolbe. That's what your agents do all the time. They're 
out there following up on leads, when somebody calls, or they 
see somebody or somebody spots them, they'll do that.
    So here I am, the administrator of a hospital. ``Hello, 
Border Patrol. I've got one I'm about to release. Would you 
please come and transport him back to the border?''
    I think the message you're saying is, ``Mr. Illegal Alien, 
the sure way to get to Chicago, to your job, is to sprain your 
ankle coming over the fence. Then you'll get to a hospital and 
then somebody can take you from the hospital directly to the 
bus station and nobody will ever touch you.''
    Is that not what you're saying?
    Commissioner Meissner. That certainly is not the intended 
message.
    Mr. Kolbe. I think it's exactly the message that we're 
getting from it.
    If I might, Mr. Chairman, just very quickly on one other 
area.
    Mr. Rogers. Very quickly.

                        HARDENING OF THE BORDERS

    Mr. Kolbe. I understand. I know there are many members here 
who have questions.
    Very quickly somewhat along the same lines. As you know, as 
a result of tightening the border at El Paso, San Diego, and 
now even at Nogalas, INS is pushing UDAs into the rural areas 
of Arizona and now into New Mexico. There are now an enormous 
number of people going through our national forests and now 
through the national conservation area of the San Pedro 
National Conservation Area, which is a natural river that runs 
from Mexico into the United States. The result is absolute 
devastation. I mean, there's no other word to describe it. It's 
devastation, making paths through this riparian area that we 
thought we were protecting. It's now in much worse shape than 
it was 15 years ago before we created the national conservation 
area. Thousands, tens of thousands of water jugs littering the 
area through there, campsites, the burning of logs. It's 
catastrophic. There's no other way to describe it.
    Do you, in the first instance, consider, when you make 
these decisions about hardened border--you must know where 
you're going to be driving these people--do you have a policy, 
a consultation with local officials, about here's the problem, 
it's coming your way? Do you alert them to this in advance, or 
do you just wait for that to happen?
    Commissioner Meissner. Absolutely, absolutely.
    Mr. Kolbe. So you're saying the local officials were 
alerted before the hardening of the borders, you said to the 
local officials in Arizona that this flood is about to descend 
on you?
    Commissioner Meissner. Yes. But I must tell you that this 
is a very temporary situation, and the kind of environmental 
damage that you're talking about is something that we have 
experienced in other places and have been very successful in 
overcoming very quickly. Because as soon as we get control, the 
environment is one of the first positive beneficiaries of that. 
Outstanding and very vivid examples of that are in the San 
Diego area, exactly as you're describing--campsites, water 
jugs, damage to the flora and fauna. Those areas are absolutely 
revitalized today, and that will happen in Arizona.

       CROSS-CERTIFICATION OF AGENTS FROM OTHER FEDERAL AGENCIES

    Mr. Kolbe. My last question, Madam Commissioner, because my 
time is up.
    What legal authority do you have with other Federal 
agencies, like the Forest Service, Bureau of Land Management, 
to cross-certify their agents? Do they have any authority to 
detain illegal aliens or not, and if not, what legal authority 
do we need to have in order for that to happen?
    Commissioner Meissner. We do have authority to cross train 
and cross designate. We do that all the time.
    Mr. Kolbe. You do cross designate?
    Commissioner Meissner. We do that all the time with the 
Customs Service.
    Mr. Kolbe. With Customs. Is that the only agency?
    Commissioner Meissner. I don't know. I would have to check 
on what the possibilities are with other Federal agencies.
    Mr. Kolbe. We have a real need in that area in the Forest 
Service, because they say they have no authority to detain 
these people.
    Commissioner Meissner. We can certainly pursue that and 
look into that.
    Mr. Kolbe. We will certainly pursue that more.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

       Cross-Certification of Agents From Other Federal Agencies

    Provisions of law and regulation allow the Commissioner of 
the Immigration and Naturalization Service (INS) to delegate or 
confer immigration law enforcement authority on National Park 
Service and Forest Service officials. Section 103(a)(1) of the 
Immigration and Nationality Act (INA) charges the Attorney 
General with the Administration and enforcement of the INA and 
all other laws relating to the immigration and naturalization 
of aliens. By regulation, the Attorney General has delegated 
this authority to the Commissioner of the (INS) and the 
authority to delegate this same authority to any officer or 
employee of the INS (sec. 8 CFR 2.1 of the Code of Federal 
Regulations).
    The Attorney General may also confer or impose on any 
employee of the United States Government, with the consent of 
the employee's department head, any of the powers or duties 
conferred or imposed by the INA (sec. 103(a)(6) of the INA). 
Likewise, by regulation, the Commissioner may also confer or 
impose on any employee of the United States Government, with 
the consent of the employee's department head, any of the 
powers or duties conferred or imposed by the Act (sec. 28 CFR 
0.108). However, such delegation of enforcement authority has 
not been made. At this time, a delegation is not being 
considered.

    Mr. Rogers. We'll have time for the gentleman to pursue 
that on a second round.
    Mr. Dixon.

                           AGENT TELLEZ CASE

    Mr. Dixon. Thank you, Mr. Chairman.
    I would like to welcome you to the committee, Commissioner 
Meissner.
    My first question to you is, did you have a nice morning? 
[Laughter.]
    I don't want to pile on to you, but I have a series of 
questions I would like you to answer in writing. One deals with 
the Department of Justice Inspector General's report concerning 
an employee that I think has been severed, Agent Tellez. I 
would like to know all the facts, circumstances, surrounding 
that case and whether your agency did any independent 
investigation or relied entirely on the Inspector General's 
report. It has really nothing to do with the INS. It's another 
issue that I'm pursuing in a different life.
    Commissioner Meissner. Okay. We'll be happy to provide 
that.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                   Information on Agent Tellez' Case

    Upon review of the December 1997 Office of Inspector 
General (OIG) special report titled ``The CIA-Contra-Crack 
Cocaine Controversy: A Review of the Justice Department's 
Investigations and Prosecutions'', the INS Office of Internal 
Audit forwarded findings regarding a single INS employee to the 
appropriate INS management official for consideration of 
corrective action. Specifically, the investigation had 
disclosed that through this employee's actions, an individual 
with a criminal background was allowed to adjust his status to 
that of Lawful Permanent Resident. After the OIG cleared for 
release those portions of its report dealing with this 
incident, disciplinary action was proposed based on the OIG 
findings. The disciplinary action was effected September 26, 
1999.

                     BORDER PATROL AGENT PAY REFORM

    Mr. Dixon. I noticed in your prepared statement that you 
touch upon changing the pay scale, I guess, of new Border 
Patrol agents, and that is to improve retention and 
recruitment. I'm wondering if you can provide for me any 
written materials or studies--I'm asking how did this 
originate? Is this just an idea that has come to someone, or 
has there been a study made? Have the unions been contacted and 
asked about it and so forth. If you would provide any material 
that you are basing this recommendation on.
    As I understand it, you're asking for statutory language to 
change so that it can occur? It's not clear to me.
    Commissioner Meissner. If I could speak to that just 
briefly, what we call pay reform, which is a comprehensive pay 
reform package, that is part of the Administration's budget 
request for 2001. The pay reform package involves Border Patrol 
agents, inspectors, and also detention and deportation 
officers. It is a mixture of steps, changes that we can make, 
and language and authority that's required from the Congress.
    It's based on extensive analysis. We would be very anxious 
to provide that analysis to you. It is based fundamentally on 
the increasing complexity of the jobs that these people 
perform. It is, we believe, going to improve our retention and 
our overall professionalism. It also will improve the 
management of the agency, because it includes overtime reform, 
that puts us into line with all other Federal law enforcement 
agencies, that has not yet taken place in the Immigration 
Service.
    Mr. Dixon. All right. I would just like to see that 
material.
    Commissioner Meissner. We would be happy to provide it.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                      INVESTIGATION IN LOS ANGELES

    Mr. Dixon. There are two other issues that I would like you 
to respond to in writing.
    Congresswoman Roybal-Allard and I had a conversation with 
you about the situation in Los Angeles, and I do believe that 
in that conversation you indicated that there had been a 
request made of the Inspector General of Justice to look into 
the INS situation in Los Angeles.
    I am now told that there was not really a formal request 
made but an inquiry made as to whether they were planning to 
look at it. So would you follow up and provide precisely what 
happened in that situation? Did you request of the Attorney 
General that she request the Inspector General? Was it a very 
informal situation or what?
    Commissioner Meissner. I'll be happy to provide that 
information.
    I might also tell you, as an update to the conversation 
that we did have, that our Office of Internal Audit has been 
intensively investigating the administrative issues in the 
LAPD/INS situation. There is a separate investigation, a 
criminal investigation, taking place under the leadership of 
the U.S. Attorney, involving the FBI and the Inspector General.
    That INS administrative investigation has now been going on 
for about four weeks. We've made very, very substantial 
progress. We have been asked to stand down for the next two 
weeks while the civil rights issues involved in the criminal 
investigation are investigated. We will then complete our work. 
We believe it will be completed soon thereafter, and we will 
then share it with you and act upon it.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                      Investigation in Los Angeles

    The INS's Office of Internal Audit (OIA) is conducting an 
investigation to establish the facts surrounding INS and Los 
Angeles Police Department enforcement activity connected to the 
``18th Street Gang'' in Los Angeles. Some of the issues being 
investigated have been raised in the media, including 
allegations that INS officials did not act upon reports of Los 
Angeles Police Department mistreatment of individuals 
apprehended during that enforcement activity. The OIA is aware 
of the references made to an ``INS report'' in the media, and 
has included authenticating that report in its planned 
investigative activity. Due to the fact that the Department of 
Justice's Office of Inspector General (OIG), at the request of 
the United States Attorney's Office for the Central District of 
California, has recently initiated investigative activity, 
which overlaps that planned by the OIA, the OIA is holding in 
abeyance interviews of INS employees who could possibly 
identify and authenticate the report. The OIA will resume its 
investigation as soon as the OIG has concluded its work.

    Mr. Dixon. Finally, Commissioner, just an observation. I 
think the immigration law and the issue of immigration is one 
of the most controversial issues in our society today, and it's 
probably due to the diversity of our society and the diversity 
of ethnicity and political philosophy in our society.
    No matter how you handle the situation, because of an 
loverlap of what I view as conflicting law on immigration, 
because of differences of opinion, you have a very difficult 
job. I'm not saying that I don't agree with the chairman and 
the ranking members and others who have criticized you, because 
as the Commissioner, you take the heat.
    I do personally believe that you have some serious problems 
in your Service that you are not responsible for creating, but 
we look to you to make your mark in remedying them. I think 
I've said that to you privately. In Los Angeles, I am convinced 
that there are some serious problems among the personnel, 
whether it's a conflict with management, or whatever it is, 
when you look at the way they have conducted themselves. And 
I'm not talking about irregularities, but how they have 
postioned themselves with the newspaper in Los Angeles. I mean, 
they were the first out of the box to say ``the police made me 
do it.'' Then it was ``the FBI made us do it.'' Then there was 
a memo that said ``This is how we can cooperate.'' Those, along 
with other things, are symptomatic that there's something wrong 
out there within the INS, either at the regional level or the 
local level.
    I would encourage you, as I encouraged the Attorney 
General, to look at that very carefully. I'm not accusing them 
of violating the law, but there is something with the morale 
and/or management structure that I think needs fixing.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Taylor.

                            Citizenship USA

    Mr. Taylor. Thank you, Mr. Chairman.
    Madam Commissioner, until a few weeks ago, I had thought 
that bringing up the issue of the Citizenship USA program from 
1996 would be beating a dead horse, but that horse is very much 
alive. I saw that the Charlotte Observer just printed that your 
office has ordered the Charlotte INS office to bring in 8,700 
people, to naturalize that many applicants between now and 
September, a little over five months.
    Last year, the entire North Carolina delegation signed a 
letter expressing our strong concern with the backlog of cases 
across the board in Charlotte--not just naturalization cases, 
but all sorts of cases that are backlogged. Now, just when we 
think we're making some progress. You remove five people and 
assign them this massive number of naturalization cases by 
September.
    It appears that you only take any attention of the 
Charlotte office during a presidential year. Of course, we know 
the shameful situation that happened here in 1996, where 
pandering politicians, so corrupt and bent on their self 
interest that they didn't care about the risk to the American 
people of murder or rape or anything else, put this program in 
place.
    Is that going to happen again? Are we going to have the 
same thing happen in 2000 that we had in 1996? If so, can you 
tell us why?
    Commissioner Meissner. Mr. Congressman, the naturalization 
program has been entirely revamped and reworked. It has been 
revamped and reworked based on integrity as the most important 
objective, and procedures that are consistent and effective. 
Those procedures and those integrity processes have been 
validated three times by outside audits, and are reviewed 
continuously by internal monitoring.
    One of the ways that we have been able to get the 
naturalization program back on its feet, once procedures and 
the integrity was restored, was to manage very closely and 
tightly the production of backlogs that had accumulated around 
the country. Unfortunately, our Charlotte office had been one 
of the most backlogged offices in the country. In fact, it may 
have been the most backlogged. I would have to check that.
    We have had some serious problems in Charlotte, and we have 
been working to address them--problems in staffing, problems in 
leadership, and problems in productivity. We have been managing 
in order to overcome those issues. I don't know about the memo 
that you're referring to, but I suspect that it is a memo that 
deals with production expectations that is similar for all 
offices around the country.
    I will be certain to take a look at it, but I think I can 
quite confidently say that we are not asking anything of that 
office that we are not asking of our other offices--to ask our 
managers to meet national standards and to be productive 
according to the resources that we and this committee and the 
Congress have provided.
    Mr. Taylor. Well, I don't want to blame the Charlotte 
office or indicate that it's their fault at all, because--and I 
met the head there--I think they were making progress. But the 
order came from up here, not in Charlotte, to process and 
naturalize these citizens in the next five months. It looks 
like we're playing '96 all over again.
    We have 3,000 green cards applied for and it takes about 18 
months. We're now being told it's going to take about 25 months 
for green cards, while we put through this naturalization 
process by September.
    While we welcome legal citizens into this country, there is 
no rush to have them here by election time, as opposed to any 
other time during the four-year period. We also have community 
colleges and colleges themselves who are asking students to 
come in. They're recruiting students. They have to wait on this 
process now. We have citizens coming in to conduct business, 
which many times will be in our favor as well as the foreign 
country's. They have to wait to get in. All these things have 
to be put on hold for the September certification of citizens, 
and it's primarily for the election process.
    It reminds me of what we have seen in the past, and that 
gives me real concern. So I would hope we could have a natural 
process of naturalization, and an orderly process for the other 
concerns that the office handles.
    We've had a lot of Eastern European countries from which it 
takes a good deal of time to process visas. These people are 
coming here to learn about America in most cases, and we're 
saying to them, ``We'll let citizens in without checking 
perhaps, as in '96, their felony records and so forth. We will 
turn felons loose on the American public, but it's going to 
take us a long time to see whether you can come in and visit.'' 
I would hope we could level the flow and not focus on this 
election but instead focus on the conduct of the office itself.

                Collection of Fees From Foreign Students

    One other question, Mr. Chairman, that I would like to ask. 
We require the community colleges and colleges now, in the so-
called CIPRIS program, I believe it is, to collect the fees of 
foreign students. It would seem to me that that should be your 
office's obligation as they apply to come in, rather than 
putting that burden on a lot of the small schools. A lot of 
small schools do not have the staff to do it, and keep in 
touch, follow up, and do all of the other things required. Is 
it possible for your office to do that upon application, rather 
than putting that burden on the colleges?
    Commissioner Meissner. Mr. Taylor, the requirement that 
schools collect the fees is a statutory requirement. It's a 
requirement that we have published regulations to implement. We 
have received more than 3,000 comments, most of them negative, 
in the way that you have described. So there needs to be a 
statutory change here. We have some ideas on how that might 
occur, and I hope we can work with the Congress to revisit that 
statutory requirement as it presently exists.
    But I really must say something further about 
naturalization, if I might, because I have to very strenuously 
disagree with the conclusion that you're reaching.
    Naturalization has been, for the last two to three years, 
since the Citizenship USA program and the fixing required from 
that program, the first priority in our Service's work, for 
both the INS and the Congress. We came to the Congress more 
than two years ago with our estimates of what it would take. We 
laid out our production goals. We have received funding from 
the Congress to meet those production goals. We are on track to 
meet those production goals. What that requires is that every 
office do their part to reach those production goals.
    Mr. Taylor. How many citizens did you naturalize in 1999 
through the Charlotte office?
    Commissioner Meissner. I could get you the number for the 
Charlotte office. I know the number nationally, but I don't 
know that office individually.
    Mr. Taylor. I would bet it's way below 8,700, the number 
for the five months that the order has given. That's what gives 
us concern.
    Commissioner Meissner. Let me provide you with what the 
production issues in the Charlotte office have been and with 
what we're doing to address them.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Taylor. Thank you, Madam Commissioner.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Regula.

                           Immigration Judges

    Mr. Regula. Yes, just a couple of questions.
    I think we have restricted the judicial discretion of 
immigration judges statutorily. Do you think we've gone too 
far? Do you think the judges need greater discretion in dealing 
with cases?
    Commissioner Meissner. We do believe that there is room for 
some increased discretion for immigration judges and for INS 
officials, yes.

                 Border Patrol in the Cleveland Forest

    Mr. Regula. As you know, I fund the U.S. Forest Service in 
the Interior appropriations bill, and I would like to commend 
you for the increased Border Patrol agents in the Cleveland 
National Forest.
    But I understand there's a problem that still exists there. 
Illegal immigrants are being told in Mexico that it's just a 
six hour walk across the border through the Cleveland Natural 
Forest, but in reality, it's a two day walk. One area of the 
forest has reported they have found a thousand hot campfires 
last year and removed 25,000 pounds of trash.
    Are you contemplating increasing the number of Border 
Patrol people in the Cleveland National Forest? Is it a serious 
problem?
    Commissioner Meissner. It is a serious problem, and it is a 
problem that, as I said in my conversation with Mr. Kolbe, is a 
temporary problem. It is a matter of gaining greater control 
across areas of the border that have traditionally been heavily 
crossed. As we gain that control, there are temporary shifts 
that we will then need to address. The Cleveland National 
Forest happens to be one that, right now, represents a weak 
link or loophole. We are addressing that and we will continue 
to address it. That will be overcome.
    Mr. Regula. I understand from the Forest Service that one 
of the problems is there's a lot of turnover in your agents 
there and they don't really have time to develop a coordinating 
relationship with the Forest Service personnel.
    Is this a problem, in your view, and are you going to 
increase the numbers in the Cleveland National Forest area?
    Commissioner Meissner. The numbers are being increased 
along that section of the border. We have gone through dramatic 
growth, and so we have a very large proportion of very new 
agents in our law enforcement cadre. Of course, they need to 
establish the relationships, develop the liaison. That 
coordination and that communication is central to our 
enforcement efforts. That information sharing and, as you say, 
that communication, is critical to being able to do law 
enforcement effectively. We encourage that and support it, and 
continue to promote it at every point.
    Mr. Regula. Well, we have urged the Forest Service to work 
in cooperation with your agents to deal with this problem, 
because I think there is an overlap.
    Are there any ways you could suggest to improve the 
interagency cooperation between the Forest Service and the 
Border Patrol to have more effective enforcement there?
    Commissioner Meissner. I think, perhaps, this is a 
situation where there actually are very positive relationships 
on the ground at the working level. I think when you use the 
word ``interagency'', it comes to my mind that we probably have 
not sat down at a headquarters level, at least not for a while, 
and basically walked through, at a leadership level, what we're 
doing and where we're going and what things might be able to be 
done to support those efforts on the ground.
    Mr. Regula. I might suggest that it probably would be well 
for the two agencies to have some additional communications to 
see if we can't get a better handle on the problem, because 
obviously it's an area where there's a lot of traffic of 
illegals trying to breach the border.
    Commissioner Meissner. I think that's a very good 
suggestion, and I will be pleased to follow up on that.
    Mr. Regula. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Latham.

                     IMMIGRATION PROCESSING BACKLOG

    Mr. Latham. Thank you, Mr. Chairman.
    I would like to associate myself with your comments, and 
also with Mr. Serrano's comments. I find it amazing how the 
political process takes precedent over the law around here.
    I have some real concerns. First of all, it is so 
unfortunate that people in my district, in my State, have 
absolutely no confidence in INS. It seems like everything that 
your agency tries to initiate, whether it's QRTs or Operation 
Vanguard or whatever somehow blows up and backfires and no one 
is happy.
    It is so discouraging. I would say 50 percent of the time 
spent in my office is dealing with screw-ups at INS. People are 
outraged with your agency. It's a horrible indictment of what 
has happened, but it's the truth. It is so unfortunate.
    Everybody talks about the enforcement part of it, which is 
very, very important. I think one of the most disheartening 
parts of INS is that the people who are trying to come in 
legally, who go through the paperwork, in the Lincoln region, 
they send in their application, the check is attached to it, 
that's photographed and deposited that day, and the application 
then is just stuck away in a box. There are rooms full of boxes 
of applications that sit there for months.
    Can you address that at all? I have a lot of folks at home 
that are waiting and waiting and waiting for a response. The 
check has been cashed but there's no answer, nothing.
    Commissioner Meissner. The workloads on our four service 
centers, which includes Lincoln, are extraordinary. They have 
grown at very rapid rates in recent years, just as our legal 
immigration has grown, as are increases that have been made 
to--for instance, statutes that have been passed, the Haitian 
refugee adjustment legislation, the increase in H1Bs from 
65,000 to 115,000. There have been a whole series of measures 
that have been enacted in recent years that have extended or 
exacerbated workload issues, where legal immigration and 
services to legal immigrants and U.S. citizens are concerned.
    Now, we have been doing as aggressive a job as we can at 
streamlining procedures, at introducing automation, at 
developing telephone call centers. Recently the chairman and I 
had the pleasure of opening one of those centers in Kentucky. 
We have just opened a new centralized file and records center 
in Missouri, where we will be centralizing 25 million new paper 
A files so that we will eliminate the problem of lost files.
    But I think we have to face up to the fact that, 
realistically, the way things are established right now, we 
must pay for all of those activities out of fees that are paid 
to us by the immigrants; those checks you're talking about that 
are taken from the applications. That fee revenue is simply not 
sufficient, both to process timely and to make the 
infrastructure and capital investments that we need to make in 
order to modernize the machinery through which we do this work.
    This budget has a proposal in it for what's called an 
Immigration Services Capital Investment Account. It is an 
account that is intended to address that deficiency by 
providing a source of revenue and a mechanism for funding 
infrastructure improvements, capital improvements, automation, 
and backlog reduction. It rests heavily on a business premium 
fee, which is discussed in the budget documents, and which I 
would be happy to elaborate on if people have questions. But it 
is absolutely critical that we enact that kind of a 
strengthening of the revenue base and funding for our services, 
in order for us to deal with these workloads and with the 
modernization that is required.
    Mr. Latham. It's interesting that there's no other agency 
that has gotten larger increases than INS.
    Commissioner Meissner. I don't know that there's another 
agency that has had as large workload increases.

                       QUICK RESPONSE TEAMS--QRT

    Mr. Latham. Well, I'm not sure it's the system in place, or 
whether you blame the bureaucracy or whatever, but I will tell 
you, in observing this now for four years first-hand, it 
doesn't matter what you say in Washington because nobody in the 
region listens to you, and nobody out in the field listens to 
them. There is absolutely no order of command that anyone 
listens to each other. You have your little regional kingdoms 
out here and it doesn't seem to matter at all. The message 
somewhere is not getting through to anyone. That is a 
management problem, when you have no accountability inside the 
system, and no one is responsible for anything.
    We have people who are designated in our QRT in Sioux City 
who are working way out of the area that specifically they're 
assigned to. Who made that decision? We're supposed to have 
five people in Sioux City working in the QRT. Half the time 
they're out in western Nebraska somewhere, not even part of the 
region. Who made that decision?
    Commissioner Meissner. That is not something I've been 
aware of, and I will be very anxious to know that and to look 
into it.
    Mr. Latham. Who has the authority?
    Commissioner Meissner. That QRT is responsible to the 
District Director.
    Mr. Latham. Isn't there a directive and an assignment when 
the QRTs are set up, that they have specifically so many 
counties in Iowa, so many counties in Nebraska, to operate in?
    Commissioner Meissner. They have a territory that they're 
responsible for.
    Mr. Latham. And they're not in their territory. They're out 
doing something else. And there's a management problem. No one 
is accountable for anything. How you can sit here and say that 
we need more money or we need to raise fees or something, when 
we can't even manage the system that's in place. I think that 
is somewhat outrageous. The people who work for you won't even 
listen. How can you expect anything to be accomplished if 
there's no accountability in the system? No one seems to give a 
damn out there what happens to law-abiding citizens. You're 
letting criminals out on the street here. Only 37 percent of 
them are convicted felons that you're turning back on our 
public.
    It is absolutely outrageous. When you read the Inspector 
General's report and the railway killer down there, picked up 
four times by the Border Patrol, and they had not even been 
trained, under a $65 million system that we had put in place to 
catch those very people. Most of them didn't even know about 
it.
    Isn't that correct? Isn't that what the IG said?
    Commissioner Meissner. The IG said that the investigators 
in the Houston office had no sufficient knowledge of the IDENT 
system. The Border Patrol----
    Mr. Latham. Some of them didn't even know it existed, or 
what it was for.
    Commissioner Meissner. Well, the fact of the matter is that 
we have checked back on that, and those individual agents 
involved in that particular case have each been trained three 
separate times regarding IDENT.
    Mr. Latham. Apparently it says something about the training 
system, then. Because of that, four people are dead, U.S. 
citizens, and one of them in the chairman's home state.
    Commissioner Meissner. It clearly does. I do not apologize 
for that lapse. It was a shocking and serious----
    Mr. Latham. You don't apologize for it?
    Commissioner Meissner. I'm sorry. I don't defend that 
lapse. It was a serious breakdown. But the fact of the matter 
is that those agents, indeed, were trained, and we need to 
revise the training, obviously, based on what we've learned 
from this experience.

                        NEW DETENTION FACILITIES

    Mr. Latham. You know what is most disheartening for me is I 
hate to bring up anything new because nothing has worked yet, 
but last year, in our bill, we had $500,000 for planning for a 
detention facility that was going to be in Grand Island, NE. 
Apparently that is not going to happen, now that INS determined 
the numbers, don't justify it, even though our jails locally 
are overflowing at home. They're trying to build new jails in 
every county in my district to take care of the need, but 
apparently it is not enough to justify it.
    Your statement last year was that there was a compelling 
need, in the testimony you gave me, for this facility out 
there. Now the INS is saying that no, it's not necessary. There 
seems to be some kind of a contradiction here.
    If we don't need new detention facilities, what would you 
say we should do?
    Commissioner Meissner. We do need detention capability in 
the Midwest. We don't believe that Grand Island is the place 
right now, but we are working with the Marshals Service on 
what's called a cooperative agreement program--CAP, which is an 
established arrangement for guaranteed space in Nebraska that 
will meet those needs.
    Mr. Latham. Do you have a suggested location for it?
    Commissioner Meissner. I would have to check with the 
Marshals Service on where the location is.
    Mr. Latham. You say there is a need in your budget request, 
but there is no money, no request for a Midwest detention 
center.
    Commissioner Meissner. There is a very substantial amount 
of detention money in our budget, and we will be able to meet 
these needs out of----
    Mr. Latham. There is no request for a facility in the 
Midwest.
    Commissioner Meissner. No. We would propose to do this out 
of agreements with existing facilities, which is far more cost 
effective.
    Mr. Latham. I think I just stated that we're overflowing in 
the counties, and local law enforcement cannot--they don't have 
room. Every county in my district needs to build a jail right 
now because of the meth and because of illegal aliens. So I 
don't know where you're going to put these people.
    I'm getting two different answers. It's yeah, we have a 
problem, we need to have detention facilities, but no, we don't 
have any money in our budget and we're going to do it some 
other way. I don't understand.
    Commissioner Meissner. No, that's not what I've said. What 
I have said is that we believe----
    Mr. Latham. It's not in your budget, and you're saying 
we're going to pay somebody else to keep them.
    Commissioner Meissner. I've said that we believe that we 
can meet the detention needs through an arrangement of 
guaranteed space with a state or a local facility. We would, of 
course, pay for that out of INS budget moneys.
    Mr. Latham. My point is, there is no space. Where are you 
finding this space that you're going to pay for?
    Commissioner Meissner. I don't know the location, and I 
will get the location to you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

                 Location of the New Detention Facility

    The building of a detention facility requires extensive 
infrastructure support, especially for a facility that could 
serve the needs of the INS in the Midwest. The Grand Island, 
Nebraska area does not have the necessary infrastructure to 
support such a detention facility. The location lacks 
sufficient legal services for aliens, transportation support 
(including available commercial air), consular offices, medical 
facilities, housing and other services.
    Neither the Grand Island area nor the Omaha District 
generates sufficient apprehensions to justify such a facility. 
Grand Island is not a location central to the offices 
generating most of the workload or central to the 
transportation corridors. It is quite distant from major 
centers of INS activity, and due to its severe weather and lack 
of commercial air, it would be difficult at times to move 
aliens in and out of the facility. The average distance to 
Grand Island from the four districts it would support ranges 
from 180 miles to Omaha to 520 miles to Chicago. More promising 
locations for such a facility would be Des Moines, Kansas City, 
and St. Louis. These locations would also be more promising in 
terms of providing support to INS eastern region districts.
    A detention facility would house large numbers of criminal 
aliens, most of which would be from outside the Nebraska area. 
These individuals have the right to appear before immigration 
judges to determine their immigration status. These aliens are 
entitled to legal counsel, which is insufficient in the Grand 
Island area, and which would be difficult to provide for such a 
population so far away from major population centers.
    In some cases detainees are released from detention on bond 
or recognizance. Thus, the Grand Island area would need to 
provide the ability to house some of these individuals and 
their relatives for short periods of time, and also have the 
available transportation for them to move in and out of the 
area without much difficulty. Grand Island only has a small 
regional airport that operates only 12 hours a day, no train 
service except for freight, and bus service via Greyhound with 
7 daily runs.

    Mr. Latham. I could go on, Mr. Chairman, but I've taken 
enough time.
    Mr. Rogers. Mr. Miller. We have two votes on the floor in 
series. We could do a few minutes of questioning now or return. 
Which would you prefer?
    Mr. Miller. I'll take at least five minutes, but we don't 
have the time, do we?
    Mr. Rogers. No, we don't. Why don't you go ahead and start.

                           INS RESPONSIVENESS

    Mr. Miller. One of the most important things Members of 
Congress do is constituent services back home. You're the 
ombudsman for the people in your district, whether it's a 
Medicare problem, a Social Security problem, or an IRS problem. 
But just as everyone else is saying, INS is our biggest 
problem, mainly because of the inability to get answers and 
cooperation with INS. It has been going on forever. This is my 
eighth year in Congress, and INS has been our biggest problem 
ever since day one. It's a tremendous frustration, and everyone 
else is sharing the same story. It's not a partisan issue. It's 
this feeling that when we talk to the INS we're just spinning 
our wheels and wasting our time.
    The IRS has had a dramatic turnaround in the past few 
years. At the level of constituent casework, we just don't have 
the problems that we used to have with them. But we deal with a 
lot of agencies. Medicare and Social Security are other huge 
examples. Our district has more seniors than almost any other 
in the country, and we're able to get things done and we get 
quick, responsive action. We can get straight answers. The 
problem is that people, when they call INS, just can't get 
answers. They hit a roadblock. They get so frustrated that they 
turn to us, and then we get frustrated.
    The one good thing I can say is that the Tampa office has 
improved. They at least have one person assigned there that our 
office can talk to. This person will give us answers. We 
appreciate that. That's our problem, that we just can't get 
answers ourselves. But it seems like the Tampa office is short 
staffed and this person has so many other things going on that, 
you can't always get through to this person.
    Most of our problems are with the Texas service center. 
Someone else talked about Charlotte, someone talked about Iowa. 
Our problem is with the Texas center. It takes forever to get 
answers from them. In fact, my staff gave me a list of files 
that I have here, the cases we can't get responses from. Here's 
a constituent that has files in San Francisco and moved to our 
area. We opened the case on June 15th and still have no 
response. Here's another case, also opened in June. It was 
denied August 2nd. We requested an explanation six months ago, 
on September 29th, and we still can't get a response. So it's 
list after list where we can't get responses.
    A constituent called the INS 800 number and got five 
different answers. That's the frustration we're experiencing, 
and everyone else is experiencing that same frustration. How 
would you advise us to get straight answers? We have to do 
something about this. The Texas service center is really a 
problem area.
    When our district directors from all over the country 
gather for a meeting like the one they had here last fall, the 
common problem with every district director was the INS. 
Whether you're from Florida or Kentucky or New York, you can't 
get answers and can't get responses, or you get conflicting 
answers.
    I want to ask a question about this issue of--I don't know 
if I have time.
    Mr. Rogers. Let me interrupt you.
    Mr. Miller. Okay.
    Mr. Rogers. Why don't you hold that thought, and we'll go 
vote and return.
    Mr. Miller. Okay, great. Thank you.
    Mr. Rogers. We will be in recess.
    Mr. Serrano. Mr. Chairman, I don't know if there's a 
scheduling problem here, but what I would like to do, Mr. 
Chairman, is I have a series of questions I would like to 
submit for the record, with your permission, and secondly, if 
you would allow me, I would like to submit the judge's decision 
on the Elian Gonzalez case, since it's very important for this 
whole hearing.
    Mr. Rogers. Let them be filed.
    Mr. Serrano. Thank you, Mr. Chairman.
    [Recess.]
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    
    Mr. Rogers. The Committee will come to order.
    Mr. Miller, you're recognized.

                     DETENTION AND REMOVAL PROGRAM

    Mr. Miller. Madam Commissioner, let me ask a couple of 
questions about the detention and removal programs.
    In my area, in Bradenton, FL, we do have a detention 
facility, an INS detention facility. It's leased from the local 
sheriff. It has been a good partnership. It is staffed by the 
local sheriff's office and the INS pays them. It's only a mile 
from my office. We have very little contact actually with them, 
but when we do, it works very smoothly.
    However, we do have a problem there. When that facility was 
originally taken over as an INS facility, the intention was a 
very short-term stay to process deportations, as you know. Now, 
over two-thirds of the beds in the facility are occupied by 
permanent, nonreturnable aliens. So now it has changed from the 
original intent. The budget for detention has increased, as you 
know, dramatically over these years.
    In December of last year, there was a group of Cubans who 
were held in Louisiana and took some hostages, and created a 
stand-off situation, in order to negotiate their return to 
Cuba. At the conclusion of this episode, a deal was reached to 
return them to Cuba. A deal was reached only after this hostage 
situation developed.
    So, we were able to return them to Cuba, but we couldn't do 
it beforehand, only afterwards. How are we able to do that when 
in my area we have people from the Bahamas, Haiti and Jamaica, 
and we can't get them returned? What can we do to try to speed 
that up? It's very costly.
    Commissioner Meissner. Mr. Miller, this is a very 
significant issue that you've pointed to. It is part of the 
issue that we were talking about earlier, in terms of criminal 
aliens and our responsibility to detain them and return them.
    Many of the criminal aliens in your district and in that 
facility are, indeed, Cubans, and so that is, of course, an 
issue with the Cuban government because it does not accept the 
return of its nationals.
    Mr. Miller. They accepted that one group in Louisiana.
    Commissioner Meissner. Well, that, unfortunately, was the 
result of a hostage situation. That is not the way in which, 
obviously, we would want to carry out returns to a country. But 
Cuba is a country just like Vietnam and Laos, where we don't 
have normal migration relationships, and where those countries 
refuse to accept the return of their nationals. Cuba accepts 
some, but not nearly the numbers that are deportable, to return 
to Cuba. That, obviously, is something that we work on with 
them all the time.
    In the cases of the other countries, we are in negotiation. 
It is a diplomatic process. We just returned from a trip with a 
delegation with Vietnam to try to open up that relationship for 
return. Then there are countries like Jamaica, as you say, 
where we have a very difficult time getting them to issue 
travel documents. We work with the State Department very 
intensively on that, as well.
    But these issues of returning people are constant issues of 
concern; where we have every interest in effecting the return 
and in reducing the amount of time in detention. But it is 
difficult.
    Mr. Miller. Didn't we make it a part of the new immigration 
laws to make it possible to start the deportation process when 
the people are in jail, to get the process going, rather than 
waiting until they got out? That was part of the intent.
    Commissioner Meissner. And we do that.
    Mr. Miller. Are we doing that?
    Commissioner Meissner. Absolutely, absolutely, and we do 
that very effectively in Florida, as a matter of fact.
    Mr. Miller. But for countries like the Bahamas and Jamaica 
and Haiti, countries we have good relationships with, what can 
be done? What do we need to do to get these people deported? 
It's costly to keep these people in jail in Bradenton, as you 
know. What can we do to speed that up?
    Commissioner Meissner. There are a variety of things. These 
countries also are--some of these countries are very small and 
have a very difficult time absorbing the numbers of criminals 
that we're sending back. And we're sending back very 
substantial numbers of criminals, particularly to some of these 
small countries. There is more work going on in some of these 
countries for reentry programs, for matching data, so that they 
know who they're getting, so that their concerns about 
dangerous people can be accommodated.
    There ultimately does have to be that kind of response on 
the part of these countries, to reintegrate people from their--
--
    Mr. Miller. I have dealt with extradition issues and it's 
been very frustrating, trying to get U.S. citizens extradited 
back to the United States to stand trial. I understand the 
problems, where we have no leverage over other countries, 
whether it's Mexico or recently the Einhorn case with France.
    What can we do to help give you or the Justice Department 
the leverage you need? Do we need to pay to send them back? I 
don't know. What I do know is that it's costing us money and it 
would be cheaper to send them back to the Bahamas than to pay 
for them to stay in Manatee County.
    Commissioner Meissner. Actually, there have been proposals 
over time that perhaps we ought to finance prison construction 
in some of the countries where we have very large populations. 
I think some of those kinds of solutions over the longer term 
may very well be required.
    Mr. Miller. Thank you, Mr. Chairman.

                    IG REPORT: RESENDEZ-RAMIREZ CASE

    Mr. Rogers. Thank you, Mr. Miller.
    Commissioner Meissner, let me ask you about the Inspector 
General's report, released on Monday, which sharply criticized 
the INS on its handling of the Resendez-Ramirez case. The IG 
concluded that, one, there were numerous mistakes made by INS 
employees in the data entered on Resendez' illegal entries into 
the IDENT system of the INS; two, INS employees failed to enter 
Resendez into the IDENT criminal lookout list, even though INS 
was contacted several times by law enforcement officers seeking 
Resendez; three, the INS has implementation problems with 
IDENT, that employees lack both knowledge about and training on 
the IDENT system; and four, he concluded INS' IDENT system and 
the FBI's IAFIS system need to be integrated.
    What do you have to say about the General's conclusions?
    Commissioner Meissner. Let me say first that this case was 
obviously a very shocking one. It clearly pointed to problems 
within our organization in the way that particular matter was 
handled. That is why I asked the IG to investigate it. The IG 
has given us a very good report, with a very comprehensive set 
of recommendations, which we are implementing.
    They fall into two categories: the IDENT/IAFIS issue and 
the training issue, fundamentally. On the IDENT/IAFIS issue, we 
agree, and well in advance of this report, in response to 
conversations with the Congress and the report requested by the 
Congress. We, the Justice Department and the FBI have concurred 
that there needs to be an interface between our IDENT system 
and the FBI's new automated fingerprint information system.
    We have given you a plan for how we intend to proceed with 
developing those plans. The next steps in that endeavor involve 
doing three different pieces of analysis which will help us get 
closer to how the IDENT/IAFIS connection will be made. We are 
proceeding aggressively with that.
    As to the handling of the case and the training of the 
agents that were involved, there are two sets of players here--
the Border Patrol and investigators. Actually, the IDENT system 
was originally fielded for the Border Patrol. It, in many ways, 
is an example of something that has, in some ways, been hurt by 
its own success. It's an outstanding system. The Inspector 
General's report was very clear in saying that it is a valuable 
tool. We have made more than 85,000 criminal hits out of using 
that system. We have more than 400,000 criminal history files 
in those IDENT records. It's of use to us every single day in 
identifying criminals, deporting criminals, and in taking the 
appropriate action for prosecution along the border.
    But, it is so valuable and it has many other uses which 
have moved throughout the agency. We have not been able to 
deploy it as quickly throughout the rest of the agency, non-
Border Patrol, nor to do as thorough-going training and 
practice as we would like.
    As I said earlier, the very distressing thing where 
investigators are concerned is that these three investigators 
that handled the Resendez-Ramirez matter all had been trained 
on IDENT, not once but several times. However, they were not 
using IDENT regularly, so they were not practicing the use of 
IDENT. That points to a clear problem in the training.
    We will now, in the coming months, clarify all of our 
standard operating procedures. We will go into a training mode 
on IDENT that replicates the way we did our training for the 
quality procedures in naturalization, the way we did our 
training for expedited removal, and the way we've done them for 
asylum. Those have been very, very successful training efforts, 
very intensive. They require a great commitment of time and 
effort in the agency. IDENT is clearly that important, and we 
will redo it.

                             IDENT TRAINING

    Mr. Rogers. The IG says they weren't trained adequately and 
don't even know about the system and have not been trained on 
it.
    I want a plan before us within 60 days about how you're 
going to correct your poor training and education of employees 
in the IDENT system.
    Commissioner Meissner. We have that already. That has been 
done as a result of receiving this report. We will share it 
with you.
    Mr. Rogers. We don't have it.
    Commissioner Meissner. I said we have it. I will share it 
with you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



    Mr. Rogers. He also recommended that INS make an effort to 
educate Federal, State and local law enforcement on the 
existence and possible uses of IDENT. What do you say about 
that?
    Commissioner Meissner. That is something that we are doing 
as much of as we can. We will do more of it. IDENT is now 
frozen as part of this IDENT/IAFIS effort. We are barred from 
putting IDENT into any more places around the country. That's 
unfortunate. For instance, the QRTs have----
    Mr. Rogers. I'm talking about educating Federal, State and 
local law enforcement agencies about the existence of IDENT and 
how it could be used.
    Commissioner Meissner. But our QRTs, part of their 
responsibility is to educate state and local law enforcement on 
INS' capabilities. This is part of that liaison and part of 
that information that they are imparting.
    Mr. Rogers. The IG recommended that you work with the U.S. 
Attorneys offices to lower the threshold number of 
apprehensions for illegal entry needed before prosecution, and 
to correct inconsistencies among jurisdictions.
    When will you implement that recommendation?
    Commissioner Meissner. Well, I have to say that that is an 
issue--that is both a Justice Department and an INS issue, but 
it is primarily a Justice Department issue. There is a 
longstanding tradition of U.S. Attorneys differences in their 
prosecution policies, based on local needs and the crime 
problems in particular parts of the country.
    We will press as hard as we can for consistency on those 
thresholds. It is not entirely in our authority, however.

                              IDENT/IAFIS

    Mr. Rogers. Now, the question of IDENT integration with the 
FBI's IAFIS system has been one that this subcommittee has been 
very interested in over the years, especially Mr. Mollohan. In 
1989, when this committee first funded IDENT, we required that 
the system ``address the so-called revolving door phenomenon of 
illegal entry by aliens, to clearly define the problem of 
recidivism, as well as to immediately identify those criminal 
aliens who should remain in the custody of INS.''
    In 1996, an INS technology expert told us that IDENT was 
integrated with IAFIS. We have since learned, of course, that 
IDENT does not do all that it was intended to do or represented 
even to do. In the current fiscal year, we directed the 
Assistant Attorney General for Administration, Steve Colgate, 
who is with us today, to take over the planning and 
implementation of integrating IDENT with IAFIS. He also has 
control over all current INS IDENT funds.
    Can you assure me that you will work closely with the 
Justice Department, Mr. Colgate in particular, to correct this 
situation as quickly as possible, so that criminals such as 
Resendez are no longer released by INS to victimize more 
people? I need your full commitment on that issue.
    Commissioner Meissner. Yes, I can. You have my full 
commitment and my full assurance. We have been working very 
closely with Mr. Colgate and the FBI, and we will continue to 
do so on that issue.
    Mr. Rogers. Mr. Colgate is with us today. I wonder if he 
has any comments he would like to make about this.
    Mr. Colgate. I have been extremely pleased with the 
cooperation I have received from the Immigration Service. They 
have been extremely cooperative.
    I have also received great cooperation from the FBI. I 
think we have a plan in which we can ultimately address this 
issue, Mr. Chairman.
    Mr. Rogers. So we'll have no more Resendezes slip through 
the system?
    Mr. Colgate. This is going to take a matter of time, sir. 
If you will notice in our report, we talk about the interim 
operating capability and final operating capability. Our 
interim operating capability will address the Ramirez 
situation, but I think that's going to take us three years to 
do, sir.
    Mr. Rogers. Well, you've had five years, and $200 million. 
I mean, that's what you're proposing. We can't wait that long. 
I mean, the Resendez-Ramirez case demonstrates that we've got a 
simple problem, I think, and the simple problem is we don't 
have an Administration that will direct these things be done 
and make it happen, and if it doesn't happen, make somebody pay 
the price.
    Has anybody yet paid the price for the Resendez-Ramirez 
goof-up?
    Commissioner Meissner. Now that we have the IG's report, 
we're looking at individual behaviors; and if action is 
required, it will be taken.

                           VARIOUS INS ISSUES

    Mr. Rogers. Now, since the hearing last year, I want to 
again summarize the list of failures, problems, even 
negligence, new and remaining problems, with INS since the 
hearing last year. This has become an annual thing. Here's 
today's list.
    Criminal aliens released, instead of deported, by the 
thousands, and 37 percent of them commit more crimes, including 
murder. We know that, of those people that have been released, 
there have been arrests out of that group of 98 murder arrests. 
Suspected serial murderer Rafael Resendez-Ramirez, released 
from INS custody at least eight times, even though he was on 
the FBI's 10 Most Wanted List, had Federal and state criminal 
records, was previously deported three times, and released by 
the INS. Four people dead.
    The border is still out of control, in spite of a 136 
percent increase in the number of Border Patrol agents that 
we've employed. Illegal entries have just moved from California 
to New Mexico, Arizona, western Texas, the northern border. INS 
is still having problems hiring and keeping agents, in spite of 
extensive recruitment efforts.
    Suspected terrorists, alien smugglers, drug smugglers, are 
using the northern border to enter the U.S. Yet, only five 
percent of the total number of Border Patrol agents, 322 people 
to be exact, are stationed at the northern border. INS remains 
focused exclusively on the southwest border.
    In spite of the great need for more protection at the 
border, INS' budget request includes less than a thousand 
agents over two years, fiscal '00 and '01.
    An INS official in Miami, indicted for suspected spying for 
Cuba.
    A last minute request for $310 million for additional 
detention resources. It had to be requested due to INS' failure 
to plan for detention space for criminal and illegal aliens.
    A failing interior enforcement strategy which does not 
comply with this committee's direction removes fewer illegal 
and criminal aliens than are added to the population each year.
    Bailouts of INS' problems by the Justice Department have 
become more frequent and serious: Citizenship USA, financial 
management problems, the audit of the H1BS temporary visa 
issuances, and now criminal aliens released to commit more 
crimes instead of being deported.
    INS has contributed to long backlogs of non-naturalization 
applications, focusing attention solely on naturalization. In 
January of '99, there were 2.1 million applications, and in 
January of 2000, 2.7 million applications. The backlog grows in 
nonnaturalization applications.
    Mr. Serrano could not return, but he was telling me 
privately during the hearing that every Monday morning there 
are upwards of 600-plus people lined up at his office door in 
New York, all with INS problems, most of them non-
naturalization applications for relief that have gone months 
without attention. And that's not unusual. Every Member of 
Congress will tell you the number one problem in their district 
office, including mine, are INS related problems.
    INS' failure to anticipate the production needs for 
expiring green cards has resulted in waits of up to two years 
for green cards. INS was the only Justice agency that had 
financial audit deficiencies, and as a result, Justice was 
unable to receive a clean audit.
    In a new report rating 20 agencies, INS received D's in 
financial management and human resources, and a C overall, the 
lowest overall grade of the 20 agencies reviewed.
    Of the 26 reports requested by this subcommittee in the 
fiscal year '00, 13 have not been submitted by the deadline. 
Five due from conference reports in fiscal '98 and '99 have 
never been submitted.
    So that's the annual list of things that have gone wrong in 
just this one year. Do you have any comments?
    Commissioner Meissner. Well, Mr. Chairman, let me try to 
respond to that from where I sit and see it.
    Is this agency what I would like it to be? No, it is not. 
Is this agency what it should be? No, it is not. Has there been 
dramatic progress, has there been substantial improvement on an 
infrastructure and problems that are virtually intractable? 
Absolutely, there has been. Have the men and women in this 
agency shown that they can meet extraordinary challenges? 
Absolutely. They do it every single day.
    We have been presiding over an era where workloads have 
grown exponentially, where Congress has enacted new laws that 
have been needed but that have created extraordinary, sweeping 
new mandates. We have implemented those mandates. In some 
cases, legislation has had to be changed because the time 
tables were not realistic. We have had efforts underway to try 
to meet them as best an agency can. We have presided over 
extraordinary growth. The management of that growth has been 
needed, but it is also very, very demanding and requires 
enormous effort, and training.
    Mistakes can happen under those circumstances, and we have 
gone through a period of very dramatic internal reform, changes 
on a whole set of processes and ways of doing business that 
have been needed for a long, long time, but that have been 
bottled up and the pressure has finally been too much. We have 
been making changes at a very, very rapid rate, too rapid to 
institutionalize as effectively as we would like to. But 
rapidly in order to be responsive to the needs of the American 
people and of the immigration system.
    So if I were to take the list that you put out, the annual 
list, it would be a situation of is the glass half empty or is 
it half full. You see it half empty; I see it half full.
    On every single one of the points you raised, yes, there 
have been weaknesses, but at the same time there have been 
very, very strong areas of progress. Many of those areas of 
progress are areas where the committee and the Administration 
have been in agreement, that funding has been required, and 
many of them have been things that we have been able to 
accomplish through new strategies, through effective management 
of resources, and through directing change in a very, very 
turbulent time.
    Mr. Rogers. Mr. Latham, any final comments?
    Mr. Latham. No, Mr. Chairman. It just seems like the more 
things change, the more they stay the same. It's very 
frustrating.
    I would like to submit some questions.
    Mr. Rogers. Well, it's been 18 years that I have listened 
to this, on this subcommittee, and through different 
administrations.
    I have to say in conclusion here that not all of this is 
your fault. I think a lot of the fault lies in the structure of 
the agency, which some of us here are attempting to correct, 
with realigning the organization of the INS to respond, I 
think, to realities. I think you have two conflicting missions, 
one law enforcement, and the other the granting of privileges 
or rights, such as naturalization or other applications for 
benefits within the INS. Some of us think that those two 
missions are in permanent collision and are preventing the 
proper carrying out of either by anybody in charge of the INS. 
So I think it's the structure that's the real problem that 
needs to be corrected and, while we're at it, to give the new 
agencies, two of them, more disciplinary authority and more 
ability to carry out the dictates and orders down through the 
system, so that we can get to the bottom of some of these 
problems and not hear them repeated over and over again that 
never can be addressed.
    The problems that we're hearing today in INS were here when 
I first started on this subcommittee 18 years ago, multiplied 
many times over because of the workload and the caseload. But 
it's still the same problems: lack of structure in the 
organization to enforce management; two, the lack of training; 
three, the lack of manpower, particularly on the Border 
Patrol--and we could go on and on.
    So I don't fault Doris Meissner entirely for this because I 
think the system has to be changed. Whoever is the new director 
of the INS, or whatever is here when the new person comes in, 
what kind of an organization it is, that new person will 
inherit these same problems and will do no better with them 
unless we change the system. So that's the reason some of us 
are pushing very hard to help you do your job, and that is to 
change the organization to give you the streamlined authority 
with which to do that.
    We thank you for your extended stay here. I know you have 
another important engagement just now, and we're going to get 
you out of here in time hopefully to get to that one, although 
a little late. So we thank you, Madam Commissioner, for your 
time and your attention.
    Commissioner Meissner. Thank you, and thank you for the 
Committee's support.
    Mr. Rogers. The hearing is adjourned.
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                                           Thursday, March 2, 2000.

                           BUREAU OF PRISONS

                                WITNESS

KATHLEEN HAWK SAWYER, DIRECTOR, BUREAU OF PRISONS

                            Opening Remarks

    Mr. Rogers. This morning we welcome to the subcommittee the 
director of the Bureau of Prisons, Dr. Kathleen Hawk Sawyer, to 
discuss the fiscal year 2001 budget request for the Federal 
Prison System and the challenges of providing for custody of an 
ever-growing population of inmates.
    For fiscal year 2001, the Bureau of Prisons is requesting a 
total budget of $4.4 billion, which includes $836 million for 
the construction of new prisons to expand the capacity for the 
continued transfer of non-returnable aliens into the Federal 
Prison System, as well as the continued, steady growth of the 
inmate population in general. Your budget also proposes advance 
appropriations of $791 million for construction for fiscal year 
2002 and $535 million for construction for fiscal year 2003.
    I am happy to report that the prisons being constructed to 
absorb the D.C. inmate population have now been fully funded.
    As this subcommittee is faced with continuing pressures, 
and you take on the additional population of the D.C. inmates 
and the non-returnable aliens, we must also ensure that we 
fulfill our responsibilities to the growth in the Federal 
prison population so that there will be adequate bed space to 
continue to lock up violent criminals.
    We appreciate you being here with us today, along with your 
staff. We will include your prepared remarks in the record, and 
we would like to hear your opening comments.

              Bureau of Prisons' Director Opening Remarks

    Ms. Sawyer. Thank you, Mr. Chairman. Good morning.
    I am certainly pleased to appear before you again today to 
discuss our 2001 budget. I want to begin by thanking you, Mr. 
Chairman, for your continued support for the Bureau of Prisons. 
We really appreciate that, and it makes our job much more 
doable.
    As we enter the new century, we are faced with many 
challenges, as you well are aware. We anticipate that by 2007 
our population is going to reach 205,000 inmates, a 50 percent 
increase over our current level. Our major focus in 2001, as 
you indicate, is obviously to add desperately needed new 
prisons as quickly as possible. This will include contract 
beds, new prison activations and expansions and new 
construction. We are also asking for increased funding for 
education and vocational training for inmates.
    We have made substantial progress with the resources you, 
Mr. Chairman, and the Congress have already provided. We have 
added 18,000 new prison beds since the beginning of 1996 with 
an additional new 29,000 beds currently either in planning 
stages or under construction. However, given the 205,000 inmate 
projection by 2007, we are back again asking for additional 
capacity. Without the new beds that we are requesting, by 2007 
our overcrowding levels would reach 94 percent in our 
penitentiaries and 74 percent in our medium-security 
facilities, which would severely jeopardize the safety of staff 
and inmates and public safety.
    In addition to getting the D.C. inmates coming our way, we 
also have the INS long-term detainees coming our way. These two 
prison populations require medium and high-security bed space, 
which is where we are suffering the greatest shortage right 
now. Since passage of the D.C. Revitalization Act, we have 
received nearly 2,200 D.C. sentenced felons into our custody. 
We are moving forward on meeting the privatization requirement 
for the D.C. sentenced felons for 2000, but we have faced 
environmental and ongoing legal challenges to our procurements. 
Despite those, we are still housing approximately 2,000 
inmates, either within our own facilities or under contract 
with the State of Virginia, as we speak. We are confident, 
though, that none of these obstacles to privatization will 
delay the closure of Lorton by the end of 2001.
    Absorbing D.C. felons into our custody presents 
extraordinary and daunting challenges as we previously have 
discussed before this committee. Our facilities are extremely 
overcrowded, and the additional prison bed capacity to absorb 
the D.C. felons will not be ready by the end of 2001, which is 
the deadline by which we have to take in the inmates. You will 
recall that the Administration's plan was to not complete 
receiving all of the inmates until 2003, and that got moved up 
to 2001 in the Revitalization Act. Despite this, we are working 
diligently to meet the Revitalization Act requirements in many 
different ways to include acquiring contract beds, expanding 
Bureau of Prison existing institutions, using intergovernmental 
agreements, and of course, absorbing the inmates into our 
already crowded prisons.
    Finally, we are seeking greater discretion in the private 
placement of D.C. felons. There is language requested in the 
DOJ general provisions portion that ensures D.C. felons could 
be placed in private facilities in accordance with their needs, 
their security needs and requirements, just like every other 
Federal inmate, and with security and public safety being of 
utmost concern.

                         2001 BUDGET INCREASES

    Now, in terms of our budget request, as you indicated, Mr. 
Chairman, it includes $193 million to activate new facilities, 
four brand-new prisons and six expansions of existing 
facilities. There is also money requested to purchase some new 
equipment for two new facilities that are not to be activated 
until 2002. The D.C. inmates are coming our way in 2001 and we 
need to have those facilities ready to open up the minute they 
are ready. If we can get the equipment money in advance, that 
will help. We also want to increase our contract beds for 
criminal aliens by 6,000 new beds, and money is requested for 
that. As I indicated, additional monies are requested for 
educational programming for inmates.
    For new capacity, we are requesting funds of $681 million 
with advance appropriations of $791 million and $535 million in 
2002 and 2003. In 2001, the funds can help us construct two 
facilities related to absorbing the INS inmates and four 
facilities for our own sentenced population. We are also asking 
for site and planning money for five new facilities, with a 
balance of that funding requested in advance appropriations for 
2002, and also new penitentiary funding; and then we are 
looking for four more new facilities and a secured female 
facility in advance appropriations in 2002, with the balance of 
construction in 2003.

                         ADVANCE APPROPRIATIONS

    I believe that the advance appropriations will provide a 
very important advantage to the Bureau of Prisons in 
implementing our construction program. The funding provided 
through advanced appropriations will enable construction of new 
beds to proceed on an accelerated schedule, and since we are 
already behind the curve with overcrowding, we need to get the 
facilities up as rapidly as possible. The Bureau will be able 
to enter into full construction contracts at a lower cost under 
the design/build procurement concept before the funds are 
actually in our hand in 2002 and 2003.
    Since they are being appropriated through the advance 
appropriation process, we will know that the money is coming 
and can move forward on the contracts earlier. The approach 
will add certainty to the construction program by locking in 
the resources needed for the projects, while lessening the 
impact on the 2001 budget. In addition, it is going to allow us 
to maintain lower, unobligated balances that carry forward year 
to year, and I know that has been a concern of this committee 
historically.
    We recognize that the 2001 budget is larger than any 
previous request we have ever come before you to request, but 
it truly is necessary to meet the enormous challenge we are 
facing now and in the future. We really struggled to prepare 
this budget request and tried to maximize every possible safe 
alternative to adding capacity to meet the needs of a growing 
population.
    I look forward to working with you, Mr. Chairman, Mr. 
Mollohan, and members of the committee; and I thank you again 
for your continued support. This concludes my prepared 
comments. I will be pleased to answer any questions you might 
have.
    Mr. Rogers. Well, thank you for your statement.
    [The information follows:]
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                        D.C. REVITALIZATION ACT

    Mr. Rogers. One of the biggest challenges we all face has 
been absorbing the D.C. inmate population into the Federal 
system. The Revitalization Act, as you mentioned, requires that 
you place 50 percent of the D.C. inmates into private contract 
facilities by October 1, 2003. Tell us the status of the 
transfers from Lorton to BOP and then to private contract 
facilities.
    Ms. Sawyer. In addition to the 50 percent provision you 
have referenced, the first provision required us to have 2,000 
inmates from the D.C. population in private contracts by the 
end of 1999, and we have two contracts that we have awarded. 
The first one was for 1,000 inmates to be placed in 
Phillipsburg, Pennsylvania. For that one, immediately upon our 
contract award, we had litigation filed by a local group who 
were opposed to the prison going there. They raised 
environmental issues.
    The judge, in hearing the case, asked us to complete some 
further portions of the environmental process. We thought we 
had done enough to meet the requirements of the law. The judge 
said there were a couple of portions which we should have done, 
and that was to publish their environmental study that had been 
completed and to have public hearings on it. Those were the 
only two portions we hadn't completed. Those have now been 
completed, and we envision that the environmental litigation 
will be resolved within the next few weeks and that we could 
then move forward with the facility.
    The other problem that arose, though, in Phillipsburg is 
the State of Pennsylvania, the Attorney General is challenging 
the company who was awarded the contract on their ability or 
their authorities to run a private prison in the State of 
Pennsylvania. The company believed, and our legal staff 
supported, their interpretation that State law allowed for a 
private facility to be operated there. The Attorney General is 
challenging that. So we anticipate that possibly, once the 
environmental issues are resolved, the state of Pennsylvania 
may file another suit against this private contract and prevent 
it from going forward.
    We are going to be patient for a little while. If this 
thing is not resolved in the near term--and I don't know 
exactly how many days that means--but if it is not resolved, we 
are going to have to go out and relet the contract, or rebid 
the contract somewhere else, because we need to meet the 
requirement of the law, and we need to move forward. But these 
two litigations were not anticipated.
    The contract for the second 1,000 inmates has been awarded 
for a facility in Winton, North Carolina. We have met with 
them. We believe the environmental issues are going to be 
worked out; we have signed the FONSI, which is the finding of 
no significant impact on environmental issues. That contract 
should be fully awarded, again within a matter of weeks, and 
that project hopefully will not face any further litigation, 
and we can move forward.
    Now, despite the delays in the privatization, as I 
mentioned, we still absorbed the 2,000 inmates by the end of 
1999, because we saw that as our responsibility. We put 1,000 
of those into a contract that we were able to get with the 
State of Virginia; they had a facility they weren't utilizing. 
The State of Virginia staff runs it for us, and it has been 
going quite well. The other 1,000 inmates were simply absorbed 
into our own population.
    Once the contracts come along and once they open up, we 
will then move those populations from Virginia and from our 
institutions out into the private institutions, as the Act 
requires.
    Mr. Rogers. How long do you plan to wait on the 
Pennsylvania matter?
    Ms. Sawyer. We can't wait very long. We just can't wait 
very long, because we need to get the beds up. We have absorbed 
the inmates, and we don't have the extra space to absorb all of 
these inmates into.
    Mr. Rogers. Is it a matter of weeks?
    Ms. Sawyer. I would say it will depend upon what happens 
when we resolve the environmental issues, which will be 
resolved in a couple of weeks. If Pennsylvania turns around and 
files suit and puts another temporary restraining order on the 
construction of that facility, then we have to step back and 
say how long can we wait here.
    Mr. Rogers. Is this the State of Pennsylvania?
    Ms. Sawyer. The first litigation, the environmental 
litigation, was a local group or a community group that was 
opposed to the prison. Most of the community is very welcoming 
of it. There are some folks there who oppose it. They filed the 
first litigation, and while that was going through, the 
Attorney General came into the picture and is threatening to, 
once that restraining order is lifted on the environmental 
issue, file suit subsequently, saying they have no authority to 
run a private prison in Pennsylvania.
    Mr. Rogers. Well, let the word go forward that if 
Pennsylvania doesn't want this prison, we have them backed up 
18 miles in line wanting it, and we would be delighted if 
Pennsylvania turned us down.
    Ms. Sawyer. Okay.
    Mr. Rogers. So tell the folks over there to make my day.
    Ms. Sawyer. We will do that, Mr. Chairman.

                50 PERCENT PRIVATIZATION OF D.C. INMATES

    Mr. Rogers. Now, the other question, or the problem, is the 
50 percent requirement which you have in previous years 
expressed concern about. This year, you propose to loosen the 
requirement to allow discretion to be used and transfer only 
those inmates ``determined to be appropriate'' for such 
placement, after consideration of all of the relevant factors, 
including the threat of danger to public safety.
    Help us to understand that. Why are you requesting that 
provision, and what do you mean by ``determined to be 
appropriate''?
    Ms. Sawyer. Thank you, Mr. Chairman. As you know, we have 
had these discussions in prior hearings of our concern about 
that 50 percent. The 2,000 figure was agreed upon I think with 
some rationale and some discussion in terms of the first 2,000 
privatized. The Administration and the Bureau of Prisons 
believe that the private sector has demonstrated that they are 
capable of running minimum, low security, female and youth 
facilities. They have demonstrated they can run safe and 
effective prisons in that population. The 2,000 number that was 
agreed upon matches the number of minimum, low security, 
females and our Youth Rehabilitation Act inmates in the D.C. 
Department of Corrections. So the 2,000 actually meet the 
requirement that is in the language that we are asking for, the 
provision in the bill, because it says that it should be an 
appropriate population privatized, and that group, those 2,000 
inmates, are an appropriate population to privatize.
    When the 50 percent was arbitrarily thrown into the mix 
with no rationale, no discussion, no study of what 50 percent 
was going to mean, it failed to consider the fact that that was 
going to mean privatizing a substantial number of medium- and 
high-security inmates who are very difficult inmates to manage, 
and very difficult for private corrections to manage when you 
look at the significant problems they have had throughout the 
country over the last few years managing medium- and high-
security inmates.
    What our provision is asking for is to just allow the 
Bureau of Prisons to make decisions, as it does now, about 
which populations are appropriate to privatize. It would not 
impact the original 2,000 to be privatized, because they are 
low security, they are minimum, they are female, they are an 
appropriate population to consider privatizing. What we would 
like to do is not be required by the arbitrary privatizing of 
50 percent of D.C. inmates, which would mean privatizing medium 
and highs.
    Now, this is not at all to say that we want to limit the 
amount of privatization to be done. As you know, we asked for 
6,000 contract beds last year from this committee in our budget 
and received that, and we are moving forward on those 6,000 
beds. We are asking again in this year's budget to contract 
6,000 more beds. So it is not an issue of the numbers of 
contract beds we are willing to have. Right now, 11 percent of 
our population are in privatized contracts. If we get the 
additional beds we are asking for, then 15 percent of our 
population will be in privatized contracts.
    What we want is the ability to make a professional judgment 
on which of these populations are most suited for privatization 
and which are not, so that we can protect the staff, we can 
protect the inmates, and we can be very concerned about public 
safety. The 50 percent would require us to privatize elements 
of the population simply because of numbers to meet the number 
requirement. We would have to privatize elements of the D.C. 
population that we believe would not at all be a group that you 
would want to place in privatized facilities.
    Mr. Rogers. What are the relevant factors that you 
mentioned when it comes to housing and privatization?
    Ms. Sawyer. In determining who should be?
    Mr. Rogers. Yes. You used the words ``the relevant 
factors.'' .
    Ms. Sawyer. The relevant factors would be exactly--I am 
sorry, let me find the exact wording. The relevant factors. 
First, there are the inmates. Which populations do not provide 
the significant public safety concerns or threat to staff and 
inmate concerns? So part of it is looking at your population 
relevant factors.
    The other relevant factors are looking at how well the 
private companies have been doing. The one study that we were 
directed to do by Congress that was actually proposed by 
Congressman Traficant asking us to look at the amount of people 
privatized, how it is going in terms of their custodial and 
security standards, and misconduct kinds of issues, and that 
study will be to this committee within the next couple of 
weeks. But the findings are clearly showing that private 
corrections companies have a significantly higher rate of 
escapes, a significantly higher rate of drug utilization in 
their institutions, and a significantly higher rate of staff 
turnover.
    Now, those issues are not major concerns--I mean they are 
concerns, but they are not major concerns if you are talking 
about minimum-security inmates, female populations, and lower-
security inmates. They don't pose a serious threat to public 
safety. But if--and the facts demonstrate, this is all data 
that was received by the private institutions that are 
functioning around the country--if, in fact, their escape rates 
and staff turnover rates are significantly higher, it is very 
dangerous then to consider placing violent, dangerous inmates 
in those institutions.
    Mr. Rogers. About how many, or what percent, I guess, of 
the D.C. inmates might still be appropriate for private 
facilities?
    Ms. Sawyer. In our classification of the D.C. inmates, it 
comes out to about the 2,000 that I was referencing, and that 
is where the 2,000 number came from in the first place. Two 
thousand of the roughly 7,500 D.C. inmates meet the minimum 
low-security, male, the female requirement, or the Youth 
Rehabilitation Act requirement. They fit into that 2,000. Our 
original estimate was it was going to be between 2,000 and 
2,300. So our contracts are actually for 2,200 beds. That has 
been reconfirmed by our further reclassification of D.C. 
inmates to determine what types of prisons we needed to build 
to absorb the new capacity. When we reclassified the D.C. 
inmates under our standards, the vast majority of those 
inmates, the difference between the 7,500 and the 2,200, were 
all medium- and high-security inmates.

        GENERAL PROVISIONS EFFECT ON PRIVATE CONTRACT FACILITIES

    Mr. Rogers. If this provision were to be enacted, would 
your need and expected use of private contract facilities 
decrease over the next several years?
    Ms. Sawyer. No, sir, it would not at all, Mr. Chairman. As 
I indicated, all of our projections are to have 15 percent of 
our population privatized by--actually it would be if we 
receive the funding we are asking for this year. It would be as 
soon as those contracts are up and running; 15 percent of our 
population would be privatized. The difference between this 
provision passing or not passing would simply be who the 
inmates are that are placed in those beds.
    We believe that low-security inmates, especially the 
criminal aliens which are the perfect population to privatize. 
We are getting more and more and more of them every year. We 
had our largest growth in history this past year, and the main 
reason was the huge number of aliens coming in because of all 
of the new Border Patrol agents given to INS. We believe it is 
a perfect population to privatize. We have been privatizing 
care for them over the last several years. We have been 
increasing that over the years, and we envision putting 6,000 
more contract beds in the mark if we receive the monies we are 
asking for in this budget. So we will privatize 6,000 beds this 
year either way. We will probably be privatizing more beds in 
the next few years either way, whether this provision passes or 
not.
    What this gives us is the ability to make the kind of 
professional decisions that I think Congress wants the Federal 
Prison System to make in terms of what are the wise and prudent 
decisions about who to place in privatized contracts and who 
not to place. It wouldn't change the numbers; it simply changes 
whether they are going to be lower-security inmates or whether 
they are going to be medium and higher-security inmates, 
therein risking public safety.

               PRIVATIZATION OF CRIMINAL ALIEN POPULATION

    Mr. Rogers. What percent of the criminal aliens would, 
under your new standards, be left to privatize?
    Ms. Sawyer. I don't know the exact number, but I know that 
29 percent of our current population of 138,000 inmates we have 
are criminal aliens.
    Mr. Rogers. Twenty-nine percent?
    Ms. Sawyer. Twenty-nine percent. It has been inching upward 
over the last few years. I know that we have probably 3,000 or 
more criminal aliens already privatized. We are wanting, in 
this last year's budget, to privatize and we have the money for 
6,000. Two thousand of those beds were for D.C. inmates; the 
other 4,000 were for criminal aliens, and we are asking for 
6,000 more in this budget. So that is 10,000 more criminal 
aliens to be privatized on top of the ones we already have.
    There is plenty of contract money around to open lots of 
new private beds. We are not opposed to using them. In fact, we 
are the ones raising the 6,000 we are requesting this year. No 
one has made us do that. It is our choice. Simply, there are 
different security levels. These inmates would not pose a 
threat to public safety or to staff and inmates that the higher 
security inmates would.
    Mr. Rogers. But a very high percent of the criminal aliens 
would be eligible for privatization?
    Ms. Sawyer. Yes. I don't know the exact percentage.
    Mr. Rogers. How many of the 6,000 contract beds that we 
gave you in the current year have you privatized?
    Ms. Sawyer. Two thousand of those were for the D.C. 
inmates, so I explained where those are. We have a request for 
a proposal for all of those beds. We have actually secured thus 
far, I believe it is over 1,000 of them, and the others will 
hopefully become reality before this year is out. That is the 
spending window of money.
    Mr. Rogers. 1,000 of the 2,000?
    Ms. Sawyer. No, of the 4,000. 2,000 are D.C., so they are 
separate, and then there is the other 4,000. We have already 
contracted out for at least 1,000 of those, and the remaining 
are to be contracted out hopefully by the end of this fiscal 
year.
    Mr. Rogers. Are you on track for that?
    Ms. Sawyer. Pretty close. We are running into, again, some 
environmental issues and some litigation kinds of issues. But 
separate from that, the request for proposal went out in plenty 
of time. We have had bids coming in, not as many bids as we 
were hoping for because of, again some environmental issues in 
some of the states. Some states are becoming a little more 
active in terms of placing requirements on the private 
companies. So it is not happening as fast as we thought, but we 
still hope to expend the funds before the year is out.
    Mr. Rogers. Mr. Mollohan.

                     INCREASE IN PRISON POPULATION

    Mr. Mollohan. Thank you, Mr. Chairman.
    Welcome to the hearing. You had described the tremendous 
growth in the prison population. What is driving that?
    Ms. Sawyer. Historically over the last several years, the 
driving force has been not only that there are more law 
enforcement agents on the streets, and that is certainly 
bringing more inmates our way, but the sentence length, with 
new sentencing guidelines that were created several years ago 
have really been the primary large driving force. We get more 
inmates and we keep them for a much longer period of time, and 
it accumulates. The cumulative numbers have just grown so 
dramatically.
    In the last 2 years we have experienced our largest growth 
rates ever in the history of the bureau. We grew by 10,000 
inmates last year, 1998; and we have grown by over 11,000 
inmates in 1999; and all projections are that we will grow at 
similar rates the next few years--the big influx has been, as I 
indicated, the Southwest border initiatives. A large number of 
staff was given to Border Patrol to protect the borders and to 
apprehend anyone coming across, not just illegal, because most 
of the ones who come across just illegally are simply turned 
back. The ones who are coming across illegally are often 
committing some other criminal act, such as, bringing drugs in, 
bringing in other illegal aliens. So the Southwest border has 
been a major driving force for this past year.
    In addition, some increased law enforcement in the area of 
methamphetamines has brought inmate increases. There has been a 
major push in many cities and states around the country on 
methamphetamines at the federal level, so we have seen a 
significant increase in those numbers coming our way too.
    Mr. Mollohan. What does this trendline look like? I know 
you are anticipating an increase based upon all of these 
requests. Where does it start dropping off?
    Ms. Sawyer. The trend-line just goes significantly upwards. 
As I indicated, by 2005, our projections only go up. They go 
up--yes, by 2007, our numbers will go up to 205,000 inmates. 
There is no indication of anything dropping off.
    Mr. Mollohan. What percentage increase is that from this 
year?
    Ms. Sawyer. Well, we are talking about 50 percent. There 
are roughly 138,000 now; and by 2007, we will increase by 
another 50 percent.
    The other things to keep in mind--and we have discussed one 
of these before this committee--and that is the crack powder 
cocaine issue, the disparity issue. There is a provision right 
now in the bankruptcy bill that is going forward that would 
reduce the disparity between the crack and powder cocaine issue 
by not lowering the sanctions for crack, but rather raising the 
sanctions for powder. If that occurs, that is not even factored 
into our population projections. That would be another 5,000 
inmates or 4,000 inmates within 5 years on top of that.
    Then, if you add in any of the things that are being 
proposed from the Administration regarding weapons, getting 
more prosecutions on guns, those numbers are not factored in 
here either, because we wouldn't feel that effect for a couple 
of years, but those numbers would be added on top of the 
205,000.
    Mr. Mollohan. Do you have projections based upon those 
contentions?
    Ms. Sawyer. Yes, we do. The crack powder would raise us by 
4,000 more inmates within 5 years and the weapons initiative as 
proposed, would increase the convictions by 25 percent, and 
increase our population by 2,000 more inmates in 5 years. So if 
those two pass, that is 6,000 more inmates on top of our 
projected number for 5 years from now.
    Mr. Mollohan. Not including what you have just spoken 
about, and assuming these legislative initiatives, are not 
factored in, where does the population start leveling off?
    Ms. Sawyer. It doesn't.
    Mr. Mollohan. How far have you projected it out?
    Ms. Sawyer. Only to 2007.
    Mr. Mollohan. So up to 2007, there is no leveling off?
    Ms. Sawyer. No. It is going to take some significant 
changes in sentencing, in addition to any changes in law 
enforcement conduct, or even in the crime rate; because the 
crime rate has been dropping a little bit, as you well know. It 
is really going to take some major changes in our approach to 
sentencing in this country before we are ever going to really 
start sensing any downturn or even flattening out of the 
population.
    Mr. Mollohan. What is the impact on your budget of this 
trend line projected out to 2007?
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

              FY 2007 Bureau of Prisons Budget Projections

    The Department projects that by FY 2007 the Bureau of 
Prisons' (BOP) operating budget will reach $5.6 billion, which 
is a growth of 58.4 percent from the FY 2001 request level. 
Included in this figure are normal inflationary increases and 
program increases for activations, residential drug treatment, 
contract and institution population adjustments. This amount 
will provide for the custody of 204,527 inmates.
    For Buildings and Facilities, BOP anticipates requesting 
funding for two or three new facilities each year to provide 
sufficient capacity to maintain current overcrowding rates for 
the projected growth in the inmate population. For example, 
BOP's total inmate population is expected to increase by nearly 
71,000 inmates between FY 2000 and FY 2007. Historically, 
funding for these facilities has been requested over two years 
to provide initial site and planning one year, followed by the 
remaining construction funds the following year. Funding has 
usually been requested with three to five years lead time to 
complete construction before the capacity comes on-line. 
Beginning with the FY 2001 budget request, BOP plans to utilize 
advance appropriations to significantly collapse the amount of 
time necessary to bring new facilities on-line. BOP projects 
that the use of advance appropriations for design/build 
construction contracts will help reduce overcrowding at prison 
facilities, and save the government money be accelerating the 
delivery of new prison beds. For FY 2007, BOP anticipates a 
total Buildings and Facilities request of approximately $600 
million.

    Ms. Sawyer. It continues to go up.
    Mr. Mollohan. I know it continues to go up.
    Ms. Sawyer. Do we have the numbers with us in terms of what 
the budget would look like commensurate with the 2007? We can 
provide that to you. We don't have it with us.
    Mr. Mollohan. Would you please?
    Ms. Sawyer. Sure, sure.
    Mr. Mollohan. And all of those projections, please supply 
them for the record.
    Ms. Sawyer. Certainly.

                    Funding for Educational Programs

    Mr. Mollohan. You have requested additional funds for 
education. Please talk about your educational programs a little 
bit, what this money is for and how it is adequate or 
inadequate.
    Ms. Sawyer. We require that every inmate coming in that 
does not have a GED must enroll in our GED program for at least 
120 days. During that period, we try to encourage them to stay 
in. So, I would say the majority of the inmates who don't have 
a GED, historically have, always received their GED before 
being released from the Bureau of Prisons.
    The reason we are asking for more money is that there were 
provisions in the Violent Crime Control in Law Enforcement, the 
VCCLA Act, and the Prison Litigation Reform Act (PLRA) a few 
years ago that indicates that an individual's good time would 
be impacted by whether or not they actually accomplished 
getting their GED or work aggressively toward it. You cannot 
have your good time vested if you are not getting it, and with 
the PLRA, it affects even the amount of good time that you can 
earn at all if you are not working toward getting your GED. So 
obviously, that has resulted in even more inmates who want to 
get their GED before they get released.
    So what it has done is create additional numbers for us. 
Our base population request, our base budget request would have 
continued our regular education program, which ensured that the 
majority of the inmates received their GED before release. This 
has now upped the ante. We have 8,000 inmates on our waiting 
list for a GED class, and we simply need more staffing and 
funding to accomplish that.
    The other area is vocational training. We have done a 
prison release impact study that you received copies of in the 
past, that indicates a direct correlation by either being 
involved in vocational training or working in prison industries 
has a significant impact upon recidivism and on how well one is 
employed when they get released. So what we want to do is 
increase our vocational training offerings. Ninety-seven 
percent of the inmates we have are released back to the 
community, and suddenly people are becoming very concerned in 
the community. A lot of people supported everyone getting 
locked up, but they didn't think a lot about the fact that they 
are all going to come out some day. So we have a huge number 
coming back to the streets, and we want to make sure that we 
are doing everything we can possibly do to make sure that they 
have the educational programs that are required--they have drug 
treatment needs if those were needed by the inmate--and that 
vocationally, they are equipped with some skills to do the work 
once they are released.
    Mr. Mollohan. I can only imagine that if you are so far 
behind in building the spaces to provide custodial care to 
them, that you are really behind in the educational and 
vocational training areas.
    Ms. Sawyer. Well, we are not too bad because we have always 
had a major emphasis on education. I mean that is something 
that we have embraced for years, and you have always given us 
the funding we have asked for to increase education for the new 
institutions that come along. It is the sudden increase that 
came about as a result of VCCLA and PLRA that set us back kind 
of abruptly. So we are just running very fast trying to ensure 
that they all get into the programs they need.
    Mr. Mollohan. I think you said 8,000?
    Ms. Sawyer. 8,000 on the waiting list.
    Mr. Mollohan. Just to take GED courses?
    Ms. Sawyer. Right. Now, remember, not all of those 8,000 
will be released soon. Our goal is to make sure that they get 
the drug treatment before they are released and that they get 
the education, the GED, before they are released. Many of these 
inmates have long sentences, so we give priority, in terms of 
the placements that we have, to those who are getting out 
sooner.
    On the vocational training, the reason why we are not too 
badly behind, although there is a lot more we can do, is our 
Federal Prison Industry program with which you are both very 
familiar. That program enables us to employ 25 percent of the 
eligible inmates, those that are sentenced: they don't have 
medical problems, they are not pre-trial, they are not criminal 
aliens, because they can be removed--they have an actual 
deportation determination, so they can't go into prison 
industries. But the prison industries program has been able to 
employ 25 percent of the remaining inmates, and therein, they 
learn work skills and work habits.
    The prison industries program, as you know, is under duress 
from Members here on the Hill, and there are some new bills 
being floated. If we are able to continue at the levels of 
employment that we have, then we will be able to meet the 
requirement relatively well with this additional vocational 
training money, and we will be able to do, I think, a very 
respectable job of skill training. If we lose any ground at all 
on prison industries, then you are exactly right, we are going 
to be way behind on trying to address the job skill needs for 
inmates.

                    GED Training in Private Prisons

    Mr. Mollohan. With regard to the GED training how do you 
provide educational offers to inmates in private facilities? Do 
you do it in-house, or do you privatize?
    Ms. Sawyer. In all of our own institutions we do it in-
house. For the private contracts that we have, we write it 
right into our statement of work that they are required to 
provide education offerings similar to what they would be 
getting in the Bureau of Prisons. They are required to have GED 
class, some vocational training programs and all of that.
    Mr. Mollohan. Is the problem with not being able to service 
this 8,000 population just a matter of getting the personnel to 
do it?
    Ms. Sawyer. Right. That is why we are requesting more 
funding now for some additional staffing.
    Mr. Mollohan. Would privatizing that service be an 
alternative?
    Ms. Sawyer. Well, some of our teachers--and when I say we 
provide it in-house, some of our teachers are contractors, some 
of them we contract with are local schools in the area, whether 
they be technical schools or whatever, and many of our 
teachers, especially in the vocational training area, are 
absolutely contracts, because the field changes out there. What 
might be the big job market today--maybe in computers, maybe 
something different 10 years from now--and if you hire a 
computer teacher and you committed to them a 20-year career, it 
ends up getting dated. So most all of our vocational training 
is done by contractors.
    We need more funds to add more vocational training 
programs, whether we hire BOP employees or whether we contract 
for it. We are still at a fund shortage, whether the decision 
is made to contract it or to hire our own staff. We are short 
funded either way.

                         Advance Appropriations

    Mr. Mollohan. With regard to your request for advance 
appropriations, that is not something that is usually well 
received here. I know I share that feeling with the Chairman.
    Could you talk a little bit about the request for advance 
appropriations and make a case for it, if you can?
    Ms. Sawyer. Okay. I will be very happy to do that, because 
I realize it is not something that is done a lot. I know that 
the Department of Defense has that ability and they are able to 
do some things. We have looked very carefully at what their 
history has been and what they have been able to accomplish.
    What we believe very strongly is that, number one, it would 
speed up our process. As I said, we are so far behind on 
getting these inmates' beds built and constructed in time; the 
inmates are coming our way much faster than we are getting the 
new institutions built. What we need is to get these beds on-
line as rapidly as possible, and advance appropriations would 
clearly accelerate that. Because, as I indicated in my opening 
comments, we would be able to go out with our design/build 
contracts, upon getting the initial site and planning money, 
and then in an outyear we get the final construction money.
    The site and planning money is not enough. There is a 
percentage that you have to be able to have in hand before you 
go out and do a contract to design/build. What we used to do is 
simply use that money to do the design, the site planning and 
some design work, and then we go out on a second contract for 
the construction. Within the last few years--since 1997, we 
have been allowed to do the design/build contracts, and you all 
have supported us on that in the last couple of years.
    This would mean, with the advance appropriation, we would 
be able to do the design/build contract from the very 
beginning. We would be able to get these things up and running 
much faster, because even though we don't have the money 
absolutely in hand, because it is not going to come to us until 
the later year, it is guaranteed. It is guaranteed monies; and 
therefore, by regulation, we would be able to actually award 
those contracts well in advance.
    The reason why we would like for you to consider it for us 
is because we have a long history of building prisons. We have 
gotten more experience than we have wanted in the last several 
years in building prisons. You know our track record. We have 
been able, in most all instances, in the vast majority of our 
new prisons, to come in within budget and within the time frame 
expected, on time and within budget. We have a history of doing 
that. We also already have sites for most every one of these 
facilities we are asking for.
    We do site work in advance, as you know, and we are out 
there looking at sites all the time. We have many sites on our 
books that we would be able to move forward on. Some of these 
sites are on existing property where we already have an 
institution. So we know what we are doing in terms of building 
new facilities. We have demonstrated that, and we think we have 
your confidence on that. We actually have sites to move forward 
right away on them, and all we need is the guarantee that that 
money is going to be coming for these new facilities, and we 
could get them up and running quicker.
    Not only is it quicker, we believe it will be cheaper, 
because we will be locking in these contracts at today's rates, 
not 2002 and 2003 rates, which are going to be more expensive, 
and our estimate is that we are going to be able to save just 
in the budget request we are asking for here. If we had 
advanced appropriations, we would save somewhere between $60 
million to $130 million by being able to advance these and get 
them moving up quicker. It would save time, and it would save 
money.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I hope that you 
can understand me. I apologize.
    Ms. Sawyer. My throat is scratchy too.

                  GAO REPORT: SEXUAL ABUSE IN PRISONS

    Ms. Roybal-Allard. Last year there were a lot of news 
reports about sexual abuse in prisons and this was primarily in 
State prisons, but as a result of that, the GAO did a report, 
and they reported that the Bureau wasn't keeping comprehensive 
enough data on the number and the nature of sexual misconduct 
within the system.
    My question is, are you beginning to implement the 
recommendations of GAO and what is the status? What is it that 
you have learned since then about sexual abuse?
    Ms. Sawyer. We certainly are implementing their 
recommendations. Again, as you indicate, the recommendations 
were primarily about our data-keeping. We didn't have an 
elaborate-enough system to capture all of the nuances of a lot 
of the elements of sexual abuse.
    Although most of the focus was on the states, we are not 
without our own problems with sexual abuse of inmates. It is 
probably the most angering and frustrating thing that I deal 
with as the Director in terms of us placing these inmates in 
the care and custody of our staff who we hire and screen and 
believe are good people, and then we have this kind of 
misconduct occurring. We have not only implemented the GAO 
recommendations of data keeping, but we have also implemented a 
number of other changes over the last few years in terms of how 
we screen our staff upon hiring, and in terms of how we train 
them and teach them about issues of their responsibility and 
this type of misconduct. We pursue, very aggressively, any 
report that we get from any inmate of sexual abuse or any 
sexual misconduct of the staff. It is immediately subject to 
investigation, be either the Inspector General's Office within 
the Department, or by the Bureau of Prisons. If there is any 
indication of validity, we move for prosecution.
    At the federal level we can prosecute as a felony or a 
misdemeanor. Not every state has that in their law and many are 
trying to change it. But we go for felony prosecutions in every 
instance where this is occurring. We are not successful in 
every instance because many times the U.S. Attorneys offices 
are very busy, and if it appears to be consensual, they may be 
willing to settle for a misdemeanor plea agreement, but we push 
for felony prosecutions.
    The other thing we have learned, and this was something 
that took me a little while to learn; I believed that most of 
the problem of sexual misconduct on the part of the staff and 
inmates was because we had bad staff and the staff was doing 
bad things. I have learned, because of working so much on this, 
that there are some things that we do in prison systems that 
can make some of our staff a little more vulnerable. So, the 
agency has a real responsibility also, especially for those 
staff who are placed on posts where they are kind of away from 
all of the other staff and the only people they interact with 
every day are the inmates, those who are on midnight shifts, 
and those who work in some areas that just have a couple of 
staff. Their whole network of association is more with inmates 
than with staff, and it is very easy for them to begin 
identifying a little more closely with the inmates than with 
staff.
    So we are doing a number of things in the bureau to 
identify who are the staff that might be vulnerable, not just 
the bad staff, but who are the ones who might be vulnerable and 
get kind of pulled into a relationship that we could have 
otherwise helped them to prevent.
    We are making a number of changes trying aggressively to 
improve. I don't know that we will ever eliminate sexual 
activity between staff and inmates, because unfortunately, 
there is an element of human nature, that whenever you lock 
them in a confined environment, relationships tend to develop. 
But, there is a lot more we need to do and can be doing to 
limit those numbers.
    Ms. Roybal-Allard. Do you have any idea as to what extent 
any of these relationships are actually abusive? In other 
words, they are forced relationships?
    Ms. Sawyer. Right. And it is the forced ones where the 
inmate comes forward.
    Let me say one of the other things that we changed that 
helps us a lot here is we have a tremendous amount of training 
with our inmates over the course of the last couple of years to 
help them realize that they need to tell us. They need to tell 
us immediately. We have made it much easier for them to let us 
know what is happening. We remove them from the environment, 
immediately, because of the claim, so that they are not subject 
to any retaliation or fear of retaliation of anybody there. We 
have really tried to make it much more capable for inmates to 
let us know. Because there are two different types of sexual 
activity. Both of them are illegal and both of them are not 
acceptable, because these inmates are under the care of our 
staff. Even if it is a consensual relationship, it is not 
acceptable, and it is illegal, and we will prosecute. But the 
ones that concern us the absolute most are the forced ones. 
That is where we have not only worked with the staff, but the 
inmates to help them understand they should not tolerate any of 
that, and if any of that is occurring, even suggestively, then 
they need to let us know, or someone higher up in the 
organization, know immediately, and we will protect them and 
not let them even fear harm in any way so that we can pursue 
their allegation.
    Ms. Roybal-Allard. Do you have any idea at this point how 
serious a problem it is?
    Ms. Sawyer. I don't have the numbers with me. The number of 
actual prosecutions that we had for sexual misconduct with 
inmates, and this would include both forced as well as 
consensual, is I believe has been like 12, maybe, a year, in 
the last couple of years. So when you are talking about 
misconduct--these acts are not necessarily all male staff on 
female inmates. It really goes in all directions. So when you 
consider we have 138,000 inmates, and the 12 even include some 
of the contractors, not just our employees, but those we 
contract with, because that is our responsibility too, that 
number does not appear huge. But any one of those is not 
acceptable, but we could get you those details.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record.]

     Number BOP Staff Prosecuted for Sexual Misconduct With Inmates

    The Federal Bureau of Prisons (BOP) has a zero tolerance 
standard for sexual abuse of inmates. Every allegation is 
investigated vigorously and thoroughly. Every allegation is 
reviewed and, where warranted, referred for criminal 
prosecution. During FY 1998, 13 BOP staff were convicted and 
sentenced for sexual misconduct, and eight were criminally 
prosecuted. In FY 1999, eight employees were convicted of 
criminal sexual abuse violations.
    The 32,000 federal correctional professionals at more than 
95 federal prisons protect the public by confining more than 
139,000 inmates across the country. The vast majority of prison 
officials carry out their responsibilities faithfully, under 
difficult circumstances. But, when any prison employee engages 
in misconduct, the BOP does not hesitate to take appropriate 
action.

        How Inmates Reporting Alleged Sexual Abuse Are Protected

    Over the past decade the Bureau has taken additional steps 
to eliminate sexual abuse in its facilities, by training all 
staff on how to prevent it, by conveying the severity of the 
consequences for engaging in it, and by informing inmates on 
how to report it.
    BOP policy includes procedures for recognizing, preventing, 
and confidentially reporting the sexual abuse of inmates by 
staff and provides that any inmate who alleges that he or she 
has been sexually assaulted be offered immediate protection 
from the assailant. Each warden has discretion to either place 
an inmate in Administrative Segregation pending investigation, 
or transfer an inmate to another facility.

    Ms. Roybal-Allard. Also some of the steps that you are 
taking in terms of letting the inmates know that they will be 
protected from retaliation, I mean potentially, the number 
could increase.
    Ms. Sawyer. The accusations have been going up. The 
accusations have been going up, which you would expect to occur 
if you are opening the door more. The number of actual 
prosecutions or positive charges we have not seen increase very 
significantly in that level. But we will be tracking all of 
this, and that is the data issue. We need to have more data 
available, more detailed data so that we can track in terms of 
what are the initiatives that we have been doing, and which of 
them are making any difference in terms of the outcome. The new 
way in which we will be keeping the data will enable us to do 
much better research and analysis on it.
    Ms. Roybal-Allard. You can't always base it on 
prosecutions, I mean even in the outside world you will find 
that there are more accusations than prosecutions and that that 
doesn't necessarily mean that there aren't those abuses taking 
place.
    Ms. Sawyer. Exactly. Because sometimes if a U.S. Attorneys 
office will turn down seeking prosecution because it is very 
overloaded, we still go after them administratively. So there 
are those that are prosecuted, those that are dealt with 
administratively, those that simply resign and run out the door 
as soon as they know they are being questioned, and then there 
are just accusations that you can't just quite get a handle on.

              SUBSTANCE ABUSE TREATMENT FOR FEMALE INMATES

    Ms. Roybal-Allard. One of the other questions I had is that 
according to the Bureau of Justice Statistics (BJS), substance 
abuse in Federal prisons has been rising, and there is that 
same trend among women prisoners, yet they found that the 
percentage of those women prisoners being treated has actually 
declined. Could you explain that?
    Ms. Sawyer. Yes. Thank you for asking that question, 
because it really is kind of a misinterpretation of data.
    GAO came out with a study on a similar issue on the female 
offenders and therein they mixed a lot of different State and 
Federal data, and it was very difficult to determine what the 
bottom line was. But regarding the BJS data, when they did 
their first look at how we do training, they talked about the 
number of people who had a drug problem and were released with 
drug treatment, and they came up with a number, a percentage. 
Then, when they came back and looked at it the second time, 
they looked at how many inmates we have existing in our 
institutions, who have a need for drug treatment, and how many 
are enrolled in drug treatment on that day, and they said, it 
is less, proportionately less, but that is a misinterpretation 
of the data.
    We made a willful decision about 10 years ago when we 
totally reconstructed our drug program to emphasize the 
treatment on the back or later part of the sentence. We used to 
do it when an inmate first came in and we would put them 
through drug treatment. They would look like they were fine, 
they would be released 8 years later and then fall back into 
drugs. The research we did to try to improve our program said 
``you are doing it backwards. You really need to do the drug 
treatment when the temptation is going to be the greatest and 
that is at the latter part of their sentence, and then you need 
to transition it with the inmate back into the community. You 
can't just drop them off at the end of the day.'' So we have 
moved all of our drug treatment to the back end.
    Today, every inmate who has a drug treatment need, and I 
would say for the last 6 to 8 years, every inmate who has a 
drug treatment need and wants drug treatment, gets drug 
treatment before they walk out the door. So when BJS looked at 
it in terms of total numbers, a lot of those inmates are going 
to be with us for a long, long time. We haven't even begun to 
work with them on the final drug treatment program. We do drug 
training, we work with them in terms of developing better 
values programs and other elements of their life, but the drug 
treatment emphasis comes at the end of the sentence and we add 
to that 6 months in the halfway house in the community under a 
similar drug treatment program that carries them through that 
very vulnerable time, when they are back on the streets where 
the drugs are readily available.
    So clearly, we are doing a far better job today than we did 
10 years ago to ensure that all the inmates who have a need and 
who are willing to enroll in treatment get that treatment. In 
fact, it is now a requirement of law that any inmate who has a 
drug treatment need must get in drug treatment, and this 
committee has been very supportive in terms of giving us the 
funds we need to ensure that treatment is available.
    Ms. Roybal-Allard. Mr. Chairman, do I have time for one 
more question?
    Mr. Rogers. Sure. Hearing the way you sound, I am not sure, 
though.

             Telephone Use By Inmates for Criminal Activity

    Ms. Roybal-Allard. There was an Inspector General's report 
that discovered that there were significant problems with 
Federal inmates using telephones to arrange for murders and 
drug deals and other illegal activity. And they also found that 
those prisoners that were found to be doing this still had full 
telephone privileges.
    Could you tell me what the situation is and what you are 
doing to take care of that problem?
    Ms. Sawyer. I appreciate you raising that issue too so that 
I can speak to it.
    The Inspector General's report talked about, or recited the 
cases that occurred over the course of the last several years, 
let's say up to 8 years, in terms of inmates who have been 
found in our institutions to be engaging in criminal activity 
on the phones. In all of the cases that the Inspector General's 
report reported, they were kind of old cases. They had already 
been identified. Those individuals had been addressed.
    Now, I won't say that our staff sometimes won't make an 
error or they fail, and they may have knowledge and if the 
inmate gets moved around to one institution and then another. I 
won't say that 100 percent of the time we always make sure we 
put them again on phone restriction. Occasionally, we fail. But 
all of the cases that are in there have already been addressed 
long before the Inspector General's report came out.
    We do have a significant issue with our phones, though, and 
I believe we have talked before this committee about that. We 
have been trying, actually since I was the warden at a facility 
in 1987, we have been trying to institute a new phone system 
that will give us much better technological controls over the 
telephones. We believe that the inmates who have good contacts 
with their families and the community, and research supports 
us, have a much better likelihood of going back to the 
community without recidivism. We support family contact. We 
don't want to do things that are going to inhibit good, healthy 
contact. But whenever you have any kind of contact, somebody is 
going to abuse it.
    We have been trying to put in new fixes to our phone 
systems since 1987 that will let us use the new technologies. 
We were, though, enjoined in a lawsuit by a grouping of inmates 
who prevailed, basically, with the courts in saying that some 
of the things we were trying to do were limiting inmates' 
access to phones more than we should be allowed to do by law. 
And it put basically a halt, or huge delays, on our ability to 
put in these new phone systems. We finally resolved the 
litigation. We are back again trying to put in these new 
resources.
    What the new resources will allow us to do--and we are 
trying to do now with the technology we have, and what we are 
trying to do manually is clearly identify who are the bad guys. 
Who are the ones who have a history of abusing the phones or 
because of their criminal activity on the street, we have 
reason to suspect them, or for whatever information you have, 
you suspect them. We could actually limit their ability to 
access the phone with the new coding system where you have to 
put in your own pin number and you can only access the phone 
with your PIN number. You can only call numbers that we have 
already approved for you to call, and that we would then be 
able to simply target those inmates, cut them off if they are 
abusing, listen to their phone calls all the time because we 
know that they are the target group that we are listening for. 
That will significantly improve our ability to stay on top of 
the bad guys without inhibiting the good, healthy contacts by 
the inmates who are trying to restore family connections.
    We are back on-line now with installing those phone 
systems. The target date is to have them all installed by about 
this time next year. We are going institution by institution. 
We should have them all installed by this time next year which 
will enable us, as I said, to not inhibit the contact with the 
inmates who are not abusing, but to really target the abusers. 
We still have a number of things to do there, but we can't do 
it as well until these new technologies allow us to do that 
better.

                  Visitation Access For Female Inmates

    Ms. Roybal-Allard. You mentioned the fact that there is 
less of a recidivism rate when inmates have contacts with their 
families. And my understanding is that about two-thirds of the 
women in prison have at least one minor child, and yet half 
never get to have a visit with their children or their family 
because of transportation problems; a lot of times the prisons 
may be 500 miles away. Is there anything that can be done to 
address that at all?
    Ms. Sawyer. It is a continuing struggle for us and for most 
state systems actually, because the number of women coming in 
is increasing. Our average distance from home for males and 
females both in our policy says that we will designate them 
within 500 miles from home, at the least, and every opportunity 
we have we try to get them closer.
    The reality is, 70-some percent of our female population 
are low-level, nonviolent offenders. The fact that they even 
have to come into prison is a question mark for me. I think it 
has been an unintended consequence of the sentencing guidelines 
and the mandatory minimums. Most of these women would have 
gotten probation years ago, because their offenses were 
nonviolent, they have no criminal history, they have never 
committed an offense before; and if they had probation, then 
there is a whole lot more you can do in their locale, even if 
they had a short enough sentence that you could simply place 
them in a community corrections facility closer to home and 
allow them better access to their families.
    It is a struggle that we continue to battle with. Our 
goal--in our budget request we are asking for a new secure 
facility for females in the northeast quadrant, because that is 
where many of our female inmates come from. We have been 
opening up more and more satellite camps. For example, at our 
facility at Phoenix--the inside is medium-security male--but 
the satellite camp outside is female and we can run them very 
cost-effectively and place these satellite camps around the 
country. We have been trying to increase them more and more. In 
fact, near your district in Victorville, California, the new 
facility there is going to be female, because most of the 
females from California are either in Phoenix or they are up in 
Dublin. This camp will give us something closer to southern 
California.
    So we continually struggle to get facilities closer to 
their homes. But as long as they are getting sent in for 
significant time, that really restricts our opportunities to do 
more community-based or probation-based kinds of things.
    Ms. Roybal-Allard. That does concern me, the point that you 
mentioned that a lot of these women that are now going to 
prison for long periods of time for really what would have been 
considered in the past a minor offense. Or really by 
association sometimes to the real drug dealer who should 
actually be in prison rather than them.
    Ms. Sawyer. Most of these are very low-level players, no 
prior history. They are carriers or mules for the drugs or 
whatever it might be. They used to not go to prison, and now 
they do.
    Ms. Roybal-Allard. We need to look at that a little bit 
too. Thank you.
    Thank you, Mr. Chairman.

                           Activations Delays

    Mr. Rogers. Thank you.
    Well, we have a tremendous amount of activity going on 
within your agency. In your 2001 request, if you include the 
advanced appropriations for 2002 and 2003, you have under 
development 17 new institutions.
    Ms. Sawyer. Yes, Mr. Chairman.
    Mr. Rogers. Three for transfer of INS, non-returnable 
aliens, and 14 facilities for increased capacity of the 
sentenced population. So we have a tremendous amount of 
activity going on in addition to your tremendously growing 
population. In the past, we have always worked with you and 
given you some flexibility in terms of year-end carry-over, 
because it is almost necessary that it work that way.
    For the last several years, for example, we have allowed 
you to carry over up to $90 million into the following fiscal 
year to give you some flexibility to allow you to use funds 
given to you, even if delays in spending might occur, such as 
for activation or something, and we will want to continue to do 
that. So give us some idea of any delays that you might foresee 
in openings of new prisons in either fiscal 2000 or 2001. Can 
you give us a little bit of help on that?
    Ms. Sawyer. Sure. As of right now, all of our new 
construction of major facilities are either right on time or 
expedited. We are really trying to do some things to speed up 
construction again, because we need these beds so badly. The 
only thing that has slipped a little bit, but right now we 
think we will able to get them back on target, are some of 
those smaller, low-security conversions where we are trying to 
convert some existing minimum-security space to low-security 
space. On the activations, we are asking for x number of new 
facilities to be activated, plus the new low security 
expansions. A couple of those have gotten delayed a little bit, 
but they don't amount to much operational money. If they 
continue to be delayed, then we would be able to come back and 
say we will have some money to carry over into the next year. 
The big money, though, is on the full prison activations. As of 
right now, those are either on schedule or a little bit ahead 
of schedule. Nothing right now looks like it is going to be 
delayed.
    Mr. Rogers. So you don't anticipate any budget requests 
because of those delays?
    Ms. Sawyer. Budget request or carry over money, you mean? 
Right now we don't think that we are going to have significant 
carry over. But you may recall, Mr. Chairman, that we did carry 
over $90 million from 1999 to 2000, but that $90 million then 
was not in the 2000 budget; it was cut from the 2000. So we are 
basically even right now. The only way we will have carry-over 
money into next year is exactly as you indicate, if we have 
delays in activations. We will watch those very carefully, and 
when that target time comes when we need to let you know, if we 
are going to have some projected carry-over, we will clearly 
communicate that with the Department and with the Committee.
    Mr. Rogers. We are going to be pushed again this year. For 
all of the other things we do in this subcommittee, it is going 
to be really a tight year again, maybe even tighter than last.
    It is good to see you and your staff again. We appreciate 
the work you are doing. I have told a lot of people behind and 
in front of your back that this is the best-run Federal agency 
that I am aware of.
    Ms. Sawyer. Thank you, thank you, Mr. Chairman.
    Mr. Rogers. Certainly the ones we deal with.
    Ms. Sawyer. We have wonderful staff, Mr. Chairman. They do 
a great job.
    Mr. Rogers. And the staff usually reflects the leader.
    Ms. Sawyer. Thank you, Mr. Chairman.
    Mr. Rogers. I am very proud of what you and your staff are 
doing, and that is the reason we continue to give you all the 
money that we can, because you have a heavy load on your 
shoulders, but you carry it very well.
    The subject matter with which you deal normally is a very 
controversial, contentious matter, and I am sure within the 
agency you deal with that; but from all outward appearances, 
you handle the contentious issues very well, and we appreciate 
that.
    Ms. Sawyer. Thank you, Mr. Chairman.
    Mr. Rogers. So good luck to you.
    Ms. Sawyer. Thank you.
    Mr. Rogers. The hearing is adjourned.

             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Frazier, T. C....................................................   349
Freeh, L. J......................................................   131
Leary, M. L......................................................   349
Marshall, D. R...................................................   203
Meissner, Doris..................................................   499
Murguia, M. H....................................................   203
Reno, Attorney General Janet.....................................     1
Robinson, J. K...................................................   203
Sawyer, K. H.....................................................   667
Wilson, J. J.....................................................   349


                               I N D E X

                              ----------                              
                                                                   Page
Attorney General.................................................     1
    Americans with Disabilities Act: Title III...................    63
    Antitrust Investigations.....................................    80
    Attorney General Efforts.....................................    71
    Attorney Overtime Pay.......................................75, 119
    Biography, Attorney General Janet Reno.......................    53
    Border Patrol................................................36, 90
    Budget:
        Problems, Departmental...................................    97
        Request.................................................. 4, 54
    CALEA.....................................................7, 41, 55
    Carrier Compliance...........................................    57
    Child Pornography...........................................76, 121
    Community Law Enforcement.................................... 6, 22
    Community Oriented Policing Service (COPS)...................    66
    Confidential Informants.....................................59, 109
    Counterterrorism.............................................  4, 9
    Crime:
        Combat, Technology.......................................    40
        Educational Efforts......................................    66
        Initiatives..............................................    49
    Cybercrime Initiative.................................5, 14, 64, 85
    Detention and Incarceration.................................29, 114
    Detention Trustee............................................31, 99
    Drug Enforcement Administration..............................    42
    Drugs, Breaking the Cycle of.................................   228
    Elian Gonzalez............................................... 2, 67
    Extradition.................................................72, 114
    Federal Bureau of Investigation..............................    42
    Fees and Expenses of Witnesses (FEW).........................    79
    Fingerprint Identification System IDENT/IAFIS................    91
    Freedom of Access to Clinic Entrances Act of 1994 (FACE).....   112
    Gun Violence.................................................    19
    Immigration and Naturalization Service:
        Border Patrol............................................36, 90
        Budget Request...........................................    32
        Citizenship USA..........................................    91
        Criminal Aliens, Release of..............................94, 95
        Detainees................................................   114
        Detention................................................   100
        Financial Management.....................................    91
        Elian Gonzalez........................................... 2, 67
        Improvements.............................................    92
        Information Technology...................................   104
        Issues...................................................    90
        Los Angeles, INS Activities in..........................58, 108
        Non-Deportables..........................................    74
        Restructuring............................................    94
        User Fees................................................54, 62
    Indian Country, Law Enforcement Initiative...................    44
    Information Technology.......................................   101
    Livestock and Pork Industry..................................    82
    Mental Health Courts.........................................   126
    Mental Illnesses, Florida Treatment..........................   126
    Methamphetamine.............................................83, 111
    Microsoft....................................................    82
    Narrowband Communications....................................    43
    National Domestic Preparedness Office (NDPO)................. 4, 10
    NET Act Cases................................................    65
    Offender Re-entry Initiative.................................     6
    Office of Justice Programs...................................    34
    Overtime Pay, Attorneys.....................................75, 119
    Police Misconduct:
        Civil Rights Division...................................58, 107
        Diallo Case..............................................    69
        INS Activities in Los Angeles...........................58, 108
    Prosecutors, Request for.....................................     5
    Questions for the Record.....................................    99
    Ritalin, Link to Violence....................................   115
    Statement:
        Formal, Reno, Janet......................................     8
        Opening, Reno, Janet.....................................     3
        Opening, Chairman Rogers.................................     1
        Opening, Mr. Serrano.....................................     2
    Tennessee Valley Authority on the Inspector General..........    74
    Tobacco Litigation..........................................77, 116
    U.S. Marshals................................................33, 99
    Voting on the Internet.......................................    74
Bureau of Prisons................................................   667
    Activations Delays...........................................   699
    Advance Appropriations................................669, 677, 692
    Biography: BOP Director, Kathleen M. Hawk Sawyer.............   681
    Budget:
        Request...........................................668, 676, 690
        Projections, FY 2007.....................................   689
    D.C. Revitalization Act......................................   683
    Detainees, INS...............................................   675
    Educational Programs, Funding for............................   690
    Felons, District of Columbia.................................   672
    Female Inmates:
        Substance Abuse Treatment................................   696
        Visitation Access........................................   698
    General Issues...............................................   679
    Growth of Prison Population...........................677, 688, 702
    Health Care:
        Co-Payments..............................................   702
        Substance Abuse Treatment................................   696
    Prisoners, U.S. Marshals.....................................   674
    Private Contract Facilities..................................   686
    Privatization:
        D.C. Inmates.............................................   684
        Criminal Alien Population................................   687
    Questions for the Record.....................................   702
    Sexual Abuse in Prison, GAO Report...........................   693
    Statement, Kathleen Hawk Sawyer:
        Formal...................................................   670
        Opening..................................................   667
    Substance Abuse Treatment for Female Inmates.................   696
    Supermax Prisons.............................................   704
    Telephone Use................................................   697
    Visitation Access for Female Inmates.........................   698
Drug Enforcement Programs........................................   203
    Criminal Division:
        Bilateral Case Initiative................................   220
        Biography, James K. Robinson.............................   259
        Budget Request.........................................219, 226
        Counterdrug Activities...................................   244
        Counterterrorism.........................................   228
        Drug Control Strategic Plan..............................   236
        Electronic Surveillance..................................   233
        FY 2000 Appropriation....................................   219
        Interagency and International Cooperation................   220
        International Crime....................................228, 250
        Money Laundering.........................................   230
        Organized Crime Drug Enforcement.............220, 224, 225, 237
        Plan Colombia..........................................221, 249
        Protecting Communities...................................   228
        Questions for the Record.................................   338
        Statement, James K. Robinson.............................   222
        Strategic Goals..........................................   234
    Drug Enforcement Administration:
        Budget:
            Request............................................204, 216
            Strategies...........................................   211
        Biography, Donnie R. Marshall: Acting, DEA Administrator.   218
        Drugs:
            Demographics, Abuse in America.......................   210
            Trafficking..........................................   208
        Local Initiatives........................................   215
        Mobile and Regional Enforcement Teams....................   204
        Operation Millennium.....................................   204
        Questions for the Record.................................   338
        Statement:
            Formal...............................................   206
            Opening..............................................   203
        Targets:
            International........................................   212
            Regional.............................................   213
    United States Attorneys:
        Attorney Workload........................................   328
        Biography, Mary H. Murguia...............................   299
        Budget Request....................................261, 270, 309
        Caribbean:
            Drugs................................................   302
        Child Pornography........................................   284
        Child Support Enforcement................................   291
        Civil Defense Litigation.................................   281
        Communications Assistance for Law Enforcement Act (CALEA)   334
        Computer Crime.........................................262, 278
        Counterterrorism.........................................   278
        D.C. Superior Court......................................   293
        Drugs:
            Cuba.................................................   302
            Columbia Trafficking.................................   304
            Puerto Rico........................................303, 335
            Strategy.............................................   261
            Tristate Drug Task Force.............................   310
            Transporting by Illegal Immigrants...................   329
        Extradition.......................................307, 332, 346
        Firearms Prosecution.....................................   272
        High Intensity Drug Trafficking Areas....................   344
        Illegal Immigrants, Transport of Drugs by................   329
        Immigration..............................................   286
        Indian Country...........................................   275
        Infrastructure...........................................   289
        Methamphetamine:
            Lab Cleanups..................................304, 310, 336
            Problems.............................................   305
            Production...........................................   328
        Mexico:
            Cooperation........................................300, 331
            Criminal Threat, As a................................   301
            Trafficking..........................................   303
        Office Opening in Asheville, NC..........................   343
        Operation Pipeline.......................................   340
        Questions for the Record.................................   338
        Short-Term Protection Program............................   295
        Southwest Border..................................311, 313, 338
        Statement:
            Opening, Mary H. Murguia.............................   261
            Formal, Mary H. Murguia..............................   263
Federal Bureau of Investigation (FBI)............................   131
    Analytical Capabilities, Development of......................   141
    Biography, FBI Director, Louis J. Freeh......................   157
    Budget:
        Initiatives..............................................   134
        Law Enforcement Services.................................   152
        Overview.................................................   136
        Pay and Benefits Shortfall.............................134, 158
        Related Funding Requests:
            Grants...............................................   154
            State and Local Bomb Technician Equipment............   154
            Telecommunication Carrier Compliance Fund............   154
    Challenges...................................................   132
    Communications Assistance in Law Enforcement Act (CALEA).....   144
    Computer Crime, Global.......................................   133
    Counterencryption..........................................151, 174
    Counterintelligence..........................................   137
    Corruption, Southwest Border.................................   182
    Counterterrorism:
        Research and Development.................................   147
        Weapons of Mass Destruction Preparedness.................   145
    Crimefighting Technologies, Development of...................   172
    Criminal Case Funds..........................................   142
    Cybercrime:
        Global Computer Crime....................................   133
        Privacy Concerns.......................................162, 188
    Data Forensics.............................................150, 151
    Demographics, Changing.......................................   132
    Deutch, John and Wen Ho Lee, Investigation of................   183
    Digital Body Recorders.......................................   144
    Digital Collection:
        Systems................................................137, 138
        Outyear Funding Requirements.............................   184
    Eric Rudolph Investigation...................................   161
    FBI Academy Firearms Range Modernization.....................   142
    Freedom of Access to Clinic Entrances Act of 1994............   193
    Gun Check User Fee...........................................   169
    Health Care Fraud............................................   200
    IAFIS/IDENT:
        Integration..............................................   170
        Interoperability.........................................   173
    Indian Country:
        Forensic Examinations....................................   148
        Victims/Witness Services...............................148, 149
    Information Sharing Initiative.............................138, 187
    Intellectual Property Rights.................................   152
    Intelligence Analysis........................................   139
    INTERPOL Relationship........................................   171
    Investigative Support........................................   142
    Jewelry and Gem (JAG) Program................................   195
    Laboratory Construction Status...............................   188
    Legislative Proposals:
        Danger Pay...............................................   155
        Foreign Cooperative Agreements...........................   155
    Los Angeles City Police Department Investigation...........181, 197
    Methamphetamine Problem, Iowa................................   169
    National Infrastructure Projection Center (NIPC):
        Other Government Agency Staffing.........................   186
        Staffing Center..........................................   185
    National Integrated Ballistics Identification Network (NIBIN)   153
    National Registry of Gun Owners..............................   163
    National Instant Criminal Background Check System (NICS):
        Downtime.................................................   164
        Questions................................................   167
        User Fee.................................................   169
    Opening Remarks:
        Chairman Rogers..........................................   131
        Congressman Serrano......................................   131
        Freeh, Louis J...........................................   132
    Overseas Presence:
        Fugitives..............................................179, 181
        Kosovo and Moscow........................................   179
        Violent Crime Apprehension...............................   180
    Pay and Benefits Shortfall.................................134, 158
    Privacy Concerns...........................................162, 188
    Puerto Rico, FBI Role In..............................159, 160, 161
    Questions for the record.....................................   193
    Rampart Investigation........................................   197
    Research and Development..............................147, 174, 176
    Reprogramming Notification...................................   164
    Rudolph, Eric Investigation..................................   161
    Safe Trails Task Force.......................................   148
    Southwest Border:
        Initiative...............................................   171
        Public Corruption on.....................................   183
    Statements:
        Freeh, Louis J:
            Formal...............................................   136
            Opening..............................................   132
    Summary......................................................   155
    Training:
        Civil Rights Training....................................   190
        FBI Academy Training.....................................   140
        Hazardous Devices School.................................   147
        Interactive Multi-media Courses..........................   140
        Specialized Training.....................................   141
    Technology:
        Cyber Crimes.............................................   149
        Digital Systems...................................137, 138, 144
        Privacy Concerns.........................................   162
    Telecommunications Services/ATM Circuits.....................   143
    Tri-State Drug Task Force....................................   170
    VICAP and INTERPOL...........................................   181
    Violent Crimes.............................................147, 180
    Weapons of Mass Destruction..................................   145
    Wen Ho Lee and John Deutch, Investigation of.................   183
    Winter Olympic Preparation...................................   146
Immigration and Naturalization Services (INS)....................   499
    Adjudications................................................   522
    Agents, Border Patrol:
        Hiring Efforts...........................................   641
        Northern Border..........................................   645
        Pay Reform...............................................   554
    Biography, INS Commissioner, Doris Meissner..................   527
    Border Enforcement:
        Cleveland Forest.........................................   563
        Hardening of Borders.....................................   552
    Care for Illegal Aliens:
        Custody, Not in..........................................   543
        Medical................................................542, 544
    Census.....................................................650, 657
    Charlotte Office of Naturalizations in 1999..................   562
    Citizenship U.S.A..........................................559, 636
    Criminal Aliens:
        Enforcement in Full-Service Economy......................   651
        Release of...................................530, 536, 538, 635
    Criminal Records, FBI Match with.............................   534
    Detention:
        Facilities...............................................   566
        Hospitals, Detaining Illegal Aliens from.................   551
        Program................................................621, 654
    Elian Gonzalez...................................529, 539, 570, 649
    Enforcement..................................................   503
    Fees:
        Collections from Foreign Students........................   561
        Waivers, Naturalization..................................   665
    Financial Problems...........................................   636
    General Issues...............................................   635
    Hospitals, Detaining Illegal Aliens from.....................   551
    IDENT/IAFIS:
        IDENT Training...........................................   624
        Integration..............................................   634
    Illegal Aliens, Removal of...................................   511
    Immigration Services.........................................   517
    Information Technology.......................................   640
    Infrastructure, Professionalism and..........................   523
    Inspector General Recommendations..........................639, 644
    Institutional Removal Program................................   535
    Intelligence Analysts and Aides..............................   644
    Judges, Immigration..........................................   563
    Labor Union Organizing.......................................   666
    Late Amnesty (Section 377)...................................   655
    Los Angeles Investigation..................................558, 662
    Naturalizations..................................519, 562, 652, 665
    Operation Vanguard...........................................   646
    Pay Reform for Border Patrol Agents..........................   554
    Processing Backlog.........................................564, 636
    Public Charge Regulations....................................   663
    Questions for the Record...................................570, 639
    Quick Response Teams (QRT)...................................   565
    Removal:
        Illegal Aliens...........................................   511
        Institutional Removal Program............................   535
    Resendez-Ramirez Case: Inspector General Report..............   622
    Resource Deployment..........................................   643
    Responsiveness.............................................568, 647
    Restructuring.........................................500, 525, 656
    State and Local Law Enforcement Clearance....................   663
    Statement:
        Formal, Doris Meissner, Commissioner.....................   501
        Opening, Doris Meissner, Commissioner....................   499
    Tellez, Agent................................................   553
    Visa Fraud...................................................   652
State and Local Law Enforcement..................................   349
    Opening Remarks:
        Mr. Rogers...............................................   349
        Mr. Serrano..............................................   350
    Witnesses, Introduction of...................................   349
    Community Oriented Policing Services (COPS)..................   369
        Biography, Director COPS, Thomas C. Frazier..............   392
        COPS Hiring........................369, 373, 383, 415, 428, 447
        Grants, Different levels.................................   421
        Merger into OJP..........................................   430
        Methamphetamine........................................424, 446
        Parameters, Use of COPS Funding..........................   415
        Police Corruption........................................   415
        Priority between COPS or Drug Testing and Treatment......   447
        Questions for the Record.................................   446
        School Resource Hiring Program.........................378, 446
        Statement, Thomas C. Frazier:
            Formal...............................................   371
            Opening..............................................   369
        Technology Program.....................................384, 410
        Tension Between Police and Communities...................   415
        Training, Police Officers, Need for......................   417
    Juvenile Justice.............................................   393
        Biography, Acting Administrator, Office of Juvenile 
          Justice and Delinquency Prevention, John J. Wilson.....   407
        Drug Prevention Program..................................   431
        Juvenile Accountability Block Grants.....................   425
        Statement, John J. Wilson:
            Formal...............................................   395
            Opening..............................................   393
        Technology Initiatives...................................   352
        Youth Anti-Gang Initiatives Funding....................401, 423
    Office of Justice Programs (OJP).............................   350
    Biography, Acting Assistant Attorney General OJP, Mary Lou 
      Leary......................................................   368
        Block Grants, Juvenile Accountability....................   425
        Bullet Proof Vests.......................................   421
        Community-Based Initiatives..............................   351
        Counterterrorism Program...............................432, 436
        Crime Analysis Unit......................................   496
        Crime Identification Technology Act (CITA)...............   435
        Drug Treatment Programs..................................   442
        Juvenile Accountability Block Grants.....................   425
        Local Law Enforcement Block Grant (LLEBG):
            Administration Action on.............................   408
            Balanced Approach....................................   409
            Expenditures by Purpose Area.........................   412
            Piecemeal Replacement................................   410
            Program............................................408, 419
        Nunn-Lugar-Domenici Program..............................   432
        Offender Accountability..................................   351
        Offender Reentry Program.................................   439
        Police Corps Participation...............................   420
        Prison Populations and Conditions........................   413
        Prisoners Sent Out of State............................414, 451
        Prisoner Trends..........................................   448
        Questions for the Record..........................435, 448, 495
        State Prison Grant Program.............................427, 444
        Statement, Mary Lou Leary:
            Formal...............................................   354
            Opening..............................................   350
        Technology In Crime Prevention...........................   495
        Taycheedah Incident....................................413, 449
        Use of Force.............................................   418
        Violence Against Women Reorganization Plan...............   421
        Youth Gun Violence.......................................   353
</pre></body></html>
